<html>
<title> - CANCER CLUSTERS IN LONG ISLAND, NY</title>
<body><pre>[Senate Hearing 107-565]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-565

                   CANCER CLUSTERS IN LONG ISLAND, NY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

 ASSESSING THE POTENTIAL LINKS BETWEEN ENVIRONMENTAL CONTAMINATION AND 
                            CHRONIC DISEASES

                               __________

                     JUNE 11, 2001--GARDEN CITY, NY


                               __________


  Printed for the use of the Committee on Environment and Public Works


80-650              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS\1\

                      one hundred seventh congress
                             first session
                      HARRY REID, Nevada, Chairman
          BOB SMITH, New Hampshire, Ranking Republican Member
MAX BAUCUS, Montana                  JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ROBERT F. BENNETT, Utah
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado
                Eric Washburn, Democratic Staff Director
                Dave Conover, Republican Staff Director

\1\Note:  On June 6, 2001, the majority of the Senate changed 
    from Republican to Democrat when Senator James M. Jeffords, 
    of Vermont, changed party affiliation from Republican to 
    Independent. Senator Harry Reid, of Nevada, assumed the 
    chairmanship of the committee.

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                     JUNE 11, 2001--GARDEN CITY, NY
                           OPENING STATEMENTS

Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island     6
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     2
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     1

                               WITNESSES

Ackerman, Hon. Gary L., Representative from the State of New York     8
Balboni, Hon. Michael, State Senator from New York...............    11
DiNapoli, Hon. Thomas P., Assemblyman, New York State Assembly...    12
    Prepared statement...........................................    68
    New York Assembly Bill Text 7320, March 21, 2001.............    70
    New York Assembly Bill Text 8672, May 7, 2001................    71
Frankel, Gail, field coordinator and advocate, on behalf of the 
  National Breast Cancer Coalition, Centereach, NY...............    37
    Prepared statement...........................................   187
Gammon, Marlie, Ph.D., associate professor of Epidemiology, 
  School of Public Health, University of North Carolina at Chapel 
  Hill...........................................................    34
    Prepared statement...........................................   174
Goldman, Lynn R., M.D., M.P.H., professor, Environmental Health 
  Sciences, Johns Hopkins Bloomberg School of Public Health, 
  Baltimore, MD..................................................    54
    Prepared statement...........................................   207
Grucci, Hon. Felix J., Jr., Representative from the State of New 
  York...........................................................     9
Hare, James E., councilman, City of Elmira, NY...................    19
    Prepared statement...........................................    86
Israel, Hon. Steve, Representative from the State of New York....    10
Jackson, Richard J., M.D., M.P.H., director, National Center for 
  Environmental Health, Centers for Disease Control and 
  Prevention, Department of Health and Human Services............    48
    Prepared statement...........................................   189
Juchatz, Amy, M.P.H., health program analyst, Suffolk County 
  Department of Health Services..................................    39
    Prepared statement...........................................   188
King, Hon. Peter T., Representative from the State of New York...    14
Landrigan, Phil, M.D., M.Sc., Ethel H. Wise, professor and 
  chairman, Department of Community and Preventive Medicine, 
  Mount Sinai School of Medicine.................................    15
    Prepared statement...........................................    72
McCarthy, Hon. Carolyn, Representative from the State of New York     7
Miller, Karen Joy, founder and president, Huntington, NY Breast 
  Cancer Action Coalition........................................    22
    Prepared statement...........................................   128
Senie, Ruby, T., Ph.D., professor of Clinical Public Health, 
  Mailman School of Public Health of Columbia University.........    35
    Article, Breast Cancer, Metropolitan New York Registry......178-186
    Prepared statement...........................................   174
Tobin, Tim, Elmira, NY...........................................    21
    Prepared statement...........................................   128
Todd, Randall L., M.D., State epidemiologist, Nevada State Health 
  Division.......................................................    17
    Prepared statement...........................................    81
Winn, Deborah, Ph.D., acting associate director, Epidemiology and 
  Genetics Research Program, Division of Cancer Control and 
  Population Sciences, National Cancer Institute, National 
  Institutes of Health, Department of Health and Human Services..    50
    Prepared statement...........................................   192
Wilson, Samuel, H., M.D., deputy director, National Institute of 
  Environmental Health Sciences..................................    52
    Prepared statement...........................................   205

                          ADDITIONAL MATERIAL

Articles:
    Darmouth College, March 15, 2001, Darmouth Researchers Warns 
      of Chemicals Added to Drinking Water.......................   243
    Lee, John R., M.D., Is Fluoridation Scientifically Defensible   244
    Metropolitan New York Registry..............................178-186
    Mesa Tribune, Arizona, December 5, 1999, Former Fan of 
      Fluoridation Now Warns of its Perils.......................   248
    Southside High School Property History.......................    98
    The National Treasury Employee Union, Chapter 280, Why EPA's 
      Headquarters Union of Scientists Opposes Fluoridation......   239
Fact Sheets, Southside High School, New York State Department of 
  Health........................................................112-127
Letters:
    Brentwood/Bay Shore Breast Cancer Coalition..................   224
    City of Elmira, NY..........................................102-105
    Cobis, Elaine Marie..........................................   219
    Conti, Michael...............................................   219
    Feingold Association of the United States...................214-218
    Harter, Secrest & Emery LLP..................................    89
    House Committee on Science...................................   238
    Mercury issues, several citizens.............................   217
    New York States Coalition Opposed to Fluoridation, Inc.......   236
    Roy, Sylvia..................................................   100
    STAR Foundation..............................................   221
List, Fluoride Information on the Web............................   250
Plan, Citizen Participation Plan for Remediation of The American 
  LaFrance Facility Town of Southport, Chemung County, NY........   107
Statements:
    Balaban, Barbara J., Somers, NY..............................   250
    Kopf, Carol S., Levittown, NY................................   225
    Pace, Lorraine, founder of Breast Cancer Mapping Project, co-
      president, Breast Cancer Help, Inc.........................   226
    Research Associates Jay M. Gould, Ph.D., director; Ernest J. 
      Sternglass, Ph.D., chief scientist; Jerry Brown, Ph.D.; 
      Joseph Mangano, M.P.H., M.B.A.; William McDonnell, M.A.; 
      Marsha Marks, A.C. S.W., L.C.S.W.; Janette Sherman, M.D. 
      and William Reid, M.D., Radiation and Public Health 
      Project, New York, NY......................................   230
    Schoenfeld, Elinor, M.D., associate professor, Stony Brook 
      University School of Medicine..............................   210
    Serotoff, Mark, Townline Civic Association, Environmental 
      Carcinogens on Long Island, NY.............................   212
Survey, Results of the Huntington Breast Health Survey Data.....131-173
  

 
                   CANCER CLUSTERS IN LONG ISLAND, NY

                              ----------                              


                         MONDAY, JUNE 11, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                   Garden City, NY.
    The committee met, pursuant to notice, at 9 a.m. in The 
Ballroom, Ruth Harley Student Center, Adelphi University, 
Garden City, NY, Hon. Harry Reid (acting chairman of the 
committee) presiding.
    Present: Senators Reid, Clinton, and Chafee.

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. I'd like to call this meeting of the 
Committee on Environment and Public Works to order. My name is 
Harry Reid, I'm chairman of the Environment and Public Works 
Committee.
    Today we're meeting in New York, and as appropriate, the 
Senator from the State of New York will conduct this hearing, 
Senator Clinton, a member of the committee.
    [The prepared statement of Senator Reid follows:]
 Statement of Senator Harry Reid, U.S. Senator from the State of Nevada
    I want to express my appreciation to Senator Clinton for holding 
this hearing, and for her leadership on the crucial issues that we will 
focus on today.
    I have had the pleasure of working very closely with Senator 
Clinton on a number of important matters over the past 5 months, and 
want to take this opportunity to report that she is doing a tremendous 
job, both on the Environment and Public Works Committee and in the 
Senate at large. You are very fortunate to have her representing you.
    Her service on both the Environment and Public Works Committee and 
on the Health Committee, her mastery of complex health and environment-
related issues, and her commitment and vision in addressing those 
issues, contribute to her being an outstanding advocate for New Yorkers 
and for the Nation in addressing environment-related health problems of 
concern to citizens throughout the Country.
    I also want to thank my colleague Senator Lincoln Chafee for being 
here today. Senator Chafee also serves on the Environment Committee 
and, like his father the late Senator John Chafee, Lincoln Chafee has 
been a true champion of many issues that American's hold most dear, 
including protection of our environment and public health.
    I particularly want to recognize Senator Chafee's leadership in 
promoting research into the role the environment plays in the 
development of breast cancer, with the introduction last month of the 
Breast Cancer and Environmental Research Act, which Senator Clinton and 
I also have cosponsored.
    This is the second hearing of the Environment Committee this year 
to focus on potential links between the environment and chronic 
disease, and how we can better understand and respond to disease 
outbreaks. In April Senator Clinton accompanied me for the first 
hearing, in my State of Nevada, in the city of Fallon.
    The Fallon community is facing a tragic situation--14 children have 
been diagnosed with childhood leukemia in less than 2 years, where two 
cases would be statistically likely for this small community. In just 
the 2 months since the hearing, two more children have been diagnosed, 
and one child has died of the disease.
    There are many theories as to possible causes or contributing 
factors, but at this point we simply do not know why so many children 
have been stricken with this terrible disease. Ongoing efforts by the 
Centers for Disease Control and the State Health officers include 
investigations into potential exposures to a number of environmental 
contaminants.
    I look forward to learning more about progress in the Fallon 
investigation from the State of Nevada's epidemiologist, Dr. Randall 
Todd, who will testify on the first panel. Dr. Todd, I want to 
acknowledge your dedication in working on the Fallon investigation and 
to thank you for traveling such a long distance to be here.
    As those of you here today well know, disease clusters are not 
confined to Nevada or New York. Communities throughout the United 
States are facing the same challenges and frustrations experienced in 
Long Island, in Elmira, and in Fallon, NV.
    There is widespread concern among the citizens of this country 
about what environmental contaminants we are exposed to in our day-to-
day lives, and what effect exposures may have on our health and the 
health of our families.
    But, unfortunately, there is not a coordinated system in this 
country to support communities and States in responding to disease 
outbreaks, or to track chronic diseases so that we might better 
understand possible links to environmental exposure. Too often 
communities and States are forced to reinvent the wheel, and face these 
events alone, without the necessary resources, information or 
expertise.
    While a number of Federal agencies are doing an excellent job 
supporting State and local officials in addressing community health 
concerns, the support system often seems uncoordinated, ad hoc, and too 
little too late.
    There is a tremendous need to improve our understanding of the 
causes of chronic diseases and in turn to better protect public health 
through preventative measures. This need presents an opportunity that 
in my view we as a Nation cannot afford to pass up.
    The time is long overdue for the Federal Government to craft a 
coordinated approach for rapidly and effectively responding to the 
needs of communities for support and guidance in identifying and 
addressing chronic disease clusters.
    When we return to Washington, I look forward to working with 
Senators Clinton and Chafee, and other colleagues in the Senate and the 
House on both sides of the aisle, on legislation: (1) to bridge this 
critical gap in our knowledge concerning chronic diseases and related 
environmental factors, and (2) to establish a system to coordinate and 
support the investigation of and response to chronic disease outbreaks 
when they do occur.
    I apologize in advance that I will not be able to stay for the 
entire hearing, as my duties as Assistant Majority Leader require that 
I get back to Washington. However, I will carefully review all of the 
testimony prepared for today's hearing.
    I look forward to hearing from the witnesses.

    Senator Reid. Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you very much, Chairman Reid.
    Welcome to New York. I'm delighted that you and Senator 
Chafee from Rhode Island could join us for this important 
hearing. This is the second in a series of hearings about a 
very important issue, the potential link between our 
environment and chronic diseases and disease clusters, 
including especially here on Long Island, high rates of breast 
cancer.
    I don't think I need to explain to anyone here at Adelphi, 
which has pioneered work on not only reaching out to breast 
cancer survivors, but also the investigation of environmental 
issues, that this is an issue that many of us live with and 
have very personal connections with.
    While breast cancer incidence rates for New York State 
overall are below the national average, those for Long Island 
consistently exceed that national average. The hearing that 
Senator Reid convened in Fallon, NV, which I was very pleased 
to attend, focused on childhood leukemia clusters, a problem 
that has just so affected that small community. At the time, I 
told Senator Reid about the high incidence of breast cancer 
here on Long Island and other cancers and chronic diseases that 
we have in clusters around New York, and that led to this 
hearing.
    We all know that disease clusters and overall increases in 
the rates of chronic disease are not confined to New York or 
Nevada. We face these challenges around our country. According 
to the Centers for Disease Control, birth defects are the 
leading cause of infant mortality. Yet, the cause of about 70 
percent of all birth defects is unknown.
    The CDC also reports that from 1980 to 1984, cases of self-
reported asthma increased 75 percent, an increase of epidemic 
proportions. New York has the second highest rate of people 
suffering from asthma, surpassed only by California. Asthma is 
the No. 1 cause of school absenteeism.
    A recent report by the National Academy of Sciences 
estimates that 25 percent of developmental disorders in 
children is caused by environmental factors. Between 1986 and 
1995, there was an almost 22 percent increase in endocrine and 
metabolic disorders, such as diabetes, a 20 percent increase in 
neurological disorders, such as Parkinson's, and nearly a 20 
percent increase in respiratory diseases. We are totally in the 
dark as to how many children in this country are suffering from 
autism, yet we know that the numbers are increasing.
    That's why we're here today looking for answers. We're 
looking for answers to the questions that many of you have 
asked yourself, ``Why do I have breast cancer?'' ``Why does my 
child have leukemia?'' ``Why does my child have asthma or 
trouble learning in school?'' ``Is there something in my 
environment that is making me or my family sick?''
    Well, we're going to be looking for those answers in a 
bipartisan way in both Houses of Congress this year. I'm 
looking forward to hearing from our witnesses, because we want 
to take this information and testimony back to Washington so 
that we can come together to determine what steps we need to 
take in order to do whatever is possible at the Federal level 
to try to aid in the search for answers to these unanswered 
questions.
    Senator Reid and some of our colleagues and I are already 
working on legislation to address the problem of disease 
clusters. We want to establish ways to bridge the gap in our 
understanding of chronic disease and environmental factors. We 
believe our Nation needs to coordinate its support, 
investigation of and response to chronic disease outbreaks, 
with the ultimate goal of preventing them in the first place.
    This hearing will add to the body of knowledge that we are 
acquiring. I want to thank all of you for coming, and I 
particularly want to thank my colleagues. First, my friend and 
our chairman, Senator Reid, who is also now the new Assistant 
Senate Majority Leader. I want to thank Senator Reid for giving 
us the opportunity to hold this hearing and for taking time off 
his even busier schedule to attend.
    It's a pleasure and an honor working with Senator Reid. The 
service that he offers our entire country is something that I 
have just marveled at. He seems to be absolutely tireless as he 
represents the people of Nevada and does the work that is 
required in the Senate. I want to thank him for his leadership 
and his friendship and for his dedication to addressing the 
shortcomings in our environmental protection and public health 
systems, so that we can find answers for the people in Fallon, 
Long Island and throughout America.
    I also want to thank Senator Lincoln Chafee of Long Island 
for joining us. He has been a true leader on the environment, 
and in fact, is the lead sponsor of the Breast Cancer and 
Environmental Research Act, along with Senator Reid--
legislation of which I am proud to be a cosponsor, which is 
carried in the House by our colleague, Nita Lowey.
    Senator Chafee has been serving as the chairman of the 
Superfund Subcommittee, and he played a very significant role 
in the unanimous passage of the very first brownfields bill in 
the U.S. Senate. I have greatly enjoyed getting to know Senator 
Chafee, and look forward to a long and productive working 
relationship with him.
    I also want to thank my colleagues from the House who 
represent Long Island. We are privileged to be in the district 
of Congresswoman Carolyn McCarthy. Carolyn has been a leader on 
many issues, in particularly on the issue of breast cancer, 
representing so many of her constituents, and I thank her for 
that. I would also like to welcome the other members of our 
delegation, Congressman Gary Ackerman and Congressman Felix 
Grucci, and to thank them and all the members of the New York 
delegation, including Senator D'Amato, for everything they've 
done to help us fight breast cancer here on Long Island and 
across America.
    I want to thank our hosts today. I extend my appreciation 
to Adelphi University. The committee is very honored to be 
here, and to have a chance to hold this hearing at a university 
that is home to the Adelphi Breast Cancer Hot Line and Support 
Program. I want to thank President Robert Scott, Provost 
Marshall Walsh, Hillary Rutton, the director of the Hot Line 
and Support Program, and the many volunteers like my friend, 
Marie Kaplan, who are there day in and day out, answering 4,000 
calls a year.
    I would like to welcome any of the State officials who we 
have here. I know several of them were intending to come. Is 
Assemblyman Tom DiNapoli here? Tom, thank you for coming. 
Senator Michael Balboni, I appreciate greatly your being here 
and hope that we can have you address this important issue as 
well.
    With that, I turn this hearing over to our chairman.
    Chairman Reid.
    Senator Reid. Senator Clinton, thank you very much.
    I have worked very closely with Senator Clinton these past 
5 months. She's done a tremendous job as a member of this 
committee and a member of the Health Committee. She is someone 
who's a quick learner and she started the hearing we had in 
Fallon a short time ago.
    I also want to take just a brief minute to note the 
presence of my friend, Lincoln Chafee. Every time, and I'm sure 
he gets tired of me saying this, but I had the honor of serving 
with his father. When we go through the list of great 
legislators in our country, his father, John Chafee, certainly 
is on that list. I served with him from the time I came to the 
Senate and this committee, and he was an inspiration to me. 
We're happy to have his son, who has every indication of being 
just as good as his dad.
    This is the second hearing, as Senator Clinton has 
indicated, that we're holding on this subject of a cancer 
cluster. In Fallon, NV, which is a community much different 
than this urban community that we have here in Long Island, NY, 
urban compared to Nevada, it's a community 60 miles south of 
Reno. We have in that little community a real, I don't want to 
call it a plague, but people are so frightened. The standard 
would be that about one and a half children would have 
childhood leukemia. We now have 15 children with childhood 
leukemia. We don't know the cause of that. We don't know 
whether it's caused by the naturally occurring heavy arsenic in 
the water. We don't know whether it's caused by the heavy 
application of pesticides and other things on the farms that 
they've had there for 100 years. We don't know if it's caused 
by the military base which is one of the largest military bases 
in the country--it's a Naval flying center--Fallon Naval Air 
Station. Top guns there use millions of gallons of fuel every 
year. We know that there have been some fuel spills.
    We don't know if it's being caused by a virus. There's now 
a theory that it's being caused by a virus. British scientists 
believe that they can prove that some of the cancer that's been 
caused over is caused by heavy inflow and outflow of people 
into an area. Certainly, we have that there with the military 
base.
    We don't know. Or is it a combination of those? We don't 
know. We cannot accept the answer that we've had in a number of 
these cancer clusters, it just happens. We don't know why this 
happens, we cannot let that happen. We need to establish a 
cause.
    That's why I'm so thankful that Dr. Randall Todd, the State 
of Nevada State epidemiologist, is here with us today. He's 
going to be able to recount some of the things that are going 
on in Fallon.
    One of the other things that we have in Fallon, we really 
don't know how many children are sick, because of the kids that 
have left that military base. We're doing our best to check it 
out, but we simply don't know.
    Cancer clusters are not confined to Fallon, NV. That's why 
we're here in Long Island. Communities throughout the United 
States are facing these same challenges and frustrations 
experienced here in Elmira and in Fallon, NV.
    I would just say in passing, in Nevada you always know 
where you are. In New York, I never know where I am.
    [Laughter.]
    Senator Reid. There are towns, boroughs, cities--whatever 
else--but I'm glad we're here.
    There's widespread concern among citizens of this country 
about environmental contaminants, and we've already mentioned a 
few of them. Kids get asthma, it's almost standard now for 
children. Why? We don't know. What effect do exposures have on 
our health and the health of our families? That's why Senator 
Clinton and Senator Chafee are here with us. There is a belief 
that our environment is causing some of these diseases.
    We don't have a coordinated system in this country for how 
to respond to these disease outbreaks. So one of the things 
we're going to come up with, with these hearings, we're going 
to do it legislatively, the Federal Government, each time 
there's a cancer cluster, they have to re-establish how they're 
going to move into this area. We have the National Centers for 
Disease Control, National Institutes of Health, EPA, a number 
of Government agencies who in effect are stepping on themselves 
trying to figure out what to do. We want to have a protocol 
established, like when there's an airplane accident, with the 
National Transportation Safety Board, there is a way that they 
come in and the different agencies of the Federal Government 
react. We're going to do our best to do that.
    The Federal Government agencies are doing their best. 
They're doing an excellent job of supporting State and local 
officials addressing community health concerns. But the support 
system many times seems to be uncoordinated, ad hoc, and simply 
too little too late. There is a need to improve our 
understanding of the causes of chronic diseases and in turn, to 
better protect public health through preventive measures.
    Public health is something we don't talk about much in this 
country. We need to talk about it much more. The time is long 
overdue for the Federal Government to craft an orderly approach 
for rapidly and effectively responding to the needs of 
communities for support and guidance in identifying and 
addressing disease clusters.
    When we return to Washington, I look forward to our 
continued work, that is, Senators Clinton and Chafee, others 
and I, on trying to come up with legislation to bridge this 
critical gap in our knowledge concerning chronic diseases and 
related environmental factors and establish a system to support 
investigation and response to chronic disease outbreaks when 
they do occur.
    I want to extend my appreciation to members of the House 
for being here. Congressman Ackerman and I came to the House 
together. We were freshmen members of the House together. The 
other two Representatives I see and work with in Washington, we 
look forward to working with them even more closely as a result 
of this unfortunate occurrence of cancer we have in Long 
Island.
    Senator Clinton. Thank you very much, Chairman Reid.
    Senator Chafee.

OPENING STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Thank you very much, Senator Clinton, for 
organizing this morning's forum. We're very grateful to you for 
doing that. It's a great deal of work, and I understand that. 
I'm anxious to hear the three panels that you've organized, and 
I know we're going to learn a lot. As Senator Reid said maybe a 
dozen times in his opening statement, ``We don't know what 
causes these clusters, and that's why we're here, and we look 
forward to your testimony.''
    Thank you.
    [The prepared statement of Senator Chafee follows:]

    Statement of Lincoln D. Chafee, U.S. Senator from the State of 
                              Rhode Island

    Good morning. I am pleased to be here today for this important 
hearing.
    This hearing is very important for many reasons. The first and 
foremost is the fact that breast cancer mortality rates are up to 20 
percent higher in Long Island than the national average. This is an 
alarming statistic, which deserves this close examination by the 
Environment and Public Works Committee.
    Many scientists believe that certain groups of women have genetic 
variations that may make them more susceptible to adverse environmental 
exposures. A study recently conducted in Sweden showed that 
environmental factors may matter more than genetics in determining 
whether a woman is diagnosed with breast cancer. This study found that 
the environment--what we eat, breathe, drink, and smoke, including how 
we live and which chemicals we are exposed to--accounts for roughly 
twice the risk of cancer than genes do.
    There is a reason so many women in Long Island are being diagnosed 
with breast cancer, and I believe that the environment here holds the 
key to this mystery.
    I am particularly pleased to participate in this hearing today 
because of its relevance to legislation I recently introduced with 
Senator Harry Reid. We introduced S. 830, the Breast Cancer and 
Environmental Research Act this past May, and we are pleased that 
Senator Clinton is a primary cosponsor. S. 830 will establish research 
centers that would be the first in the Nation to specifically study the 
environmental factors that may be related to the development of breast 
cancer. The lack of agreement within the scientific community and among 
breast cancer advocates on this question highlights the need for 
further study.
    This bill will enable scientists and researchers to conduct more 
comprehensive and conclusive research to determine the impact of the 
environment on breast cancer. S. 830 will require each Center of 
Excellence to collaborate with community organizations in the area, 
including those that represent women with breast cancer. Consumer 
advocates would also be involved in all phases of this program. While 
it is generally believed that the environment plays some role in the 
development of breast cancer, the extent of that role is not 
understood. Before we can find the answers, we must determine the right 
questions to ask. We need to step back and gather evidence before we 
come to conclusions, and that is the purpose of our legislation.
    On that note, I would like to turn it over to the witnesses so we 
can hear their stories and learn from their expertise.

    Senator Clinton. Thank you.
    Congresswoman McCarthy.

  STATEMENT OF HON. CAROLYN McCARTHY, REPRESENTATIVE FROM THE 
                       STATE OF NEW YORK

    Ms. McCarthy. Thank you, Senator Clinton. I want to thank 
Senator Reid and Senator Chafee and my colleagues here from 
Long Island. I have to say thank you to Dr. Scott from Adelphi. 
He had been wonderful in allowing us to use Adelphi on a number 
of occasions, and Hillary Rutton for the Breast Cancer Hot 
Line.
    This is something that concerns all of us here on Long 
Island. I don't think there is anyone who doesn't know someone 
who doesn't have breast cancer or prostate cancer. But you 
know, as a nurse, I have to say, we have to look at all 
cancers, naturally we should be attacking it on every level of 
cancer. I'm sorry to say that I have three neighbors that I 
have grown up with, and all three, one, two, three, they're all 
suffering with lung cancer, all diagnosed within the last 3 
months.
    So this is something that concerns all of us, and our whole 
delegation. It doesn't matter whether it's here, doesn't matter 
whether it's in Gary's district, Peter King's, Steve Israel's, 
Felix Grucci's, it concerns all of us. I'm sure that when we 
start looking into the different causes, and we don't know all 
the causes, let's eliminate, let's get some scientific 
evidence, and then start working on those areas that we can.
    I want to thank Gary Ackerman and Felix Grucci. We're on a 
bill that will help breast cancer survivors be able to take 
their medications, open it up to other people that can buy into 
Medicare if they have breast cancer. This is another way of 
trying to do what we can to help the people in Long Island, NY, 
the whole country. This is something Senator Reid has said. We 
have to coordinate everybody, from the Federal level, so that 
we can attack this hideous disease. It's probably one of the 
most important things, in my opinion, that can help all 
Americans, and certainly the people of New York and Long 
Island.
    Thank you.
    Senator Reid. Thank you, Congresswoman McCarthy.
    Congressman Ackerman.

  STATEMENT OF HON. GARY L. ACKERMAN, REPRESENTATIVE FROM THE 
                       STATE OF NEW YORK

    Mr. Ackerman. Thank you very much, Madam Chair, Mr. 
Chairman, Senator Chafee. I appreciate the convening of this 
very critical hearing and I'd like to begin my comments by 
expressing my profound thanks for selecting Long Island for 
this very, very important hearing. When you think about one of 
the reasons, it's an honor that we'd rather not have. That is 
because we are in a place where we see one of the great hot 
spots, as they are called, in our country.
    I'd also like to express my appreciation to the many 
soldiers in the battle against breast cancer. Many of them are 
here in this room right now, and too many to name. But their 
dedication and tireless efforts are critical, and they're so 
deeply appreciated by all of us.
    We're here today to discuss the possible connection between 
the environment and chronic illnesses such as breast cancer. In 
addition, we need to explore what efforts should be undertaken 
by the Federal Government to address this problem. One of the 
legislative accomplishments of which I am most proud to have 
worked on is the establishment of the Long Island breast cancer 
study. As all here know, this is a multi-study effort to 
investigate whether environmental factors are responsible for 
breast cancer in Suffolk, Nassau, and Hardy counties in New 
York, as well as Connecticut. This historic investigation began 
in 1993, and is funded and coordinated by the National Cancer 
Institute, in collaboration with the National Institute of 
Environmental Health Science.
    This comprehensive study consists of more than 10 studies 
that includes human population studies, the establishment of 
the Family Breast and Ovarian Cancer Registry and laboratory 
research. We all eagerly await the findings of this study, 
which should hopefully be released within the next few months.
    Long Island's very high breast cancer rate, along with 
recent scientific studies, seems to suggest that there can be a 
connection between a person's environment and his or her risk 
of developing cancer. In the case of breast cancer, the 
question is, why do women on Long Island seem to be at greater 
risk of developing this disease? Someone said that Long Island 
is simply the unfortunate setting for a convergence of known 
risk factors, such as socioeconomic and reproductive 
characteristics. However, others have suggested that local 
environmental contaminants are playing a key role in driving up 
the mortality incidents.
    In October 1993, I had called for and asked to be convened 
and testified at a field hearing of the House Government 
Operations Subcommittee on Human Resources. The committee was 
then chaired by Congressman Ed Towns, who also attended. It was 
also attended by all of the representatives to Congress, the 
House, of Long Island, and also Senator D'Amato. The hearing 
focused on the possible link between cancer and the 
environment, and we discussed all of the factors.
    I was first made aware of this problem after 
reapportionment had taken place and I was new to this part of 
our State, coming from Queens County, so far away. You have 
every right to be confused, Senator Reid, I don't know where I 
am half the time, either. I was first made aware of the problem 
by Karen Joy Miller, who is really an American hero. I remember 
our first conversation, it was Karen who convinced me that we 
needed to have such a hearing, because of these clusters. We 
didn't know whether or not and still don't that there was some 
causation that came from factors that might have been airborne, 
soilborne or waterborne, whether it was something that occurred 
from things that we did with the soil when this was a very rich 
farm land so many years ago. The hearing proved to be very 
interesting.
    At the time I testified on the broader issue of how 
pollutants and contaminants in our environment act on our 
health, and at the time I predicted that the issue would become 
more important in the years to come. It's now 8 years later, 
and we're witnessing this as a national health problem. Long 
Island is not the only location in the country where such 
cancer clusters exist.
    I want to commend Senator Clinton, Senator Chafee and 
Chairman Reid for examining this issue in Long Island today, as 
well as having convened a hearing in Nevada. This cross-country 
coverage serves to highlight the breadth and diversity of this 
health crisis that affects not only New Yorkers but all 
Americans. I look forward to the testimony of our panelists and 
to our colleagues here today. Thank you very much.
    Senator Clinton. Thank you, Congressman Ackerman.
    Congressman Grucci.

STATEMENT OF HON. FELIX J. GRUCCI, JR., REPRESENTATIVE FROM THE 
                       STATE OF NEW YORK

    Mr. Grucci. Thank you, Senator. I'd like to thank the 
Senate Environment and Public Works Committee for hosting this 
event today. I think these types of hearings serve a very good 
and noble purpose for us to understand the issues and ways to 
resolve them. You know, there are approximately 3 million women 
that are diagnosed with breast cancer, a million of them don't 
know it yet. This year alone, 233,000 women will be diagnosed 
with breast cancer, and 40,000 of them won't be able to fight 
back the disease. That's a frightening statistic, a sad 
commentary for a Nation as rich and as good and as wholesome as 
this one is, that we have to find a cure for this dreaded 
disease.
    My career in Congress isn't as long and as rich as some who 
are sitting at this table, but my fight for helping to find a 
cure for breast cancer dates from the time when I was a town 
supervisor. My municipality, the town of Brook Haven, was one 
of the first municipalities in Long Island to join in on the 
mapping program that was being done.
    We also used some innovative concepts to help find funding 
dollars, much-needed funding dollars. When people would violate 
the ordinances of the town of Brook Haven, when we imposed the 
fines on them, I directed those fines be used by our local 
hospitals, it was St. Charles, Stonybrook or Brook Haven, to 
use that money to help find a cure for breast cancer, cervical 
cancer, prostate cancer and cancer of all types is a dreaded 
disease that affects this country and does such great harm to 
our citizens, to our families.
    I know that we're preaching probably to the choir, because 
while you are all here, there are still a lot of chairs yet to 
be filled, and still a lot of people yet to reach. I think 
Congress has a responsibility to help meet that need, whether 
it's funding for environmental research, to see if indeed there 
is a connection and what that connection is between our 
environment and diseases that afflict us, whether it's to pass 
legislation to make the processes to finding a peaceful life 
more accessible, whether it's the overnight stays in the 
hospital, whether it's reconstructive surgery for women, 
whether it's finding the cure through more research dollars.
    I'm proud to be a member of this Congress, and I'm proud to 
be sitting up here amongst this panel of individuals who have 
demonstrated their willingness to help find these cures. We've 
passed legislation, we're going to be pass legislation, we're 
going to be dealing with health care issues. All of this is 
going to be very important as the coming days arrive. I'm eager 
to hear from our panelists. I was reviewing their names and 
their backgrounds. It seems to me that we're going to get a 
great deal of knowledge from today's meeting.
    I want to thank Senator Clinton and the Senators for being 
here. I think this is a very productive meeting and I look 
forward to its outcome. Thank you.
    Senator Clinton. Thank you, Congressman.
    Congressman Israel.

 STATEMENT OF HON. STEVE ISRAEL, REPRESENTATIVE FROM THE STATE 
                          OF NEW YORK

    Mr. Israel. Thank you, Senator. Let me also thank you for 
the leadership that you've shown on this profoundly important 
issue, and I thank your Senate colleagues for joining us this 
morning.
    I appreciate the opportunity to testify on this issue, as a 
new Member of Congress. For 7 years prior to joining the House, 
I worked as a town councilman in Huntington with Karen Miller, 
whom Congressman Ackerman referred to and who will be 
testifying later, and the Huntington Breast Cancer Action 
Coalition in the local fight against breast cancer. One of the 
projects we initiated was a town-wide mapping and survey and 
analysis of breast cancer incidence. By chance, it just happens 
to be the map just behind me on the podium.
    I learned something from those clusters that are so visible 
on those maps. Breast cancer cannot be categorized as a Federal 
issue or State issue or county issue or town issue. It extends 
across jurisdictions, boundaries, political parties. It extends 
to too many neighborhoods, too many families, too many women, 
too many streets throughout this area. In fact, Suffolk County 
has the dubious distinction of having more breast cancer cases 
than almost any other community in our Nation, 2,000 Suffolk 
County women are diagnosed with breast cancer every single 
year. What's worse is that we still don't completely understand 
why women in certain communities are more susceptible to this 
disease.
    We have an obligation to them, we have an obligation to our 
families to work as partners toward the critical goal of 
eradicating breast cancer, and we need to start with the 
Federal budget. Congress and the Bush administration are just 
starting the annual wrangling over the budget. We can't allow 
this year's Federal investment in breast cancer research to be 
caught in that debate. We have to break breast cancer research 
out of this trap by building a broad base of support for 
legislation to increase this critical funding.
    So I'm hoping that President Bush will support this year's 
budget and increase the breast cancer research. In addition to 
that, I want to thank Congressman King, who I believe is 
scheduled to be here later, for his Taxpayers Cancer Research 
Funding Act of 2001, which I have cosponsored. This legislation 
will add a new checkoff on the income tax return to allow for a 
$5 contribution to a special breast and prostate cancer 
research fund. That will enable all of us to work together as a 
country to increase the funding of the National Cancer 
Institute, which will in turn enable the NCI to increase their 
research grants to the medical community.
    Each year, too many of our loved ones lose their lives to 
breast cancer. But with increased Federal investment in 
biomedical research, we will not only improve treatment for 
this debilitating disease, we will also find a cure. Our 
mothers, our daughters, our sisters and friends deserve no 
less. It is time to erase incidence of breast cancer on the map 
behind me.
    Thank you.
    Senator Clinton. Thank you, Congressman. I'd like to ask 
the first panel to make its way to the table, and I'd like to 
ask for two brief comments from two of our local legislative 
leaders at the State level, Assemblyman Tom DiNapoli and 
Senator Balboni, if you would each like to make a brief comment 
while the panel gets settled.

 STATEMENT OF HON. MICHAEL BALBONI, STATE SENATOR FROM NEW YORK

    Senator Balboni. Senator Clinton, I'd like to thank you 
very much for the invitation to join you today. Members of the 
House and Senate, welcome to Long Island.
    I know the strong advocacy in the House and I look forward 
to the results of this panel. I'd like to make a pitch that 
perhaps you may not have heard. Long Island presents certainly 
the challenges and the obstacles that come with being No. 1 in 
terms of the rate of cancer. But it also presents an 
opportunity. You will find here, I would argue, more than any 
place in the Nation, a galvanized, energized electorate who 
understands the issue, because it's so personal to them, it 
affects them so pervasively.
    What you also find here is a unique set of biotechnology 
opportunities where perhaps we can take the information that 
researchers and scientists present and turn it into cures. So I 
would ask that you would consider that when you step back from 
this hearing and consider all the information, consider also 
the need to move the information to a cure, and that's best 
done with our biotechnology.
    Thank you very much.
    Senator Clinton. Thank you, Senator.

        STATEMENT OF HON. THOMAS P. DiNAPOLI, NEW YORK 
                         STATE ASSEMBLY

    Mr. DiNapoli. Good morning. It really is a pleasure to join 
with Senator Balboni in offering some brief comments. Senator 
Clinton, I'll leave some written testimony for your committee 
to deliberate on.
    Welcome to Senators Reid and Chafee. It's always good to 
see our hard working Long Island delegation here, Congresswoman 
McCarthy, Congressman Ackerman, Congressman Grucci and 
Congressman Israel, and Congressman King as well. To Senator 
Clinton, we certainly want to express some particular words of 
appreciation. I know that last year we had many occasions to 
speak about the issues and concerns in the Long Island 
community. I know the voices have resonated most loudly and 
clearly with you are the voices of survivors of breast cancer 
and other health impairments on the island and their families. 
We all appreciate your bringing this very distinguished panel 
to Long Island to hear our concerns.
    As Senator Balboni said, in so many places in New York 
State, Long Island has been the epicenter for activity and 
concern on this issue. I know you're going to hear from 
important scientific testifiers today, but certainly, I'm sure 
the most compelling testimony you will hear will be from the 
grass roots activists on Long Island, the women particularly 
who have kept this issue in the forefront.
    I want to offer a few words of consideration for you to 
bring back some New York ideas to Washington as you complete 
your agenda there. Because in New York State, we have been 
grappling with the very important question of what are the 
environmental impacts as far as our public health, particularly 
with regard to cancer. Obviously, in all the years and all the 
studies going back to the original Stonybrook breast cancer 
study and the small area incident study the department of 
health was involved with at my request a number of years ago, 
this is still very much an open question.
    So we certainly urge your continuing investment of Federal 
dollars in research through the ongoing national study. We 
could certainly use help as far as technical assistance and 
dollars to help with our State efforts to continue this 
research. A particular area is the effort to do mapping not 
only of the incidence of cancer and cancer clusters, but to do 
a coordination of the information that we have with sites of 
environmental contamination in proximity to cancer clusters.
    As part of the written testimony I'm submitting, there are 
considerations in the pending Assembly bill A404 that provides 
specific requirements on our State Department of Health and 
Department of Environmental Conservation to coordinate these 
kinds of mapping and environmental facility contamination 
impacts. We could use your help in coming up with the dollars 
and seeing that we can adequately fund these studies.
    Your colleague, Senator Schumer, was helpful in identifying 
a million dollars in aid through Federal EPA to help us map 
contamination of MTBE on Long Island. That's a very important 
issue to us, as the local representatives know, we depend for 
our drinking water supply on a sole source aquifer system. MTBE 
is certainly a pollutant and a possible human carcinogen, it 
has become ubiquitous in our environment and it is very 
important that we maximize our efforts to clean it up. Because 
while research is important, there are steps we can take to 
reduce our exposure to these kinds of harmful chemicals and 
substances.
    Along that line, I would recommend to you that New York 
State will review once again the resolution that the State 
legislature sent to Congress back in 1999 calling for a Federal 
ban on MTBE, to eliminate it as an oxygenate in our gasoline. 
New York State was the first State to have adopted a State ban. 
I'm very pleased that it has held up in court so far. Certainly 
dealing with that particular contaminant, it's very important 
that there be a Federal response and Federal action.
    I would also point out that New York State has enacted the 
first ever pesticide neighbor notification law, thanks to the 
efforts of many Long Island activists. It's a very important, 
common sense, right-to-know piece of legislation that helps 
people reduce their exposures to toxic substances and chemicals 
in the environment, also worthy of your consideration to be 
replicated on the national level.
    I'll just conclude with the idea of a sentence that would 
be helpful to us as well. In the northeast region there are 
particularly health concerns about West Nile virus. 
Unfortunately, many of the funding programs put an emphasis on 
aerial spraying, creating other kinds of concerns about 
exposure to harmful toxic substances. We, in New York State, 
are trying to put more of a priority on non-spraying control 
techniques. We could use your help in terms of providing 
dollars to help us buy those kinds of incentives so localities 
can move in a different direction than traditional pest control 
has allowed for.
    We're also working with the Long Island Breast Cancer 
Action Coalition. We're working on legislation this session to 
come up with a children's health incentive fund that will give 
dollars and grants to schools throughout our State, to give 
them extra money to help them move away from pesticides and 
other types of toxic substances when dealing with pest control. 
Again, an incentive-based approach will to help change the 
behavior, help promote best practices so we reduce harmful 
exposures. That again would be a program that would be aided by 
Federal support, certainly is worthy of your review and 
replication on a national level as well.
    Again, thank you for coming to Long Island, certainly on 
behalf of Senator Balboni and myself, and all of our State 
legislative colleagues, recognize that this needs to be a 
partnership between the State government and the Federal 
Government and working with the local communities so we can get 
to the bottom of this very important question. I thank all of 
you, particularly Senator Clinton, for your interest on this 
issue. Thank you.
    Senator Clinton. Thank you very much, Mr. DiNapoli, for a 
very good list of issues that we should take back with us to 
Washington. I look forward to reviewing more closely your 
written testimony which has more details about this.
    We've been joined by Congressman Peter King.
    Congressman King.

STATEMENT OF HON. PETER T. KING, REPRESENTATIVE FROM THE STATE 
                          OF NEW YORK

    Mr. King. Thank you, Senator Clinton. I'll be very brief. I 
just want at the outset to thank Senator Clinton for convening 
this meeting and for the leadership she's shown, not just as a 
Senator, but in the previous Administration, where she worked 
so hard to focus public attention on breast cancer.
    I also want to welcome Senator Chafee and Senator Reid, and 
of course all my other colleagues from Long Island.
    There's probably not a person on Long Island that doesn't 
have a close family member or friend who suffers from breast 
cancer. There are clusters throughout Long Island. There seems 
to be an unusually high rate of incidence of breast cancer on 
Long Island. Certainly those of us in the Long Island 
delegation have always appreciated just how importantly this 
issue has been treated, totally in a bipartisan manner, with 
tremendous cooperation and certainly, from the time I've been 
in Congress, I give Congressman Ackerman so much of the credit 
for keeping the delegation united and working with us and 
fighting hard on this issue for more funding and for research. 
Certainly the Federal breast cancer study has been going on now 
for a number of years, and we await the findings of that. This 
hearing, I think, is one more very significant step to moving 
forward, trying to find reasons why, trying to understand why 
there are these unusually large numbers of breast cancer on 
Long Island, why we have these cancer clusters.
    Senator Clinton, I thank you for convening this. I regret 
the fact that I could not get here sooner. I look forward to 
the testimony and again, I thank you for your leadership.
    Senator Clinton. Thank you, Congressman King.
    The first panel we're going to hear from today consists of 
a number of people with first-hand experience as well as expert 
experience. The first witness is Dr. Phil Landrigan, professor 
of Pediatrics, and director of the Center for Children's Health 
and the Environment at the Department of Community and 
Preventive Medicine at Mount Sinai. The second witness is Dr. 
Randall Todd, Nevada State epidemiologist, who is here to tell 
us about how his State of Nevada is responding to the 
continuing challenge of the childhood leukemia cluster in 
Fallon, NV.
    Next, we will hear from Mr. Jim Hare, a councilman from 
Elmira, NY, who will tell us about how Elmira has dealt with a 
potential childhood cancer cluster associated with a high 
school there. He will be joined by Mr. Tim Tobin, who is a 
parent of one of the students diagnosed with cancer at that 
school. I want to thank both Mr. Hare and Mr. Tobin, who had to 
take off from school to be here. They're both teachers, and I 
appreciate their willingness to do that.
    Finally, we'll hear from Karen Joy Miller, founder and 
president of Huntington Breast Cancer Action Coalition, someone 
who herself has been diagnosed with breast cancer, but has been 
a leader, as we've heard from several already, in the fight 
against breast cancer on behalf of us all.
    I'd like to remind all of our witnesses today that everyone 
has a lot to say. We have a number of questions here that we 
want to be able to ask. So it would be helpful if you do your 
best to stay within the 5-minute guideline. You'll see these 
little lights up here, green means you're in good shape, yellow 
means you have a minute to go, and red means you're out of 
time. So do the very best you can. This is the same system we 
follow in the Senate.
    I can remember as a very new beginning Senator having the 
then-chairman of the Health Committee gavel me to be quiet. So 
I know that it's hard to get everything you need to say in a 
short period of time. But we'll do our best to do that.
    We have votes in the Senate tonight, so we'll need to make 
certain that this hearing is wrapped up no later than 1 p.m. in 
order for Senator Chafee and myself to make it back to 
Washington in time for the vote. Because of his added 
responsibilities as the new Assistant Majority Leader, Senator 
Reid will have to leave even earlier, because his 
responsibilities are such, he has to actually be on the floor 
when the Senate is in session.
    We'll take no breaks during this hearing. After each panel, 
we'll allow one question from the members, if they have any, up 
here. Then we'll go on to the next panel.
    Thank you very much for being here.
    Dr. Landrigan, please proceed.

    STATEMENT OF PHIL LANDRIGAN, M.D., MSc., ETHEL H. WISE 
PROFESSOR AND CHAIRMAN, DEPARTMENT OF COMMUNITY AND PREVENTIVE 
            MEDICINE, MOUNT SINAI SCHOOL OF MEDICINE

    Dr. Landrigan. Thank you, Senator Clinton, Chairman Reid, 
Senator Chafee and members of the New York delegation. I'm 
delighted that you're taking this interest in cancer and 
chronic disease, and I praise you for your leadership in the 
issue.
    Today the leading causes of illness and death in the 
American population are very different from those of 50 or 100 
years ago. A century ago, the big diseases were the infectious 
diseases--smallpox, cholera, yellow fever, measles. Today, as 
you have said in your opening statements, the big diseases are 
asthma, which has doubled in frequency, certain birth defects 
and of course, cancer.
    According to the American Cancer Society, more than a half 
million Americans, 550,000 Americans, are going to die this 
year of cancer. It's a major problem in our country, exceeded 
only by heart disease as cause of death. Breast cancer, as 
we've said multiple times already this morning, is an enormous 
problem. This year, across the United States, 182,000 cases of 
breast cancer will be diagnosed in American women, and also 
1,400 new cases in American men. The incidence of female breast 
cancer has increased by 40 percent since we started keeping 
national records in the early 1970's. The actual rate has 
increased per million women by 40 percent.
    I am a pediatrician, and I am very much concerned about 
pediatric cancer. Rates of incidence of pediatric cancer have 
increased in this country over the past three decades. There's 
a graph at the back of my testimony which shows that incidence 
has increased as mortality has gone down. The decrease in 
mortality is the good news. It reflects the fact that we've 
invested enormous dollars into devising treatments for cancer, 
but the bad news is the incidence is going up. Leukemia has 
increased by 12 percent since the early 1970's, brain cancer, 
which is the second most common form of cancer, has gone up by 
30 percent. In young men between the ages of 15 and 30 years of 
age, there's been an almost 68 percent increase in the 
incidence of testicular cancer.
    What are the causes of these increases that have made 
childhood cancer the third leading cause of death in childhood, 
exceeded only by unintentional injury and by homicide? What are 
the reasons? Some would argue that it's all due to better 
diagnosis, the fact that we have MRIs and CT scans enables us 
to detect cancers that otherwise we would have not picked up. 
I'm troubled by that argument. I've been practicing pediatrics 
for 30 years. My professional career spans the time in which 
this increase has occurred, and I really don't think we were 
missing a third of childhood cancers two and a half decades 
ago. This is a devastating disease, kids with cancer are 
terribly sick, they make it to the hospital, they come to 
medical attention. Perhaps better diagnosis has enabled us to 
pick up a few additional cases, but not 30 percent more.
    So what could be the responsible factors? I'm sure that 
diet and lifestyle have contributed to some extent. The viral 
hypothesis is certainly receiving active consideration. I doubt 
that it's genetic change, genetic change just doesn't happen 
that quickly. So that brings us to the environment. We need to 
give very, very serious consideration to the notion that toxic 
chemicals in the environment have at least contributed to the 
increasing incidence of childhood cancer, female breast cancer, 
and other cancers in this Nation.
    There are some 85,000 synthetic chemicals at loose in our 
environment today that did not exist in 1950. The chemical 
industry has been extremely ingenious at producing chemical 
substances. Unfortunately, they have not been nearly so good at 
testing these chemicals that they've produced. Fewer than half 
of the 85,000 chemicals that are out there have ever been 
tested to determine whether or not they have the capacity to 
cause toxicity or whether or not they have the capacity to 
cause carcinogenicity. Fewer than 10 percent of chemicals have 
ever been tested to determine whether they can be toxic to 
children and to human development. We need to do a much better 
job of chemical testing.
    What are some of the other things we need to do? We need to 
invest heavily in what's been called disease tracking or 
disease surveillance. Senator Reid, you mentioned this. We need 
to have sophisticated, intelligent systems in this country that 
can plot trends in disease, that can plot the geographic 
occurrence of disease, that can enable us to spot clusters 
early. We need to put more money into research that elucidates 
the causes of cancer. The overwhelming majority of our cancer 
research dollars have gone into determining and developing 
better treatments. Obviously money well spent, but now it's 
time to open a second front in the war on cancer and to 
identify the causes of cancer and seek ways to prevent cancer 
at its roots.
    I think the bottom line here is that cancer is indeed, as 
Congresswoman McCarthy said, ``a hideous disease,'' a terrible, 
devastating disease that destroys patients, destroys families, 
destroys communities. But it's also a preventable disease. 
We've not made the investment into cancer prevention that we 
must make in this country. It is time to do so. I commend you 
for convening this hearing today to look into the issue of 
cancer prevention. Thank you.
    Senator Clinton. Thank you, Dr. Landrigan.
    Dr. Todd, thank you for coming all the way from Nevada.

   STATEMENT OF RANDALL L. TODD, M.D., STATE EPIDEMIOLOGIST, 
                  NEVADA STATE HEALTH DIVISION

    Dr. Todd. Thank you, Senator Clinton, Senator Reid, and 
other members of the committee, for inviting me here today to 
share some information about our State's investigation into a 
cluster of childhood leukemia cases in Churchill County. I 
would like to provide you with a brief background and 
description of what has happened and is continuing to happen in 
Nevada and share some of the lessons we are learning that may 
be useful here in New York or elsewhere in the country.
    In July 2000, we were informed of concerns among the 
medical community in Churchill County that the number of 
recently diagnosed cases of childhood leukemia appeared to be 
unusually high. After confirming this, our initial 
investigation consisted of face-to-face interviews with each of 
the case families. We've also tested the water supply to each 
local residence where a case family lives or has previously 
lived. We used for these tests the battery of analyses that are 
required for public water systems under the Safe Drinking Water 
Act. Unfortunately, our water analysis to date has not revealed 
any results that would explain this cluster.
    After our initial data gathering was complete, we convened 
a panel of national experts from Federal agencies and academia. 
We asked these experts to review our processes and data and 
provide us with advice on further steps to take this 
investigation hopefully to some definitive answers. They 
continue to be convened and are guiding our processes.
    Given our rather bleak public health resources in Nevada, 
we found it was essential to utilize advice and resources 
provided through the Centers for Disease Control and Prevention 
as well as the Federal Agency for Toxic Substances and Disease 
Registry. I would like to comment on some obstacles that we 
have encountered and some lessons we are learning. A 
potentially serious obstacle to our ongoing investigation has 
come from the legal profession. We are now being challenged to 
provide copies of our data collection instruments as well as 
actual case data. These demands are coming at a time when we 
are just beginning to do what we call case-control studies. The 
danger here, aside from obvious concerns about confidentiality, 
arises when unofficial parallel investigators introduce 
informational biases into the study population that may blur 
subtle distinctions between case and comparison families that 
would otherwise have provided us with important clues.
    We have also experienced media sponsored investigations 
resulting in spurious connections among case families that are 
in our opinion over-interpreted, they are widely publicized and 
frequently result in panic among residents of the community at 
large. I believe these issues point to a need for some type of 
investigative privilege that would protect the scientific 
integrity of an ongoing public health inquiry.
    Another phenomenon that arises in high profile cluster 
investigations is the emergence of self-proclaimed experts who 
promise to find answers more quickly than public health 
officials. These experts all have a tendency to tell the 
community what they want to hear, create distrust between the 
community and public health officials, and cause a waste of 
resources as health officials investigate and attempt to dispel 
myths and misinformation.
    A lesson we have learned from this is that it is essential 
to keep the community well informed as to the progress of the 
investigation. Even seemingly mundane but necessary activities 
are of interest to the public and help concerned individuals to 
understand that the investigation is continuing. We conducted a 
public meeting for the community early on in the investigation, 
we established a toll-free hot line that people can call for 
information, and developed a web page with information that is 
specific to the investigation. These steps have not been 
enough. Consequently, we have begun to do weekly media 
briefings and last week conducted the first of what we expect 
will become a monthly open forum with the community. At our 
first open forum we had over 150 people in attendance asking 
questions for more than 2 hours. This is in a community with a 
little over 8,000 people. We also say that involvement of the 
local medical community in these meetings has been essential to 
building trust.
    One common question that is frequently asked by the public 
is whether they should move away from the area. Unfortunately, 
we cannot provide them with a science-based answer at this 
time. We have, however, been able to obtain State emergency 
funds that have been used to increase staffing by local mental 
health professionals. This provides a mechanism for individuals 
to receive assistance in making decisions in the face of 
scientific uncertainty.
    In closing, I would like to mention some things that might 
be done on a national level that could assist other communities 
facing a cluster of disease. First, because most children with 
cancer receive their definitive diagnosis and initial treatment 
at major cancer centers that may be located in a neighboring 
State, there can be significant delays in reporting to the 
central cancer registry in their State of residence. Some form 
of national cancer registration for childhood cancers at least 
would be very helpful in this regard.
    Second, a standardized national protocol from agencies such 
as the CDC and the Agency for Toxic Substances and Disease 
Registry would allow them to respond to State and local 
concerns more quickly. It has been exceptionally difficult to 
explain to an impatient public why it should take so long to 
develop a scientific protocol, have it approved by the 
appropriate committees for the protection of human subjects, 
and then implement it in the field. Having some things done in 
advance would go a long way toward minimizing this frustration 
in the community.
    I hope these remarks have been helpful. I would be pleased 
to answer your questions.
    Senator Clinton. Thank you very much, Dr. Todd.
    Mr. Hare.

   STATEMENT OF JAMES E. HARE, COUNCILMAN, CITY OF ELMIRA, NY

    Mr. Hare. Senator Reid, Senator Clinton, Senator Chafee and 
members of the House, I appreciate the opportunity to speak 
with you this morning.
    I have been a teacher at Southside High School in Elmira, 
NY, for over 16 years. I was at the school when it opened, left 
of a short period and have been back there since 1986. My son 
attended the school and graduated in 1997, and as a former 
Mayor of Elmira and currently a city councilman representing, a 
south side district, many of any constituents have a direct 
connection with the school.
    I believe there is a story to tell which should be of some 
interest to your committee. A logical question is why Southside 
now? The school stood there for 20 years, but for 20 years 
there have been questions, because the school is located on a 
former 83-acre industrial site, and the industrial site was 
demolished to build the school. There have been questions for 
years, but a number of things came together last year which 
made us decide to investigate.
    Neighboring Scott Technologies, purchased the property and 
have conducted a 4-month, $900,000 voluntary cleanup of 
materials at the site. According to newspaper reports, ``Tons 
of contaminated soil, storage tanks and equipment containing an 
alphabet soup of hazardous wastes were removed . . . that 
included removal of 2,000 cubic feet of contaminated soil, 
abandoned fuel and chemical storage tanks and electrical 
equipment containing polychlorinated biphenyls commonly known 
as PCBs.'' Other chemicals found and removed included arsenic, 
lead, zinc, cadmium and the solvents toluene, ethylbenzine and 
xylenes.
    The site was given a clean bill of health by the State as 
the work was done under the supervision of the New York State 
Department of Environmental Conservation. It should be pointed 
out that the contaminated soil ``did contain hazardous waste 
sometimes in levels 1,000 times higher than allowed by the 
conservation department.'' I have a copy of that report, this 
is the property right next to the school, and the school is on 
what used to be the rest of the plant.
    Also last year, NYSDEC completed an investigation of 
petroleum contamination initially found in the vicinity of 
Miller's Pond, just to the east of the school. The 
investigation began after a sheen in Miller's Pond was reported 
to DEC in 1995. The contamination is believed to have resulted 
from the activity of industries that previously occupied the 
area. The source of contamination was found to be under the gym 
at Southside High School. Bioremediation is being used now to 
clean it up.
    Finally, at a meeting of students in the school auditorium 
last year, organized to promote participation in the Relay for 
Life it was reported that six Southside students had cancer. 
That made 13 cases since 1997. I was stunned. I had known of 
cancer cases and two of my son's classmates were survivors, but 
six in 1 year was an eye-opener.
    As a teacher in the building, a parent and councilman, I 
wrestled with what to do. What we did is we pull together an ad 
hoc committee in my living room, consisting of Mr. Tobin and 
his wife, whose son currently is a survivor of testicular 
cancer, the Patros family, whose son graduated with my son, 
he's a survivor of testicular cancer, Mike and Luann Smith, 
whose daughter graduated with my son, and he is the emergency 
management director for Chemung County, and Dan Royle, the 
other councilman from Southside who has had two sons graduate 
from Southside and has another son planning to go there.
    We wrote a letter to the School Board posing some 
questions. Quite frankly, there had been discussions of this 
for years, and I was anxious as to why the school board didn't 
show any curiosity. But after our letter, they did, and they 
have been very positive in terms of their response.
    We met with Tom Kump, who is the Chemung County health 
director and was also a member of the school board member at 
that time. He has since resigned the position on the school 
board because he felt that was a conflict of interest in terms 
of this issue.
    One of the things that concerned us in the beginning, 
however, was the response of the New York State Department of 
Health, because as a quote from a staff member that said on 
April 14, ``We get a myriad of calls of this nature. We respond 
to all of them. But in order to prioritize it we need to review 
the facts to determine if it's an unusual type of cancer, the 
same type of cancer, the timeframe, and are there any logical 
explanations for what is occurring.'' That was April 14.
    On April 30, a State environmental expert commented that 
testing of the soil at Southside would begin for chemicals and 
contaminants similar to those found on the adjacent industrial 
site. Then one of the engineers stated that the conservation 
department never had any reason to believe there was metal 
contamination at the school.
    On May 2, after a preliminary investigation, State health 
officials said that Southside High School was not a health 
hazard to students. Headlines read ``High School Found Safe.'' 
These responses indicate that the bureaucracy has trouble 
responding, because they have to prioritize, that they have 
funds they have to come up with. Fortunately for Elmira, I 
think some quick pressure was put on, including a behind the 
scenes phone call by our chancellor of the Board of Regents, 
Carl Hayden.
    Our committee decided that we needed some experts to ask 
the right questions. The school district didn't respond, we the 
city took the role of a non-partisan observer. The city council 
courageously stepped forward and hired an expert lawyer, Craig 
Slater, from Buffalo, who had been involved with Love Canal and 
had done some environmental work for us. Working with our 
committee, he was able to provide expert analysis of what was 
going on. Our new superintendent responded by forming an 
advisory committee, which Mr. Tobin will talk about, to 
investigate it. Quite frankly, the community I think came 
together in trying to investigate this problem in a very open 
way. All meetings were open, the press covered it very well, 
surprisingly to some degree, the reporter doing the work was a 
former Southside student, our mayor is a former Southside 
student. So the community has come together, and as I think was 
perhaps alluded to previously, it has been a totally open 
process. While we can't answer questions the way many would 
like to have them answered, I do think the community feels a 
thorough investigation has been undertaken.
    Senator Clinton. Thank you very much, Mr. Hare.
    Mr. Tobin.

               STATEMENT OF TIM TOBIN, ELMIRA, NY

    Mr. Tobin. Senators Reid, Clinton and Chafee, members of 
the House of Representatives. My son, Michael, was diagnosed 
with testicular cancer on November 22, 1999. At that time, he 
was a 15-year-old sophomore who ran cross-country, track, and 
raced bicycles. Nothing I can say can describe the feelings his 
mother and I experienced when told, ``Your son has cancer.'' 
Michael underwent immediate surgery. On January 1, 2000, we 
flew to Indianapolis for additional surgery at the center where 
Lance Armstrong was also treated.
    Within a week of my son's diagnosis and first surgery, a 
parent whose son was diagnosed with testicular cancer 2 years 
prior contacted me. This father and I began a dialog about 
cancer and the oddities of this disease. It would not be long 
until a third young man would come to be diagnosed with 
testicular cancer. Researching National Cancer Institute Data, 
first to find information about the nature, treatments, and 
survivability of this cancer, and later to assess the 
``peculiarities'' of testicular cancer cases among young men 
led me to a startling discovery.
    The National Cancer Institute data for the occurrence of 
testicular cancer is between 3 to 4 cases per 100,000. Almost 
70 percent of these cases occur in men in their mid-twenties to 
early forties. Rates for people of Hispanic descent, such as my 
son, are less. The National Cancer Institute statistics, in 
addition to with what I would later learn about chemicals used 
in industrial manufacturing, led me to this conclusion: I had a 
greater statistical likelihood of developing testicular cancer 
than my son, unless there was another factor at play. Coupled 
with the growing awareness of other cancer cases, this was 
cause for concern and inquiry.
    Elmira, NY has been home to many former industrial sites 
typically found in northeastern cities. My son's high school 
was built on a site that had experienced 100 years of 
industrial use. During the years of manufacturing, some of the 
chemicals used and that are still present on the site include, 
but are not limited to PCBs, chromium, beryllium, arsenic, 
lead, nickel, zinc, phthalates and trichloroethylene. All of 
the above chemicals are known to, or believed to be 
carcinogenic.
    In evaluating the site various criteria was used to 
determine safety. Many of the chemicals in the soils at the 
school and in the industrial site that still stands right next 
door exceed acceptable human exposure limits from either the 
EPA or the New York State Department of Environmental 
Conservation. However, they were still determined to be safe. 
In many cases, the New York State Department of Health, in a 
preliminary draft of August 22, 2000, said exposure would not 
occur due to a ``well established grass cover.''
    I have also read recent studies on phthalates that have 
indicated that exposure to this chemical causes ``testicular 
lesions'' in lab animals. This was from the Center for the 
Evaluation of Risks to Human Reproduction. I also must question 
the inherent contradiction that this area is safe when several 
experts have repeatedly stated that we could not build this 
facility here today as it would not pass industrial standards.
    Nowhere in all of the data, studies, and reports from any 
of the different investigate or public health agencies, is 
there a mention that this site is on or directly contiguous to 
a DEC Class 2 Superfund site.
    I would submit that clear-cut standards of chemical levels 
and exposure levels be implemented across the board. Further 
discussion, such as issues raised by the U.S. News and World 
Report in its June 19, 2000 edition or measures recommended by 
the Center for Environmental Justice in its study ``Poisoned 
School--Invisible Threats, Visible Actions,'' needs to be 
engaged. Clean-up measures should be taken to meet these 
standards. Public notification of schools when an industrial 
cleanup takes place is a must.
    In September 1999, such a cleanup was taking place during 
school hours at the site next door to my son's school. I can 
only imagine the chemical exposure that children were 
unknowingly subjected to from this activity.
    I believe that industrial waste is a danger to humans. I 
believe that a more diligent, cooperative approach to fix the 
problem, rather than place blame, is needed. I believe that 
these substances are enhancing the risks and rates of cancer in 
our children. This is one risk that needs to, and can be, 
eliminated.
    I would like to thank the city of Elmira and its elected 
officials for the position and leadership they have taken on 
this issue. I would further like to thank all of the members of 
the committee for your interest in this matter. Thank you.
    Senator Clinton. Thank you, Mr. Tobin.
    Ms. Miller.

     STATEMENT OF KAREN JOY MILLER, FOUNDER AND PRESIDENT, 
         HUNTINGTON, NY BREAST CANCER ACTION COALITION

    Ms. Miller. There is no cancer-free zone. Our toxic 
environment affects each one of us, in fact, all of us.
    I'm very nervous about the 5 minutes, so I'm going to go 
right on to my point and then I'll try to give you some 
testimony. On Long Island here we work as a cooperative, so a 
lot of people have provided it.
    We're here to ask you, our valued representatives, to 
please take on some major new initiatives. There must be 
incentives to encourage environmental research. Breast cancer 
activists across the country have helped to raise multiple 
millions of dollars for research. But environmental researchers 
have been getting seriously shortchanged by funding agencies 
like the NCI. Breast cancer research must be more 
interdisciplinary and more focused on environmental 
contaminants.
    That research must be done with the active assistance of 
the breast cancer community. Government must improve its data 
bases so that scientists can do their work properly. Today's 
cancer registries are woefully inadequate. They do not collect 
the many forms of information that are vital to researchers. 
Work with us to improve these registries.
    We all need better information so that we can make 
healthier lifestyle choices. We need the Federal Government to 
provide information in a format that's easy to use and easy to 
understand.
    We also ask our Government to speak openly about the 
precautionary principle. It's no longer as simple as saying, 
get our mammogram, while our environment is being tested. We 
need honesty at a Federal level about the health risks we face.
    In 1994, the FDA recommended that doctors record in 
patient's files information to calculate the absorbed dose of 
radiation to the patient. Right now most doctors have no idea 
how much radiation their patients are exposed to. The fact that 
many of us see many different specialists compounds that 
problem. Please address this vital public health issue and 
remember that radiation is a proven environmental cause of 
breast cancer.
    Additionally, we need medical coverage for routine testing 
of toxic buildup in our bodies. Coverage must include viable 
treatments to cleanse the body should the results be positive. 
The successful elimination of lead from children's blood, as 
well as from the environment, serves as a good example. It's 
time to replace the policy of acceptable risk in industrial 
practices with actual risk-reducing regulations that are fully 
protective of public health.
    To date, the effects of groundwater on breast cancer have 
not been adequately researched. Many on Long Island are 
concerned that our water distribution systems increase our 
cancer risks, and this needs more attention.
    The Senate, we hope, will ratify the international POPs 
treaty dealing with the Persistent Organic Pollutants such as 
PCB's, chlordane and dioxins. The elimination of these 
contaminants must begin without delay.
    Good morning, I'm Karen Miller.
    [Laughter.]
    Ms. Miller. I have lived on Long Island for 33 happy years 
raising three children with my husband Michael. In 1987, that 
was the year our peaceful existence was shattered by the news 
of my breast cancer diagnosis. Thanks to the wonderful support 
of my immediate family, I was eventually able to regain my 
stability.
    Once on my feet, I was fortunate enough to find three other 
women in my town of Huntington who were willing to ask the 
vital question, ``Why?'' Together we started the Huntington 
Breast Cancer Action Coalition, whose first major project was 
to map the incidence of breast cancer within our township. We 
always knew that education equaled power, the power to create 
change. With that in mind, we set out to arm ourselves with 
solid information. We all read all we could, asked innumerable 
questions and along the way were lucky enough to meet the 
experts and learn from them.
    Breast cancer is a disease that has been puzzling us for 
centuries. We have come a long way in solving this puzzle but 
it is an undeniable fact that we have just begun the serious 
research into understanding the relationship between the 
toxicity in our environment and disease. Even though we are all 
hearing about the major breakthroughs in the fight against 
cancer, such as the completed Genome Project and the new wonder 
drug Gleevec, there is a long way to go before we can rest 
easy.
    Our efforts of our Coalition along with many grass roots 
groups nationwide have laid the groundwork by increasing the 
public's awareness of breast cancer. The growing number of 
women who have had regular mammograms is proof of that very 
effort. Yet, despite all this, rates of breast cancer have 
jumped since 1973 almost 40 percent. That's very serious cause 
for alarm.
    Earlier, I mentioned the mapping project initiated by our 
coalition. Please take a moment over here and look at the dots. 
Each of these dots, no matter what the color, represents a 
woman who is also asking the question, ``Why?'' She is willing 
to help any of the researchers with what they want to know. She 
is willing to disclose confidential information about herself, 
her medical history, her occupation, her lifestyle. She is one 
of the millions who want to know why.
    Our high-tech world makes our lives more comfortable and 
convenient by the day, yet that very same world bears 
responsibility for our toxic pollution. Industrialization has 
been at the core of our success as a society, but the price has 
been much too high in terms of our health.
    In the spirit of cooperation and community, we sincerely 
hope that your persistence and assistance during the next 4 
years will make a real difference in the fight against breast 
cancer. When I learned I had breast cancer in 1987, I was 
devastated, my family was devastated. Improved methods of 
protection and cure are essential, but certainly they are not 
enough. We must get rid of the root causes of cancer, all 
cancer.
    There is a growing body of evidence that supports our 
claims. Industrial toxins are killing us. Please help us to 
clarify our understanding and work with us to reduce our 
exposure to these awful chemicals that have become so pervasive 
in our community. In our hearts and in our minds, we know that 
change is possible, and we appeal to all of you in the next 4 
years to give us those changes. Thank you.
    Senator Clinton. Thank you very, very much.
    I want to thank all of the panelists. We just heard, I 
think, very eloquently how this is a problem and an issue that 
spans all of New York State and our entire country. Many other 
people who wanted to be here could not, and they have provided 
us with testimony that I can assure you will be read and 
analyzed.
    For example, I want to thank the Elmira School 
superintendent for sending additional materials regarding 
Southside High School. All of those materials will be included 
in the official hearing record. The hearing record will be open 
for 2 more weeks, and anyone who wants to submit written 
testimony can do so. It will also be included in the official 
record. The address for sending in written testimony is posted 
outside the room today.
    With respect specifically to Mr. Hare and Mr. Tobin's 
point, I have last week offered an amendment to the Education 
Act, which we are debating right now in the Senate, to do an 
investigation to determine the safety of our schools, to really 
put some dollars behind a Government investigation to find out 
what factors in the school buildings that our children spend so 
much time in might possibly harm their health, whether it's 
very bad and clogged insulation and venting and air 
conditioning systems, or asbestos, or the industrial chemical 
problems that both Mr. Hare and Mr. Tobin spoke of. We need to 
know the facts, because we entrust our children into our 
schools and we should know exactly what conditions might be 
there that could affect their health and then take action to 
try to remedy that.
    Now I'd like to turn to Senator Reid for his questions for 
this first panel.
    Senator Reid. Senator Clinton, thank you very much. The 
panel has been excellent.
    Dr. Landrigan, it's true, is it not, that children's 
central nervous system in their bodies is generally more 
susceptible to these elements that we talk about, the arsenic, 
cadmium and all these other things in the environment that 
shouldn't be there?
    Dr. Landrigan. Yes, sir, that's absolutely true. From 1998 
to 1993, I chaired a committee at the National Academy of 
Sciences that was given responsibility by the Senate to look at 
children's vulnerability to pesticides and other environmental 
chemicals. We concluded that children are not little adults in 
terms of their susceptibility to chemicals, and we said that we 
find that that susceptibility had a poor bases.
    First, children are more heavily exposed than adults. Pound 
for pound, children breathe more air, they drink more water, 
they eat more food, so they take more toxins into their bodies. 
Then of course, kids play on the ground, when they drop a 
lollipop onto the rug, when the rug has been treated with 
pesticides, when they pick up and lick that lollipop, they take 
the pesticides directly into their bodies, practices that most 
adults don't engage in.
    Kids are biologically more sensitive. Their nervous system 
is an extraordinarily complex entity. There are billions of 
cells, those cells have to move to their assigned positions, 
they have to establish literally trillions of connections. That 
whole developmental ballet, that whole choreography is 
extraordinarily delicate and easily disrupted. So if a child is 
exposed in the womb or in the first years of life to lead, to 
PCBs, to certain pesticides, to methyl mercury, the child can 
end up with loss of intelligence, altered behavior, and those 
effects can last lifelong.
    Also, children don't have the metabolic machinery that 
enables them to break down and get rid of toxic chemicals like 
pesticides. So the chemicals stay longer in their bodies.
    Last, the fourth reason why children are more susceptible 
is the simple actuarial fact that they've got more life ahead 
of them. They've got six, seven, eight decades of life ahead of 
them. So if the cells, for example, that are responsible for 
protecting the nervous system against Parkinson's disease, if 
those cells take a hit in infancy, nothing may show up for six 
decades. But the theory is now being actively explored that 
exposures earlier in life can lead to chronic diseases of the 
nervous system, such as Alzheimer's.
    Senator Reid. I knew the answer to the question, but I 
certainly couldn't articulate it as you have. Because when I 
was chairman of the subcommittee on this committee a number of 
years ago, when we had the majority, we were able to look at 
lead-based paint and what a terrible devastating effect that 
has on children. We looked at products that had an impact on 
children, which was significant, but also adults, alar, that 
they used on peaches and grapes and apples. We were able to get 
that withdrawn.
    I was so impressed with your testimony, because we had just 
started there on my subcommittee to look at how we handle 
chemicals in the environment. We so easily allow them to get 
into the environment, but it's almost impossible to get them 
out of the environment. If we determine a chemical is 
dangerous, we have no apparatus in the Federal Government, one 
that works well, at least, to get rid of that product. As 
you've indicated, there are tens of thousands of chemicals and 
we've only tested far less than 10 percent of them. So that's a 
real problem.
    We also see this Southside High School, how large is it? 
How many students?
    Mr. Tobin. We have about 1,100 students.
    Senator Reid. I've read the testimony. It's interesting 
that, for those of you who may not be aware, there's a pool of 
water, a lake or whatever you want to call that, it's called 
the pool that never freezes, because it's so heavily laden with 
chemicals. That's really unfortunate. Even a layman would have 
to think some of the sickness of these children is related to 
this building. I certainly think we need to help it some way, 
in taking a look at this.
    I'm also concerned about this tracking system we talked 
about, and Dr. Landrigan, you had mentioned it. With all the 
scientific apparatus we now have at our disposal, if there were 
directives from Washington saying that all cancer cases, and we 
could categorize them in some degree, had to be reported to a 
central system, that would help all you, isn't that true?
    Dr. Landrigan. Absolutely, sir. One of the problems we have 
in this country is that we have disease tracking systems for 
the infectious diseases that go back into the 1950's that are 
really pretty solid, for measles, for hepatitis, and more 
recently for AIDS. But by contrast, the tracking for chronic 
diseases, like cancer, like asthma, like birth defects, like 
developmental disabilities, is very scattered, weak and 
fragmentary. I would commend to you the report of the Pew 
Commission on Public Health, that Senator Wiecker chaired, the 
report was released a year or so ago. Dr. Lynn Goldman, who's 
going to be testifying later today, was staff to that 
commission. They've made some elegant recommendations about the 
importance of disease tracking in this country.
    Senator Reid. You would agree, Dr. Todd, that would be a 
tremendous help to this almost insurmountable problem you've 
found with the lack of resources in the State to do this heavy 
job that you have?
    Dr. Todd. Yes, I would, Senator, it would be very helpful. 
The one caveat that I would mention is that some of the 
information that would be useful to us in public health in 
doing these investigations is infrequently collected in the 
illness care system and hospital system. It's all been useful 
to know what the occupation or the usual occupation of the 
patient was. That may or may not be in the patient record. If 
it's not there, we can't abstract it and we can't generalize 
from the data as easily as we would like to.
    Senator Reid. One of the things I'm impressed with that is 
now beginning to occur in the State of Nevada, there's a very 
generous man in the State of Utah who's given more than a 
quarter of a billion dollars to the University of Utah Medical 
School. There's a cancer institute now established called 
Huntsman Institute. The reason I'm so impressed is that it 
shows a little bit of what can be done.
    As you know, in Utah, the LDS church has collected hundreds 
of millions of names of people for genealogical purposes. But 
it's my understanding, one of the things the Huntsman Institute 
is doing, in this cancer that they're studying, they go back 
and check out what happened to the father, the grandfather, the 
great grandfather, and determine if there's any linkage as far 
as the types of disease from which that person died. Now, some 
things like that would be helpful, is that a fair statement, 
Dr. Todd, Dr. Landrigan?
    Dr. Todd. Yes, absolutely, very helpful.
    Dr. Landrigan. Yes, sir, and the particular way in which 
they would help is that that kind of linkage study would enable 
researchers to look at the respective contribution of genetics 
and environment to the causes of cancer. Clearly, both 
contribute, most malignancy is probably a result of the 
combination of the two that occurs when a person with a 
particular genetic makeup is exposed to a particular 
environmental toxin. If you can trace back through the family 
and see that three generations ago, lots of toxic chemicals 
were not present, and compare that earlier experience with the 
experience today, the lessons could be profound, to really tell 
us what chemicals are doing.
    Senator Reid. Senator Clinton, can I ask a couple more 
questions, because I have to leave early? They can take my 
time.
    I have a couple of other questions. Dr. Todd, one of the 
things that we're being criticized you and I, in the State of 
Nevada, is we're not moving quickly enough. How do you respond 
to that question?
    Dr. Todd. Well, I sort of tell people that looking for 
causes, as we're doing, looking for scientifically, is 
something akin to trawling for fish out on a reef. You can only 
trawl so fast. We could put more power to the throttle and 
perhaps make the boat go 30 knots, but we wouldn't catch fish, 
if that was our objective.
    Good science sometimes takes a while to accomplish and get 
the correct answer. We have other people out there that are 
promising answers. I have no doubt they can find answers. I 
have doubts that they'll be the correct answers. I have little 
doubt that the answers they find will be connected to deep 
pockets. If that's your objective, then yes, you can move more 
quickly. But we're trying to do this quickly as the state of 
science will allow us to move.
    Senator Reid. Also, the State of Nevada, like many State 
public health agencies, are tremendously understaffed and 
under-funded. Is that a fair statement? I know you don't want 
to get fired for saying this, but the fact is, that's true. 
I'll state it, you won't have to answer.
    [Laughter.]
    Senator Reid. I would also ask Dr. Todd this. We now have 
the Centers for Disease Control, it's involved in the problems 
in the State of Nevada. We have the Agency for Toxic Substances 
and Disease Registry, we have the Environmental Protection 
Agency. From your contact with these entities, have they been 
helpful to you?
    Dr. Todd. They've been extremely helpful. They are the best 
and they have access to some of the best scientists in the 
world to bring the appropriate analysis to bear on the 
situation. As I mentioned earlier, though, the frustrating part 
is that we're sort of inventing this as we go along. While 
there has to be a certain amount of customization for a 
particular situation, having some of these protocols prepared 
in advance so that it could be more quickly implemented in the 
field would be useful and would be appreciated by the 
community.
    Senator Reid. That's one of the things the House members 
and the Senators are going to work on. If something happens 
like in Fallon or Long Island, Federal agencies have a system 
whereby they move in the same way every time and are not 
reinventing the wheel, like we've had to do in Fallon.
    Thank you, Senator Clinton.
    Senator Clinton. Thank you.
    Senator Chafee.
    Senator Chafee. Thank you very much, Senator Clinton. 
Probably the first warnings came in the early 1960's from 
Rachel Carson when she wrote her book ``Silent Spring,'' on the 
dangers of toxins and pesticides to our health. Of course, she 
did die of breast cancer. So it's been a long time, it's been 
40 years since then, we're still working on it.
    Ms. Miller, you've asked a few things of us, and I'll in 
return ask one of you. That is, we do have a bill that Senator 
Clinton and Senator Reid mentioned. It's legislation that would 
establish research centers to study the environmental factors 
that may be related to the development of breast cancer. The 
bill would enable scientists and researchers to conduct more 
comprehensive and conclusive research in determining the impact 
of the environment on breast cancer.
    Of course, all these bills have a number, this one is S. 
830, and it would require centers of excellence to collaborate 
with community organizations in the area, including those that 
represent women with breast cancer. As you mentioned, it's 
important to have consumer advocates involved in all phases of 
the program, which this bill does require.
    So I'll ask in return your help with S. 830, either in 
improving it, or if you're in agreement with it, in pushing it 
to make it law.
    Ms. Miller. Senator Chafee, thank you so much, Senator Reid 
and Senator Clinton. I am in agreement with that bill, but I 
would very carefully make sure that it is interdisciplinary. I 
am keenly aware, when we give money to research institutions 
that environmental researchers are seriously shortchanged. So I 
would ask you to really look at that issue and make sure that 
they get most of the pie. We have the technology now, we have 
the dynamics. We've got to keep the group working together. 
Thank you.
    Senator Chafee. Very good. I will mention, it does 
appropriate $30 million over 5 years, and we'll take your 
advice on making it interdisciplinary, try to achieve that.
    Also just note that as Senator Reid was saying earlier, 
that he's very unpopular with the farmers in Nevada. It just 
shows how difficult it is, because of course some of these 
chemicals are so helpful to them in growing their crops. It 
just shows some of the difficulties, as Dr. Landrigan said, 
they want to do more testing on some of these chemicals, but of 
course, there are those who are going to be opposed to that. 
That is some of the difficulty with what we're trying to 
accomplish.
    Thank you very much for your testimony.
    Senator Clinton. Thank you very much, Senator Chafee.
    Senator Reid. I would just say also, there's a little bit 
of water involved in my unpopularity, also.
    Senator Clinton. Part of the challenge, though, it's sort 
of a chicken and egg issue. We have to have the tracking system 
so we can gather the information to make the case, so that 
people who might otherwise say, why are you singling me out or 
why are you asking me to do something with this chemical, they 
will themselves be able to see the results.
    So I think that part of our real challenge is to get the 
information and then be able to make the case.
    Mr. Hare.
    Mr. Hare. I think that is important. A point I would like 
to make has to do with the investigation. When DEC came into 
Elmira, they did come in a little bit reluctantly. Their 
initial response, in my opinion, was somewhat cursory. It was 
the hiring of Craig Slater, I believe, by the city, that made 
the DEC more accountable and the school district.
    Now, we do not have, technically, a cluster in Elmira. I 
need to make that point. But in the DEC investigation, they did 
not even do a phase one in terms of where the operation of this 
plan had been, and the metals and the processes in the various 
locations. The city did that for them. The school district 
undertook some of that.
    I wanted to point it out, because we, in 1997, received a 
$200,000 brownfields demonstration title grant. The city has 
asked, and EPA Region II is considering a reallocation of a 
portion of the brownfields award to reimburse the city for part 
of its assessment.
    I think that is something, if it's not a matter of policy, 
you might want to look at that would allow communities a little 
flexibility here. Because certainly the cost of these things is 
an issue. While you're talking about tracking illnesses after 
they've occurred, investigating more thoroughly the sites, part 
of this goes to that, as well as to what other uses that 
funding is for.
    But I think helping to reimburse a community might make 
them more willing to undertake this. Because we have people in 
our community who are not directly impacted by the cancer issue 
who do believe maybe we've run the course here. We need to 
continue to push that.
    Senator Clinton. I appreciate your saying that. As I said 
when I introduced Senator Chafee, he played a major role in 
working out the bipartisan compromise on the brownfields 
legislation. He and Senator Reid really carried that. I was 
pleased that one of my amendments that would prioritize based 
on disease presence in an area, would give people the first in 
line priority for these brownfields dollars. Because it's not 
just that there is a brownfield site that needs to be cleaned 
up, but if there is a Southside High School or another site 
that seems to be associated with a prevalence of disease, that 
that would be the site that would get the first call on those 
dollars. Because I think we have to start linking our 
environmental cleanup and disease clusters.
    Congresswoman McCarthy.
    Ms. McCarthy. Thank you. Thank you all for your testimony.
    One of the curiosities that I always had, I'll go back Dr. 
Todd, when we see the clusters, not just the breast cancer, not 
just the prostate cancer, I'm often wondering, in those areas, 
because we know some of these chemicals can have different 
effects on different age populations, whether they're the 
youngest or the oldest. I'm just curious if we could do a 
tracking system in the future, that if you have a cluster of, 
say, breast cancer, how many kids do we have in that cluster 
also with leukemia? How many kids in that area? Then chemicals, 
this chemical.
    I just got the report on my water in Mineola. It was great. 
It tastes great. I can't even pronounce three pages of the 
stuff in there that make my water good.
    Now, I know all these things make my water better. How do I 
know if something in that ingredient is not having an effect on 
my body, because maybe I have an abnormality to that piece of 
material that's in there? This is where the legislation, as 
we're marking through, and through these hearings, I think we 
have to look. With the computers and the technology that we 
have today, I see no reason why we can't do the tracking.
    Now, obviously we're going to have outcries from the 
chemical industries. Listen, all these chemicals were made for 
reasons, hopefully, to make our lives better. We didn't know. 
We have to look at prevention. Because we are finding the drugs 
to cure us. But what caused it? That hopefully, through the 
legislation, are things that we have to look at.
    I happen to agree with you strongheartedly. Not only are we 
not diagnosing, but as a nurse, you're doctors, scientific 
people, kids are going to get sick, adults are going to get 
sick. We have an increase overall in what is causing it. I 
happen to think it could be a combination. Here on Long Island, 
it might be the water, maybe some planes flying overhead. We 
have to start looking at each and every and put them together. 
That's what the tracking, hopefully in the legislation that we 
can do on a Federal level.
    We will have a battle. As you said, there will be lawsuits 
out there. But again, I always look at it this way, at what 
cost is it to our country on the health care system if we don't 
make the strives. As I said, I'm not blaming anyone on this. I 
just think technology has gone very fast, and we don't know the 
whole issue on the body.
    Because I just see so much pain out there, breast cancer, 
prostate cancer, leukemia. Now we're seeing more and more 
higher levels of retardation. These things just come. There 
isn't a link. We on this table have in my opinion a moral 
obligation to work with the scientists and everybody else to 
come up with the reasons.
    So with that, I thank you again for hearing this committee 
and having a open dialog on this.
    Senator Clinton. Dr. Landrigan, did you want to respond?
    Dr. Landrigan. Just a quick comment, Congresswoman.
    Thank you very much for those remarks. I think there are 
three things that the Congress can help us with that speak very 
directly to the issues you've raised. First, we've already 
discussed, disease tracking. Second, we need to track levels of 
chemicals in the blood of Americans. The CDC released a report 
this spring showing that most of Americans, and they tested 
5,000 adults from all parts of the country, have traces in 
their bodies of at least 20 different chemicals.
    Twenty-five years ago the first chemical that we started 
tracking was lead. As soon as we realized that 99 percent of 
children in this country had elevated levels of lead in their 
body, we took a deliberate action, that is to say, we got lead 
out of gasoline, based on chemical monitoring. What has 
resulted has been a better than 90 percent decline in the 
prevalence of lead poisoning in this country, due to that one 
bold regulatory action.
    The third thing we need, and you spoke to it when you 
talked about the chemicals in drinking water, we need to have a 
right to know. People need to know what's in the air, what's in 
their food, what chemicals are being laid down in their 
communities and schools, neighbor notification laws, right-to-
know legislation, analogous on a national scale to Proposition 
65 in California.
    Senator Clinton. Thank you.
    Congressman Ackerman.
    Mr. Ackerman. I thank the panel for their great testimony. 
Following up on what you just said, Dr. Landrigan, the public 
does have a right to know. But what does the public do once 
they know? That's really an immediate problem that we face. 
Maybe I'll address this first to the members of the scientific 
community on the panel, both doctors.
    When a young couple makes a determination of where they 
want to live, they consider a number of factors. They consider 
the job market, they consider the school system. We are going 
to be developing very quickly nationally, based on this 
conversation we're having from your panel, the ability to make 
a determination about these clusters all over the country. How 
seriously should people take this?
    I know you're not in a policymaking position from this 
point, so I'll ask you a personal question, as a father, to 
another person, would you move into one of these communities 
that had very hot clusters of any numbers of things if you had 
a young family with young children?
    Dr. Landrigan. Well, I'm a pediatrician, a parent and now, 
thanks to the good work of my son and his wife, a grandparent. 
I'd be cautious. I realize that 99 percent of the time we never 
find a specific cause for a cluster. I've been involved myself 
when I worked at CDC in many cluster investigations. So I don't 
think the existence of the cluster per se means that the 
community is contaminated.
    But I would certainly take it as an input to my decision. 
We give people information about lead in homes and radon in 
homes and asbestos in homes. We tell them where the nearest 
high tension power line is. I think it's at least reasonable to 
make this information available and trust that people will make 
intelligent judgments.
    Mr. Ackerman. I think part of the problem is we're not able 
yet to make intelligent judgments because we don't know what 
the impact is. I think people would like to get some guidance, 
at some level or another, from somebody who knows, supposedly 
knows more than they do.
    Senator Clinton. Dr. Todd, what's your answer to that?
    Dr. Todd. You bring up, Congressman, a very important point 
in the area of risk communication. When you get a little bit of 
information without a lot of ability to interpret it, it 
creates problems and it creates panic within a community.
    In Fallon, for example, we have people that are considering 
moving to a neighboring community known as Fern Lake. It's 
maybe a half hour's drive away. It also is over a highway that 
has one of the worst collision rates on State roads. So they're 
trading a perception of lower risk by moving away from a 
cluster area for a higher risk on the highways as they make 
their commute.
    These are difficult things, and there really aren't good 
scientific answers to help people make those kinds of decisions 
right now.
    Mr. Ackerman. I realize that, and you said, good science 
takes a while. I wrote that down when you said that. Most 
people realize they have one life to live and want to make 
decisions in a proper manner. The situation, for example, in 
Love Canal, people were warned against that, but by the time 
they were warned against it, a lot of people, it was too late 
for them and their families.
    I'd like to ask the advocates, starting with Ms. Miller, 
what they think about this. We certainly don't want to start a 
panic or a rumor that you shouldn't move into certain 
communities. That's not the idea, because every neighborhood is 
going to have some problem or another. But there are certainly 
hot spots, as we've determined.
    Ms. Miller. You know, I wonder if we're over-using the term 
cluster. Actually, I think if you give it any name, it might 
cause some problems and panic. But actually, if you look 
specifically at the Huntington community or communities across 
Long Island that have done breast cancer mapping, these are 
people that are willing to say, start with me, you can come 
into my home, I'll tell you all about my lifestyle, I'll tell 
you where I grew up, where I work, I'll let you live with me as 
long as you hopefully can prevent the next generation from 
getting this disease.
    So basically, if we see a school or we see a block or a 
community, that's a really good place to start. We should 
downplay because cancer, while we're saying there might be 
areas of people that are wiling to be looked at and work with 
the researchers, that cancer has no boundaries. So we've got to 
go back to say, we live in a toxic environment, it's OK to say 
it, and the education has to come into how we can lower our 
risks in the air we breathe, the food we eat, the water we 
drink.
    So I think if we improve education and teach people how to 
be more proactive, I think we'll do a lot over the next year.
    Senator Clinton. Gary, I'm going to have to let you off and 
let Mr. Tobin answer. We're going to have to move on to the 
next panel, I've just been told we have to move.
    But I think it's fair to say we really appreciate what 
Karen just pointed out, that we find cancer everywhere. We find 
it in every kind of setting, along with other chronic diseases. 
I think the real key is to get the real information and not to, 
as Dr. Todd reminded us, create a panic.
    Because part of, it's ironic that we know the leading cause 
of cancer in terms of an environmental causation is tobacco, we 
still sell it, we still permit it to be advertised. We know 
people freely go out and smoke, causing all kinds of cancer, 
and I believe second-hand cancer. So these are very complicated 
kinds of issues, and I think we have to look at that and in the 
next round, of course, I'll start with the members who didn't 
get to ask a question.
    Mr. Tobin, how is your son doing?
    Mr. Tobin. Quite well, thank you. We expect a long, healthy 
life for him at this point in time, thank you for asking.
    If I may just address a few things that were mentioned a 
few moments ago, Senator Reid mentioned possibly the concept of 
a national reporting system. In the situation in Elmira, one of 
the problems, we have a community where a lot of our best and 
brightest get up and leave, not to return. In the year and a 
half since this has been going on, we had a young man drive in 
from Florida, 26, with cancer, we had a young man, 25, living 
in Texas, they may not appear in the statistics at all. New 
York has a reciprocal agreement with Pennsylvania, we're just 
north of the border, maybe 8 or 10 miles. So I think Senator 
Reid's suggestion of some type of national reporting system 
would work well.
    Ironically, some of the initial data that New York State 
put forth about the incident rates in Elmira, because of the 
nature or whatever of the reporting system, my son was not 
included in the statistics. He missed the cutoff date, I guess 
is what that would be.
    The second point, to Congresswoman McCarthy, about 
rethinking possibly how we put aggregates of cancer data 
together, one of the things that gnaws at me when I listen to 
it now and again is when someone says, this cancer is 
statistically insignificant. It really offends me as a parent 
that someone's child is statistically insignificant. Sometimes 
we get caught up in the world of science and overlook human 
beings.
    Following up on Congresswoman McCarthy's suggestion, if you 
look at, in our area, we've had a young man of 20 with colon 
cancer. We had a young man 28 with a rare brain cancer. We've 
had stomach cancers. They become statistically separate, 
because it's one case of this or one case of that. But if they 
become an aggregate, maybe there is something else. With the 
good doctors to my right here, that the young body does react 
differently, I think that also may be beneficial, to take both 
of your points. I would appreciate something with regard to 
that action. Thank you.
    Senator Clinton. I want to thank this first panel. It's 
done a wonderful job in setting the tone and providing us lots 
to think about. We will look forward to continuing to followup 
this in our work.
    Now I'd like the second panel to come and join. As they do, 
I'm going to be introducing them as they take their places. 
We're going to be hearing, on the second panel, from Dr. 
Marilie Gammon, who's the principal investigator for the Breast 
Cancer and Environment Study, part of the overall Long Island 
Breast Cancer Study project. She's here with us today from the 
University of North Carolina in Chapel Hill.
    We'll also hear from Dr. Ruby Senie, who is the principal 
investigator for the Metropolitan New York Registry of Breast 
Cancer Families, also part of the study project. She's here 
with us today from Columbia University.
    Gail Frankel is with us from Centereach, NY, representing 
the National Breast Cancer Coalition. Amy Juchatz is here from 
the Suffolk County Department of Health Services. We especially 
appreciate her participation. This is a wonderful opportunity 
for us to get a preliminary briefing about the breast cancer 
study project here on Long Island. But of course, the study's 
not finished. We know that there's a lot of data still to be 
analyzed. So I appreciate both Dr. Gammon and Dr. Senie coming 
to give us sort of a preliminary look at what they're finding.
    Dr. Gammon, would you please begin?

  STATEMENT OF MARILIE GAMMON, Ph.D., ASSOCIATE PROFESSOR OF 
  EPIDEMIOLOGY, SCHOOL OF PUBLIC HEALTH, UNIVERSITY OF NORTH 
                    CAROLINA AT CHAPEL HILL

    Dr. Gammon. Thank you, Senator Clinton, for your invitation 
to come speak. As mentioned, I am the principal investigator of 
the largest and most comprehensive of the projects in the Long 
Island Breast Cancer Study Project. The primary aims of that 
study are to look at several environmental contaminants, in 
relationship to the risk of breast cancer. In other words, 
we're trying to figure out, are there environmental 
contaminants that really can be linked to the cause of breast 
cancer.
    We have two classes of compounds that we've been examining. 
The first is polycyclic aromatic hydrocarbons. These are 
combustion products from incomplete combustion. Sources would 
be diesel fuel, tobacco smoke, among those who are cigarette 
smokers, and also components of the diet. When you barbecue 
your food, it's that black junk on the meat and vegetables. 
They are known carcinogens in rodents, but their effect on the 
breast in humans is unclear.
    The other class of compounds that we've been addressing is 
organochlorine compounds. These are persistent compounds that 
can be found in the body, they have a long half-life. They're 
things like DDT, its breakdown product DDE in the body. Another 
class of compounds that we're looking at is PCBs, which you've 
heard mentioned, and other pesticides including chlordane and 
dieldrin. All of those are measurable in the body, through 
blood samples. They're stored in the body's fat, and they have 
a half-life of about 10 years. So even though many of the 
compounds have been banned, they are still measurable in 
people's bodies.
    So for the study, we assembled a multi-disciplinary team of 
scientists in New York City and on Long Island. What we did is 
over a year period, we identified every case of breast cancer 
that was newly diagnosed in that year period. We identified 
some 2,000 women. We then got physician permission to approach 
the woman to interview her. We administered a 100-minute 
questionnaire in person. We also collected blood samples, urine 
samples, and samples of dust, water and soil among the 
subsample of women who had lived in their homes 15 years or 
longer.
    Simultaneously, we identified a group of control women 
without a history of breast cancer. This would be our 
comparison group. Again, we call it frequency match, in other 
words, the distribution of cases of women who get breast cancer 
predominantly are over age 50, something like 75 to 80 percent 
of women who are diagnosed with breast cancer are over age 50. 
Because age is a predictor of cancer, you want to make sure 
that the age range of women that we use as our control group is 
the same.
    So we made sure that the women that we randomly selected 
from the communities were of similar age distribution as our 
cases. We also administered the same questionnaire, collected 
their blood and urine samples, and among the subsample of women 
who were long-term residents of Long Island, we collected dust, 
soil and water.
    Many of those data have been analyzed in a laboratory. We 
have submitted three papers for publication that address those 
primary hypothesis. We are continuing to analyze the data, 
because it's a wealth of multi-disciplinary data. It is pretty 
unique.
    Another very unique aspect to this study is that we 
collaborated with the women activists on Long Island, including 
Karen Miller and many, many others in the group. That has been 
very interesting, and my first experience in working with 
activists and scientists.
    Thank you.
    Senator Clinton. Thank you, Dr. Gammon.
    Dr. Senie.

STATEMENT OF RUBY T. SENIE, Ph.D., PROFESSOR OF CLINICAL PUBLIC 
 HEALTH, MAILMAN SCHOOL OF PUBLIC HEALTH OF COLUMBIA UNIVERSITY

    Dr. Senie. Thank you very much for inviting me to the 
panel, to this hearing. I have prepared some slides and I would 
like to talk from them.
    Senator Clinton. I think they're going to drop a screen. 
There's a screen coming down.
    Dr. Senie. As principal investigator of the Metropolitan 
Breast Cancer Family Registry, I have had the privilege of 
working with many families on Long Island and Manhattan, and I 
will tell you, I'm very happy to have this privilege to tell 
you about the Family Registry and how it has five collaborating 
centers across, actually around the globe. Together, these six 
sites will be able to contribute greatly to studies of the 
environment and breast cancer.
    In New York, we have recruited currently 1,500 families, 
and we've just recently been renewed for another 5 years. We 
plan to increase the number of minority families. I look 
forward to showing you the sites at which the other registries 
are located. Notice Huntsman, we heard about from Senator Reid, 
Melbourne, Australia, Northern California Cancer Center, Fox 
Chase in Philadelphia, in Toronto, the Cancer Control of 
Ontario. Here we are in New York.
    The Metropolitan New York Registry includes the 1,500 
families. Our goals from all the six sites have been to bank 
data and biospecimens as a resource for family-based gene-
environment research, as compared to the case control study of 
Long Island. We recruit members of high-risk families through 
cancer registries, and through clinics. We're very careful to 
protect the confidentiality of our participants. We inform 
family members of our study findings and of additional research 
opportunities for them.
    Each family is asked to include three or more participating 
relatives, males and females; 18 is the youngest age, with or 
without a history of cancer. Deceased relatives can be included 
by a proxy questionnaire and tumor tissue.
    To enroll in the registry, we ask for maternal or paternal 
relatives to meet one of the following: a male with breast 
cancer, a female with breast or ovarian cancer diagnosed at a 
very young age, a female diagnosed with both diseases, or three 
or more relatives who are older in diagnosis.
    We ask each to sign an informed consent. We have a family 
history form that asks for all relatives in the family and 
their cancer history. We ask for personal health history, 
dietary intake, and we collect blood and urine samples. We also 
do an annual followup creating a cohort of families.
    These are some of our instruments used by the New York 
Registry. Each site has its instruments that overlap with the 
same questions.
    We protect confidentiality by assigning coded identifiers. 
We removed all identifiers from the personal information. The 
data is entered into our secure computer system, and then 
transmitted to a central data base in California. All six sites 
send their data together. The genetic information is protected 
to prevent employment or insurance discrimination. We received 
an NIH certificate of confidentiality.
    Benefits for participants include referrals for genetic 
counseling and testing, if they're interested. Participants are 
satisfied to be contributing to important studies. We 
distribute registry newsletters to participants with the latest 
research findings. I included one in the packet today. We hold 
seminars in Manhattan and on Long Island.
    An Ashkenazi component was added by the NCI after the three 
founder mutations were identified. The NCI provided the funds 
for recruitment, testing and counseling. Four sites 
participated, including New York, Philadelphia Fox Chase, 
Toronto and Melbourne, the sites where most Ashkenazi Jews in 
the six sites live. It's interesting that only 25 percent of 
the New York families asked for genetic counseling and test 
results.
    However, we do have quite a few carriers. This pedigree 
presents one family. Notice the family carries the mutation 
6174delT. One tiny component of the BRCA2 gene was deleted, 
which led to this family having this mutation. Notice the 
patient with the yellow and red lines. She has sadly been 
diagnosed with three cancers. So far she's fine, after her 
pancreatic cancer has been treated. She has also been 
successfully treated for breast and ovarian cancer.
    Notice her sister, a mutation carrier also, is free of any 
cancer. Her elderly paternal aunt, who is 83 years old, also 
has a mutation but no history of cancer. But that aunt's 
daughter has a mutation and was diagnosed with ovarian cancer. 
Another sister, an elderly woman at the time of diagnosis of 
ovarian cancer, is no longer living.
    This is a complicated slide, but notice on the left the 
boxes with red around them indicate the carriers among the more 
than 2,400 Ashkenazi samples tested across the four 
participating sites. There were 336 individuals with a 
mutation, 46 men, 289 women. Of those, 130 have no cancer. It 
is quite amazing. You see, we all know that the risk of cancer 
is higher, but it isn't an absolute. Notice in the bottom left, 
192 breast and ovarian patients who are among the carriers, 1 
male and 191 females. But to the right, 886 breast and ovarian 
patients in our registry, 11 men, 875 women. None of these 
participants have one of the known Ashkenazi founder mutations.
    We have the opportunity with the Registry to do much 
environmental research. We can compare Registry families of 
similar familial and genetic risks residing in very different 
geographic environments. We can study paired relatives who live 
apart as adults following shared childhood exposures. My sister 
lives in Paris, and sadly she's been diagnosed with breast 
cancer. We grew up in Rockville Centre, Long Island not far 
from here. I live in Manhattan and another sister lives in 
Florida. We don't understand what the factors are that affect 
risk in our family.
    We can also assess the biomarkers of exposure in the stored 
specimens. We have blood, urine and tumor tissue samples that 
may provide clues to adverse environmental exposures that may 
have occurred many years earlier. As technology advances, we'll 
have a better way of understanding the effect of early 
exposures that can be measured today.
    During our 5 years of renewal, fortunately we will be 
continuing until 2005, we will maintain the data base and the 
biospecimens we have, collect additional information for any 
new studies and assess additional exposures. We'll increase our 
minority family participation, expand the number of 
participants in each family, and conduct gene-environment 
studies, some of which are already underway. We will be 
expanding on those studies as new technology permits.
    Thank you very much for this opportunity. I'm sure the 
Registry of all six sites will continue to contribute greatly 
to environmental research.
    Senator Clinton. Thank you very much, Dr. Senie, for a very 
informative description of the very complicated research you're 
doing. I appreciate that.
    Ms. Frankel.

 STATEMENT OF GAIL FRANKEL, FIELD COORDINATOR AND ADVOCATE, ON 
 BEHALF OF THE NATIONAL BREAST CANCER COALITION, CENTEREACH, NY

    Ms. Frankel. Good morning. My name is Gail Frankel and I am 
from Centereach, and Brookhaven, Long Island, NY. I am an 8-
year breast cancer survivor. I am a volunteer with the Adelphi 
New York State Breast Cancer Hotline and Support Program.
    I am speaking to you today as a proud member of the 
National Breast Cancer Coalition. I would like to thank this 
committee for holding this hearing, and I would like to thank 
Senator Reid, Senator Chafee, along with Representatives Lowey 
Myrick, for cosponsoring the Breast Cancer and Environmental 
Research Act. Thank you especially to my Senator, Senator 
Clinton, for your support of this legislation and your 
commitment to this issue. Thank you to all the committee 
members for inviting me here to testify today.
    As you know, the National Breast Cancer Coalition is a 
grass-roots organization dedicated to ending breast cancer 
through the power of action and advocacy. The Coalition's main 
goals are to increase Federal funding for breast cancer 
research and collaborate with the scientific community to 
design and implement new models of research, to improve access 
to high quality health care and breast cancer clinical trials 
for all women, and to expand the influence of breast cancer 
advocates in all aspects of the breast cancer decisionmaking 
process.
    NBCC truly appreciates the fact that you are focusing on 
the issue of preventing this disease. We all wonder what causes 
breast cancer. I too have questions about what caused my breast 
cancer. Diagnosed at 53, I was told that even though my mother 
died at age 48 from the disease, my breast cancer was unlikely 
to be due to an inherited genetic defect since inherited cancer 
usually shows up at an earlier age in offspring. No other high-
risk factors applied to me. Did my diagnosis have something to 
do with where I live? The sad truth is nobody knows. There is 
no conclusive evidence about what causes this disease.
    As a volunteer for the Adelphi New York State Breast Cancer 
Hotline and Support Program, and as a breast cancer survivor 
myself, I understand all too well the concerns women in New 
York have regarding the possible link between the environment 
and breast cancer. While it is generally believed that the 
environment plays some role in the development of this disease, 
the extent of that role is not yet understood. NBCC believes 
that now is the time to focus our attention and public 
resources on developing an overall strategy to look at all 
aspects of this question. We can no longer afford to spend 
time, dollars and lives on isolated issues.
    It is with that goal in mind that NBCC convened its first 
Environmental Summit in September 1998. This summit brought 
together more than 50 experts, including scientists, advocates, 
government officials, and policymakers to begin developing a 
comprehensive strategy for studying the potential links between 
breast cancer and the environment. Participants came to this 
summit with many diverse perspectives. Some felt strongly that 
the environment is to blame for breast cancer. Others thought 
the cause is purely genetic. A third group believed that breast 
cancer is caused by some combination of the two.
    While the participants differed in their perspectives, they 
ultimately agreed that the lack of evidence about the 
environment and breast cancer highlights the need for further 
studies on this issue. Furthermore, the decision of which 
questions to research should not be made in a vacuum, rather it 
should be made as part of an overall strategy of looking at all 
questions, prioritizing them, determining where we have some 
answers, and moving forward from that point.
    That is exactly what the bipartisan Breast Cancer and 
Environmental Research Act is meant to achieve: a 
collaborative, coordinated, nationwide effort to address this 
issue.
    This legislation recommends a responsible approach to the 
questions around this issue by authorizing $30 million per year 
for 5 years to allow the National Institutes of Environmental 
Health Sciences to create grants for the development and 
operation of collaborative research centers to study 
environmental factors that may be related to the development of 
breast cancer. Under a peer reviewed grant-making process, 
modeled after the incredibly successful Department of Defense 
Breast Cancer Research Program, the NIEHS director could award 
grants to public or non-profit entities for the development and 
operation of up to eight centers for the purpose of conducting 
multidisciplinary research on the links between breast cancer 
and the environment.
    The legislation would require each center to be a 
collaborative effort of various institutions, companies and 
community organizations in the geographic areas where the 
research is being conducted, and includes consumer advocates. 
The enactment of such legislation would bring together a 
diverse group of entities, which would be able to take a broad 
look at the issue and develop a strategy based on differing 
perspectives. Like the support for the Department of Defense 
Breast Cancer Research Program, this legislation already has 
broad bipartisan support from across the political spectrum.
    We recognize that this is a unique approach to looking at 
the environment and breast cancer. But time and time again, 
scientists, advocates and policymakers have told us that what 
is needed is a coordinated, responsible, innovative strategy. 
That is exactly what this bill offers. We appreciate that you, 
members of the committee, have the courage and vision to 
support this innovative approach.
    Thank you again for the opportunity to testify today, and I 
would be happy to answer any questions.
    Senator Clinton. Thank you very much, Ms. Frankel.
    Ms. Juchatz.

   STATEMENT OF AMY JUCHATZ, HEALTH PROGRAM ANALYST, SUFFOLK 
              COUNTY DEPARTMENT OF HEALTH SERVICES

    Ms. Juchatz. Good morning. My name is Amy Juchatz. I am a 
toxicologist with the Suffolk County Department of Health 
Services, I'm in the Division of Environmental Quality. I'm 
somewhat new to the Suffolk County Department of Health. I 
apologize that Dr. Bradley, our commissioner, could not be here 
today, but I hope to answer your questions as best I can.
    Basically, the role of the Suffolk County Health Department 
in evaluating cancer clusters and investigating cancer clusters 
and looking into possible environmental factors is primarily 
supportive in nature. It is primarily the State Health 
Department that actually conducts the investigations, looking 
at cancer incidence and whether there is a cancer cluster, and 
then our role at the local level is to look at local issues, 
help them by conducting site visits, looking through county 
historical data, and if warranted, to conduct some 
environmental sampling.
    A good example of that is the Long Island Breast Cancer 
Study. We analyzed, our laboratory analyzed approximately 700 
drinking water samples and provided that analysis. We have a 
fairly extensive groundwater and drinking water monitoring 
program and we can analyze many contaminants, including over 
100 pesticides and pesticide degradance, which is a big effort 
within our department.
    I have also been asked to speak to you a little bit about a 
new task force that has been created in Suffolk County. Due to 
concerns of local citizens, the Suffolk County legislature 
created a rhabdomyosarcoma task force. I have brought with me 
my written testimony as well as the legislation and the 
resolution to establish that task force.
    If you're like I was a few years ago, you may never have 
heard of rhabdomyosarcoma. I also brought along a packet of 
information here from the American Cancer Society that 
describes what it is and tells a little bit about it. But 
basically, it's a rare cancer of the soft tissues, and it's 
primarily a cancer in children. I think over 90 percent of the 
cancer cases of rhabdomyosarcoma are in people less than 20 
years of age, and primarily at a younger age.
    The resolution outlines various task for our Suffolk County 
rhabdomyosarcoma task force. One of the primary ones is to 
develop a survey so we can better understand the incidence of 
rhabdomyosarcoma in Suffolk County, and as well to investigate 
the history, the incidence and possible causes, environmental 
factors of rhabdomyosarcoma.
    I hope that my brief presentation is helpful, and I would 
be glad to answer any questions you may have.
    Thank you.
    Senator Clinton. Ms. Juchatz, how many children have been 
diagnosed with rhabdomyosarcoma?
    Ms. Juchatz. It depends on what timeframe you're looking 
at. We have on average about two to three cases a year of 
rhabdomyosarcoma. There have been some years where there's been 
a little spike, and that of five cases. Overall, I think it 
really depends on when you start looking at that data.
    Senator Clinton. You've got now a task force formed to try 
to determine if there are any connections. Are you calling this 
a cancer cluster yet?
    Ms. Juchatz. Not yet. From the preliminary analysis, it 
actually looks like there is not a cancer cluster, but that may 
just be that we haven't looked close enough and hard enough. 
That's what the task force, along with the State Health 
Department, is doing.
    Senator Clinton. I thought it was important that we hear 
from a local health department, because this is really going to 
have to be a concerted effort by local, State and Federal 
agencies working together in a way that we never have to track 
and report on chronic diseases like cancers. It's going to take 
a whole new mind set.
    One of the previous witnesses, I think either Dr. Landrigan 
or Dr. Todd, pointed out that we have a good system when we're 
confronted by infectious disease. We have a reporting and 
tracking system, we have good cooperation between local, State 
and Federal health departments and agencies. We are only now 
focusing on the fact we need to do a comparable job when it 
comes to the chronic diseases.
    What someone like Ms. Juchatz does on the local level as a 
toxicologist is a necessary part of that chain of 
responsibility. So I thank you for being here.
    I want just to ask Dr. Senie and Dr. Gammon, you're in the 
midst of this important study and I thought your slides were 
just really helpful, Dr. Senie. Basically, is it fair to say 
that in your crafting of the genetic patterns with families, 
you are finding that there are some patterns, but there are 
also some unanswered questions, why would one sister in a 
family which has BRCA1, BRCA2, the kind of genetic marker for 
breast cancer, develop the disease, and others wouldn't. Are 
you suggesting that there may then be environmental factors in 
addition to the genetic factors at work?
    Dr. Senie. Yes, I think precisely, in addition to the BRCA1 
and BRCA2, we have many more common genetic factors, called 
polymorphisms, that I described in the written testimony that 
may be playing as important a role, if not more important. 
These may interact with BRCA1 and BRCA2 and potentially with 
environmental factors. I think we have to face the truth, that 
our bodies are very complex. Exposures that we can measure may 
be just scratching the surface, maybe there are a lot of things 
we haven't even thought about, and maybe some we really can't 
measure.
    Senator Clinton. Dr. Gammon, would you like to add?
    Dr. Gammon. Yes. Dr. Senie's project and my project in a 
sense are looking at very similar questions, but addressing 
them using different methodologies. By using the population 
base study like I'm doing, we take a sample of people, you're 
not selecting them thinking that they're going to have a 
genetic basis. Because although we believe that cancer is 
basically a defect of the genes, there are many things that 
come into play. They can be environmentally induced, they can 
just happen sporadically, we don't understand what's going on.
    As we know, the BRCA1 and BRCA2 gene actually account for a 
very small percentage of breast cancers, it's under 10 percent. 
That would be a very high estimate. So we do believe that it's 
the smaller genetic polymorphisms, in other words, the 
variations in how the genes vary from person to person, 
interact with environmental exposures to bring on disease.
    So strong components of both Dr. Senie's project and my own 
are to look at these interactions between what's happening 
genetically and what's happening environmentally. I think 
that's probably a very productive route to go, it's just a slow 
process.
    Senator Clinton. Senator Chafee.
    Senator Chafee. Thank you, Senator Clinton, once again.
    Dr. Gammon, you mentioned in your study that you benefit 
greatly from having experience of working with the activists in 
the field. I think that solutions to this insidious disease 
have been so elusive, that I think that's very important. 
Everybody that's been affected thus might have become an 
activist and highly motivated to find solutions and working 
with the scientists, I think is going to bear fruit. So I 
applaud you for that effort.
    Thank you for all the testimony.
    Dr. Gammon. Well, thank you. It's really interesting, there 
is a survey done out of Harvard where they showed that over 
half of the American public thinks that cancer, particularly 
breast cancer, is caused by environmental agents. Yet only a 
very small fraction of scientists believe that. So I think that 
without the interest of the activists, it would be slow going.
    People in the previous panel had stressed that 
environmental research, especially with regard to breast 
cancer, has not gotten much focus, and I think that's true. The 
effort of the Long Island Breast Cancer Study in general, all 
of the projects together, have been a major thrust in that 
area. So without the activists, I think we would be much 
further behind than we are now.
    Senator Clinton. I agree with that. I think the activists 
on breast cancer have changed our health care system for the 
better. Now we owe it to all of the survivors and everyone who 
is no longer with us to really do the work on the environmental 
connections that Ms. Frankel and others have spoken about.
    Congressman King.
    Mr. King. Thank you, Senator Clinton.
    I'd like to followup on this issue of the environment and 
issues that go beyond genetics or heredity. I know that 
personalized statements are not very scientific, I know 
anecdotal evidence is not very scientific. Just in my own case, 
I had grandparents that lived into their late 90's. I had aunts 
and uncles, 70's, 80's, 90's, there was not one incidence of 
cancer in our family. Yet my father and his two brothers died 
of cancer in their early 60's, my mother is a breast cancer 
survivor, I have a niece who has a problem with cancer.
    Having said all of that, I've spoken with any number of 
other families who have similar instances where there was no 
prior history of cancer whatsoever, and starting maybe with the 
people who were born in the mid-teens, early 1920's, it seems 
that that generation has a disproportionate number of cancers 
compared with the previous generations. It's not just that 
they're living longer, it's not that they're being better 
tested.
    It seems as the generations become more advanced, there's 
more incidence of breast cancer, prostate cancer, childhood 
cancers, rarer forms of cancer that haven't been heard of 
before. With all of the scientific testing that's being done on 
the breast cancer study on Long Island, and I'm certainly not 
trying to prejudge, I know all the work that's gone into it.
    But I would certainly hope that we could find it. Whether 
it's disciplinary findings or grants research, cross-checking, 
whatever, there has to be some environmental factor. There has 
to be something, whether it's the food, the chemicals, the air, 
the radiation, any number of factors--something has changed. 
It's not just people living longer.
    I ask if any of you can give us some concept about what you 
think this might be leading to or what you think might be 
there.
    Dr. Gammon. Let me clarify my statement about the 
interaction between genes and the environment, and maybe I 
could do a better job of explaining what I meant. My apologies.
    Mr. King. No need to apologize.
    Dr. Gammon. I think that as Dr. Landrigan pointed out, 
people's genetic makeups have not changed in that short period 
of time, that's impossible. But that certain people have a 
certain genetic makeup that may make them more susceptible. If 
the environmental exposure isn't there, then it doesn't matter 
if they're susceptible or not.
    So I think all along, there's been variation on how people 
are susceptible to cancer or not. But if the exposure is not 
there, they're not going to get it. That's what I mean by 
interaction, both agents have to, both the environmental 
component has to be there and both the genetic component has to 
be there. Studying of the environmental components happens to 
be very, very difficult. It's extremely challenging. We don't 
have the technology in a lot of ways to be able to measure in 
people's bodies a lot of the exposures. We're concerned about 
long-term exposures. So we may have the capability of 
determining what you were exposed to yesterday, but we believe 
cancer takes 10 or 20 years to develop. So we don't have a good 
way a lot of times to measure what happened 10 or 20 years ago.
    You're going to hear later testimony from the National 
Cancer Institute that one of the components of the Long Island 
Breast Cancer Study Project is a GIS mapping of historical 
exposures. We're hoping that by having this map, we'll be able 
to geographically recreate historically what a specific person 
were exposed to, and try to link that to their cancer burden. 
So part of the problem is that we're strapped by limits of 
technology, and as Dr. Senie said, as new technology develops, 
by having these banks of specimens and studies ready to go, we 
can capitalize on these new developments.
    So that's what I think both studies are trying to do, is 
being able to draw on the new technologies developed. The GIS 
system, no one has done the kind of extensive work that the 
National Cancer Institute is now taking the lead on doing, 
specifically for the Long Island Breast Cancer Study.
    Senator Clinton. Dr. Senie, do you want to add anything to 
Congressman King's question?
    Dr. Senie. Yes, I think we focus a lot of our discussion on 
the external environment. We have to also think about changes 
in some of our own behaviors. Some of the medications we use, 
maybe even the natural ones we really don't know how many of 
these agents affect our bodies over the long haul. Some studies 
that have been reported may need to be redone each time a 
medication, for example, oral contraceptives, or hormone 
replacement therapy, are modified. These are constantly going 
through evolution. Every time they change the formulas, the 
drug may have a different effect on an individual woman. That 
is one of the problems. The genetic polymorphisms, that I 
mentioned earlier, may affect how our bodies use estrogen.
    So for some women, the pill may have no adverse effect but 
for other women who carry a particular polymorphism, the pill 
may be harmful. This kind of association is now being studied 
in the registry of families. We even think pregnancy may have 
positive or negative effects on a woman's body.
    Mr. King. Thank you, Senator.
    Senator Clinton. Thank you very much.
    Congressman Grucci.
    Mr. Grucci. Thank you, Senator.
    Senator, I do have with me also a study and a report, 
testimony actually from Dr. Elinor Schoenfeld, from Stony Brook 
University, that I would like to make part of this testimony 
being done here today. As we all know, Stony Brook University, 
in cooperation with Acadia National Laboratory is doing some 
great research work on cancer and breast cancer detection. So I 
think this report can be very helpful to us all in dealing with 
this terrible disease.
    Ms. Frankel, I'd just like to ask you a question. Coming 
from Brookhaven, and as you probably remember, I was a 
supervisor there not too long ago, and we conducted a breast 
cancer study. I wasn't encouraged by the response that we got 
back, less than 40 percent of the surveys that were sent out, 
and I was told that we needed to have about 60 percent for it 
to have any kind of statistical reality to it.
    I was just wondering how we in Washington might be able to 
help you all in getting the information so we could have the 
information, then open up to getting that out to the people. Is 
there any suggestion you have to help us do the job better?
    Ms. Frankel. That's a tough question. Mainly because a lot 
of people are very private, and they don't want anybody to know 
anything about them or about their health. With the problem of 
privacy not being ensured, I don't know if you would get a lot 
of help.
    I did get your questionnaire and I sent it back 
immediately. I was actually thrilled to have gotten it, because 
I said, here's a man who's going to do something about breast 
cancer on Long Island. I didn't know why, you have just 
explained why it died away. But I think we have to ensure 
people's medical privacy if we want them to divulge it.
    Mr. Grucci. Then you probably remember from the survey that 
it was indeed drawn up by a medical professional and we tried 
to incorporate all those privacies into it. But this is a very 
significant issue, and we all really need to be prepared to do 
all that we can to make it happen, happen meaning finding a 
cure for this dreaded disease.
    I was a cosponsor of the environmental legislation that's 
being talked about here today. I think it's important that we 
try to find that link. I guess anyone on the panel might, if 
they could answer this question for me. When we speak in terms 
of the environment, what areas are we focusing on? Are we 
focusing on just groundwater, are we looking at groundwater and 
air, are we looking at the origins where people would come 
from? What is the definition of environment in terms of these 
types of studies?
    Dr. Gammon. I think scientists define the word environment 
maybe more broadly than the public does. So that would include 
the groundwater, it would include air pollution, all those 
things that I think the public views as their environment.
    But we also include things like dietary intake, medications 
you may have used, occupational exposures. So for instance, we 
did a migration study, and the migration studies have clearly 
shown that when women migrate from a low incidence area like 
Japan, where breast cancer is not very common, and the migrate 
to the United States to a high incidence area like Los Angeles, 
that their incidence rates quickly, within a couple of 
generations, approach that that's going on with Caucasian women 
in the United States, indicating that it's not genes, it has to 
be environment, either environment as Dr. Senie alluded to, 
changes in their diet, or changes in their environmental 
exposures. It's probably both.
    So that's to answer that question. I would also like to 
take the opportunity to comment on your comment, on several 
things that you said about confidentiality. As an 
epidemiologist, we're torn between the two worlds of wanting to 
have as much information as we can to be able to conduct our 
scientific studies, with as much heredity and accuracy as we 
can, and we also appreciate the patient confidentiality. So a 
lot of the laws that are getting passed or are being considered 
leave very restrictive and make it very difficult for 
epidemiologist to conduct research on the environment and 
cancer.
    So there's two different things going on in Congress. One 
is that trying to protect patients' rights, which is a very 
laudable goal, but it also hems, the way some of them are 
written, it would make it very difficult to conduct the kinds 
of studies that we are conducting right now.
    The other issue is wanting to figure out what causes 
cancer, and is it the environment. For that we will need 
registries. Registries record things a lot of people would 
consider invasions. So those two issues need to be brought 
together and resolved, both patients' rights taken into 
consideration and also the public's right to figure out what's 
causing cancer. So I wanted to comment on that.
    I do want to thank you for bringing up the study from Stony 
Brook, because they are collaborating and they have a project 
as part of the Long Island Breast Cancer Study Project where 
they're looking at electromagnetic fields. The women to be 
interviewed in our study, they went back to their homes and 
they took electromagnetic field measurements. So this group of 
women has been incredibly, this is a group of women who's 
proven that they are interested and want to know what's going 
on, whether the environment is contributing to breast cancer.
    Senator Clinton. By electromagnetic studies, you're talking 
about power lines?
    Dr. Gammon. Yes, exactly.
    Senator Clinton. Congressman Israel.
    Mr. Israel. Thank you. I'll just make a quick comment about 
the Federal role and then a question. With respect to mapping 
and registries, it seems to me that if the Federal Government 
has found a way to return a $300 or $600 tax rebate check to 
every single income tax filer in America this fall, they can 
also find a way to make sure that the broadest number of 
Americans receives these kinds of surveys, and also the 
research that we're doing. Where there is a will, there is a 
way.
    One of the running themes that's sweeping through both 
panels is that this challenge is so broad, and different 
organizations, research centers, scientists, are addressing it 
in so many different ways, breast cancer advocacy groups at 
Brook Haven, Huntington have done local geographic mapping. Dr. 
Gammon has conducted and is conducting her research as part of 
the Long Island Breast Cancer Study. The Suffolk County 
Department of Health Services is doing its site visits and 
analyzing historic data.
    I think it really points to the need to pass the Breast 
Cancer Environmental Research Act to create centers of 
excellence, and no region that I can think of is better poised 
for such a center than Long Island. We have SUNY Stony Brook, 
we have Cold Spring Harbor Laboratories, we have Adelphi, we 
have one of the strongest bases of biotechnology businesses in 
America. There is that unique convergence that would really 
benefit by these centers of excellence.
    But an indispensable partner in all this is the Federal 
Government. My question to all the panelists is, are we doing 
enough? In 1991, we budgeted a total of $133 million for 
biomedical research into breast cancer. This year we're 
budgeting about $524 million. It sounds like a lot of money. 
The question, pure and simple, is, is it enough, can we do 
better in terms of Federal investments into biomedical research 
for breast cancer?
    Senator Clinton. Dr. Gammon, do you want to start?
    Dr. Gammon. It does sound like a lot of money. But research 
takes a lot of money. I think one of the issues that we need to 
address, biomedical is a broad area. We're addressing things 
like health care, treatment, trying to find the cure. We're 
talking about today more about trying to figure out what causes 
cancer. That kind of research just doesn't get the big fanfare 
that a lot of times the treatment studies do.
    So I think that research costs a lot of money and it's very 
labor intensive. So yes, I think having more money is helpful. 
It costs a lot of money to do the Long Island study. 
Interdisciplinary research, research on a large scale, which 
gives it a greater validity, costs a lot of money.
    Senator Clinton. Dr. Senie.
    Dr. Senie. Truthfully, there needs to be some capped costs. 
We can't put all of our money into breast cancer, and yet 
obviously, many of us here are wishing that we had more to 
spend. I have to say that when you get into more complex 
studies such as ours, especially when genetics are involved, 
just to study BRCA1 and BRCA2 costs $1,200 under a special NCI-
NIH arrangement with Mariann Genetics, per sample.
    You take a family like the one I showed you, we could have 
chosen the wrong person to test, and we'd have a negative 
family. Just think of that, per family we get $1,200. I'm 
really torn about how to decide who in those 1,500 families to 
test. We will have somebody for genetic testing, but to do gene 
environment, you still have to know who are the carriers.
    Then to look for the polymorphisms, they cost a lot less, 
but maybe about $200 per polymorphism. There are hundreds of 
them. Probably, we'll never figure out all of it. So it's a 
very complex area.
    Senator Clinton. Gail?
    Ms. Frankel. Yes, of course we could always use more money. 
But I think under the circumstances, we have to use what money 
we can wisely. That's why we think the NIEHS will do such a 
great job, $30 million a year is not a lot in the scheme of 
things, and it would be used wisely. In fact, going back to 
Representative Grucci's question about what constitutes the 
environment; his question is set up in the bill we're 
supporting. The plan is to start with what questions to ask, so 
we don't go all over the place and just throw the money away.
    Senator Clinton. Ms. Juchatz.
    Ms. Juchatz. I'd like to reiterate again, we can always use 
more money. There's more things that we can do. But again, I 
think it is important that you look at it wisely and in a 
larger scheme and make sure we're refunneling it at the 
appropriate place.
    But one thing to mention in terms of environmental factors, 
when we go in and take a sample of groundwater or soil or even 
a blood sample, we're kind of looking at a snapshot in time. As 
was mentioned, we're looking at cancer maybe taking 10, 20 
years to develop with that latency period. So the question we 
really want to answer is what were they exposed to 10 or 20 
years ago. That's a hard one, really, to get at.
    I think maybe something that may develop in later time is 
more a perspective study when we start looking at people 
without breast cancer and looking at their environment and 
following them through and seeing who develops breast cancer 
and if there is some correlation then between environment. But 
it's a difficult thing to grab hold of.
    Senator Clinton. I want to thank this panel. It's been so 
helpful. One of the real issues that you've raised is how to 
direct scarce dollars toward different kinds of research. We 
have been very generous in funding the National Institutes of 
Health, NCI and other related agencies. But we haven't gotten 
enough dollars going into this kind of research. So we need to 
take a hard look at what we're doing and how better to direct 
the other research dollars we do spend.
    I thank this panel, and now I'd like to introduce our third 
panel, which consists of representatives from a number of our 
Federal agencies. They are on the front lines and they also 
have specific ideas that go directly to Congressman Israel's 
question about, what we could do to better direct our dollars. 
How can we make this the national priority that it needs to be? 
One of the arguments that's being made now is that in addition 
to directing money at specific diseases like breast cancer, we 
need to put more money into general, basic scientific research 
and medical research. If you have a preordained idea about what 
you're looking for, you might miss some very good leads that 
come from more general scientific research.
    So I think there are lots of issues about what we need to 
be doing here, and this final panel has, I think a lot of at 
least potential answers for us. I'm very grateful that all of 
you could be here. Some of you have traveled from long 
distances. I understand Dr. Jackson, who will be our first 
witness, changed his travel plans because he cares so much 
about this issue and what we should be doing as a Nation.
    Our first witness will be Dr. Dick Jackson, director of the 
National Center for Environmental Health at the Centers for 
Disease Control and Prevention. He will be followed by Dr. 
Deborah Winn, acting associate director of the Division of 
Genetics and Epidemiology at the National Cancer Institute. 
Then we will hear from Dr. Sam Wilson, deputy director of the 
National Institute of Environmental Health Sciences, and he 
will be followed by Dr. Lynn Goldman from the Bloomberg School 
of Public Health at Johns Hopkins University, who is part of a 
very important study done by the Pew Charitable Trusts about 
tracking chronic diseases.
    Each of the panelists who appears on this third panel has 
devoted many years to public service and have taken some of the 
toughest jobs in our Government, trying to keep us healthy, 
trying to send up the warning signals when we weren't doing 
what we should be doing, grappling with very difficult issues. 
I personally want to thank each of you for your public service 
and for being part of our national public health system, which 
deserves more attention and more resources because of the job 
that it does.
    So with that, let me call on first Dr. Jackson.

   STATEMENT OF RICHARD J. JACKSON, M.D., M.P.H., DIRECTOR, 
 NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, CENTERS FOR DISEASE 
CONTROL AND PREVENTION, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Jackson. Good morning, Senator, good morning, members 
of the committee. Thank you for inviting CDC to testify at this 
important field hearing.
    I'm joined in the audience by Dr. Marian Mandel, from the 
Division of Cancer Prevention and Control at CDC. If there are 
specific questions about the registries, I would ask for her to 
be able to join me at that time.
    I will submit my full testimony for the record and just 
highlight comments that need to be added here.
    The critical message that I want to convey here is that 
looking at cancer cluster risks in isolation from disease 
tracking and from environmental tracking will ultimately fail. 
It has to be a seamless system where this is all connected 
together.
    Up until now, in many ways, we've had almost a chasm 
between the world of environmental tracking, and the world of 
disease tracking, between what is going on in the environment, 
what is actually going on in the environmental regulatory world 
of engineering and toxicology testing, and what is going on in 
the medical world. Studying environmental health hazards is 
very hard. I've done many of these field investigations, you go 
into communities that are very upset, rightfully so; they're 
very concerned and there's a lot of media presence. You're 
trying to answer questions about something that happened 5, 10, 
15, 20 years before in terms of people's exposures.
    A sister agency to NCEH, NIOSH, the National Institute of 
Occupational Safety and Health, have an advantage in the sense 
that they go into a workplace where there might be records of 
what people were exposed to, and they can find out who worked 
in that particular setting. When we go into an environmental 
investigation, oftentimes we're really trusting people's 
memories, there's very poor record keeping of what goes on. 
Oftentimes, people are suspicious of telling the Government 
where they were or what they were exposed to or what they did.
    So these are very difficult investigations, but we've 
brought some new tools to it. I will touch on those as I go 
along.
    One thing that's very hard to explain to the public as one 
gets into disease cluster investigations is that almost 90 
percent of the time when you go into a cluster, it really is 
not a cluster. Cancer is a common disease, about one and a 
quarter million people develop non-skin cancer every year, 
about a half million die of it. So when you actually look at 
patterns in a population and compare it to the cluster you're 
looking at, the cluster kind of disappears.
    For those clusters that are investigated and where we do 
identify a statistical increase, most of the time we still 
don't find an environmental cause. But that's interesting and 
in contrast to what the public believes. We human beings 
understand that when we see something, it's an effect of 
something around us. I'm convinced that in the public's mind, 
disease clusters are environmental until proven otherwise. 
Simply waving your hands and saying, ``oh, well, it will never 
pan out,'' is completely unsatisfying to members of the public.
    But also if you go into a disease cluster or cancer cluster 
investigation, you need to start the environmental 
investigation at the same time, and not wait months or even 
years to start the environmental investigation. That isn't to 
say clusters are all environmental, it is to say that 
environmental concerns are always a part of the community's 
concern. You have to deal with that concern and try to give 
answers to questions.
    Now, the problem is that most State health agencies are 
very weak when it comes to environmental epidemiology. Senator, 
as you mentioned, the commitment I had today was to go to the 
State epidemiologists' meeting, and I will be going to that 
after this. State epidemiologist have voted in repeated 
resolutions about their need to have serious epidemiologic 
capacity in environmental health. It's great to have collected 
environmental data, it is great to have collected cancer data. 
But you've got to have someone smart, who can answer a 
question, who can speak in a language that human beings can 
understand, who is able to be that ``intake'' person. I was 
very impressed and have been very impressed with Dr. Todd of 
Nevada, that he's been able to stand these two very difficult 
roles very well. But these are not easy issues.
    I would say that in the last five meetings, I've gone to 
the State epidemiologists, they have roundly pressured me and 
criticized CDC for not providing a training program, a pipeline 
for State epidemiologists, people who can understand both of 
these roles and speak the language of both sides. I think we at 
CDC owe it to the States to help them provide this.
    We need different elements to deal with the environmental 
elements of the clusters. We've got to be able to track what's 
going on in the environment. I would assert that EPA has done a 
very good job of figuring out what's in the air, what's in the 
water and what's in the food. We know pretty well what's in the 
environment. We have been much weaker at knowing what's in 
human beings.
    This is the report that CDC came out with in March; it is 
our down payment on a review of 100 different chemicals 
residing in the bodies of the American people. Every year CDC 
goes out and we test, actually put our hands on, 5,000 people, 
draw blood, urine and other specimens from them. This report 
from the 5,000 people we sampled in 1999 documents body burden 
levels of 27 chemicals in the American people. It documents a 
75 percent reduction in tobacco byproducts in non-smokers.
    Senator Clinton. That's good news.
    Dr. Jackson. It's very good news. In fact, having good 
data, real data on the population, will point us to some 
situations that are good news. In other situations, it's going 
to point where we need to put more strength. For example, we 
found higher levels of certain plasticizing agents, called 
phthalates, in women of reproductive age, higher levels than 
one would have predicted in advance of doing this study.
    The second use of having this biologic data is that 
researchers, such as the individuals you just heard speak in 
the earlier panel, need to have background levels of what's in 
the population. Not to say that these chemicals are normal, but 
a community wants to know, are we different from any other 
community in America? You've got to have those levels on the 
overall population if you want to answer that question.
    The third element is disease tracking capacity, such as 
cancer registries, birth defect registries. There again, you 
have to speed their getting in place. There are other disease 
registries around neurological diseases that I think the public 
is very interested and concerned in. I know we public health 
researchers are as well.
    I think my closing comment is that I hope that whatever is 
done to address this issue of clusters, that it not be 
stovepiped, that there be an effort to connect these various 
elements together in a rational, useful way. It really makes a 
difference in people's lives when the local health departments 
work, they're the ones that were there in the cluster area long 
before it occurred, they're going to be around long after it 
occurred. The same is true with State health departments. Let's 
build that infrastructure, let's make those people more 
competent to deal with these problems.
    I think that's the message I would like to leave with you 
today, and thank you for inviting me.
    Senator Clinton. Thank you very much, Dr. Jackson. I really 
appreciate, while we're waiting for the screen to come down, 
Dr. Jackson's pointing out the CDC biomonitoring study. Do you 
have any extra copies of that, Dr. Jackson? I think we want to 
be sure we get copies to at least all the members of the panel, 
so that they can see the work that is being done, to know what 
our internal environment looks like.
    Dr. Jackson. Yes, Senator, we'll get them.

 STATEMENT OF DEBORAH WINN, Ph.D., ACTING ASSOCIATE DIRECTOR, 
EPIDEMIOLOGY AND GENETICS RESEARCH PROGRAM, DIVISION OF CANCER 
  CONTROL AND POPULATION SCIENCES, NATIONAL CANCER INSTITUTE, 
 NATIONAL INSTITUTES OF HEALTH, DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Dr. Winn. I want to thank you for inviting me today and for 
giving me an opportunity to talk to you about NCI research on 
cancer, genes and the environment.
    Today, I will cover NCI's approach to cancer surveillance, 
the Long Island Geographic Information System Project, and 
NCI's strategic plan for research investment in genes and the 
environment. Many chemical, physical and biological agents in 
the environment, such as ultraviolet radiation, toxic 
substances, and viruses, have the potential to increase the 
risk of cancer. However, the scientific community, as you heard 
earlier, usually thinks of the environment as having a much 
broader scope.
    It includes, to us, not only the physical, chemical and 
biological environment, but also lifestyle behaviors, 
medications and occupation. People are often exposed to many 
factors simultaneously, or may be exposed to some carcinogens 
in many forms. For example, exposures to the carcinogen 
benzo(a)pyrene may come from air, tobacco, diet and occupation.
    Geographic patterns of cancer occurrence may provide 
important clues to the environmental causes of cancer. NCI has 
two programs to help identify geographic areas of high cancer 
risk. The Surveillance, Epidemiology, and End Results Program 
provides a picture of cancer incidence, mortality and survival 
in 13 States and major metropolitan areas. The NCI's Atlas of 
Cancer Mortality, which you see here, contains maps, text, 
tables and figures showing the geographic patterns of cancer 
death rates throughout the United States from 1950 to 1994, for 
more than 40 cancers.
    The NCI has used the atlases to generate leads for in-depth 
epidemiologic studies that have in the past shed light on 
factors contributing to cancer risks. We expect to develop new 
leads from the most recent cancer maps.
    Here the slide from the atlas shows mortality rates from 
1970 to 1994 by State economic area for cancer of the breast. 
The deepest red areas are those with rates in the top 10 
percent of U.S. rates. The maps show very clearly the high 
breast cancer death rates among white women in the northeastern 
United States. The pattern is not the same for black women.
    Dr. Winn. To understand the reasons behind these high 
breast cancer rates, the Long Island Breast Cancer Study 
Project was initiated. The Long Island Breast Cancer Study 
Project consists of more than 10 studies of breast cancer, 
including human population studies, the establishment of a 
family breast and ovarian cancer registry, and laboratory 
research. Earlier you heard from Dr. Senie and Dr. Gammon.
    The project also includes the Long Island Geographic 
Information System (GIS-H). Geographic information systems are 
powerful computer systems for mapping and analyzing 
relationships over time and space between multiple layers of 
data. The Long Island GIS-H will include more than 80 data sets 
containing information on a wide range of environmental and 
health data for Suffolk and Nassau counties integrated into a 
single system. It will have researchers' tool boxes, with the 
software and statistical tools needed to analyze the data, and 
a web site including a mapping facility. The public mapping 
facility will be available early in 2002, if not before.
    The system includes data on contaminated drinking water, 
hazardous municipal waste, electromagnetic fields, pesticides 
and other toxic chemicals, and indoor ambient air pollution.
    The Long Island Geographic Information System will provide 
researchers a new tool to investigate relationships between 
breast cancer and the environment in Suffolk and Nassau 
counties, and to estimate exposures to environmental 
contaminants. The public will be able to use the web sites to 
examine patterns of environmental exposures and breast cancer.
    There is often a tendency in cancer research to focus on 
genes and cancer or the environment and cancer, but we're 
learning it's more complicated than that. Some cancers are 
associated with defects in one or a few genes. However, most 
cancers involve many genes. Individuals may inherit defects in 
these genes, or they may experience environmental exposures or 
other circumstances that cause gene mutations, which are 
changes in gene structure. If alterations occur in genes that 
control such functions as metabolism of carcinogens, DNA 
repair, or metabolism of nutrients, then cellular processes may 
become abnormal.
    Even among individuals who have inherited cancer disposing 
genes, like the BRCA1 gene, the risk of developing cancers 
appears to be modified by genetic and environmental factors. So 
the interaction is important.
    It then becomes important to understand the relevance of 
these complex interactions to people. Can we predict an exposed 
person's risk? What is the impact of predictive testing and 
cancer risk assessment on individuals and their families?
    Opportunities now exist to determine how variations in 
genes combine with environmental and other factors to induce 
cancer in the general population. NCI has developed a strategic 
plan to discover the genetic and environmental and lifestyle 
factors and their interactions that define cancer risk, and 
develop new strategies for early detection and treatment.
    Finally, the objectives of this initiative on genes and the 
environment are to identify new environmental risk factors and 
susceptibility to genes and determine their interactions in 
cancer causation, refine cancer risk models, and to develop 
other tools to conduct studies to address clinical and 
behavioral and societal impacts, such as whether women who 
inherit the BRCA1 gene should take hormone replacement therapy.
    By marrying the study of the distribution and the 
environmental causes of cancer, and cutting edge genetic and 
related molecular technologies, we should be able to design new 
approaches to preventing cancer. Thank you.
    Senator Clinton. Thank you very much, Dr. Winn.
    Dr. Wilson.

STATEMENT OF SAMUEL H. WILSON, M.D., DEPUTY DIRECTOR, NATIONAL 
           INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES

    Dr. Wilson. Thank you for inviting me to discus the 
influence of environment on human health. The goals of 
environmental health and environmental health research are 
establishing and maintaining a healthy, livable environment for 
humans and other species, and promoting an environment that 
improves well-being in all aspects of mental and physical 
health. This environment must be sustained into the future, and 
be a setting in which population growth and manufacturing and 
agriculture can thrive.
    We all recognize that many important achievements have 
helped create a healthier, cleaner environment. Our past 
research strategies have allowed many successes in 
understanding mechanisms of environmentally-linked diseases. To 
continue making strides in the future, we will need to focus on 
the interplay of genes and environment. It is this interplay, 
of gene-environment interactions, that holds the greatest 
promise in the fight to prevent and control environmentally-
related diseases, including cancer and other chronic diseases.
    This is the main point I want to make today, this point 
concerning gene-environment interactions. There are two recent 
advances in the field of human genetics on one hand and 
environmental health on the other that define our future 
research strategy. First, we now have the sequence of the human 
genome in hand. We are beginning to understand the individual 
to individual variations that modify susceptibility to disease.
    Second, we are now working with an expanded definition or 
view of environmental exposures that includes diet, lifestyle, 
socioeconomic factors, and other factors including 
environmental pollutants. This expanded view of environmental 
factors will allow us to conduct more meaningful studies of 
environmental contributions to disease in the future.
    The research model of understanding a relatively rare but 
strong disease gene or a strong environmental toxicant has 
served us very well in the past in defining the molecular 
biology of disease and in prevention. However, this model will 
not be sufficient to address the more common diseases, since 
only a small percentage of disease can be attributed to the 
rare dominant disease genes, or to the high level and very 
strong toxicants. Instead, new science and a new scientific 
tool box will be needed, along with more research involving 
common genes that modify an individual's response to 
environmental factors.
    Fortunately, the genomics era will provide us with this new 
tool box. Along with the expanded view of the environmental 
factors, the field of environmental health research has an 
exciting new opportunity.
    I will now very briefly describe some of the work pointing 
to the role of the environment in major diseases, and how 
understanding gene-environment interactions will improve our 
ability to prevent disease. In the past few years, we've seen a 
number of studies that illustrate the importance of the 
environment. For example, by comparing disease rates in twins, 
scientists have managed to tease apart the relative 
contributions of environment and genes.
    We now know that environment accounts for over 50 percent 
of cancer risk, depending on the site of the cancer. Twin 
studies of Parkinson's disease reveal that environment accounts 
for 85 percent of the risk of the late onset cases of this 
disease. For autoimmune diseases, such as MS and Lou Gehrig's 
disease, environmental factors account for 60 to 75 percent of 
the disease risk.
    But the environment, even though it is a major determinant, 
is not the only determinant. Two people with the same exposures 
and the same environmental history can have a very different 
outcome concerning diseases. Differences in susceptibility due 
to variations in genes, individual variations in a gene's 
coding for proteins that are critical in the body's response to 
environmental stress, account for these individual differences. 
These proteins include metabolism enzymes, DNA repair enzymes, 
as we've heard, signaling molecules, and receptors, among 
others. Someone inheriting a gene that produces a weak or 
ineffective form of one of these proteins will be more 
susceptible than a second person inheriting a gene that makes a 
more effective protein. This is because the first person might 
be less able to break down or handle a toxicant and/or the 
repair of a specific cellular damage will be less efficient.
    Thus, understanding the combination of these modifier genes 
and the specific environmental exposures is critical in 
understanding the causes of disease. Neither factor acts alone, 
but it is the two interacting or acting in concert.
    In conclusion, I will say that preventing disease is now 
the most important service of public health policy. The most 
effective way to prevent disease is to understand the cause and 
change the conditions that permit it to occur. A key strategy 
to prevent many diseases will be to use the knowledge gained 
from gene-environment interaction research to estimate 
individual risks, and then to use this information to design 
approaches for better health and for better treatment.
    Finally, we at the NIEHS have been working with a new model 
for research that provides for citizen participation. We 
believe that citizen participation in research will generate 
more relevant findings and will suggest better real world 
research questions, and will also serve to enhance 
communication for the participants in the entire research 
project and for the neighborhoods.
    Thank you very much for this opportunity. I'll be happy to 
answer questions.
    Senator Clinton. Thank you, Dr. Wilson.
    Dr. Goldman.

    STATEMENT OF LYNN R. GOLDMAN, M.D., M.P.H., PROFESSOR, 
 ENVIRONMENTAL HEALTH SCIENCES, JOHNS HOPKINS BLOOMBERG SCHOOL 
                OF PUBLIC HEALTH, BALTIMORE, MD

    Dr. Goldman. Senator Clinton, Senator Chafee, and members 
of the New York Congressional Delegation, thank you for the 
opportunity to provide perspective to this issue today. I'm a 
pediatrician and an epidemiologist, and I'm a professor at the 
Johns Hopkins University Bloomberg School of Public Health. 
Prior to coming to Hopkins, I served in the Clinton 
administration as Assistant Administrator at EPA for 
Prevention, Pesticides and Toxic Substances. Prior to that, I 
was State environmental epidemiologist for the State of 
California. In that position, I actually investigated a number 
of clusters and helped to write California's first handbook 
manual on how to do that.
    At Hopkins, I serve as principal investigator for 
children's health for the Pew Environmental Health Commission, 
which was a blue ribbon independent panel charged with 
developing recommendations to improve the Nation's health 
defenses against environmental threats. Finally, I am also a 
member of the Environmental Defense Board of Trustees.
    My perspective is that our public health service is falling 
short in terms of its duty to watch over the safety and health 
of Americans, and especially when it comes to chronic diseases. 
Chronic diseases are responsible for 7 out of 10 deaths in this 
country. More than a third of our population, over 100 million 
men, women and children suffer from chronic diseases. These 
diseases cost our citizens and our Government $325 billion a 
year.
     By 2020, chronic diseases are estimated to afflict 134 
million Americans and cost $1 trillion a year. CDC estimates 
that 70 percent are preventable. But our Federal Government is 
not actively pursuing means to prevent these diseases.
    You heard today from the personal perspective from people 
in Elmira, the people who have been involved with the Fallon 
and Long Island cancer problems, about the intense personal 
suffering, the community suffering that occurs with these 
clusters. I've experienced that myself in public health.
    As a public health scientist, I'm aware that this is a 
problem that is repeated in communities across the country. In 
1997, there were almost 1,100 requests by the public to 
investigate suspected cancer clusters. Many of these no doubt 
were preventable, most of them were not investigated. Even 
though we know about the importance of increasing our 
investigations of chronic diseases, and the staggering human 
and financial toll they have on our country, we do not have the 
systems in place to track chronic diseases, nor do we have the 
capacity to respond to these health crises.
    Our agencies, as you have heard, are doing a great job 
tracking and responding to communicable diseases. This is a 
model that we know can be an effective model for preventing 
disease and encouraging public health.
    Why is this the case? I think that part of what has 
happened is that we have simply failed to modernize our system 
as the health problems have changed over time. As a former 
chemical and pesticides regulator, I personally am appalled by 
the amount of ignorance that we have about chemicals in our 
environment, and our inability to be sure that we're doing the 
right thing to prevent chronic diseases.
    In 1997, Environmental Defense looked at what we know about 
the most common chemicals in commerce, the 2,800 that are 
produced at at least a million pounds per year. They found an 
enormous amount of ignorance about those chemicals. When I was 
at EPA, we looked at them systematically. Only 7 percent had 
screening level information about toxicity and 40 percent had 
no information at all. We simply knew nothing about them.
    There are efforts underway to increase the amount of 
information, but we're very much on the upward part of the 
curve on this. We also don't know very much about how many of 
these chemicals are in our bodies. We think that the work that 
CDC is doing to generate that information is a good start, but 
the reality is we don't know what's in breast milk, we don't 
know what's in the workplace, we don't know what's in the 
products that we are using or are that are in our homes, that 
are intended for our children.
    With the Pew Commission, I wrote a report on birth defects. 
In this country, we do have some efforts to track birth 
defects. In that we found that 17 States did not track birth 
defects at all. Birth defects cause 22 percent of infant 
mortality, that's children under the age of a year. The State 
of New York does have a system, but it's a system that received 
a B on our report card. Why? Because the data are not 
comparable with the data that are collected in other States. We 
cannot use the data to be able to make comparisons, to be able 
to say, these patterns in New York are unusual or not.
    We know that 25 percent of developmental diseases, such as 
cerebral palsy, autism and mental retardation are caused by 
environmental factors, but only a handful of States track 
those. Asthma, we have an epidemic of asthma in this country. 
Again, we do not see tracking efforts for asthma. In fact, 
asthma rates have nearly doubled over the last decade and we 
still don't know why.
    So the Pew Commission developed a number of recommendations 
to try to address the situation. First, though, we need to 
build a coordinated system of tracking diseases. We need to 
track diseases like asthma, the developmental diseases, the 
neurologic diseases, birth defects, cancers, diseases that are 
likely to be preventable. We also need to track exposures, 
exposures to heavy metals, pesticides, air contaminants, so 
that we know what are the chemicals to which people are 
actually exposed.
    We need to have an early warning system that would alert 
communities of health crises such as lead poisonings or mercury 
poisonings. Our existing systems can be very slow to identify 
outbreaks like the West Nile or food illness outbreaks. We need 
to have systems that identify those more rapidly.
    Third, we need to improve our response to identify disease 
clusters and other health crises. I think you've heard today 
about how those efforts need to integrate from the Federal to 
State all the way to the local level. One of the 
recommendations from the Pew Commission for the tracking 
network is about $275 million, less than $1 for every woman, 
man and child in the United States.
    It's ironic that we have mapped the entire human genome but 
yet we do not know what are the environmental agents that can 
trigger the gene-environmental interactions that cause disease. 
We do have the technology, we have the know-how, we have the 
knowledge, but we have not put the same level of effort into 
identifying the triggers for disease as we have for identifying 
the genetic susceptibilities to disease.
     Polling has been done on this issue, 63 percent of the 
American public feels that public health spending is more 
important than cutting taxes. Seven out of ten registered 
voters feel that public health spending is more important than 
spending on a national defense missile system. A recent public 
opinion poll by Princeton indicates that 9 out of 10 registered 
voters support the creation of a national health tracking 
system.
    We know that the local agencies have faced declining funds, 
inadequately trained personnel, outdated laboratories, and we 
know that the CDC and ATSDR and NIH have not had the funding to 
give the States the guidance that they need, the standards that 
they need, the training, even on a very fundamental level, the 
laboratory support that they need in order to be able to do 
these investigations.
    Who is guarding our health? The public health service has 
fallen short of its duty, lacking the troops, leadership and 
the tracking system. This is exactly where the Federal 
Government is needed. The Federal Government is essential to 
the success of State and local agencies in being able to 
address these problems. Yet, ironically, what we've seen is the 
proposed budget recommendations have put forward severe cuts 
for the Nation's chronic disease prevention programs.
    We need to be going in the opposite direction. We need to 
invest in preventing asthma, preventing cancer, preventing 
neurological problems in our children. There will be many more 
lives lost and much more suffering until we set out to do that.
    Thank you again for this opportunity to testify.
    Senator Clinton. Well, it won't surprise you that I agree 
with her 100 percent.
    [Laughter.]
    Senator Clinton. I so appreciate the panel's testimony. I 
just want to re-emphasize that there are many, many people in 
our public health system at all levels who are heroically 
struggling against great odds. We are not giving them the tools 
that they need to do the job that they want to do and that we 
expect them to do.
    I think that the Pew Commission's recommendations are so on 
target about what we should do. We have a great capacity in our 
country to muster resources and set goals and achieve them. We 
now, because of the improvements in information technology and 
the mapping of the human genome, are at the point where we can 
make these investments, as Dr. Goldman and the others have 
suggested, and they will really pay off.
    We couldn't have done it 10 years ago or 20 years ago. We 
really were strongly in the dark to just make sense of a lot of 
this. We now have the tools, and if we don't do it, then we 
have failed to do what we should do to protect our national 
health.
    I would like now to call on Senator Chafee.
    Senator Chafee. There are four doctors on this panel, and 
earlier Dr. Landrigan mentioned, if I recall, that there was 
some thought that there might be a virus associated with 
cancer. It's the first time I've heard that. What is the 
general consensus as we study disease, and the implication of a 
virus?
    We'll start with Dr. Winn.
    Dr. Winn. I believe you are referring to the potential 
cluster of leukemia in Nevada. There is a concern that a 
possible leukemia causing virus has been introduced there 
because it's an area with a lot of people moving in and out. I 
think that it will be a real challenge to try and investigate 
that theory further. There are epidemiologic methods that we 
use to try and model individuals interactions with one another, 
so that we might see if there is a potential for an infectious 
cause.
    Certainly viruses are related to other cancers.
    Senator Clinton. Dr. Wilson.
    Dr. Wilson. We know very well that virus infection is 
related to certain types of cancer, such as liver cancer, 
cervical cancer and so on. But the risk of developing cancer 
even after the viral infection is also influenced by 
environmental exposures. The evidence on this is very clear.
    So we do know that viral infection is one of the factors in 
cancer etiology.
    Senator Clinton. Dr. Jackson.
    Dr. Jackson. Earlier speakers suggested looking at people 
today and going back 20 years or so ago to see what was in 
their blood. A study that was done jointly with the other 
agencies here, the laboratory work was very interesting, a low-
level increased risk for non-Hodgkins lymphoma if you had a 
certain chemical in your blood, but in fact if you had a 
certain herpes virus at the same time, instead of a fourfold 
risk, it was about a twentyfold risk.
    So I think for many of these it's not going to be genes 
alone, it's not going to be environment alone, it's not going 
to be a specific chemical or a specific virus, it's probably 
all of them together.
    Senator Clinton. Congresswoman McCarthy.
    Ms. McCarthy. Thank you. Thank you for the testimony. I see 
a number of, I hope I'm not the only one sitting here thinking, 
``Oh, my God, what a nightmare we have finding legislation to 
help all of you.'' It's not just a matter of getting the money. 
Let's be realistic about this. We have other forces that will 
try to stop us from trying to get the money.
    I've seen here in New York State when we've tried to do 
something on just notifying the neighbors on pesticides, we had 
large corporations fighting us on that. I'm not saying it's the 
fault of the chemical companies. But let's be realistic as far 
as the politics. That's what we're going to be dealing with 
when we go back down to Washington. We are going to have so 
many groups after us not to do the research on environmental 
issues that we care very much about. That's where the grass 
roots across this Nation has to get involved, to have their 
voices heard. Because I don't think there is anyone here that 
wouldn't like to see more money go into the research that we 
need, especially in public health, going between the Federal, 
State and local. There's politics involved.
    We will do our job. I hope that our committees find the 
right answers to help you do your job. But let's not kid 
ourselves. We've been talking about this for a number of years, 
and we've been stopped at every single turn. So with that, if 
any of you had a wish, where would you like to see us go as far 
as legislation?
    Senator Clinton. Dr. Jackson, do you want to start, please?
    Dr. Jackson. I really fear that the infrastructure of 
public health, knowing how the system works, it's pretty broken 
in the environmental arena. I think the way the funding comes 
in, it's so tightly circumscribed around a certain disease 
entity or a certain public health concern, that the system is 
really not working as well.
    If I had one wish, it would be to see that, we're really 
looking at a systematic improvement and maybe not one more 
disease focus, disease focus, etc.
    Senator Clinton. Dr. Winn.
    Dr. Winn. We have a critical need for biomarkers studies. 
Biomarkers are biochemical or molecular indicators of exposures 
or damage to tissues and cells. If we have better biomarkers of 
exposure, we might understand the mechanisms by which 
environmental agents produce cancer.
    We also might have an early warning system so that you 
could identify individuals at risk before clinical disease 
actually occurs. So I think in that arena, biomarkers are very 
useful because we can't always undertake very large studies 
that go on for many, many years. We need indicators that give 
us answers much sooner.
    Senator Clinton. Dr. Wilson.
    Dr. Wilson. I would answer that by following up on a point 
that Senator Clinton made earlier. That is that we need 
information, we need to get the information. That circumstance 
will allow us to implement the kinds of public health changes 
that we're all thinking about. So this topic of getting the 
information is the most important topic. As I said during my 
comments, I think we have a unique new opportunity at this 
point in time, given the new technologies and the Human Genome 
Project, given the new information technology resources, and 
given the increased enthusiasm and focus on gene-environment 
interaction and environmental health.
    So I believe it's a unique point in this field and in the 
area of public health, where we can truly get the information, 
since for the first time we know enough to know what to do. 
That wasn't the case, as you said, earlier, 10 years ago.
    Senator Clinton. Dr. Goldman.
    Dr. Goldman. If I had to just ask for one thing, because 
there are so many things that need to be done, it would be for 
a bold stroke, and that would be the nationwide health tracking 
system. I think that is an effort that could receive broad 
public support. When Pew went around for support for the 
recommendations, we received a core of support from public 
health scientists and environmental health scientists and all 
the usual suspects, who realized how frayed the fabric of 
public health really is in this country.
    But also we had support from medical groups, like the 
American Academy of Pediatrics, we had support from managed 
care organizations, we even had support from the American 
Chemistry Council, the industry organization. So I think that 
you could perhaps construct a broader tent around the public 
health agenda that could help in the future in terms of 
generating information, very specific information that might be 
needed for all those other things.
    Senator Clinton. In fact, if you look up there on the 
easel, that's one of the ads that Health Track is running, 
which shows that this is a national problem. I think, Carolyn, 
we could put together a very strong argument to bring together 
a political coalition that not only crosses party lines but 
geographic lines, industry lines and that sort of thing, we 
should try to do.
    Congressman Ackerman.
    Mr. Ackerman. Thank you very much, Senator. Thank you 
especially for everything that you've done, for finding Dr. 
Goldman for us. Thank you for putting her on last. I wish she 
was on a little earlier, you would have saved my blood pressure 
from going through the roof.
    I am so frustrated, and I'm frustrated because of the lack 
of outrage that we have today at this hearing. I don't know 
why, but for some reason, I think that the medical community, 
the scientific community, should be banging their fists and 
pounding the table and making demands on us, rather than some 
of the things I've heard here today. Everybody I know is very 
well educated and very, very polite. I heard thank you for the 
$30 million to do this, and you're very generous, and we know 
that we have to accept political realities.
    Nonsense. We make the political realities up here. We 
should be changing the political realities. Dr. Goldman talks 
about $275 million to do a nationwide tracking system that was 
suggested by the Pew Foundation. Wouldn't that be marvelous? 
Two hundred seventy-five thousand dollars, what is that? I'm as 
strong on national defense as anybody else, but we spent a 
billion dollars a copy for a B1 bomber, and how many blew up 
when we were trying to make them? That's billion dollars, not 
million, billion.
    Star Wars we're talking about now, trillions of dollars. 
Half of the scientific community says it's not going to work 
anyway, but we have to protect ourselves. Listen, more people 
died of cancer in the last 4 years than in World War I, World 
War II, the Korean War and the Vietnam War all together. I know 
that people are worried, but I know more people who have died 
this year of cancer than people who have died from a bomb 
falling on their head. Not that we shouldn't be concerned about 
both, but we have to get our priorities straightened out, and 
we're not doing that in our society.
    I wish the scientific community had the same kind of table 
pounding initiatives that some of the women, especially that 
are here today, have done in my office making their demands. I 
heard from the scientific community today, it's a remarkable 
change from the hearing we had 8 years ago. Eight years ago, 
the Director of the National Institutes of Health said, ``well, 
yes,'' to Senator D'Amato, when he testified at our hearing, we 
should be taking a look at the environment and basically it was 
what we would call in my scientific community pooh-poohed the 
whole notion.
    After Senator D'Amato left, and 90 percent of the press 
corps with him, at the insistence of some of the advocates, I 
said, ``Well, how much money are you going to put into this to 
take a look at this problem?'' He said, ``We don't have any 
money for it.'' Then we reconvened, if people here remember, we 
reconvened that meeting very quickly in Washington and 
basically read people the riot act, which resulted in almost 
everybody saying, ``well,'' nobody said, ``There's no 
connection.'' I think Dr. Jackson came as close to it, by 
saying that we really have to take another look, and the public 
is misinformed when they come to these very quick conclusions.
    Nonetheless, I think everybody, yourself included, Dr. 
Jackson, I give you a lot of credit for that, and Dr. Wilson 
especially, that there has to be a coalition between the 
scientific community, the academic community and the people out 
there. My mother used to, God rest her soul, she used to have a 
great expression, she'd say, ``If you want to help me, help me 
my way.'' We have to really help the people who instinctively 
know this issue and have called it to our attention. If the 
scientific community had the same kind of spirit that the 
advocates have shown, I think we would have gone a lot further 
than we have come at this moment.
    One of the things that I heard earlier from the director of 
the Long Island study, and I think it was terrific, because 
``we've come a long way, baby,'' as they said in the 
commercial, the fact that just to get the community advocates 
involved with the scientific community in doing the project so 
they would have input was a huge fight. It was acknowledged 
here today that that is important by so many of the people who 
have just recently spoken, on this particular panel. There 
should be legislation that require any kind of project that 
proceeds, that the advocacy groups participate in some fashion.
    I guess that was a pretty long question. So if anybody 
wants to respond, you have 30 seconds.
    Senator Clinton. Dr. Goldman.
    Dr. Goldman. Well, I obviously agree with what he said. I 
think in particular your last comment about involving the 
community is so important. In my experience, the community 
sometimes has very high hopes for what science can do for them 
and what scientists can find in doing these investigations. 
They need to be engaged from the very beginning so that their 
expectations are absolutely tuned with what can be done, but 
also so that they understand exactly what is being dedicated to 
look at the problem.
    Sometimes communities are absolutely, as you pointed out, 
they're absolutely outraged when they find out the numbers of 
burdens that are on these agencies and the amount of 
prioritization that has to be done, so that something that 
perhaps deserves a comprehensive investigation gets a few weeks 
of somebody's time, which is an absolute outrage, and you're 
correct about that.
    Senator Clinton. Congressman King.
    Mr. King. Thank you, Senator Clinton. I'd also like to 
thank the panel. Really the clear inference of the testimony 
today, certainly this panel, is the interaction between genes 
and environmental factors, looking as Dr. Winn said, for 
biomarkers, early warning signs. It seems to me then what we're 
talking about somewhere in the future is that almost the 
ordinary annual checkup would be a system of cross tabs. We 
just wouldn't be looking for one thing, we'd be almost seeing 
what a person's experience has been, what the genetic factors 
are, and it would be much more complicated than it is today.
    Now, are we talking about seeing that in our lifetimes? Is 
that around the corner? Is that within our grasp or are we 
still basically talking about individual advancements that 
hopefully will come together some time in the future? Can you 
put any time on it?
    Also before you get to that, in answer to my good friend 
Gary, I think that national defense is very important, our 
defense budget is less than it was percentage wise before Pearl 
Harbor. Obviously, we have to do more. I would support any 
increased funding for environmental factors and others. But 
part of what we get paid for in Congress is to walk and chew 
gum at the same time. I think we can deal with national defense 
and hopefully advance health policy.
    Since I talk after Gary, I figured I'd take a shot at him, 
because he can't get back at me.
    [Laughter.]
    Mr. King. In all seriousness, I go back to, what sort of 
timeframe are we talking about? Is there one as to when this 
can be brought together in a cohesive fashion, to bring it 
together where it actually is going to impact the ordinary 
person to give the early warning signs?
    Senator Clinton. Dr. Jackson.
    Dr. Jackson. Representative King, I was the lead person 
under the President's Executive Order on Children's Health and 
the environment. One of the reason it's important to focus on 
children is not just the reason Dr. Landrigan mentioned, but in 
fact, a lot of the issues were grappling with it's going to 
take a generation or two to really begin to put these responses 
together. First of all, laboratory methods that we're analyzing 
not just 27 chemicals, but hundreds of chemicals, literally 
counting molecules in that little teaspoon of blood you get 
from an individual. That will actually come, but it's going to 
be 5, 10 years in the pipeline. We'll add about 25 chemicals a 
year.
    The computational ability, you've got 40,000 genes, you've 
got 100, maybe 200 chemicals. To really do these studies, we 
need eventually to do some kind of longitudinal cohort, by that 
I mean a Framingham, where one would go forward, look at 
environmental chemicals, look at their genes and have the 
computer ability to look at thousands, tens of thousands of 
people. That kind of research capability twill come.
    You don't want to be pushing tests on the public unless you 
have an ability to interpret them, whether it's a genetic test 
or a chemical test or any other kind. In fact, I worry that 
pushing tests on people where you really aren't sure what it 
means and you aren't sure you're going to do them some good is 
a trap we need to avoid.
    Senator Clinton. Dr. Winn.
    Dr. Winn. I would agree with Dr. Jackson about what you do 
when you have information from tests, and how you communicate 
risks to individuals, and what can they do with that 
information. It will require a fair bit of research to 
understand how to do that and how to do it properly.
    I think it's going to be a while before we can, in some 
systematic way, link major surveillance systems that look at 
cancer morbidity and mortality with surveillance systems that 
look at the environment. It's been an incredible challenge to 
create the Long Island geographic information system. It's a 
huge statistical and informatics effort. It will be important 
to try and develop systems like it more easily and develop 
systems to do that much better, so that they can be used much 
more broadly and provide information much more rapidly.
    Senator Clinton. Dr. Wilson, you answered this question, 
would you also respond a little bit to what Congressman 
Ackerman said about citizen-based participatory research, and 
maybe talk a little bit about what you're doing in your lab? I 
really do think that the women and the men of Long Island, 
particularly the breast cancer activists, created citizen-based 
participatory research. All the women in this room and so many 
others on Long Island has a major role in changing how we do 
medical research. So would you just comment on that?
    Dr. Wilson. Let me comment on that first. I think this 
change in style of conducting research, if you will, is really 
a major step forward in the biomedical research community. In 
our experience at our institute at NIH, we have supported for 
some time 55 centers of excellence. We have worked to foster 
community outreach programs in these centers. All 55 of them 
currently have active community outreach programs.
    In some of the centers, community groups are actually 
participating in the day-to-day conduct of research. The groups 
are helping to set priorities on what should be looked at, and 
helping in reviewing results and coming up with the models for 
publication of results. We're extremely impressed with the way 
this program is working and have begun to fund additional 
community-based programs to conduct research on their own, so 
to speak, without the direct linkage to a university.
    This style of research, I think, is one of the most 
effective new techniques we have come across in the overall 
strategy of the best ways to deal with environmental-health 
science research.
    Moving on to this question by Representative King, I think 
that the trend of individualized risk assessment, so that we 
would be able to take our individual risks under consideration 
as we make choices about lifestyle and environmental exposures 
and so on, is a trend that we're already seeing and we'll see 
much more of just in the next 5 years. I agree with Dr. Jackson 
and Dr. Winn that it will be some time beyond that time period 
before we truly understand this concept of gene-environment 
interactions, in order go be able to make more robust use of 
it.
    But in the next 5 years, we will have this type of 
information on individual risk as a function of our individual 
gene makeup and our individual exposures that will make a big 
difference in how we conduct medicine and also how we make 
personal choices about lifestyle.
    Senator Clinton. Dr. Goldman.
    Dr. Goldman. Yes, first to the issue of the individual risk 
assessment, that's an area I think that is around the corner, 
as has been said by others. In fact, I think Congress is going 
to need to look at it very carefully in terms of making sure 
that this is done in a multidisciplinary way, and that the way 
the information is communicated to people is understandable to 
them and that they actually are encouraged by it to take the 
right actions to protect themselves.
    I think that there are some real uncertainties about how 
this kind of information will actually be used by patients when 
it's provided to them. Then again, when we don't know what the 
triggers are, if you have information that maybe you have a 
genetic susceptibility, but you don't know what triggers it in 
the environment, what is that going to mean to you? What is 
that going to do in terms of influencing your behavior and how 
are you going to them change your lifestyle? Maybe people will 
throw up their hands and say, ``I don't know what to do about 
it, since you're not telling me, well, then, what steps should 
I take to protect myself.''
    In terms of the public health issue, the issue of a 
national public health tracking system, much of that could be 
achieved in very short order. Much of it we know how to do. 
It's just a matter of deploying troops, putting in place the 
leadership, putting in place the methodology to do it. It's 
been more of a matter of not having those troops and that 
leadership and the efforts in place.
    Dr. Jackson mentioned the fact that a lot of new laboratory 
procedures might need to be developed over time. There it's 
very difficult to predict. I remember 10 years ago when we were 
first talking about mapping the human genome as being a much 
longer term project than it was at the end of the day. I think 
it's very difficult to predict, when you allow scientists to be 
creative in coming up with solutions to the problem, how long 
it will take them to solve the problem. It could take a very 
long time by curing cancer, yes. But it could also take a 
shorter time than we think it will. I think what's important is 
getting people started on the task of trying to solve that, 
which we haven't done.
    Senator Clinton. Thank you very much. As Congresswoman 
McCarthy whispered to me, the privacy issues around this are 
very difficult, the insurance issues are mind-boggling. As we 
all learn that we are each of us susceptible to something, that 
means we are all uninsurable which of course leads me to 
suggest that we have insurance for everyone, but that's an 
issue for another field hearing in the future.
    I also wanted to point out that in Senator Reid's and 
Senator Chafee's legislation on breast cancer and environmental 
research, it includes a specific provision for citizen 
participation. I think Gail Frankel had addressed that. So 
we're beginning to see some real results from a lot of this 
work. We just really have to accelerate our efforts, so we can 
get where we need to go a little faster.
    Congressman Grucci.
    Mr. Grucci. Thank you, Senator.
    Dr. Winn, I'm looking at the chart that you have in your 
Power Point presentation. It's very striking that the northeast 
is an area of heavy concentration. The farther south you go and 
the farther west you go, there's less and less reported 
mortality rates for breast cancer.
    When you go to the west, obviously you have the farm belt, 
and then you go down to the south and you have the oil fields 
and the oil refineries, and you move farther west, you have the 
area where we did our nuclear research, and explosions on 
surface and subsurface. In your opinion, why wouldn't you think 
there would be a bigger concentration out in those areas? I 
know one of the things we've always been concerned about here 
on Long Island is because it was a farming area, and it still 
is an agricultural area as you go farther out east. We were 
concerned about the chemicals that were being put on the ground 
to either ward off the pests or help grow the product.
    Why wouldn't you think that there would be some more red in 
those areas of the country where I just pointed out?
    Dr. Winn. If some of these chemicals are associated with 
breast cancer, it could simply be that there might be so much 
more land out there that some of the potential sources of toxic 
substances are less likely to be in contact with individuals 
compared to, say, the northeastern United States, which is very 
densely populated and potential exposures may be nearer to 
population centers. It could also have something to do with 
some of the reproductive patterns that are known to be 
associated with breast cancer as well. If women outside of the 
northeast are less likely to have some of the reproductive risk 
factors, then that might be a reason why there might not be an 
excess there.
    Mr. Grucci. It just seems very striking that it's all 
concentrated up in the northeast, which leads me to believe 
that we have to work harder up here in order to convince our 
colleagues in the south and west that this is a priority issue 
and ought to be a priority issue. I just would point that out. 
In our dialog, as we go forward in determining how to spend the 
moneys that are coming into Washington, I think that we can do 
a lot with the resources that are there.
    But as you look to the south and to the west, this issue 
doesn't rise to the top. We need to be more focused on making 
that happen. I think working in concert with our other 
colleagues, Republicans and Democrats, to the south and to the 
west of us, would be very helpful in making that happen.
    Dr. Winn. The maps are based on mortality rates and 
mortality rates are influenced by the stage at which cancers 
are diagnosed. If in the northeast women are diagnosed at a 
more advanced stage than women elsewhere, then the high 
mortality rates in the northeast may reflect that. So some of 
the factors that affect staging and treatment might also come 
into play.
    Senator Clinton. Dr. Goldman, did you want to respond?
    Dr. Goldman. Yes, I think there are two things to think 
about, and one is, as the ex-environmental epidemiologist from 
California, I'd like to point out that a couple of areas that 
look small on the map have a lot in them. There's San 
Francisco, there's Sacramento, the Los Angeles area, also share 
those higher rates.
    But the other thing is that perhaps the exposures that are 
related to breast cancer are more intense in the northeast and 
Great Lakes area, and certain California areas. But that 
doesn't mean that those exposures aren't also responsible for 
breast cancer in other parts of the country. So by looking at 
places that are higher, that enables you to perhaps identify 
exposures that you can then use as a basis for fighting breast 
cancer in the whole country. It just so happens those are the 
places where you can really perhaps hone in and study those 
exposures, because you see higher rates there.
    So that ought to be the way you have everybody be, and say, 
``yes, we want to prevent this disease,'' so let's look at it 
here.
    Mr. Grucci. I totally agree with you, and I'm just 
suggesting that when others look at this map from around the 
country, the issues that we're seeing here, the clusters that 
we've having and the high rate of breast cancer, all cancer in 
general, if it's not being seen elsewhere, this is not going to 
be a priority. I would just suggest that we need to stay 
focused, that any help they can give us, whether it's 
supporting this legislation or additional legislation that 
needs to come down is going to be very important.
    Senator Clinton. Congressman Israel.
    Mr. Israel. Thank you, and because I'm last up, before I 
ask my question, let me again thank Senator Clinton for her 
leadership in bringing this hearing here. We will cross party 
lines on this issue.
    Dr. Winn, in your testimony you discuss what you call a new 
NCI tool, the geographic information system to allow for the 
examination and tracking of cancer rates. I would just ask you 
to explain how that would fit into Dr. Goldman's recommendation 
for a nationwide health tracking system. Then I'll ask Dr. 
Goldman to comment on that.
    Dr. Winn. This geographic information system links 
environmental exposures with health outcomes. We are very 
concerned about privacy. If you're looking at the web site and 
you're trying to analyze environment and cancer relationships 
you can't actually identify individual people, so this system 
is not really useful in a clinical setting or for helping an 
individual person with their health choices and helping them 
control their environmental exposures. It's more a system of 
surveillance and an analytical tool, rather than something that 
can be used to help specific individuals.
    Dr. Goldman. I think it very much would fit in. I think 
that just as we want to map the human genome, we want to map 
exposures and rates of chronic disease. That provides very 
valuable clues, just as with these breast cancer maps we see, 
some very valuable clues to what might be involved with 
causation of breast cancer.
    I can also say that privacy protection was one of the 
recommendations of the Pew Environmental Health Commission, as 
part of the national health tracking system. The public health 
system has a very strong record of privacy protection. But if 
you're going to expand tracking, you need to expand those 
protections. There are ways to do that, to collect the 
information, to keep the information that can allow the 
identification of individuals out of the hands of anybody who 
might misuse it, whether it's an insurance company or a sales 
person or whoever.
    Senator Clinton. Well, I want to thank the panel very much. 
There may be additional questions that we will want to submit 
to the panelists, and particularly this last panel. There are a 
number of issues that I think may have arisen during the course 
of the hearing that we want further expert advice on.
    I know that many of the issues that we've raised today are 
ones that are not easily answerable. But I don't think that 
excuses us from making our best efforts at trying to answer 
them. What has struck me since I've been looking into the whole 
question of chronic disease and cancer clusters is how little 
we really have done in a concerted way to try to find answers. 
We have had an under-resourced public health system, we have 
not given the kind of support on the chronic disease side that 
we did with respect to infectious and communicable diseases.
    I think now is the time, and why this hearing is so 
important, and why the previous hearing in Fallon and the 
hearing I just participated in last week in the Senate on 
cancer clusters all are leading us to the awareness that now is 
the time for us to act. There are certain questions that rise 
to the level of urgency and you have to respond or then you're 
going to be, I think, accused of negligence or irresponsibility 
for failing to respond.
    It just may be that all of the stars are in alignment, that 
these are the issues that we now can address and try to find 
solutions for. I personally think that the work that Dr. 
Goldman and her colleagues did with the Pew Trust Health Track 
Project gives us a good road map. That was a very long study. 
It looked at the resources available in the public sector and 
where we were lacking. I think that the delegation from New 
York, which does, as Congressman Grucci has said, has a very 
specific interest in this, we can lead the way.
    But this is not just a New York or northeast problem. 
Although the intensity may be greater in some parts of the 
country, this is a national problem. Although cancer, and 
certain kinds of cancer, may be more prevalent in certain parts 
of our Nation, other chronic diseases are increasingly 
prevalent in other parts of our Nation. So this kind of mapping 
will give us information that will help everyone. Certainly as 
mobile a Nation as we are, as we move from place to place, this 
is information that citizens have a right to know.
    So I really believe we can make the case that this is 
important for our entire country, important specifically for 
the needs of our public health system, but most importantly for 
the well being and health of ourselves but particularly our 
children, since we've heard a lot today about the impact of all 
of these exposures and environmental factors when it comes to 
our children.
    I think it's also important that we also set out what our 
individual responsibility might be and begin to think about 
approaching health from that perspective. It is an individual 
responsibility to stop smoking. It is an individual 
responsibility to be as careful as we can, insofar as we know, 
about our own diet. But an individual cannot really take 
responsibility for the exposures in our air and our water and 
our food that we don't have any direct control over. It's not 
something we in our individual family behind closed doors in 
our house can control.
    So we have to have a very clear understanding of what we 
expect the individual to do as we gather information, and how 
we try to create some systems of accountability that will say 
to individuals, you know, if you are going to smoke and 
exposure yourself and your family members to tobacco, there is 
not only a risk but a cost associated with that. Then we have 
to do the best job we can to map out and get our more 
collective risks well know, so that we can take community 
action, national action against them.
    I think it's very exciting that we're at this point where 
we can be actually thinking about this.
    So I want to thank all of the panel members. If you have 
any last thoughts you'd like to leave us with, anyone have a 
last word?
    Then we'll keep the record open for 2 weeks. Anyone who has 
additional testimony to submit, we welcome that. We will also 
be asking additional questions to clarify the record.
    I want to thank my colleagues from New York who joined in 
this hearing. I want to thank especially our host, 
Congresswoman Carolyn McCarthy, Congressman Ackerman, 
Congressman King, Congressman Grucci and Congressman Israel. I 
particularly want to thank my two fellow Senators, Senator 
Reid, who is currently the Chairman of the Environment and 
Public Works Committee, but that may change in the next days, 
as it is likely that Senator Jeffords will chair this important 
committee. Senator Jeffords shares our concern about a lot of 
the issues.
    I particularly want to thank Senator Chafee from one of our 
northeast neighbors, Rhode Island, where he has seen firsthand 
in this public service, having been in elective office, even 
though he looks so very young, in elective office for a long 
time, including being mayor of a city. He has seen the 
challenges to our public health system and takes very seriously 
the environmental concerns that we've been addressing.
    So it's been a great pleasure to have you. I want to thank 
Adelphi for doing so much to make this important hearing 
possible, in addition to their ongoing educational mission, the 
breast cancer hotline and support program. They're on the 
forefront of doing a lot of environmental work, adding a 
masters in environmental studies, which is particularly 
appropriate for those who live on Long Island to be able to 
engage in this study right here at Adelphi.
    Mr. Ackerman. Senator, if I can assume a prerogative, on 
behalf of the entire Long Island delegation, all of whom are 
here sitting right through the final gavel, to thank the Senate 
Committee for coming here and bringing this hearing to Long 
Island. We especially want to thank you, and congratulate you 
first of all, I believe that this is the very first hearing 
that you have actually chaired as a member of the U.S. Senate. 
You have made us all very, very proud, and thank you for 
helping to make us all well.
    [Applause.]
    Senator Clinton. The hearing is adjourned.
    [Whereupon, the committee was adjourned, to reconvene at 
the call of the chair.]
    [Additional materials submitted for the record follow:]

Statement of NYS Assemblyman Thomas P. DiNapoli, The Assembly State of 
                            New York, Albany

    I want to thank our own U.S. Senator, Hillary Clinton, the new 
Senate Majority Whip, Harry Reid, Senator Chafee, members of our Long 
Island congressional Delegation, and all of the members of the Senate 
``Cancer Coalition,'' for taking the lead in examining the possible 
connection between the quality of the environment and the health of the 
public.
    I share your concern regarding the incidence of cancers and other 
serious medical conditions here on Long Island and across the country 
and their possible environmental connections. I applaud your efforts to 
address these concerns in forums and hearings such as this.
    It is difficult to narrow down the environmental variables, which 
increase the possibility of greater health risk. However, it has been 
my privilege to work with so many dedicated and outstanding Long Island 
leaders and advocates--many will be addressing you today--who are 
fighting to address a number of issues which have environmental impact 
and which evidence strongly indicates have associated--often long-
term--health impacts.
    I would like to take a few minutes to talk about the steps that we 
are taking in New York State toward reducing the use of and exposure to 
potential harmful environmental conditions.
    I believe many of these actions could be aided and supplemented by 
the Federal Government through the creation of a stronger partnership 
of public and private activities to address these growing concerns.
    Last year, your colleague Senator Charles Schumer provided $1 
million, through the Environmental Protection Agency (EPA), to enhance 
New York State efforts in mapping MtBE spills so that we can more 
effectively address these spills. This initiative was just the 
beginning of what needs to be done to map environmental hazards in New 
York State.
    A few years ago, the New York State Legislature appropriated 
$1,000,000 to the State Health Department for cancer cluster mapping. 
Following a gubernatorial veto, the administration instead indicated it 
would provide cancer mapping administratively, through the Department 
of Health (DOH).
    To many observers, the DOH process has produced maps that lack 
sufficient detail to provide the citizens of the State with usable and 
accurate cancer information.
    The NYS Assembly subsequently introduced legislation (A. 404) 
mandating that the New York State Department of Environmental 
Conservation (DEC) and the Department of Health jointly develop a 
comprehensive computer-based environmental facility/cancer incidence 
map plotting system. The legislation requires these agencies to provide 
detailed information regarding environmental facilities and reported 
cancer incidences by census block throughout the State. Environmental 
facilities include sewage plants, hazardous waste facilities, factories 
and power plants that emit air pollution, and Superfund sites. This 
data will help researchers and the public look for, analyze and better 
understand the connection between environmental pollution and cancer 
rates in the general population.
    There have also been efforts at the Federal level to provide 
accurate information regarding environmental facilities through 
environmental mapping web sites. The Federal Housing and Urban 
Development Agency and the EPA maintain environmental-mapping 
capabilities that identify environmental facilities including the 
facility name, address, environmental compliance history, chemicals 
released and permitted emission levels. These efforts are valuable 
models that could and should be implemented at the State level.
    Currently the State Department of Environmental Conservation is 
attempting to implement a similarly informative web site service. The 
information available via the DEC web site is limited in that it only 
provides the identification of a facility at a street address. It does 
not provide detailed information such as the facility name, type, what 
chemicals are being emitted, levels of emission, or compliance history.
    We believe the Federal Government through funding and technical 
assistance could help New York develop a much-needed comprehensive 
mapping capability. This is an obvious compliment to the National 
Institute of Health's ongoing breast cancer study.
    While these mapping and research efforts are developing, there are 
other activities that we can take to reduce exposure to contaminants 
and toxic materials in our environment.
    An important issue where the Federal Government should join with 
New York--and California--is to immediately move to set a schedule 
toward banning the use of the gasoline oxygenate, MtBE.
    In 1999, New York State sent a resolution to Congress, calling for 
a ban of this oxygenate, which is proven to pollute surface and 
groundwater supplies. While Congress has not yet acted, last year New 
York State passed the first law in the Nation that bans the use of this 
contaminant in gasoline sold in our State as of January 1, 2004.
    The use of MtBE originated in the effort to reduce air pollution 
caused by motor vehicles. MtBE was listed as a possible human 
carcinogen, and unfortunately, as a result of numerous spills, leaks 
and atmospheric deposition, it has become a ubiquitous contaminant in 
surface and groundwater throughout New York. On Long Island, for 
example, it has been detected in 63 of Nassau County's monitoring 
wells, 55 public supply wells, and more than 250 private wells. The 
chemical has been discovered at approximately 500 sites on Long Island 
where spills and leaks involving gasoline have occurred.
    This new law was challenged in court by the Oxygenated Fuels 
Association, but just last week we were pleased to hear that the 
Federal court upheld this law. (Federal District Court Judge Norman 
Mordue ruled that the Clean Air Act's preemption of State laws for the 
purposes of motor vehicle emission control does not apply to this New 
York State law, which is a public health measure designed to protect 
drinking water quality in the State.)
    This is an important victory in our continuing efforts to protect 
drinking water in New York State as MtBE has been classified by EPA as 
a possible human carcinogen, and enters groundwater through leaking 
vehicle gasoline tanks, pipelines, overfilling of tanks, and automobile 
accidents. The sandy soils of Long Island are particularly vulnerable 
to MtBE contamination.
    I stand before you today to once again call upon Congress to follow 
the path set by New York and California, and ban the use of MtBE in 
gasoline to prevent the serious public health, safety, and 
environmental and economic implications that are associated with 
continued long-term use of MtBE.
    Last year--after 7 years of trying--New York enacted the most 
comprehensive pesticide notification legislation in the Nation. This 
law requires schools and day-care facilities to establish a pesticide 
application notification procedure, including notifying parents of 
their right to be informed 48 hours before pesticides are applied at 
these facilities. It also allows counties to adopt a local law 
requiring notification of neighbors before pesticides are commercially 
applied on adjacent properties and requiring homeowners to flag their 
yard after applying pesticides themselves.
    As a society we need to move away from the widespread use of 
(several million pounds per year) pesticides and the dependence on 
toxic and hazardous chemicals in our quest for the greenest lawns, weed 
free gardens, and elimination of pests and insects. Alternatively, we 
must find ways, and provide the educational and financial resources to 
reduce our dependence on these chemicals (i.e. IPM programs) and move 
to non-toxic products, alternative mechanisms, and a greater focus on 
preventive techniques.
    I am optimistic that through a number of provisions contained in 
the ``Pesticide Neighbor Notification Act'' the public will gain a 
better understanding of the chemicals and contaminants that make-up the 
pesticides, fertilizers, and herbicides that are being poured, placed, 
and sprayed around us. This type of public right to know legislation is 
worthy of replication throughout the country.
    There are two other initiatives that are before the State 
Legislature that I believe people throughout the country, particularly 
our youngest and frailest citizens, would benefit from and which could 
be enhanced with Federal support:
    Here in New York and throughout the northeastern region, local 
governments have been struggling to eliminate mosquitoes and control 
the spread of West Nile Virus. However, too many localities have 
focused too much of their efforts on aerial or ground spraying to 
control mosquito populations. More proactive methods of combating the 
spread of the virus including surveillance, public education, 
environmental monitoring and non-spraying vector control have received 
inadequate attention.
    If enacted, legislation (A. 7320) would provide a 75 percent match 
for county expenditures of up to $100,000 (from the current maximum of 
$5,000) for surveillance and monitoring and up to $200,000 (from the 
current maximum of $50,000) for non-spraying vector control activities.
    As regions of the country have specific concerns where pesticide 
control is necessary, by providing an increased level of funding, the 
Federal Government can will help ensure that the health threat is 
addressed by providing an incentive to avoid the widespread spraying of 
pesticides when less toxic means are available.
    The second bill that I would like to call to your attention also 
uses financial aid as an incentive to change current practices.
    I am currently working with 1 in 9: The Long Island Breast Cancer 
Action Coalition on legislation (A. 8672) entitled, ``The Children's 
Health Incentive Fund.'' This legislation would provide school 
districts with financial aid to help them move away from the use of 
harmful chemicals in the buildings where our children learn and on the 
fields on which they play. The bill is designed to offer State funds as 
an incentive for school districts to use non-toxic products and 
practices as alternatives to using potentially dangerous pesticides, 
fertilizers, and herbicides in and around our schools.
    While many of the environmentally sensitive products are more 
expensive and some alternative practices take more time, by offering 
financial help to the 700 plus school districts in New York to use 
safer products and practices, our children, school personnel, and the 
environment will benefit from reduced exposure to potentially 
dangerous, toxic, and hazardous chemicals.
    I thank you for your interest in this most important matter and I 
am grateful for your consideration and examination of the Long Island 
community.
                                 ______
                                 
                 New York State Assembly Bill No. 7320
                       2001-2002 Regular Sessions
                             March 21, 2001
  Introduced by M. of A. DiNapoli, Weisenberg, Glick, Colman, Hooper, 
   Schimminger, Davis, Galef--Multi-Sponsored by--M. of A.A. Cohen, 
   Colton, Gromack, Jacobs, McEneny, Sanders, Wright--read once and 
                  referred to the Committee on Health

    AN ACT to amend the public health law, in relation to amount of 
State aid given for mosquito control

    The People of the State of New York, Represented in Senate and 
Assembly, Do Enact as Follows:

    Section 1. Section 611 of the public health law, as added by 
chapter 901 of the laws of 1986, is amended to read as follows:
    S 611. State aid; mosquito and vector control. 1. Where a county or 
municipal agency designated by the county health department or part 
county department of health conducts a mosquito and vector (control) 
surveillance program approved by the department OR CONDUCTS 
ENVIRONMENTAL MONITORING PURSUANT TO PARAGRAPH (C) OF SUBDIVISION FOUR 
OF THIS SECTION, it shall be provided State aid reimbursement at (the 
same percentage rate as basic public health services are reimbursed 
under paragraph (a) of subdivision two of section six hundred five of 
this article) A RATE OF SEVENTY-FIVE PERCENT, provided however that, 
the total State aid reimbursement provided pursuant to this section to 
such county or municipal agency shall not exceed (five) ONE HUNDRED 
thousand dollars. The reimbursement provided pursuant to this section 
shall be made from funds appropriated for the operation of local health 
departments pursuant to title one of this article.
    2. Where a county or municipal agency designated by a county health 
department or a part-county health department conducts a mosquito and 
vector control program approved by the department, it shall be provided 
State aid reimbursement at (the same percentage rate as basic public 
health services are reimbursed under paragraph (a) of subdivision two 
of section six hundred five of this article) A RATE OF SEVENTY-FIVE 
PERCENT, provided however, that the total State aid reimbursement 
provided pursuant to this section to such county or municipal agency 
shall not exceed (fifty) TWO HUNDRED thousand dollars. The 
reimbursement provided pursuant to this section shall be made from 
funds appropriated for the operation of local health departments 
pursuant to title one of this article AND SHALL BE PROVIDED ONLY FOR 
THE FOLLOWING ACTIVITIES:

    (A) ACTIONS UNDERTAKEN TO EDUCATE THE GENERAL PUBLIC ABOUT 
TECHNIQUES AND STRATEGIES THEY CAN TAKE TO CONTROL MOSQUITO AND VECTOR 
BREEDING ACTIVITIES ON PROPERTIES THEY OWN OR INHABIT AND ACTIONS 
UNDERTAKEN TO EDUCATE THE GENERAL PUBLIC ABOUT THE HEALTH AND 
ENVIRONMENTAL IMPACTS ASSOCIATED WITH PESTICIDE USED FOR MOSQUITO AND 
VECTOR CONTROL; OR

    (B) ACTIONS UNDERTAKEN TO REDUCE MOSQUITO AND VECTOR BREEDING 
INCLUDING: THE USE OF BIOLOGICAL CONTROL AGENTS SUCH AS, BUT NOT 
LIMITED TO, MOSQUITO EATING FISH AND PREDATORY INSECTS SUCH AS 
DRAGONFLIES; THE MODIFICATION AND MANAGEMENT OF MOSQUITO AND VECTOR 
BREEDING HABITATS; THE USE OF LARVICIDES THAT ARE BIOPESTICIDES THAT 
ARE REGISTERED PURSUANT TO TITLE SEVEN OF ARTICLE THIRTY-THREE OF THE 
ENVIRONMENTAL CONSERVATION LAW; AND THE USE OF ALTERNATIVE TECHNOLOGIES 
SUCH AS, BUT NOT LIMITED TO, MOSQUITO TRAPS.

    3. Under (emergency situations) A PUBLIC HEALTH THREAT DECLARATION, 
the department shall reimburse counties or municipalities at the same 
percentage rate as basic public health services are reimbursed under 
paragraph (a) of subdivision two of section six hundred five of this 
article for the cost of emergency vector control measures as approved 
by the department. (Such funds shall be made available from funds 
appropriated for the operation of local health departments, only to 
those counties or municipalities which have expended all other State 
aid which may be available for mosquito and vector control and 
surveillance programs.)

    4. ANY FUNDS REIMBURSED BY THE DEPARTMENT FOR ACTIONS RELATED TO 
WEST NILE VIRUS PURSUANT TO PARAGRAPH (B) OF SUBDIVISION TWO AND/OR 
SUBDIVISION THREE OF THIS SECTION SHALL BE RELEASED ONLY UPON AN 
AFFIRMATIVE FINDING THAT:

    (A) THE ACTIONS ARE CONSISTENT WITH THE NEW YORK STATE WEST NILE 
VIRUS RESPONSE PLAN;

    (B) THE ACTIONS COMPLY WITH ALL PESTICIDE PERMITS, PRODUCT 
REGISTRATION AND LABELING PROVISIONS;

    (C) THE ACTIONS ARE COUPLED WITH AN ENVIRONMENTAL MONITORING 
PROTOCOL THAT DOCUMENTS THE EFFICACY OF THE ACTION AND THE DEGREE AND 
TYPE OF IMPACTS THAT OCCUR IN HUMANS AND OTHER NON-TARGET SPECIES AND 
ENVIRONMENTAL QUALITY; AND

    (D) NOTWITHSTANDING ANY PROVISION OF LAW TO THE CONTRARY, ANY 
ACTIONS THAT WOULD OTHERWISE REQUIRE AN AQUATIC PESTICIDE PERMIT OR 
FRESHWATER WETLAND PERMIT, SHALL BE CARRIED OUT PURSUANT TO SUCH PERMIT 
UNDER A PUBLIC HEALTH THREAT DECLARATION.

    S 2. This act shall take effect immediately.
                                 ______
                                 
                 New York State Assembly Bill No. 8672
                       2001-2002 Regular Sessions
                              May 7, 2001

    Introduced by Committee on Rules--(at request of M. of A. DiNapoli, 
Wright, Lavelle, Canestrari, Christensen, Colton, Davis, Eddington, 
Englebright, Gordon, Gromack, Hooper, Matusow, Mayersohn, McEneny, 
Millman, Nolan, Pheffer, Sidikman, Sweeney, Weinstein, Weisenberg)--
read once and referred to the Committee on Health
    AN ACT to amend the State finance law, in relation to establishing 
the children's health incentive fund; and making an appropriation 
therefor
    The people of the State of New York, represented in Senate and 
Assembly, do enact as follows:
    Section 1. Legislative findings. The legislature hereby finds that 
a significant amount of potentially dangerous chemicals are being used 
in and around our State's public schools. Exposure to environmental 
chemicals at school during critical developmental periods has been 
linked to childhood cancers, asthma, learning disabilities, and 
hyperactive behavior disorders. Both synthetic pesticides and chemical 
fertilizers are being used in large quantities in and around our 
schools. Many of these chemicals are known to cause a variety of 
illnesses and effect the environment adversely. Absent an incentive-
based program to use least toxic pesticides and low leaching 
fertilizers, our children will continue to be exposed to potentially 
dangerous chemicals. The children's health incentive fund will enable 
schools to transition to better management practices with least toxic 
products.
    Cutting edge pest control products and natural fertilizers are now 
available on the market. However, these products are often more 
expensive to purchase and use. By offering incentives to school 
districts to adopt these products and practices, the children of New 
York State and the environment will have reduced exposure to 
potentially dangerous pesticides and fertilizers.
    S 2. The State finance law is amended by adding a new section 83-a 
to read as follows:
    S 83-A. Children's Health Incentive Fund.
    1. There is hereby established in the custody of the State 
Comptroller and the Department of Environmental Conservation a fund to 
be known as the ``Children's Health Incentive Fund'' which shall 
provide a mechanism to reduce chemical exposure in schools. Such fund 
shall provide a monetary incentive to schools for the use of least 
toxic pest control products and fertilizers.
    2. The fund shall consist of all monies appropriated for its 
purpose and shall be paid out on the audit and warrant of the State 
Comptroller on vouchers certified or approved by the Commissioner of 
the Department of Environmental Conservation for amounts up to ninety 
cents per full-time enrolled student annually for the purchase of least 
toxic pest control products and fertilizers by each school district, 
Board of Cooperative Educational Services, charter school, private 
school or parochial school. Annually, in order to qualify to receive 
monies from this fund, the school district, Board of Cooperative 
Educational Services, charter school, private school or parochial 
school shall submit receipts for these products and any other records 
or forms required by such department pursuant to rules and regulations.
    3. The Commissioner of the Department of Environmental Conservation 
shall promulgate rules and regulations specifying products eligible to 
receive monies from this fund. Such products shall include only the 
following:
    (A) Low-Water solubility and slow-release, fertilizers, soil 
conditioners and compost where low-water solubility means thirty 
percent or more of total nitrogen shall be water insoluble or 
controlled release. Fertilizers, soil conditioners and compost derived 
from or comprised of human sewage sludge or septage shall not be 
eligible to receive monies from this fund;
    (B) Nonvolatile rodenticides in tamper resistant bait stations;
    (C) Silica gels that do not contain synthetic pesticides or 
synergists;
    (D) Pesticides classified by the United States Environmental 
Protection Agency as an exempt material under 40 C.F.R. PART 152.25;
    (E) Boric acid; and
    (F) Horticultural oils that do not contain synthetic pesticides or 
synergists and that are not petroleum-based.
    S 3. The sum of three million dollars ($3,000,000), or so much 
thereof as may be necessary, is hereby appropriated out of any moneys 
in the State treasury in the general fund to the credit of the State 
purposes account not otherwise appropriated to the department of 
environmental conservation for the purpose of complying with the 
provisions of section two of this act. Such funds shall be payable upon 
the audit and warrant of the State comptroller on vouchers certified or 
approved by the commissioner of environmental conservation or his or 
her duly designated representative in the manner prescribed by law.
    S 4. This act shall take effect immediately and apply to school 
years beginning on or after July 1, 2001.
                               __________

Statement of Philip J. Landrigan, M.D., M.Sc., Ethel H. Wise Professor 
and Chair, Department of Community and Preventative Medicine, Professor 
     of Pediatrics, Director, Center for Children's Health and the 
       Environment, Mount Sinai School of Medicine, New York, NY

    Chairman Reid, Senator Clinton, and members of the New York 
congressional delegation, I am pleased to appear before you today to 
discuss rising rates of cancer and other chronic diseases in the 
American population and the linkages between cancer and the 
environment.
    I would like also to discuss with you a blueprint for substantially 
reducing cancer rates in this Nation. The centerpiece of this plan will 
be the construction of a strong national capacity in public health and 
preventive medicine that will enable us to locate, track, understand 
and prevent the environmental causes of cancer.<SUP>1</SUP>
    My name is Philip J. Landrigan, M.D. I am Chair of the Department 
of Community and Preventive Medicine and Professor of Pediatrics at the 
Mount Sinai School of Medicine in New York City. I direct the Center 
for Children's Health and the Environment at Mount Sinai, a policy 
research center supported by The Pew Charitable Trusts. I am a 
pediatrician and epidemiologist.

       RISING RATES OF CHRONIC DISEASE IN THE AMERICAN POPULATION

    Today, the leading causes of illness and death in the United States 
are chronic diseases and injuries.<SUP>2</SUP> Rates of asthma have 
more than doubled. Incidence of certain birth defects of the 
reproductive organs such as hypospadias have doubled. 
Neurodevelopmental disorders such as dyslexia, attention deficit/
hyperactivity disorder (ADHD) and autism are highly prevalent and cause 
untold misery to children and their families. Chronic diseases of the 
brain and central nervous system such as Parkinson's disease have 
increased in frequency.
    Cancer is a particular problem. Cancer will kill approximately 
550,000 people in the United States this year, according to the 
American Cancer Society. Cancer is the second leading cause of death, 
exceeded only by heart disease. It is the second leading cause of lost 
years of potential life.<SUP>3</SUP>
    Breast cancer is a major problem in New York and across the Nation. 
An estimated 182,000 cases of breast cancer are expected to be 
diagnosed this year among American women, and about 1,400 new cases of 
breast cancer are expected to be diagnosed in men.<SUP>3</SUP> Rates of 
breast cancer have risen in the United States, and the cumulative 
increase in incidence since the early 1970's has been more than 40 
percent.
    Pediatric cancer is another major problem. An estimated 12,400 
children and young people will be diagnosed with cancer in the United 
States in the year 2001. Cancer is the third most common cause of death 
in American children, exceeded only by unintentional injuries and 
homicide. Thus it is the leading cause of death from disease in our 
young people. The two most common forms of childhood malignancy are 
leukemia and brain cancer, and together these two diseases account for 
about two-thirds of pediatric cancer.<SUP>4</SUP> Although death rates 
for childhood cancer are down, thanks to early detection and vastly 
improved treatment, the reported incidence, i.e., the number of new 
cases of cancer per million children has increased over the past two 
decades please see attached graphs).<SUP>4</SUP>
    For acute lymphoblastic leukemia (ALL), the most common pediatric 
malignancy, incidence increased from 23.1 cases per million children in 
the early 1970's to a peak of 28.2 per million in the 1980's, and then 
declined somewhat to a level of 26.8 per million in 1996. This 
represents an overall increase since the early 1970's of about 12 
percent, an increase that is statistically significant.<SUP>4</SUP>
    For primary brain cancer (glioma), a sharp and statistically 
significant increase in incidence has been noted from 23 cases per 
million children in the early 1970's to 29.0 per million in the late 
1990's. This represents an overall increase in incidence over the past 
three decades of nearly 30 percent, an increase that is statistically 
quite significant.<SUP>3</SUP>
    For testicular cancer, incidence in young men 15-30 years of age 
has increased over the past 30 years by 68 percent. This increase 
occurred entirely in white men, and was not seen in black men. It is 
statistically highly significant.<SUP>5</SUP>
    The causes of these increases in cancer are incompletely understood 
Some have argued that better diagnostic detection and changing 
definitions of cancer may account for a major fraction of the 
increase.<SUP>6</SUP> I would agree that new diagnostic technologies 
have made some contribution to reported increases in cancer incidence, 
but I cannot agree that it is the whole story. I would point out that 
childhood cancer is not a subtle disease. Sadly, it is a devastating 
and extremely serious illness. It makes children terribly ill, arid it 
brings them to the hospital. Thus it seems unlikely to me that large 
numbers of children with cancer would have escaped medical detection 
only 25 years ago, at a time when many doctors of my generation were 
already practicing pediatrics.
    A further argument against the notion that better diagnostic 
detection accounts for the entire reported increase in childhood cancer 
is that any increase due to better diagnosis would have produced only a 
temporary rise in reported incidence at the time of introduction of the 
new technology, reflecting diagnosis at an earlier stage of illness. 
That temporary increase would then be expected to be followed by a 
return to baseline. In fact, however, no such return to baseline 
incidence of childhood brain cancer has occurred in the United States 
over the past 30 years. In fact, the incidence rate for childhood brain 
cancer has continued to rise inexorably, and this upward trend is seen 
in both boys and girls in all regions of the United States.<SUP>7</SUP> 
These facts argue that most of the reported rise in incidence of 
childhood cancer is a real increase.
    It is highly likely that environmental toxins in air, food, dust, 
soil and drinking water have contributed to increasing rates of cancer 
in Americans of all ages, including our children. The known and 
suspected causes of childhood cancer include benzene, other solvents, 
radiation, arsenic, parental smoking, certain pesticides and certain 
chemicals in the environment that have the potential to disrupt the 
function of the endocrine system. Maternal consumption during pregnancy 
of cured meats containing nitrites, such as sausage and bacon has been 
shown to increase risk of childhood brain cancer. There are also 
protective factors. Maternal consumption of folic acid during 
pregnancy, and the practice of nursing an infant appear to be 
protective factors that can reduce incidence of childhood cancer. Those 
facts are signs of hope.

         CANCER AND THE ENVIRONMENT--AN HISTORICAL PERSPECTIVE

    Considerable progress toward cancer control has stemmed from the 
recognition that chemical agents in the environment can cause 
cancer.<SUP>8</SUP> In 1775, Sir Percivall Pott, a British surgeon, 
reported for the first time an association between childhood cancer and 
an environmental agent.<SUP>9</SUP> Pott noted that the ``climbing boys 
of London'', teenage lads employed as chimney sweeps, experienced a 
devastating incidence of cancer of the scrotum. He correctly attributed 
the development of those tumors to occupational exposure to soot. In 
1895, Rehn noted a high frequency of cancer of the urinary bladder 
among workers in the aniline dye industry.<SUP>10</SUP> He attributed 
the causation of those tumors to aromatic amines. More recently 
etiologic associations have been recognized between benzene and 
leukemia,<SUP>11</SUP> asbestos and lung cancer,<SUP>12</SUP> 
bischloromethylether and lung cancer,<SUP>13</SUP> vinyl chloride 
monomer and angiosarcoma of the liver,<SUP>14</SUP> tobacco and lung 
cancer,<SUP>15</SUP> and chewing tobacco and cancer of the 
mouth.<SUP>16</SUP>
    Toxicologic studies stimulated by those clinical and epidemiologic 
observations have led to fundamental advances in the understanding of 
cancer biology. Benzo(a)pyrene, a polynuclear aromatic hydrocarbon 
compound found in soot, has been found to induce skin cancer in 
experimental animals.<SUP>17</SUP> That finding provides a molecular 
basis for Pott's observations of the link between soot and scrotal 
cancer. Likewise <greek-b>-naphthylamine, a chemical found in aniline 
dye manufacture, has been shown to cause cancer of the bladder in 
experimental animals, thus providing an explanation for the observation 
of Rehn.<SUP>18</SUP> Chemical carcinogens found in tobacco and tobacco 
smoke provide a biological basis for the observation that cigarette 
smoking causes lung cancer and that chewing tobacco causes cancer of 
the month and oropharynx.
    Common themes that run through these tales of discovery are an (1) 
the importance of tracking data on cancer incidence, (2) an openness to 
the possibility that environmental factors can cause cancer and (3) a 
willingness to pursue clinical and epidemiologic observations to 
discover the biological mechanisms by which environmental agents cause 
malignancy.
    The recognition of environmental carcinogenesis has had a profound 
influence on our understanding of human cancer. No longer must cancer 
be regarded as an inescapable consequence of aging or the result of 
unexplainable ``natural forces.'' Quite the contrary. It is now 
realized that chemical carcinogenesis is not exceptional and that well 
over half of human cancers--perhaps as many as 80-90 percent 
worldwide--are caused by environmental exposures.<SUP>19</SUP> I should 
note that in this context ``environmental factors'' include not only 
exposures to industrial chemicals and pollutants but also exposures to 
such factors as diet, alcohol, tobacco, drugs, radiation and sexual 
behavior.
    The concept that the environment is responsible for a great 
majority of human cancer received strong collaboration in a landmark 
study published recently from Sweden.<SUP>20</SUP> This study which 
examined patterns of cancer in 44,788 pairs of twins found sharp 
discrepancies in cancer incidence even between identical twins. These 
differences, even in persons of identical genetic composition, indicate 
that environment plays a major role in the causation of malignancy.
    The most hopeful implication of the discovery of that many 
thousands of cancer cases are caused by exposures in the environment is 
that a very high proportion of all human cancer ought to be 
preventable. Prevention can be accomplished by reducing exposures to 
environmental carcinogens.<SUP>8</SUP>

                  CHEMICAL EXPOSURES IN TODAY'S WORLD

    Americans today face environmental hazards that were neither known 
nor suspected a few decades ago. Americans today are at risk of 
exposure to over 85,000 synthetic chemicals, most of which have been 
invented since World War II. Americans are most likely to be exposed to 
the 28,000 high-production-volume (HPV) chemicals that the U.S. 
Environmental Protection Agency estimates are produced in quantities of 
over one million pounds per year.<SUP>21</SUP> These chemicals are the 
most widely dispersed in foods, household products, pesticides, air, 
food and drinking water. The National Academy of Sciences has found 
that children are the group within the American population most 
vulnerable to these chemical hazards.<SUP>22</SUP>
    No basic toxicity information is publicly available for 43 percent 
of the high-production-volume chemicals according to the EPA. And 
although children are now recognized to be especially vulnerable to 
chemicals in the environment, only 7 percent of HPV chemicals have been 
examined for their potential toxicity to children or to human 
development.<SUP>21</SUP>
    The percentage of cancer in Americans that is caused by toxic 
chemicals in the environment is not known We do, however, know that 
many chemicals are proven human carcinogens, that many more are 
suspected human carcinogens on the basis of animal testing, and that 
most chemicals have never been tested.

         A BLUEPRINT FOR CANCER PREVENTION IN THE UNITED STATES

    The following are elements of a comprehensive plan for the 
prevention of environmental cancer in the United States.
    Disease and exposure tracking.--It will be essential to continue to 
provide support to the Centers for Disease Control and Prevention (CDC) 
and to the National Cancer Institute (NCI) to enable these agencies to 
monitor the number of cases of cancer and other chronic diseases that 
occur each year among Americans of all ages and in every part of the 
country.<SUP>1</SUP> The tracking of cancer, asthma, birth defects and 
other chronic diseases has lagged historically behind the tracking of 
infectious diseases such as measles and smallpox. Now, however, that 
the chronic diseases have become the major causes of morbidity and 
mortality in the United States, we must remedy this situation and aim 
ourselves with accurate information on the temporal and geographic 
distribution of cancer and other chronic diseases. Such information is 
essential for targeting prevention.
    Also it will be essential to continue to provide support to the CDC 
to enable CDC to continue each year to monitor the levels of chemicals 
in the blood of Americans and to make this information available to the 
public. The combination of information on chemical exposure with data 
on cancer incidence will undoubtedly spark research that will identify 
specific preventable environmental causes of cancer and other chronic 
diseases.
    A classic example of the importance of disease tracking to cancer 
prevention is provided by the story of oral cancer among women in the 
American South, In the early 1970's the National Cancer Institute 
published an Atlas of Cancer Mortality by County in the United States. 
Examination of the maps in this atlas revealed a strikingly high 
incidence of oral cancer among women across the southeastern United 
States from Virginia to Texas The cause of that increase was initially 
not known However, publication of the maps stimulated extensive 
research, and one of those studies was an epidemiologic investigation 
undertaken by Dr. Debra Winn. This classic study found an extremely 
strong association between oral cancer and the use of chewing 
tobacco.<SUP>16</SUP> Once this association had been discovered, 
programs of prevention were put in place. This represents a textbook 
example of how disease tracking can lead to discovery of the factors 
responsible for disease and then to prevention.
    Premarket testing of the toxic and carcinogenic potential all new 
chemical compounds is a most effective approach to the prevention of 
environmental disease. Unfortunately, premarket testing has often not 
been undertaken. A 1984 analysis by the National Research Council 
showed that most chemical compounds have never been tested for their 
carcinogenic potential.<SUP>23</SUP> That unfortunate figure has not 
improved appreciably in the intervening years, and the number of new 
chemical substances released into the environment has increased 
substantially during that time.
    In addition to doing more toxicity testing, we also need to develop 
more sensitive approaches to testing that can reliably detect the long-
term consequences of exposures to toxic chemicals in early life. 
Extensive experiences demonstrated that infants and young children are 
uniquely vulnerable to certain chemicals that are relatively harmless 
to adults. To detect the unanticipated consequences of early exposures 
to such chemicals, it will be necessary to develop new approaches to 
assay prenatal, perinatal and childhood toxicity. For certain classes 
of chemicals it may, in part, be necessary to undertake experimental 
studies in which chemicals are administered shortly after birth and the 
experimental subjects then followed over their entire life 
span.<SUP>22</SUP> This approach will replicate the human condition in 
which exposures in the earliest stages in life may produce disease only 
decades later. It may thus enhance detection of the environmental 
causes of late illness. Functional tests of neurotoxicity and of 
immune, endocrine and reproductive toxicity are also need to be much 
more widely applied then they are at present.
    Right-to-know is the concept that American families have the right 
to be informed of the nature and toxic properties of the chemicals that 
they may encounter in their air, food, drinking water, schools and 
communities. It is a powerful took for cancer prevention, and it 
complements and extends the efficacy of regulation.
    Right-to-know information empowers families and enables them to 
take intelligent decisions to reduce their own and their children's 
exposures to toxic substances Right-to-know has proven an extremely 
effective means for reducing toxic exposures. For example, EPA's Toxic 
Release Inventory (TRI) an annual listing of the nature and amounts of 
toxic chemicals released to the environment by polluting industries in 
the United States has highlighted those industries that are the worst 
actors and has resulted in many of these industries' taking aggressive 
steps to reduce their toxic emissions. Likewise Proposition 65 in 
California requires manufacturers to list hazardous materials on the 
labels of consumer products. This labeling requirement has resulted in 
the removal of many toxic products from the market in California and 
nationwide.
    It will be necessary now to consider development of national right-
to-know legislation in the United States that extends to consumers 
across this Nation the sort of knowledge now available only on the west 
coast.
    Regulatory standards issued by the Environmental Protection Agency 
and the Occupational Safety and Health Administration are an 
extraordinarily important mechanism for the prevention of environmental 
cancer. These standards regulate permissible uses of carcinogenic 
chemicals and establish levels above which workers and the public may 
not legally be exposed. Standards have brought about substantial 
reductions in exposures to carcinogens, including asbestos, benzene, 
vinyl chloride and PCBs. All standards are however, inherently 
arbitrary--they imply safety when safety does not exist. There is no 
bright line between the level of exposure to a toxic substance that 
causes cancer and that which is safe; there is instead a continuum of 
toxicity. Standards therefore need continually to be re-examined in the 
light of new data, and when necessary revised.
    Traditionally, regulatory standards in this Nation have been built 
on the assumption that the entire American population is comprised of 
70-kilogram young adult males. Estimates of risks have been based on 
the exposures and the sensitivities of this ``average'' person, and 
standards have been set at levels to protect this person's health. The 
only Federal environmental law that specifically acknowledges the 
unique sensitivities of infants and children is the Food Quality 
Protection Act of 1996 This legislation, which governs the use of 
pesticides in agriculture, requires that standards be set at levels 
that will specifically protect infants and children from harm to their 
health In the years ahead, it will be necessary to extend the model of 
the Food Quality Protection Act to other environmental legislation so 
that all environmental standards are set at levels that will protect 
the health of the most vulnerable among us.
    Research.--A vigorous national research program is an essential 
element of a comprehensive blueprint for cancer prevention. In this 
Nation we have traditionally directed the major portion of our cancer 
research portfolio into discovering new cancer treatments. This 
approach has yielded great benefits. Death rates from many cancers, in 
particular pediatric cancers and testicular cancer, have been 
substantially reduced. Thirty years ago when I was still a pediatric 
resident, every child with leukemia died of their disease. Today more 
than three-fourths of children with leukemia survive and live to play 
another day.
    Now it is time to open a second front on the war on cancer. We need 
to increase substantially our investment in prevention oriented 
research. It maybe instructive to contrast our approach to cancer 
research with our approach to research on cardiovascular disease. The 
national portfolio on Cardiovascular Disease has long emphasized a 
search for the preventable causes of disease. This tradition began in 
1948 when the U.S. Public Health Service established the Framingham 
Heart Study in Framingham, MA with the specific goal of identifying the 
preventable causes of heart disease and stroke. The study was initiated 
in the years after World War II when Americans had returned home to new 
prosperity, were eating a diet extremely high in cholesterol, were 
smoking at unprecedentedly high rates and experiencing massively 
increasing rates of heart disease and stroke. The Framingham Study and 
other studies like it identified the preventable environmental risk 
factors for heart disease such as hypertension, cholesterol, obesity, 
cigarette smoking, diabetes and sedentary lifestyles. Once these risk 
factors had been identified, aggressive programs of prevention were put 
into place. The result has been a reduction in heart disease rates 
among American men and women of nearly 50 percent over the past five 
decades. That reduction represents one of the great triumphs of public 
health in the past half century. We need now to do the same for cancer.

                               CONCLUSION

    Cancer is a complex, multifactorial, profoundly frightening and 
often deadly disease But also cancer is a preventable disease Many 
thousands of cancer deaths in this Nation every year are caused by 
toxins in the environment, and those are cases that can and should be 
prevented.
    Cancer prevention requires a carefully orchestrated, precisely 
targeted series of programs in prevention and research. These programs 
can result in enormous reductions in cancer incidence, suffering and 
death. The challenge before us as a Nation is to craft such programs. 
We must track disease. We must test chemicals. We must educate and 
inform our citizens. We must commit to research in cancer prevention 
resources of the magnitude that we have historically committed to 
research in cancer treatment. Cancer prevention is cost-effective. 
Cancer prevention makes sense. And cancer prevention is the right thing 
to do.
    Thank you. I shall be pleased to answer your questions.
                                 ______
                                 
                               References

    1. Pew Environmental Health Commission on Public Health.
    2. Landrigan, P.J. Risk assessment for children and other sensitive 
populations. In: Uncertainty in the Risk Assessment of Environmental 
and Occupational Hazards. Annals of the New York Academy of Sciences 
895:1-9, 1999.
    3. American Cancer Society. www.cancer.org/statistics.
    4. Howe, H.L., Wingo, P.A., Thun, M.J., RiesLAG, Rosenberg, H.M., 
Feigal, E.G., Edwards, B.K. Annual Report to the Nation on the Status 
of Cancer (1973 through 1998), Featuring Cancers With Recent Increasing 
Trends. J. Natl. Cancer Inst. 2001; 93:824-842.
    5. National Cancer Institute. Surveillance, Epidemiology, End-
Results (SEER) Data Base. Bethesda: National Cancer Institute.
    6. Linet M.S., RiesLAG, Smith, M.A., Tarone, R.E., Devesa, S.S., 
Cancer Surveillance Series: Recent Trends in Childhood Cancer Incidence 
and Morality in the United States. J. Natl. Cancer Inst. 1999; 91:1051-
1058.
    7. Schechter, C.B. Brain and Other Central Nervous System Cancers: 
Recent Trends in Incidence and Mortality. J. Natl. Cancer Inst. 1999; 
91:2050.
    8. Landrigan, P.J. The prevention of occupational cancer 
(editorial). CA, 1996; 46:67-69.
    9. Pott, P. Chirurigical observations relative to the cataract, the 
polypus of the nose, the cancer and the scrotum, the different kinds of 
ruptures, and the mortification of the toes and feet. Hewes, Clarke and 
Collins, London, 1775.
    10. Rehn L. Blasengeschwuelste bei Fuchsinarbeitern. Arch Klin Chur 
1895; 50:588-600.
    11. Delore P., Borgomano, C. Acute leukemia following benzene 
poisoning. On the toxic origin of certain acute leukemias and their 
relation to serious anemias. J Med Lyon 1928; 9:227-233.
    12. Hammond E.C., Selikoff I.J., Churg J. Asbestos exposure, 
smoking and neoplasia. JAMA 1968; 204:106-112.
    13. Figueroa, W.G., Raszowski R., Weiss, W. Lung cancer in 
chloromethyl methyl ether workers. N Engl J. Med 1973; 228:10 96-1097.
    14. Creech, J.L., Jr., Johnson, M.N. Angiosarcoma of the liver in 
the manufacture of polyvinyl chloride. J Occup Med 1974; 16:150-151.
    15. Doll, R., Hill, A.B. Lung cancer and other causes of death in 
relation to smoking--a second report on the morality of British 
doctors. Br. Med. J. 1956; 2:1071-1077.
    16. Winn, D.M. Smokeless tobacco and cancer: the epidemiologic 
evidence. CA Cancer J. Clin. 1988; 38:236-243.
    17. Kenneway, E.L. On the cancer-producing factors in tar. Br. Med. 
J. 1924; 1:564-567.
    18. Hueper, W.C., Wilery F.H., Wolfe H.D. Experimental production 
of bladder tumors in dogs by administration of beta-naphtylamine. J. 
Ind. Hyg. 1938; 20:46-84.
    19. Higginson J., Muir C.S. The role of epidemiology in elucidating 
the importance of environmental factors in human cancer. Cancer Detect 
Prev. 1976; 1:79-105.
    20. Lichtenstein P., Holm N.V., Verkasalo P.K., Iliadou A., Kaprio 
J., Koskenvuo M., Pukkala, E., Skytthe, A., Hemminki, K. Environmental 
and heritable factors in the causation of cancer. New Engl J. Med. 
2000; 343:78-85.
    21. Environmental Protection Agency. Chemical Hazard Data 
Availability Study. What Do We Really Know About the Safety of High 
Production Volume Chemicals? Environmental Protection Agency's Office 
of Pollution Prevention and Toxics, 1998.
    22. National Academy of Sciences: Toxicity Testing: Strategies to 
Determine Needs and Priorities. National Academy Press, Washington, DC, 
1984.
    23. National Research Council. Pesticides in the Diets of Infants 
and Children. Washington: National Academy Press, 1993.

[GRAPHIC] [TIFF OMITTED] T0650.105

[GRAPHIC] [TIFF OMITTED] T0650.106

Statement of Randall L. Todd, M.D., State Epidemiologist, Nevada State 
                            Health Division
    Good morning Mr. Chairman. Thank you for the invitation to share 
information about our State's investigation into a cluster of childhood 
leukemia cases in Churchill County Nevada. I would like to provide you 
with a brief background and description of what has happened and is 
continuing to happen in Nevada and share some of the lessons we are 
learning that may be useful here in New York.
    In July 2000, we were informed of concerns among the medical 
community in Churchill County that the number of recently diagnosed 
cases of childhood leukemia appeared unusually high. At the time we 
were first contacted there had been six cases diagnosed over a 5-month 
period of time. The usual rate of occurrence in a community of this 
size would be about 1 case every 5 years. Currently we have identified 
8 cases of Acute Lymphocytic Leukemia (ALL) that were diagnosed in 
2000. Another case had been diagnosed in 1999 and one case of Acute 
Myelocytic Leukemia (AML) has been diagnosed this year. For 
investigational purposes we have interviewed an additional 4 case 
families with recently diagnosed children having ALL and prior 
residence in Churchill County.
    Our initial investigation consisted of face-to-face interviews with 
each case family. This involved a detailed review of residential 
history, sources of drinking and cooking water, in-home water 
treatment, chemical exposures, parental occupations, and medical 
history. We have also tested the water supplied to each local residence 
where a case family lives or has previously lived. About 50 percent of 
the case family residences were supplied with water from a regulated 
municipal source. The others obtained water from private domestic 
wells. We have tested all water, regardless of source, using the 
battery of analyses required for public water systems under the Safe 
Drinking Water Act.
    Our water analysis to date has not revealed any results that would 
explain this cluster. There are high levels of naturally occurring 
arsenic. However, this has been present for throughout the history of 
the region and has not been specifically linked to the development of 
childhood leukemia. There are also some areas in which shallow and 
intermediate depth wells may exceed safe levels of uranium. This is 
also naturally occurring and is not found at all in the municipal water 
which comes from a much deeper aquifer. None of our water samples have 
detected significant levels of volatile or synthetic organic compounds.
    After our initial data gathering was complete we convened a panel 
of national experts from Federal agencies and academia. These experts 
reviewed our processes and data. They also provided and continue to 
provide advice on further steps that should be taken to continue the 
investigation. I have included a copy of their initial report with the 
written copy of this testimony.
    Although I am not familiar with the public health resources in New 
York, I suspect that Nevada has a somewhat leaner infrastructure. We 
have, therefore, found it essential to utilize advice and resources 
provided through the Centers for Disease Control and Prevention (CDC) 
as well as the Agency for Toxic Substances and Disease Registry 
(ATSDR).
    I would like to briefly comment on some obstacles that we have 
encountered and lessons we are learning. A potentially serious obstacle 
to our ongoing investigation has come from the legal profession. We are 
now being challenged to provide copies of our data collection 
instruments as well as actual data. These demands are coming at a time 
when we are just beginning to do case-control studies. The danger, 
aside from obvious concerns about confidentiality, arises when 
unofficial parallel investigators introduce informational biases into 
the study population that may blur subtle distinctions between case and 
comparison families that would otherwise have provided important clues. 
We have also experienced media sponsored investigations resulting in 
spurious connections among case families that are over interpreted and 
result in panic among residents of the community at large. I believe 
these issues point to a need for lawmakers to provide some form of 
investigative privilege that would protect the scientific integrity of 
an ongoing public health inquiry.
    Another phenomenon that arises in high profile cluster 
investigations is the emergence of self-proclaimed experts who promise 
to find answers more quickly than public health officials. Some of 
these individuals have legitimate scientific credentials from fields of 
study that are only tangentially related to the issues under study. 
Others are completely without scientific training. All of them have a 
tendency to tell the community what they want to hear, create distrust 
between the community and public health officials, and cause a waste of 
resources as health officials investigate and attempt to dispel myths 
and misinformation.
    A lesson we have learned from this is that it is essential to keep 
the community well informed as to the progress of the investigation. 
Even seemingly mundane but necessary activities are of interest to the 
public and help concerned individuals to understand that the 
investigation is continuing. We conducted a public meeting for the 
community early on in the investigation, established a toll-free 
hotline that people can call for information, and developed a web page 
with information specific to the investigation. We have begun to do 
weekly media briefings and last week conducted the first of what we 
expect will become a monthly open forum with the community. At our 
first open forum we had over 150 people in attendance asking questions 
for more than 2 hours. Staff to the investigation remained for an 
additional hour answering one-on-one questions. Involvement of the 
local medical community in these meetings is essential. One common 
question that is frequently asked by the public is whether or not they 
should move away from the area. Unfortunately, we cannot provide them 
with a science-based answer at this time. We have, however, been able 
to obtain State emergency funds that have been used to increase 
staffing by local mental health professionals. This provides a 
mechanism for individuals to receive assistance in making decisions in 
the face of scientific uncertainty and to deal with other stressful 
aspects of living in a community where a significant health concern is 
constantly the center of attention.
    In closing, I would like to mention some things that might be done 
on a national level that could assist other communities facing a 
cluster of disease. First, because most children with cancer receive 
their definitive diagnosis and initial treatment at major cancer 
centers that may be located in a neighboring State, there can be 
significant delays in reporting to the central cancer registry in their 
State of residence. Some form of national cancer registration for 
childhood cancers would be very helpful in this regard. Second, when 
faced with a cancer cluster, the public attention invariably turns to 
the environment. There is a seemingly infinite number of possibilities 
when it comes to evaluating environmental concerns within the context 
of an emerging or ongoing cluster. A set of national recommendations 
for environmental surveillance would be helpful in this regard. Third, 
a standardized national protocol from agencies such as CDC and ATSDR 
would allow them to respond to State and local concerns more quickly. 
It has been exceptionally difficult to explain to an impatient public 
why it should take so long to develop a scientific protocol, have it 
approved by the appropriate committees for the protection of human 
subjects, and then implement it in the field. Having some things done 
in advance would go a long way toward minimizing this frustration in 
the community.
    I hope these remarks have been helpful. I would be pleased to 
answer any questions the committee may have.
                                 ______
                                 
                               Attachment

Review and Recommendations of the Expert Panel Dr. Leslie L. Robinson, 
  Professor, Department of Pediatrics, School of Medicine, Director, 
Division of Pediatric Epidemiology and Clinical Research, University of 
   Minnesota Cancer Center; Dr. Thomas Sinks, Associate Director for 
Science, National Center for Environmental Health, Centers for Disease 
Control and Prevention; Dr. Allan H. Smith, Professor of Epidemiology, 
   School of Public Health, University of California, Berkeley; Dr. 
   Malcolm Smith, Head, Pediatric Section, Cancer Therapy Evaluation 
Program, National Cancer Institute, National Institutes of Health; Dr. 
Mary E. Guinan, Nevada State Health Officer; Dr. L.D. Brown, Director, 
   Nevada State Health Laboratory; Dr. Randall L. Todd, Nevada State 
   Epidemiologist; and Dr. Burton A. Dudding, Professor, Behavioral 
   Pediatric and Adolescent Medicine, University of Nevada School of 
                                Medicine

    The expert panel was convened on February 15, 2001, in Reno, NV by 
Dr. Mary Guinan, Nevada State Health Officer. The panel reviewed the 
Nevada State Health Division's investigation of acute lymphocytic 
(lymphoblastic) leukemia (ALL) cases that had been diagnosed in 
Churchill County, NV. The panel considered possible follow-up actions 
and priorities by the Nevada Health Division. The meeting of the expert 
panel was attended by panel members and staff from the Nevada Health 
Division, University of Nevada School of Medicine, Nevada Governor's 
Office, U.S. Senate (Senator John Ensign's Office and Senator Reid's 
staff on U.S. Senate Committee on Environment and Natural Resources), 
and the Fallon Naval Air Base. This report summarizes the panel's 
review and recommendations.
    The expert panel recognized the difficulty in evaluating and 
investigating excess occurrences of ALL. The panel members acknowledged 
that the cause(s) of ALL are insufficiently understood to single out a 
specific factor as explaining the observed excess in Fallon, NV. The 
panel members were familiar with previous investigations of ALL 
clusters, all of which had failed to uncover an explanation of the 
cause of these excesses. At the same time, the panel members confirmed 
that the excess occurrence of ALL in Fallon, NV is unusual; not only 
because of its large number of observed cases among so small 
population-at-risk over a short time period, but also because further 
observed ALL cases had been diagnosed after the initial recognition of 
the ALL excess. The members of the expert panel acknowledged the 
excellent work of the staff of the Nevada Health Division on this 
investigation.
    Scientific understanding of the biology of ALL prevented the 
committee members from predicting the cause of the observed excess of 
cases in Fallon. The committee is aware of at least three distinct sets 
of possibilities. The first set of theories collectively point toward a 
cancer causing chemical contaminant (e.g., human carcinogen) as the 
causal agent for the ALL epidemic. Theories about a chemical in the 
environment have received the greatest amount of public attention and 
community concern. The expert panel recognizes the need to address 
community concern regarding the presence of a hazardous chemical 
contaminant. However, the absence of cases of acute myeloid leukemia, 
the type of leukemia most commonly associated with toxic chemical 
exposure (1-3), argues against the Fallon cases being the result of 
toxic exposures. The panel members were skeptical that a chemical 
exposure could explain the excess cases of ALL in Fallon, NV. A second 
possible explanation relates to the theory of what is called poulation 
mixing in which clusters of ALL have been reported associated with 
unusual mixing of people, often in relatively isolated rural areas (4-
11). The population mixing theory initially focused on the possibility 
of an unidentified infectious agent (i.e., a virus). However, the 
current consensus is that exposure to a variety of infectious agents 
(i.e., viral and bacterial) may trigger an unusual and rare reaction 
that affects a very small number of children within the susceptible 
population. The hypothesis suggests that ALL is not infectious, 
spreading from one person to another; but an unusual complication to a 
common infection within a susceptible population. The population-mixing 
theory is supported by the observation that excesses of ALL eventually 
subside, presumably because of increased population immunity. This 
theory requires further examination. The panel believes it reasonable 
to test this hypothesis by calculating rates of ALL in other rural 
areas of the United States having significant population mixing. 
However, such an effort falls outside the mandate of the Nevada Health 
Division. Finally, the possibility that the excess of ALL cases is due 
to random chance cannot be totally excluded as an explanation. The 
panel acknowledges, however, that the excess of ALL cases in Fallon, NV 
is not likely to represent a ``chance'' occurrence.
    The expert panel recommends to the Nevada Health Division six 
follow-up steps in the investigation of the excess occurrence of ALL in 
Fallon, NV (see Table 1).
    The purpose of these next steps are to: (1) efficiently expand 
case-finding efforts, (2) categorize the observed ALL cases by 
clinically relevant disease biomarkers, (3) identify potential excess 
environmental exposures unique to the community by a cross-sectional 
exposure assessment of selective contaminants and an evaluation of 
contaminant releases into the local environment with assessment of 
completed pathways for the case families, (4) collect and bank biologic 
specimens for future scientific investigations, (5) determine the time 
course and characteristics of population movements into the Fallon area 
for the period 1990 to 2000, and (6) maintain an expert panel to peer 
review investigative protocols and study results, consider future use 
of banked specimens, and provide ongoing consultation to the Nevada 
Health Division.
    The expert panel also discussed the importance of high 
concentrations of arsenic in municipal and private drinking water 
supplies. The panel members expressed doubt that arsenic consumption in 
drinking water, by itself, could explain the observed ALL excess for 
several reasons: (1) The excess occurrence of ALL began in 1999, 
whereas the arsenic concentrations in drinking water have been 
consistently elevated for many years. (2) The case children who makeup 
the excess occurrence of ALL differ in respect to their consumption of 
arsenic contaminated drinking water. (3) Epidemiologic studies of 
arsenic exposed populations have not linked arsenic exposure with adult 
or childhood leukemia. One recent article suggests a weak association 
between childhood leukemia risk and exposure to low levels of arsenic 
in drinking water (12). The panel has reviewed the article and believes 
that the study is inadequate to support a conclusion that ALL is 
related to arsenic in drinking water. Each panel members expressed 
concern that the ongoing exposure to excess levels of arsenic in 
drinking water was a human health hazard, regardless of its 
relationship to the excess of ALL. The Fallon municipal water supply is 
contaminated with arsenic (As) at a level 10 times the EPA recommended 
standard for arsenic in drinking water. The panel was also aware that 
an unknown proportion of Churchill County drinking water wells, 
unregulated by the Federal Safe Drinking Water Act (SDWA), are at least 
as contaminated as the Fallon municipal water supply. Arsenic is 
recognized by the Report on Carcinogens of the National Toxicology 
Program as a known human carcinogen on the basis of epidemiologic 
studies that have linked arsenic exposure with an excess of skin, 
bladder, and lung cancers in exposed human populations.
    The expert panel recommends that arsenic concentrations in the 
Fallon municipal drinking water be reduced to a level no more than that 
currently recommended by EPA (e.g.; 10 <greek-m>g/L) as soon as 
possible. The panel strongly encourages the Nevada Health Division, and 
other State agencies, to proceed with recommendations for testing 
arsenic in all drinking water wells in Churchill County that are 
unregulated by the SDWA. The State health division should work to 
create a process providing this service when necessary and develop a 
set of recommendations for preventing arsenic exposure based on 
reported test results. The State health division should consider 
maintaining a listing of wells that have been tested along with test 
results.

  TABLE 1.--INVESTIGATING THE EXCESS OCCURRENCE OF ACUTE LYMPHOCYTIC 
(LYMPHOBLASTIC) LEUKEMIA IN FALLON, NV: PHASE II RECOMMENDATIONS OF THE 
                    EXPERT PANEL (FEBRUARY 15, 2001)

Priority: Task/Time frame/Collaborators
    1. Efficiently expand case-finding efforts. The panel members 
encourage the Nevada Health Division to continue limited case-finding 
strategies. The panel members recommended limited expansion of case-
finding by linking to:

          a. The national Childhood Oncology Group (COG) database(s) to 
        identify all children with ALL having a residence at time of 
        diagnosis in the State of Nevada. The purpose of this would be 
        to evaluate completeness of the Nevada tumor registry and 
        identify additional ALL cases from Churchill County.
          b. An ongoing case-control study of ALL being conducted in 
        California to review residential history of cases for previous 
        residence in Churchill County, NV.
          c. The California State Tumor Registry to identify any 
        children with ALL with a Nevada residence at time of diagnosis.

    Time frame.--These additional steps could be done within 2 months 
after satisfactory negotiations regarding patient confidentiality are 
completed.
    Potential Collaborators.--Clinical Oncology Group, California Tumor 
Registry, California ALL research team.
    2. Categorize the observed ALL cases by clinically relevant disease 
biomarkers. Cancer cells from each case-child have probably been 
collected and undergone immunophenotyping and cytogenetic testing. The 
health division should collect this information. If testing has not 
been done and tumor cells have been stored, the health division should 
secure samples and have them tested. These materials could be reviewed 
or tested at two independent laboratories. The distribution of these 
results among the case-children from Fallon can be compared against 
other children with ALL to determine if these distribution are similar 
or if the distribution among the Fallon case-series is unique.
    Time frame.--The health division should proceed to determine 
availability of data or tumor cells as soon as possible.
    Potential Collaborators.--Pediatric oncologists, Childhood Oncology 
Group, National Cancer Institute.
    3. Identify potential excess environmental exposures unique to the 
community. The health division should conduct limited testing for 
current exposures in environmental media or human samples as well as 
evaluate contaminant releases into the local environment and assess the 
potential for human exposure to such contaminants. This analysis would 
be used to identify chemicals that are (and are not) elevated in the 
community and to consider if additional data collection is required.

          a. A cross-sectional exposure assessment of selective 
        contaminants would include examination of drinking water, human 
        blood and urine of family members, and possibly dust collected 
        from homes where case-children did and did not live. Testing 
        should be limited to compounds for which normative data are 
        available. The expert panel recommended testing for volatile 
        organic compounds in drinking water and human tissues; 
        radioactive isotopes in drinking water; selected heavy metals 
        in drinking water, household dust, and human tissues; and 
        pesticides in human tissues and in household dust.
          b. An evaluation of contaminant releases into the local 
        environment with assessment of completed pathways for the case 
        families. The expert panel recommends collecting environmental 
        releases data, including that from local industry and the 
        Fallon Naval Air Station. An assessment of the potential for 
        environmentally-released chemicals to result in human exposure 
        should also be conducted, including potential for case-children 
        to have been exposed.

    Time frame.--These activities will require development of survey 
and sampling protocols and appropriate review of consent forms and 
confidentiality agreements. The committee anticipates start-up of these 
activities during the months of March or April and available results 
within 1 year.
    Potential Collaborators.--National Center for Environmental Health, 
Centers for Disease Control and Prevention; Agency for Toxic Substances 
and Disease Registries; Jonathan Buckley (University of Southern 
California) for input on measuring house dust for pesticide residues, 
heavy metals, PAHs.
    4. Collect and bank biologic specimens for future scientific 
investigations. The members of the panel recognize how limited our 
knowledge is of the cause(s) of ALL and the difficulty investigators 
have had in identifying the causes of similar ALL excesses. The panel 
members believe that collection of biologic specimens from case-
children and family members may be useful for future research 
investigations into the cause(s) of ALL. A small amount of blood and 
urine, and perhaps buccal cells, should be collected, maintained, and 
made available for future research.
    Time frame.--Collection of specimens could occur simultaneously 
with the exposure assessment (see 3A) or include samples taken during 
clinical care. a protocol for collection, storage, and access to 
samples must be developed and reviewed by an Institutional Review Board 
for compliance with human subject research.
    Potential Collaborators.--Nevada Public Health Laboratory, National 
Center for Environmental Health, Centers for Disease Control and 
Prevention, National Cancer Institute as possible repositories for the 
tissue bank.
    5. Determine the time course and characteristics of population 
movement into the Fallon area for the period 1990-2000. The expert 
panel recommends collecting demographic data concerning changes in the 
population of Fallon, specifically looking for evidence of large 
migration of new long-term residents into the community during this 
time period. The appended table illustrates the kind of first-level 
information that is relevant to this issue.
    Time frame.--Initial data collection within 2 months.
    Potential Collaborators.--Public school systems and Fallon Naval 
Airbase (for information concerning migration patterns), Drs. Les 
Robison and Malcolm Smith (for consultation to identify the specific 
data required).
    6. Maintain the expert panel to peer review investigative protocols 
and study results, review proposals for future use of banked specimens, 
and provide ongoing consultation to the Nevada Health Division.

                             REFERENCE LIST

    1. Felix, C.A. Secondary leukemias induced by topoisomerase-
targeted drugs. Biochim Biophys Acta 1998; 233-55.
    2. Bennett, J.M., Moloney, W.C., Greene, M.H., Boice, J.D. Acute 
myeloid leukemia and other myelopathic disorders following treatment 
with alkylating agents. Hematol.Pathol. 1987; 99-104.
    3. Rothman, N., Smith, M.T., Hayes, R.B., Traver, R.D., Hoener, B., 
Campleman, S., Li, G.L., Dosemeci, M., Linet, M., Zhang, L., Xi, L., 
Wacholder, S., Lu, W., Meyer, K.B., Titenko-Holland, N., Stewart, J.T., 
Yin, S., Ross, D. Benzene poisoning, a risk factor for hematological 
malignancy, is associated with the NQO1 609C->T mutation and rapid 
fractional excretion of chlorzoxazone. Cancer Res 1997; 2839-42.
    4. Kinlen, L.J., Epidemiological evidence for an infective basis in 
childhood leukaemia [editorial]. Br. J. Cancer 1995; 1-5.
    5. Kinlen, I.J., Clarke, K., Hudson, C. Evidence from population 
mixing in British New Towns 1946-85 of an infective basis for childhood 
leukemia. Lancet 1990; 577-82.
    6. Kinlen, L.J., Hudson, C. Childhood leukemia and poliomyelitis in 
relation to military encampments in England and Wales in the period of 
national military service, 1950-63. B.M.J. 1991; 1357-62.
    7. Kinlen, L.J., O'Brien, F., Clarke, K., Balkwill, A., Matthews, 
F. Rural population mixing and childhood leukemia: effects of the North 
Sea oil industry in Scotland, including the area near Dounreay nuclear 
site. B.M.J. 1993; 743-8.
    8. Kinlen, L.J., Petidou, E. Childhood leukemia and rural 
population movements: Greece, Italy, and other countries. Cancer Causes 
Control 1995; 445-50.
    9. Kinlen, L.J. High-contact paternal occupations, infection and 
childhood leukemia: five studies of unusual population-mixing of 
adults. Br.J. Cancer 1997; 1539-1545.
    10. Alexander, F.E., Chan, L.C., Lam, T.H., Yuen, P., Leung, N.K., 
Ha, S.Y., Yuen, H.L., Li, C.K., Lau, Y.L., Greaves, M.F. Clustering of 
childhood leukemia in Hong Kong: association with the childhood peak 
and common acute lymphoblastic leukemia and with population mixing. 
Br.J. Cancer 1997; 457-63.
    11. Petridou, E., Revinthi, K., Alexander, F.E., Haidas, S., 
Koliouskas D., Kosmidis, H., Piperopoulou, F., Tzortzatou, F., 
Trichopoulos, D., Space-time clustering of childhood leukemia in 
Greece: evidence supporting a viral actiology. Br.J. Cancer 1996; 1278-
83.
    12. Infante-Rivard et al. Drinking water contaminants and childhood 
leukemia. Epidemiology 2001; 12:13-19.
                               __________

       Statement of James R. Hare, Councilman, City of Elmira, NY

    Senator Reid and members of the Committee on Environment and Public 
Works:
    I appreciate the opportunity to speak with you this morning. I have 
been a teacher at Southside High School in Elmira, NY, for over 16 
years. I was at the school when it opened in 1979, then went to another 
school for 6 years and resumed in 1986 and have been there since. My 
son attended Southside for 4 years, graduating in 1997, and as a former 
Mayor of Elmira and currently a city councilman representing, a south 
side district, many of any constituents have a direct connection with 
the school.
    I believe there is a story to tell about Southside which may be of 
some help to your investigation. For the last year the school and its 
grounds have been undergoing tests for hazardous wastes because of its 
location on part of an 83-acre former industrial site and the fact that 
there appears to be an inordinate number of cancer cases among the 
student body. (I have a timeline for use of the property for you).
    A logical question is why now? Why after 20 years of use are these 
questions being raised? The fact is people have wondered about this 
site since the school was built. It has been stated publicly by NYSDOH 
and environmental officials that with today's standards the school 
would not be built on this site, but 20 years ago these standards and 
the sensitivity we have today were not present. Yet at least privately 
many have been troubled by the fact that part of the old plant remains 
standing and in use, right next door to the school and by reports of 
illness, specifically cancer over the years. (I have a letter from a 
retired teacher to that effect).
    It all came together last year. Scott Technologies, Inc., of 
Mayfield, OH, who are the current owners of the property adjacent to 
Southside High School undertook a voluntary cleanup which took 4 months 
and cost $900,000. According to newspaper reports, ``Tons of 
contaminated soil, storage tanks and equipment containing an alphabet 
soup of hazardous wastes were removed . . . that included removal of 
2,000 cubic feet of contaminated soil, abandoned fuel and chemical 
storage tanks and electrical equipment containing polychlorinated 
biphenyls commonly known as PCB's''. Other chemicals found and removed 
include, ``arsenic, lead, zinc, cadmium and the solvents toluene, 
ethybenzine and xylenes'' (Star Gazette, April 23, 2000). The site was 
given a clean hill of health by the State as the work was done under 
the supervision of the NYSDEC. It should be pointed out that 
contaminated soil ``did contain hazardous waste some in levels 1,000 
times higher than allowed by the conservation department. (Star 
Gazette, April 23, 2000) I have a copy of the Citizen Participation 
Plan for Remediation of the American LaFrance Facility prepared for 
Scott Technologies).
    Also last year NYSDEC completed an investigation of petroleum 
contamination initially found in the vicinity of Miller Pond. The 
investigation began after a sheen in Miller Pond was reported to DEC in 
1995. The contamination is believed to have resulted from the activity 
of industries that previously occupied the area. The source of 
contamination was found to be under the gym at Southside High School. 
DEC used a technique called bioremediation to address the fuel oil 
contamination. (DED Fact Sheet, April 2000).
    Finally, at a meeting of students in the school auditorium last 
year, organized to promote participation in the Relay for Life it was 
reported that six Southside students had cancer. That made 13 cases 
since 1997. I was stunned. I had known of some cases and two of my 
son's classmates were survivors, but six in 1 year was an eye-opener.
    I wrestled for a bit with my responsibility as an employee, a 
parent, and as a councilman and decided that questions needed to be 
asked. I called together an ad hoc committee to meet at my home. Tim 
and Margaret Tobin, whose son currently is a junior at Southside and is 
a cancer survivor, Andy and Julie Patros whose son graduated with mine 
and is a cancer survivor, Mike and Luann Smith, whose daughter 
graduated with mine and Mike is the Emergency Management Director for 
Chemung County and a former Southport Town Board Member, and Councilman 
Dan Royle who has had two sons graduate from Southside and has another 
planning to go there. We agreed to draft a letter to the Elmira City 
School Board, on City Council stationery raising a number of issues, 
dated April 8 (I have a copy of that letter and another letter from our 
group).
    We did not release our letter to the press, but it found its way 
there. The Elmira Star Gazette began what I believe to be one of its 
best journalistic endeavors investigating and reporting of the cancer 
issue at Southside. Margaret Costello, who did much of the reporting is 
a Southside graduate.
    I must say that the school board which had shown no curiosity about 
this issue previously responded positively to our letter. Tom Kump, 
director of the Chemung County Health Department and a school board 
member met with us and the process of investigation got underway.
    On April 14, Kris Smith of NYSDOH was quoted, ``We get a myriad of 
calls of this nature. We respond to all of them. But in order to 
prioritize it we need to review the facts to determine if its an 
unusual type of cancer, the same type of cancer, the timeframe, and are 
there any logical explanations for what is occurring.'' (Star Gazette, 
April 14, 2000).
    On April 30, it was reported that ``State environmental experts 
would begin testing the soil at Southside . . . for chemicals and 
contaminants similar to those found on the adjacent industrial site''. 
One of the environmental engineers stated that the conservation 
department never had any reason to believe there was metal 
contamination at the school (Star Gazette, April 30, 2000) HELLO.
    On May 2, after a preliminary investigation State health officials 
said that Southside High School was not a health hazard to students. 
Headlines read ``High School Found Safe''. (Star Gazette, May 2, 2000).
    These responses indicate that situations like ours face a mix of 
competing concerns which the State must react to based on time, 
resources, and bureaucratic inclination. This is tough to digest for 
those directly impacted and quite frankly raises the question about how 
thorough the State will be when they do investigate. What I believe we 
learned is that the more pressure that can be put on the State the 
better the investigation will be. But to be effective in applying 
pressure the local community has to know what questions to ask and to 
whom they should be directed.
    At this point our committee recognized that we needed assistance, 
so that the issues would be qualitatively addressed. Our Mayor, Stephen 
Hughes (Southside graduate) and our City Manager recommended that we 
approach Craig Slater, an environmental attorney from Buffalo, who had 
done some work for Elmira, and has been involved with Love Canal. 
Courageously, the City Council authorized expenditure of $15,000 for 
Craig's services in the interest of protecting the public. In 1997, the 
City applied for and received a $200,000 Brownfields Demonstration 
Pilot Grant. The city has asked, and EPA Region is considering, a 
reallocation of a portion of the Brownfields award to reimburse city of 
Southside related assessment costs.'' With the advice of Craig Slater 
we also hired Barron and Associates/and Golder Associates as 
consultants to do a Phase I analysis. Craig, and our committee would 
serve as a third party separate from the interests of the school 
district and the State, we would represent the community. Craig's 
expertise positioned the public to be able to ask the right questions, 
challenge methodology used by the State and I think energized the 
school district to more aggressively seek answers.
    I have for you Mr. Slater's response and comments on the 
investigation which has taken place at Southside. I believe his 
response should provide you with some insight about the nature of this 
investigation. For instance, he raises questions about the methodology 
of site investigation (they did no phase one, the City did), and he 
questions comparison values which appear to be ``derived from generic 
residential exposure scenarios, and not site-specific exposure 
scenarios''.
    The Elmira School District also acted responsibly in my opinion. 
Once our new Superintendent, Laura Sherwood came on board, she met with 
Tim Tobin and myself for some historical perspective. The district 
hired a special attorney Rick Kennedy from Hodgson Russ Andrews Woods 
and Goodyear. She formed a reputable advisory committee, including Tim 
Tobin, Julie Patros, and Craig Slater as co-chair with the school 
attorney. In addition, the district hired their own consultants Brian 
C. Sendfelder, CHMM from Golder Associates and Dr. Rosalind Schoof from 
Gradient Corporation to analyze information. Also the school district 
voted to close the athletic fields until more could be learned. All 
committee meetings were open to the public and press Mr. Tobin will 
discuss the work of the committee.

                 WHAT ARE THE LESSONS WE HAVE LEARNED?

    1. We have learned thus far that while the site raises serious 
questions it is difficult to make a direct link between what is in the 
soil and cancer.
    2. We have resolved that the air and water quality in the building 
is safe and we have identified ``hot spots'' on the school grounds.
    3. I believe we have demonstrated that a community can work 
together to search for the truth if the process is open and conducted 
professionally. We may disagree on the conclusions and unanswered 
questions remain, but a great deal of time and money has been spent to 
examine the problem.
    4. The ability to access expert help serving the community interest 
was extremely important to the credibility of what was done. It made 
both the State and the school district assume more accountability.
    5. The school district has undertaken an extensive survey of alumni 
to research health issues, particularly cancer, which have not surfaced 
and might shed more light on what has been investigated so far.

[GRAPHIC] [TIFF OMITTED] T0650.001

[GRAPHIC] [TIFF OMITTED] T0650.002

[GRAPHIC] [TIFF OMITTED] T0650.003

[GRAPHIC] [TIFF OMITTED] T0650.004

[GRAPHIC] [TIFF OMITTED] T0650.005

[GRAPHIC] [TIFF OMITTED] T0650.006

[GRAPHIC] [TIFF OMITTED] T0650.007

[GRAPHIC] [TIFF OMITTED] T0650.008

[GRAPHIC] [TIFF OMITTED] T0650.009

[GRAPHIC] [TIFF OMITTED] T0650.010

[GRAPHIC] [TIFF OMITTED] T0650.011

[GRAPHIC] [TIFF OMITTED] T0650.012

[GRAPHIC] [TIFF OMITTED] T0650.013

[GRAPHIC] [TIFF OMITTED] T0650.014

[GRAPHIC] [TIFF OMITTED] T0650.015

[GRAPHIC] [TIFF OMITTED] T0650.016

[GRAPHIC] [TIFF OMITTED] T0650.017

[GRAPHIC] [TIFF OMITTED] T0650.018

[GRAPHIC] [TIFF OMITTED] T0650.023

[GRAPHIC] [TIFF OMITTED] T0650.024

[GRAPHIC] [TIFF OMITTED] T0650.025

[GRAPHIC] [TIFF OMITTED] T0650.026

[GRAPHIC] [TIFF OMITTED] T0650.027

[GRAPHIC] [TIFF OMITTED] T0650.028

[GRAPHIC] [TIFF OMITTED] T0650.029

[GRAPHIC] [TIFF OMITTED] T0650.030

[GRAPHIC] [TIFF OMITTED] T0650.031

[GRAPHIC] [TIFF OMITTED] T0650.032

[GRAPHIC] [TIFF OMITTED] T0650.033

[GRAPHIC] [TIFF OMITTED] T0650.034

[GRAPHIC] [TIFF OMITTED] T0650.035

[GRAPHIC] [TIFF OMITTED] T0650.036

[GRAPHIC] [TIFF OMITTED] T0650.037

[GRAPHIC] [TIFF OMITTED] T0650.038

[GRAPHIC] [TIFF OMITTED] T0650.039

[GRAPHIC] [TIFF OMITTED] T0650.040

[GRAPHIC] [TIFF OMITTED] T0650.041

[GRAPHIC] [TIFF OMITTED] T0650.042

[GRAPHIC] [TIFF OMITTED] T0650.043

                   Statement of Tim Tobin, Elmira, NY

    My son, Michael, was diagnosed with testicular cancer on November 
22, 1999. At that time, he was a 15-year-old sophomore, who ran cross-
country, track, and raced bicycles. Nothing I can say can describe the 
feelings his mother and I experienced when told ``your son has 
cancer''. Michael underwent immediate surgery. In January 2000, we flew 
to Indianapolis for additional surgery at the center where Lance 
Armstrong was treated.
    Within a week of my son's diagnosis and first surgery, a parent 
whose son was diagnosed with testicular cancer 2 years prior contacted 
me. This father and I began a dialog about cancer and the oddities of 
this disease. It would not be long until a third young man would come 
to be diagnosed with testicular cancer. Researching National Cancer 
Institute Data, first to find information about the nature, treatments, 
and survivability of this cancer, and later to assess the 
``peculiarities'' of testicular cancer cases among young men led me to 
a startling discovery.
    The NCI data for the occurrence of testicular cancer is between 3 
to 4 cases per 100,000. Almost 70 percent of these cases occur in men 
in their mid twenties to early forties. Rates for people of Hispanic 
descent, such as my son, are less. The NCI statistics, in addition to 
with what I would later learn about chemicals used in industrial 
manufacturing that are in the ground where my son attends school, lead 
me to this conclusion--I had a greater statistical likelihood of 
developing testicular cancer than my son, unless there was another 
factor at play. Coupled with the growing awareness of other cancer 
cases, this was cause for concern and inquiry.
    Elmira, NY has been home to many former industrial sites typically 
found in northeastern cities. My son's high school was built on a site 
that had experienced 100 years of industrial use. During the years of 
manufacture, some of the chemicals used and that are still present on 
the site include, but are not limited to PCB's, chromium, beryllium, 
arsenic, lead, nickel, zinc, phthalates and trichloroethelene. All of 
the above chemicals are known to, or highly likely, to be carcinogenic.
    In evaluating the site various criteria was used to determine 
safety. Many of the chemicals in the soils at Southside High School and 
in the industrial site that still stands right next door exceed 
acceptable human exposure limits from either the EPA or the NYSDEC. 
However, they were still determined to be safe. In many cases, the 
NYSDOH stated that exposure would not occur due to a ``well established 
grass cover'' (NYSDOH Preliminary Draft August 22, 2000)
    I have also read recent Federal studies on phthalates have 
indicated that exposure to this chemical causes ``testicular lesions'' 
in lab animals. (Center for the Evaluation of Risks to Human 
Reproduction). I also must question the inherent contradiction that 
this area is safe when several experts have repeatedly stated that ``we 
could not build this facility here today as it would not pass 
industrial standards.'' And no where in all of the data, studies, and 
reports from any of the different investigate or public health 
agencies, is there a mention that this site is on or directly 
contiguous to a DEC Class 2 Superfund site. This information, taken 
directly from DEC files by NYPIRG, was published in the Elmira Star-
Gazette on May 30, 2001.
    I would submit that clear-cut standards of chemical levels and 
exposure levels be implemented across the board. Further discussion, 
such as issues raised by the U.S. News and World Report on June 19, 
2000 or measures recommended in ``Poisoned School--Invisible Threats, 
Visible Actions,'' needs to be engaged. Clean-up measures should be 
taken to meet these standards. Public notification of schools when an 
industrial cleanup takes place is a must. In September 1999, such a 
cleanup was taking place during school hours at the site next door to 
my son's school. I can only imagine the chemical exposure that children 
were unknowingly subjected to from this activity.
    I believe that industrial waste is a danger to humans. I believe 
that a more diligent, cooperative approach to ``fix'' the problem, 
rather than place blame is needed.
    In particular, I believe that these substances are enhancing the 
risks and rates of cancer in our children. This is one risk that needs 
to, and can be, eliminated.
    I would like to thank the city of Elmira and its elected officials 
for the position and leadership they have taken on this issue. I would 
like to thank all of the members of the committee for your interest in 
this matter.
                               __________
 Statement of Karen Joy Miller, Founder and President, Huntington, NY, 
                     Breast Cancer Action Coalition

    Good morning. I am Karen Joy Miller from Huntington Long Island and 
I'd like to begin by thanking this esteemed panel for allowing me to 
testify today. Senator Reid, Senator Clinton, Congressman Ackerman, 
Congressman King, Congresswoman McCarthy, Congressman Grucci and 
Congressman Israel, you have all been very supportive of grassroots 
efforts to put an end to breast cancer and this hearing is evidence of 
your concern.
    I have lived on Long Island for 33 happy years raising three 
children with my husband Michael. 1987 was the year when our peaceful 
existence was shattered by the news of my breast cancer diagnosis. 
Thanks to the wonderful support of my immediate family. I was 
eventually able to regain my breath. Once on my feet, I was fortunate 
enough to find three other women in my town who were willing to ask the 
vital question: WHY? Together we started the Huntington Breast Cancer 
Action Coalition, whose first major project was to map the incidence of 
breast cancer within our township. I always knew that education equaled 
power . . . the power to create change. With that in mind, I set out to 
arm myself with solid information. I read all I could, asked 
innumerable questions and along the way was lucky enough to meet the 
experts and learn from them.
    Breast cancer is a disease that has been puzzling us for centuries. 
We have come a long way in solving this puzzle but it is an undeniable 
fact that we have just begun the serious research into understanding 
the relationship between the toxicity of our environment and disease. 
Even though we are all hearing about the major breakthroughs in the 
fight against cancer, such as the completed Genome Project and the new 
wonder drug Gleevec, there is a long way to go before we can rest easy.
    The efforts of our Coalition along with many grassroots groups 
nationwide, have laid the groundwork by increasing public's awareness 
of breast cancer. The growing number of women having regular mammograms 
is proof of that very effort. Yet, despite the heightened awareness and 
vigilance, breast cancer rates have jumped by 40 percent since 1973. 
THAT IS SERIOUS cause for alarm!
    Earlier I mentioned the mapping project initiated by our coalition 
Huntington Breast Cancer Action Coalition. Please take a moment to look 
at the dots. Each of these dots, no matter what the color, represents a 
woman who is ALSO asking the question why? She is willing to provide 
any answers the researchers want to know. She is willing to tell you 
confidential information about herself. She is one of the millions who 
want to know WHY?
    Our high-tech world makes our lives more comfortable and convenient 
by the day, yet that same world bears responsibility for toxic 
pollution. Industrialization has been at the core of our success as a 
society, but the price has been much too high in terms of our health.
    Breast cancer activists as well as informed people everywhere 
believe that toxins in the environment may be just as responsible for 
creating genetic abnormalities, as are inherited factors. Widespread 
and cumulative exposure to toxic agents in the air we breathe, the 
water we drink, the food we eat and the constant radiation our bodies 
absorb, may be causing dangerous alterations to the healthy cells in 
our bodies. Our immune system simply cannot fight them all off and 
ultimately cancer takes hold.
    I am here to ask you, our valued representatives, to PLEASE take on 
some major new initiatives:
    <bullet> There must be incentives to encourage environmental 
research. Breast cancer activists all across this country have helped 
raise multiple millions of dollars for research. But environmental 
researchers have been getting seriously short-changed by funding 
agencies like NCI. Breast cancer research must be more 
interdisciplinary and more focused on environmental contaminants. And 
that research must be done with the active assistance of the breast 
cancer community.
    <bullet> Government must improve its data bases so that scientists 
can do their work properly. Today's cancer registries are woefully 
inadequate. They do not collect many forms of information that are 
vital for researchers. Work with us to improve these cancer registries.
    <bullet> We all need better information so we can make healthier 
lifestyle choices. We need the Federal Government to provide that 
information in a format that is easy to use and understand.
    <bullet> We also ask that our government speak openly about the 
precautionary principle. It is no longer as simple as telling the 
public to ``Get a Mammogram''. While our environment is being tested, 
we need honesty on a Federal level about the health risks we face.
    <bullet> In 1994 the FDA recommended that doctors record in 
patient's files information to calculate the absorbed dose of radiation 
to the patient. Right now most doctors have no idea how much radiation 
their patients are exposed to. The fact that many of us see different 
specialists, compounds the problem. Please address this vital public 
health issue and remember that radiation is a proven environmental 
cause of breast cancer.
    <bullet> To date, the effects of groundwater on breast cancer have 
not been adequately researched. Many on Long Island are concerned that 
our water distribution systems increase our cancer risks, and this 
needs greater attention.
    <bullet> The Senate must ratify the international POPS treaty 
dealing with the Persistent Organic Pollutants such as PCB's, chlordane 
and dioxins. The elimination of these contaminants must begin without 
delay.
    It is high time to reverse these trends, and with your help it can 
be done.
    In the spirit of cooperation and community, we sincerely hope that 
your persistence and assistance during these next 4 years will make a 
REAL difference in the fight against breast cancer. . . . When I 
learned that I had breast cancer in 1987, I was devastated. My family 
was devastated. Improved methods of detection and cure are essential, 
but they are not enough. We must get at the root causes of breast and 
other cancers. There is a growing body of evidence that supports our 
claims.
    Industrial toxins are killing us. Please help us to clarify our 
understanding of risks and work with us to reduce our exposure to these 
awful chemicals that have become so pervasive in our communities. In 
our hearts and minds, we know these are possible and we appeal to you 
to speed up that process.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T0650.044
    
    [GRAPHIC] [TIFF OMITTED] T0650.045
    
    [GRAPHIC] [TIFF OMITTED] T0650.046
    
    [GRAPHIC] [TIFF OMITTED] T0650.047
    
    [GRAPHIC] [TIFF OMITTED] T0650.048
    
    [GRAPHIC] [TIFF OMITTED] T0650.049
    
    [GRAPHIC] [TIFF OMITTED] T0650.050
    
    [GRAPHIC] [TIFF OMITTED] T0650.051
    
    [GRAPHIC] [TIFF OMITTED] T0650.052
    
    [GRAPHIC] [TIFF OMITTED] T0650.053
    
    [GRAPHIC] [TIFF OMITTED] T0650.054
    
    [GRAPHIC] [TIFF OMITTED] T0650.055
    
    [GRAPHIC] [TIFF OMITTED] T0650.056
    
    [GRAPHIC] [TIFF OMITTED] T0650.057
    
    [GRAPHIC] [TIFF OMITTED] T0650.058
    
    [GRAPHIC] [TIFF OMITTED] T0650.059
    
    [GRAPHIC] [TIFF OMITTED] T0650.060
    
    [GRAPHIC] [TIFF OMITTED] T0650.061
    
    [GRAPHIC] [TIFF OMITTED] T0650.062
    
    [GRAPHIC] [TIFF OMITTED] T0650.063
    
    [GRAPHIC] [TIFF OMITTED] T0650.064
    
    [GRAPHIC] [TIFF OMITTED] T0650.065
    
    [GRAPHIC] [TIFF OMITTED] T0650.066
    
    [GRAPHIC] [TIFF OMITTED] T0650.067
    
    [GRAPHIC] [TIFF OMITTED] T0650.068
    
    [GRAPHIC] [TIFF OMITTED] T0650.069
    
    [GRAPHIC] [TIFF OMITTED] T0650.070
    
    [GRAPHIC] [TIFF OMITTED] T0650.071
    
    [GRAPHIC] [TIFF OMITTED] T0650.072
    
    [GRAPHIC] [TIFF OMITTED] T0650.073
    
    [GRAPHIC] [TIFF OMITTED] T0650.074
    
    [GRAPHIC] [TIFF OMITTED] T0650.075
    
    [GRAPHIC] [TIFF OMITTED] T0650.076
    
    [GRAPHIC] [TIFF OMITTED] T0650.077
    
    [GRAPHIC] [TIFF OMITTED] T0650.078
    
    [GRAPHIC] [TIFF OMITTED] T0650.079
    
    [GRAPHIC] [TIFF OMITTED] T0650.080
    
    [GRAPHIC] [TIFF OMITTED] T0650.081
    
    [GRAPHIC] [TIFF OMITTED] T0650.082
    
    [GRAPHIC] [TIFF OMITTED] T0650.083
    
    [GRAPHIC] [TIFF OMITTED] T0650.084
    
    [GRAPHIC] [TIFF OMITTED] T0650.085
    
    [GRAPHIC] [TIFF OMITTED] T0650.086
    
      Statement of Marilie Gammon, Ph.D., Associate Professor of 
Epidemiology, School of Public Health, University of North Carolina at 
                              Chapel Hill

    Good morning Chairman Reid, Senator Clinton, and distinguished 
members the committee. I am Dr. Marilie Gammon, of the University of 
North Carolina at Chapel Hill; formerly of Columbia University in New 
York. I would like to thank you for inviting me to talk with you about 
how our environment may influence our cancer risk.
    I am the principle investigator of the Breast Cancer and the 
Environment on Long Island Study\1\, which is the cornerstone of the 
Long Island Breast Cancer Study Project (LIBCSP). The LIBCSP, funded by 
the National Cancer Institute (NCI) and the National Institute for 
Environmental Health Sciences (NIEHS), is a multistudy investigation of 
possible environmental causes of breast cancer on Long Island, and is a 
collaborative effort of New York City and Long Island researchers. My 
study is investigating whether certain environmental contaminants 
increase risk of breast cancer among women in Nassua and Suffolk 
counties. The primary aims are to determine if organochlorine 
pesticides, including DDT, polychlorinated biphenyls (PCBs), dieldrin, 
chlordane, and polycyclic aromatic hydrocarbons (PAH), a ubiquitous 
pollutant caused by incomplete combustion of various chemicals 
including diesel fuel and cigarette smoke, are associated with risk for 
breast cancer.
---------------------------------------------------------------------------
    \1\ The study is sometimes referred to as the Columbia case-control 
study, because Dr. Gammon began the study while at Columbia University, 
New York, NY.
---------------------------------------------------------------------------
    For this population-based study, all women in Nassau and Suffolk 
counties who were newly diagnosed with breast cancer during a 1-year 
period that ended mid-1997 (cases) were invited to participate. A 
comparison group (controls) of women who did not have breast cancer 
were randomly selected from the two counties. Altogether about 1,500 
cases and 1,500 controls participated. The study participants completed 
a questionnaire administered by interview in their homes, and provided 
pre- and post-treatment blood samples and urine samples. In addition, a 
random sample of participants who had resided in their homes for at 
least 15 years participated in a study in which house dust, tap water, 
and yard soil samples were collected (home study). About 340 cases and 
340 controls participated in this component of the study.
    Blood and urine samples from 400 of the cases with invasive cancer, 
200 of the cases with in situ disease, and 400 of the controls were 
randomly selected from the study population and analyzed. Laboratory 
analyses were conducted to measure organochlorine pesticides and PAH-
DNA adducts in blood (PAHs bind to DNA), and urinary markers of 
estrogen metabolism. For the home study, samples were assayed for 
pesticides and PAHs.
    The blood and urine samples of all African-American study 
participants were analyzed to increase the data available for this 
group. Further, all African-American women participants who had lived 
in their homes for at least 15 years were invited to be part of the 
home study.
    Statistical analyses of the questionnaire data are now in progress. 
These data will be coupled with the results of the laboratory analyses 
to assess the risk for breast cancer associated with organochlorine 
pesticides and PAHs. Findings addressing the two primary hypotheses are 
expected to be published later this year.
    Newly undertaken research includes examination of the possible 
interaction between susceptibility markers and environmental risk 
factors on risk for breast cancer. Further, tumor and blood markers of 
estrogen and PAH metabolism are being studied, and the laboratory 
analyses are now underway. Results from these newer efforts are 
expected in the year 2002.
    I would be pleased to answer any questions you may have.
                               __________
Statement of Ruby T. Senie, Ph.D., Professor of Clinical Public Health, 
         Mailman School of Public Health of Columbia University

    Mr. Chairman and members of the committee: My name is Ruby T. Senie 
and I am a member of the faculty in the Department of Epidemiology of 
the Mailman School of Public Health and Principal Investigator of the 
Metropolitan NY Registry. Breast cancer has been the focus my research 
for more than 25 years. I wish to thank you, Mr. Chairman, and members 
of the committee, for convening this hearing on Long Island to discuss 
the potential influence of environmental exposures on breast cancer 
risk. Although increased susceptibility to breast and ovarian cancer 
has been associated with genetic mutations of BRCA1 and BRCA2, 
researchers have recognized that risk is also influenced by 
environmental exposures, lifestyle factors, health behaviors, and other 
components of the genome. A major challenge to investigators is the 
ability to quantify the risk associated with potentially harmful 
environmental exposures that may have occurred many years in the past; 
however, new technology has enabled the establishment of the field of 
molecular epidemiology. With these advanced tools, investigators are 
investigating potentially harmful exposures; reduction or avoidance of 
such exposures may eventually provide avenues for primary prevention of 
breast cancer.
    I appreciate the opportunity to describe the purposes and 
achievements of the Metropolitan NY Registry and the five other sites 
contributing to the Cooperative Family Registry for Breast Cancer 
Studies [CFRBCS]. The initial goal of the CFRBCS, funded by the 
National Cancer Institute in 1995, was to encourage participation of 
key members of cancer-prone families. The families invited to join the 
Registry have been identified through high-risk clinics and population-
based cancer registries. The role of family-based research for 
etiologic studies, specifically of the interactions of genetic risk 
with environmental exposures, was defined and potential 
multidisciplinary projects were described.
    A major challenge for the CFRBCS Steering Committee was to develop 
a universal consent form to meet the Institutional Review Board [IRB] 
criteria of the six CFRBCS international sites. The consent form 
appropriately informs participants of the interdisciplinary research 
that will be conducted using the data and biospecimens they contribute 
and that findings from these studies may benefit their own families as 
well as society at large. The consent form also assures the protection 
and maintenance of confidentiality of all family members while 
minimizing any risks that may be associated with their 
participation.\1\
---------------------------------------------------------------------------
    \1\ Daly, M.B., Offit, K., Li, F., Glendon, G., Yaker, A., West, 
D., Koenig, B., McCredie, M., Venne, V., Nayfield, S., Seminara, D., 
Participation in the cooperative family registry for breast cancer 
studies: issues of informed consent. J. Nat. Cancer. Inst. 92:452-6 
(2000)
---------------------------------------------------------------------------
    Each participant has been asked to provide medical history, family 
and lifestyle information as well as blood and urine samples. 
Permission to obtain sections of tumor tissue is also requested of 
participants with a history of breast or ovarian cancer or whose 
affected relative is deceased. These data and biospecimens provide a 
valuable resource for qualified scientists who are studying avenues to 
prevent, diagnosis, and treat breast cancer. To ensure the appropriate 
use of the invaluable and limited biospecimens, senior breast cancer 
researchers of the Advisory Committee evaluate the merits of each 
submitted research proposal. Approved projects are then assessed by the 
Research Monitoring and Ethics Review Panel to assure that standards of 
medical ethics are maintained and the confidentiality of data is 
guaranteed.
    Family-based genetic studies necessitate the participation of three 
or more relatives per family; therefore, women and men with and without 
a history of cancer are included. Although the need for enrollment of 
families rather than isolated individuals within families has created a 
sense of community among participants who share our common goals, some 
individuals have hesitated to encourage their relatives to participate. 
Some hesitancy has been due to the perception that genetic studies are 
qualitatively different from other types of medical research 
contributing to fear of genetic discrimination. To reassure 
participants and to protect their privacy a Certificate of 
Confidentiality has been obtained from the Department of Health and 
Human Services prohibiting names or identifying characteristics from 
ever being released for any purpose.
    Due to the rapid progress of scientific research, especially in the 
field of genetics, the exact nature of future studies using the 
Registry resources could not be fully described to individuals 
considering participation. Therefore, a commitment was made by the 
CFRBCS team of investigators to inform Registry participants of ongoing 
research and results through biannual newsletters and educational 
seminars. [Current issue from NY is attached] Through these mechanisms 
participants are also advised of additional research opportunities in 
which their active participation might provide personal benefit while 
contributing to cancer prevention options, improved screening 
modalities and enhanced therapeutic modalities.
    Our international CFRBCS now includes more than 6,000 families of 
whom 1,150 were recruited by the New York Registry team. To identify a 
diverse population of cancer-prone families from the New York 
metropolitan area, several of the researchers contributing to the Long 
Island case-control study also collaborated in forming the NY Registry. 
Families at high risk were defined as having one or more first or 
second degree relatives with: early onset breast cancer, a history of 
both breast and ovarian cancer, male breast cancer, or three or more 
older aged relatives with breast or ovarian cancer. These criteria for 
the NY Registry have enabled recruitment of a genetically diverse 
cohort of families with a spectrum of risk with potentially inherited 
susceptibility to breast cancer.
    Data and biospecimens are collected from all participating 
relatives using common instruments and laboratory protocols. Coded 
personal health information, dietary intake, treatment for breast and/
or ovarian cancer, and pedigree data are routinely transmitted to 
CFRBCS Informatics Center. Biospecimens including blood and tumor 
tissue samples are banked at each collaborating site following rigid 
quality control procedures. Annual followup with all participants has 
been conducted to maintain an accurate record of cancer history and 
current status of participating family members as well as those who 
have not agreed to join.
    Data files from all six Registry sites are merged and made 
available to approved investigators by the CFRBCS Informatics Center. 
Code numbers enable linking of family and personal history data with 
genetic analyses; personal identifiers are never available. The 
development of research proposals has progressed concurrently with 
family recruitment. The banked data and specimens are now being used by 
New York colleagues as well as investigators across the country in many 
interdisciplinary studies to assess the risk of breast cancer and 
breast cancer prognosis associated with susceptibility genes and the 
interaction of these genes with environmental exposures.
    Familial aggregation of breast cancer has been recognized for 
centuries; however, the identification of BRCA1 and BRCA2 indicated the 
importance of having a cohort of families for studies linking genetic 
and environmental factors for breast cancer studies. Following 
identification of specific mutations in BRCA1 and BRCA2 among members 
of breast cancer families of Ashkenazi heritage, supplemental funds 
were awarded to four of the six CFRBCS sites including the New York 
Registry. These funds enabled enhanced recruitment efforts and offer 
genetic counseling and test results to interested members of this 
subgroup.
    Genetic testing assessed the presence of the three founder 
mutations including 185delAG and 5382insC on BRCA1 and 6174delT located 
on BRCA2. A total of 336 mutations carriers among men and women of 
Ashkenazi heritage have been identified in the 1,417 Ashkenazi families 
currently participating in the CFRBCS. Of the 1,078 Ashkenazi 
participants with a history of breast or ovarian cancer, 18 percent 
were found to have inherited one the founder mutations. More than 1,220 
blood samples from 93 New York Ashkenazi families have been tested for 
the founder mutations. Of these, 144 carriers have been identified 
including 120 women and 24 men. In addition to breast and ovarian 
cancer, some carriers have reported malignancies of other sites 
including prostate, colon, and melanoma. Sixty-one, eighteen men and 
forty-three women, found to have a mutation of either BRCA1 and BRCA2 
have not been diagnosed with any cancer; however, most are younger than 
age 60 and remain at elevated risk. Although genetic counseling with 
provisions providing genetic test results was offered to all 
participants of Ashkenazi heritage, approximately 25 percent requested 
these services. However, during followup calls, additional family 
members are now expressing interest in learning their carrier status.
    Although a large increase in disease risk has been associated with 
inheritance of mutant alleles of the two known breast cancer 
susceptibility genes, BRCA1 and BRCA2, these genetic mutations account 
for only a small proportion of breast cancer cases. Investigators are 
now recognizing the contribution of ``low-risk'' genetic variations to 
breast cancer risk. Single nucleotide polymorphisms (SNPs) which occur 
frequently in the regulatory and coding regions of genes, may confer an 
increase in cancer risk or modify the cancer risk induced by other 
factors. The common occurrence of SNPs in the population could 
contribute more to cancer incidence than the BRCA1 and BRCA2. SNPs may 
interact with environmental exposures modifying their independent 
effects disease risk. Studies of many SNPs are currently being 
conducted by CFRBCS investigators.
    Enrollment of family members is often complicated by the geographic 
dispersion of living relatives necessitating much recruitment by phone 
and mail. However, this dispersion may be an asset for studies of 
suspected environmental contaminants. The metropolitan area includes 
regions of downstate New York as well as counties of New Jersey and 
Connecticut close to Manhattan. More than 300 participating families 
residing on Long Island have a first degree relative living outside the 
metropolitan area. To assess the impact of geographic dispersion that 
may implicate environmental exposures in breast cancer patterns within 
families, studies of paired sisters and parent-offspring sets may 
provide unique opportunities to assess cancer risk among individuals 
with shared exposures during formative years and differing geographic 
environments later in life. In addition, the more than 6,000 enrolled 
CFRBCS families are widely dispersed geographically providing the 
opportunity to assess breast cancer risk in relation in environmental 
exposures, BRCA\1/2\ mutation status and SNPs. As technology advances 
enable reliable measures of environmental contaminants, Registry sites 
could collect additional data and biospecimens to enhance currently 
banked samples in order to assess risk in relation to the interaction 
of specific genetic factors and suspected adverse exposures.
    The Metropolitan NY Registry and 5 collaborating sites of the 
CFRBCS have recently been awarded an additional 5 years of support 
indicating the importance placed on this project by Dr. Richard 
Klausner, director of the NCI, and Dr. Barbara Rimer, director of the 
Division of Cancer Control and Population Sciences. These funds will 
support additional recruitment, specifically of minority families, in 
order to provide adequate numbers for subgroup multidisciplinary 
studies. Disparities in risk and prognosis of breast cancer will be 
studied in relation to genetic, environmental, and treatment factors. 
Continuing followup interviews will be conducted providing 
opportunities to assess specific environmental exposures suspected of 
increasing breast cancer risk as well as changes in exposures reported 
at entry to the Registry.
    The NY Registry and the collaborating sites of the CFRBCS provide a 
unique resource for current and future studies of breast cancer risk 
associated with genetic factors, environmental exposures, life style 
factors, and personal behaviors. During the next 5 years the Registry 
should contribute greatly to identifying avenues for reducing the 
incidence and enhancing prognosis of breast cancer. I feel privileged 
to be leading the New York Registry team and to be contributing to 
breast cancer research supported by the National Cancer Institute.

[GRAPHIC] [TIFF OMITTED] T0650.087

[GRAPHIC] [TIFF OMITTED] T0650.088

[GRAPHIC] [TIFF OMITTED] T0650.089

[GRAPHIC] [TIFF OMITTED] T0650.090

[GRAPHIC] [TIFF OMITTED] T0650.091

[GRAPHIC] [TIFF OMITTED] T0650.092

[GRAPHIC] [TIFF OMITTED] T0650.093

[GRAPHIC] [TIFF OMITTED] T0650.094

[GRAPHIC] [TIFF OMITTED] T0650.095

Statement of Gail Frankel, Field Coordinator and Advocate, on behalf of 
                  the National Breast Cancer Coalition

                      BACKGROUND AND INTRODUCTION

    Good morning. My name is Gail Frankel and I am from Centereach, NY. 
I am an 8-year breast cancer survivor. I am also a volunteer with the 
Adelphi Breast Cancer Hotline and Support Program.
    I am here today as a proud member of the National Breast Cancer 
Coalition (NBCC).
    Thank you Chairman Reid (D-NV), for holding this hearing, and along 
with Senator Chafee (R-RI), Representative Lowey (D-NY), and 
Representative Myrick (R-NC), for cosponsoring the Breast Cancer and 
Environmental Research Act. Thank you also to my Senator, Senator 
Clinton (D-NY), for your support of this legislation and your 
commitment to this issue. And thank you to all the committee members 
for inviting me here to testify today.
    As you know, the National Breast Cancer Coalition is a grassroots 
organization dedicated to ending breast cancer through the power of 
action and advocacy. The Coalition's main goals are to increase Federal 
funding for breast cancer research and collaborate with the scientific 
community to design and implement new models of research; improve 
access to high quality health care and breast cancer clinical trials 
for all women, and; expand the influence of breast cancer advocates in 
all aspects of the breast cancer decisionmaking process.
    NBCC truly appreciates the fact that you are focusing on the issue 
of preventing this disease. We all wonder what causes breast cancer. I 
too have questions about what caused my breast cancer. Diagnosed at 53, 
I was told that even though my mother died at age 48 from the disease, 
my breast cancer was unlikely to be due to an inherited genetic defect 
since inherited cancer usually shows up at an earlier age in offspring. 
No other high risk factors applied to me. Did my diagnosis have 
something to do with where I live? The sad truth is nobody knows; there 
is no conclusive evidence about what causes this disease.

                   THE ENVIRONMENT AND BREAST CANCER

    As a volunteer for the Adelphi Breast Cancer Hotline and Support 
Program, and as a breast cancer survivor myself, I understand all too 
well the concerns women in New York have regarding the possible link 
between the environment and breast cancer.
    While it is generally believed that the environment plays some role 
in the development of this disease, the extent of that role is not yet 
understood. NBCC believes that now is the time to focus our attention 
and public resources on developing an overall strategy to look at all 
aspects of this question. We can no longer afford to spend time, 
dollars and lives on isolated issues.
    It is with that goal in mind that NBCC convened its first 
Environmental Summit in September 1998. This Summit brought together 
more than 50 experts, including scientists, advocates, government 
officials, and policymakers to begin developing a comprehensive 
strategy for studying the potential links between breast cancer and the 
environment.
    Participants at this Summit brought many diverse perspectives. Some 
felt strongly that the environment is to blame for breast cancer. 
Others thought the cause is purely genetic. A third group believed that 
breast cancer is caused by some combination of the environment and 
genetics. While the participants differed in their perspectives, they 
ultimately agreed that the lack of evidence about the environment and 
breast cancer highlights the need for further studies on this issue. 
Furthermore, the decision of which questions to research should not be 
made in a vacuum, rather it should be made as part of an overall 
strategy of looking at all questions, prioritizing them, determining 
where we have some answers, and moving forward from that point. That is 
exactly what the bipartisan Breast Cancer and Environmental Research 
Act is meant to achieve: a collaborative, coordinated, nationwide 
effort to address this issue.

    PEER-REVIEWED ENVIRONMENTAL BREAST CANCER RESEARCH--A MODEL FOR 
                             OTHER DISEASES

    This legislation would take a responsible approach to the questions 
around this issue by authorizing $30 million per year for 5 years to 
allow the National Institutes of Environmental Health Sciences (NIEHS) 
to make grants for the development and operation of collaborative 
research centers to study environmental factors that may be related to 
the development of breast cancer.
    Under a peer-reviewed grant-making process, modeled after the 
incredibly successful Department of Defense Breast Cancer Research 
Program, the NIEHS Director could award grants to public or non-profit 
entities for the development and operation of up to eight centers for 
the purpose of conducting multi-disciplinary research on the links 
between breast cancer and the environment.
    This legislation would require each center to be a collaborative 
effort of various institutions, companies and community organizations 
in the geographic areas where the research is being conducted, and 
would include consumer advocates. The enactment of such legislation 
would bring together a diverse group of entities, which would be able 
to take a broad look at the issue and develop a strategy based on 
differing perspectives.
    And, like the support for the DOD BCRP, this legislation already 
has broad bipartisan support from across the political spectrum.

                               CONCLUSION

    We recognize that this is a unique approach to looking at the 
environment and breast cancer. But time and time again, scientists, 
advocates and policymakers have told us that what is needed is a 
coordinated, responsible, innovative strategy. That is exactly what 
this bill would be. We appreciate that you, Members of the committee, 
have the courage and vision to support this innovative approach.
    Thank you again for the opportunity to testify today, and I would 
be happy to answer any questions.
                               __________
    Statement of Amy Juchatz, M.P.H., Suffolk County Department of 
                            Health Services

    Good morning. My name is Amy Juchatz. I am a toxicologist with the 
Suffolk County Department of Health Services, in the Division of 
Environmental Quality.
    The Suffolk County Department of Health Services is often asked to 
become involved in the investigation of cancer cluster investigations. 
Typically, our role is supportive to the New York State Department of 
Health, which investigates suspected cancer clusters. The State health 
department maintains a Cancer Registry. Access to the cancer registry 
data, especially in regard to small area analyses, is restricted due to 
confidentiality concerns.
    In concert with the State health department activities, the Suffolk 
County Department of Health Services provides support at the local 
level such as conducting site visits, meeting with concerned citizens, 
reviewing historical health department records and information 
pertaining to each situation or by conducting related environmental 
sampling. In addition to these support activities the Suffolk County 
Department of Health Services also perform extensive monitoring of 
groundwater and drinking water for a wide range of contaminants, 
including over 100 pesticides and their breakdown products.
    Recently, the Suffolk County Department of Health Services 
performed such tasks following an investigation by the State health 
department of a cancer cluster identified among former students at a 
local high school.
    The Long Island Breast Cancer Study, being conducted by the 
National Cancer Institute, is another good example of our supportive 
role. We transported and analyzed approximately 700 drinking water 
samples from residences of breast cancer cases and controls. These 
samples were analyzed for an array of possible contaminants, including 
inorganics, volatile organic chemicals, heavy metals and chlorinated 
pesticides.
    Recently, the Suffolk County Legislature passed a resolution 
creating a task force to investigate the occurrence of a rare childhood 
cancer known as rhabdomyosarcoma. Specifically, this resolution created 
the Suffolk County Rhabdomyosarcoma Task Force for the purpose of 
developing a comprehensive survey, intended to better identify the 
incidence of rhabdomyosarcoma in Suffolk County. The Task Force has 
just recently formed and had our first meeting in March.
    Local citizens initially raised concern about rhabdomyosarcoma 
incidence. The State Health Department has examined the 
rhabdomyosarcoma incidence data to see if any potential cancer cluster 
was evident. To date, the State has not been able to observe any 
geographical clustering, but are re-evaluating the State data base 
along with supplemental data provided by the concerned citizens.
    I hope that the information that I have provided is helpful to this 
committee in its deliberations of cancer clusters and the possible role 
of the environment. I would be glad to address any questions you may 
have.
    Thank you.

   Statement of Richard J. Jackson, M.D., M.P.H., Director, National 
Center for Environmental Health of the Centers for Disease Control and 
          Prevention, Department of Health and Human Services

    Good morning. I am Dr. Richard Jackson, director of the National 
Center for Environmental Health (NCEH) of the Centers for Disease 
Control and Prevention (CDC). I would like to thank the committee for 
inviting me here today to discuss how environmental exposures can 
potentially affect the public's health, and the role that the public 
health community can play in addressing these issues.

                                OVERVIEW

    It is well known that short-term, high-level exposures to 
environmental chemicals can cause adverse health effects. Much of what 
is known about these types of exposures is based on occupational 
exposure research involving individuals or small groups of people who 
have been potentially exposed to environmental chemicals. However, less 
is known about the effects that long-term low-dose exposures can have 
on people's health, particularly when the potentially exposed 
population is large. Health effects such as birth defects, 
developmental disorders, neurological and immunological diseases, and 
cancer are often attributed to environmental exposures. When the 
suspected exposure source is found in a specific location, or community 
in a higher number than would be expected when compared to comparable 
locations, people in the community become concerned that there is a 
disease ``cluster''. Furthermore, people are also worried that 
something in their environment is causing the cluster.

                            DISEASE CLUSTERS

    Disease clusters, such as cancer clusters, can have a devastating 
impact on individuals, families, and communities. From a public health 
perspective, the ``perception'' of a cluster in a community may be as 
important as, or more important than, an actual cluster. Public concern 
increases quickly when people think there is a cancer cluster in their 
community and that they and/or their children will be harmed. These 
situations deserve prompt and effective public health attention.
    In the public's mind, cancer clusters are caused by something in 
the environment until proven otherwise. While certain clusters may 
result from environmental exposures, we need to consider many possible 
explanations before drawing conclusions. When searching for the cause 
of a cancer cluster, public health workers will have the opportunity to 
review the unique environmental aspects of a community and identify 
existing known environmental hazards. If public health workers identify 
a public health hazard, they should quickly remedy the situation. 
Public health action to remove a known human health hazard should not 
be delayed.
    Cancer cluster reports are common because cancer is common. The 
American Cancer Society predicts that this year 1,220,000 Americans 
will be diagnosed with non-dermatologic cancer; and over 553,000 
Americans will die this year because of all types of cancer. 
Fortunately, we are making progress in preventing and controlling 
cancer. CDC recently reported good news from California where lung 
cancer incidence fell 14 percent between 1988 and 1997. The reported 
decline may be related, in part, to the significant declines in smoking 
rates as a result of California tobacco control programs. We also know 
that early detection of cancer through cancer screenings saves lives. 
But, the preventible causes of many cancers remain elusive.
    I can assure you that CDC and Agency for Toxic Substances and 
Disease Registry (ATSDR) are committed to a public health system that 
can quickly identify and respond to community concerns about cancer 
clusters. Cancer cluster activities must be integrated into the broader 
public health approach to cancer prevention and environmental hazard 
control. A community suspects that a cancer cluster exists when more 
cases of cancer have occurred than are expected and when there is a 
possibility that the cases share a common cause. A few cancer cluster 
investigations have led to the discovery of preventable causes, but 
this is the exception rather than the rule. These investigations 
involved astute researchers and physicians who identified an excess of 
extraordinarily rare cancers among their patients (e.g.; adenocarcinoma 
of the vagina and diethylstilbestrol; Kaposi's sarcoma and HIV virus; 
liver angiosarcoma and vinyl chloride monomer) or who identified a 
cluster of certain cancers known to have a single preventable cause 
(e.g.; mesothelioma and asbestos).
    Approximately 85 to 90 percent of investigations of suspected 
cancer clusters find no increased cancer incidence. Even though 10 to 
15 percent of investigated clusters do show that the study population 
has a higher than expected cancer risk, this increased risk, may be due 
to the random distribution of cancer within a population (i.e. chance). 
The causes of the remaining clusters are unknown. Routine analysis of 
cancer registry data to identify cancer clusters can increase the 
number of chance clusters. Statistical tests of cancer registry data 
cannot separate observed clusters caused by chance from those due to an 
unrecognized common cause.
    Although cancer clusters rarely provide a scientific opportunity to 
identify a new cause of cancer, public health agencies require the 
capacity and technical expertise to support a staged response to public 
inquiries about cancer clusters. Public health agencies require the 
scientific and technical expertise to identify when an excess cancer 
has occurred and to reassure communities when it does not. Cancer 
clusters are reported throughout the United States. A survey by the 
Council of State and Territorial Epidemiologists found that 41 State 
health departments reported 1,900 cancer inquiries in 1996. We don't 
know the total number of reported cancer clusters because there is no 
national tracking system to identify suspected or confirmed clusters.

                   MEASURING ENVIRONMENTAL EXPOSURES

    Our challenge is to address the public's fear that something in 
their ``environment'' is causing the cluster. To effectively determine 
the public health impact of a chronic environmental exposure, three 
things are tracked. First, we cannot know the hazards of chemicals in 
humans unless we monitor what chemicals actually are in the 
environment. Tracking toxic chemicals in the environment must include 
the amount, concentration, and geographic distribution of known and 
potential toxic chemicals. Some systems for tracking this type of data 
already exists, for example, within the U.S. Environmental Protection 
Agency's (EPA) Toxic Release Inventory which collects data down to the 
local level. There are also EPA and State data bases for water, air, 
and pesticide environmental contaminants.
    Second, actual human exposure levels are tracked through 
measurement of chemicals in human blood and urine through a process 
known as ``biomonitoring.'' CDC released the first annual National 
Report on Human Exposure to Environmental Chemicals. This first edition 
of the Report presents levels of 27 environmental chemicals measured in 
the U.S. population. These chemicals include metals (e.g., lead, 
mercury, and uranium), cotinine (a marker of environmental tobacco 
smoke exposure), organophosphate pesticide metabolites, and phthalate 
metabolites. An example of what we have observed so far is a decline 
from 71 percent in the early1990's to 32 percent in1999 for non-smoking 
Americans exposed to environmental tobacco smoke. We are expanding the 
Report to include 100 environmental chemicals. Chemicals under 
consideration for future Reports include carcinogenic volatile organic 
compounds, carcinogenic polyaromatic hydrocarbons, dioxins, furans, 
polychlorinated biphenyls, trihalomethanes, haloacetic acids, carbamate 
pesticides, and organochlorine pesticides. This data will be collected 
annually and the number of chemicals tracked will increase, but this 
data is currently only available on a national level.
    Finally, health outcomes are to be tracked over time. Specifically, 
both disease events and trends in health risk behavior need to be 
monitored over time through tracking systems such as vital statistics, 
health surveys, and disease registries. As we build a comprehensive 
disease tracking system in the U.S. that can provide data on a range of 
chronic conditions at the national, State, and local levels, it will be 
designed so that the data collected can be linked to the data from the 
other two tracking components. A comprehensive, nationwide exposure and 
disease tracking system is the only means to access the magnitude and 
nature of health risks from environmental exposures.

                     A STAGED RESPONSE TO CLUSTERS

    I will now describe the components of a staged response to clusters 
which includes the multi-level, multi-agency public health response 
that is required to address potential health problems and public 
concerns related to potential environmental exposures.

                             THE STATE ROLE

    Cancer cluster concerns should be addressed by State health 
departments working as closely as possible to the affected community. A 
staged response is called for, and this requires that State and local 
agencies establish a set of core competencies. The first competency is 
the ability to determine if a cancer cluster represents an excess 
cancer risk for the community. The second competency is the ability to 
respond to a cancer cluster concern. A third competency is the ability 
to link information about environmental contamination with cancer 
registry data.
    Most State health departments have developed protocols for 
responding to cancer clusters, however, these approaches and capacities 
vary from State to State.
    High quality, population-based cancer registries are a critical 
tool for health departments to address cancer cluster concerns. CDC 
currently supports statewide, population-based cancer registries in 45 
States, three territories, and the District of Columbia through the 
National Program of Cancer Registries (NPCR). The National Cancer 
Institute includes the remaining five States as part of its 
Surveillance, Epidemiology, and End-Results Program. These registries 
systematically collect and analyze cancer incidence and mortality data 
to identify and monitor cancer trends over time, guide cancer control 
activities, and suggest leads for further research. CDC's NPCR 
represents a unique opportunity to strengthen cancer reporting and 
registration in the United States. The NPCR collects information on 
cancer cases for 96 percent of the nation's population. Since 1997, the 
number of NPCR-supported State cancer registries that have been 
certified for quality by the North American Association of Central 
Cancer Registries has increased from 9 to 29.
    Data collected by State cancer registries can be used to guide 
planning and evaluation of cancer control programs; help set priorities 
for allocating health resources; and advance clinical, epidemiologic, 
and health services research. Cancer registry data is essential to be 
able to determine cancer patterns among various populations, to monitor 
cancer trends over time, and to identify and evaluate suspected 
clusters of cancer.
    To maximize the benefits of State-based cancer registries, CDC is 
developing the NPCR-Cancer Surveillance System for receiving, 
assessing, enhancing, aggregating, and disseminating data from NPCR 
programs. This system will provide valuable feedback to help State 
registries improve the quality and usefulness of their data, and the 
system could support important data linkages with other cancer data 
bases. Availability of data on a regional and national level will also 
facilitate studies in areas such as rare cancers, cancer among 
children, cancer among racial and ethnic minority populations, and 
occupation-related cancer.
    Effective State health departments are reliant on experience staff 
who can access and use cancer registry information, interpret these 
data and act appropriately upon the results. CDC is currently exploring 
various strategies to meet these needs.
    When we are able to identify environmental health hazards in 
affected communities and link cancer registry information with 
environmental exposure data, states well be able to better address 
community concerns.

                        THE CDC AND ATSDR ROLES

    CDC and ATSDR respond to cancer clusters by providing 
infrastructure support, national leadership, and technical assistance 
to States. Technical assistance has included peer review and 
consultation, field investigations, and assessment of environmental 
exposures. CDC has enhanced State infrastructure by funding State-wide 
population-based cancer registries that enable health departments to 
review cancer incidence data and assess reported cancer clusters. In 
1989, CDC sponsored the National Conference on the Clustering of Health 
Events; the proceedings appear in a supplement to the American Journal 
of Epidemiology (volume 132, July 1990). In addition, CDC published 
Guidelines for Investigating Clusters of Health Events in July 1990. 
The guidelines can be accessed at: http://www.cdc.gov/mmwr/preview/
mmwrhtml/00001797.htm CDC continues to review these documents and the 
current science to be able to revise guidelines as appropriate.
    ATSDR and CDC are involved in responding to cancer clusters. I have 
already mentioned CDC's support of State-wide cancer registration. CDC 
conducts exposure assessments and epidemiologic studies that evaluate 
how people are exposed to environmental hazards and that identify 
preventable environmental causes of cancer. CDC's environmental health 
laboratory measures known and suspected cancer-causing agents in human 
blood and urine. CDC also addresses exposures to cancer causing-agents 
in the work place by conducting laboratory science and epidemiological 
investigations. CDC also responds to requests from employers, 
employees, and other government agencies for investigations involving 
possible work-related cancer.
    ATSDR includes selected cancers among its seven priority health 
outcomes. ATSDR has responded to requests for cancer cluster 
investigations, especially those near hazardous waste sites. In 
addition, ATSDR educates concerned communities about cancer causes and 
prevention and publishes Toxicologic Profiles, a series of 137 
monographs about cancerous and other health effects of hazardous 
substances, chemicals, and compounds found in waste sites. ATSDR also 
has been involved in research projects about the relationship between 
environmental exposure and the development of selected childhood 
cancers.

                               NEXT STEPS

    CDC and ATSDR are working toward a number of activities to assist 
State health departments respond to cancer cluster and other inquiries 
related to potential health risks from environmental exposures. CDC is 
establishing a single point of contact through which all of these 
disease cluster inquiries might flow. This office would coordinate the 
CDC and ATSDR response, drawing upon needed expertise throughout CDC 
and ATSDR and other Federal agencies. CDC, in coordination with State 
and local health departments will develop recommendations or guidelines 
for responding, identifying, and following-up on disease cluster 
inquiries.
    We are in the process of developing a public health system that is 
capable of monitoring exposure to chemicals linking the monitoring data 
to actual health outcome information, and utilizing the results to 
identify and respond to disease cluster inquiries. This will require a 
partnership among CDC, ATSDR and State health departments. Disease 
cluster investigations have rarely led to new discoveries into the 
causes of cancer, developmental disabilities, and other health 
outcomes. However, other positive public health outcomes can result. 
One example comes from a community in California. At this site, a 
pesticide investigation did not find any causal links between 
environmental exposure and disease; however, it did lead to the 
implementation of many positive public health actions such as increased 
health insurance coverage, pesticide tracking and better working 
conditions.
    CDC and ATSDR will continue to work with States on their disease 
registries and help provide public health professionals with the 
knowledge and skill to use these systems to respond to the public. CDC 
and ATSDR are working with the States to build their environmental 
public health capacity. Through comprehensive, coordinated efforts and 
in partnership with many governmental, nongovernmental and community-
based organizations we will continue to improve America's environmental 
public health will be assured.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions you might have.
                               __________
     Statement of Deborah Winn, Ph.D., acting associate director, 
 Epidemiology and Genetics Research Program Division of Cancer Control 
   and Prevention, National Cancer Institute, National Institutes of 
            Health, Department of Health and Human Services

    Good morning. I am Deborah Winn, Ph.D., acting associate director, 
Epidemiology and Genetics Research Program, National Cancer Institute 
(NCI). Thank you, Senator Clinton and distinguished members of the 
committee, for inviting me to talk with you about NCI research on 
cancer, genes, and the environment. Conceptual and technical 
breakthroughs and the often breathtaking pace of scientific discovery 
have engendered among cancer researchers a tremendous sense of optimism 
that new avenues will be found to prevent, detect, diagnose, and treat 
cancer. Nowhere is the sense of promise greater or the potential more 
profound than at the interface of epidemiology and genetics. By 
marrying the study of the distribution and causes of cancer in human 
populations with cutting-edge genetic and related molecular 
technologies, we will, over time, be able to design new approaches to 
health and cancer care based on an understanding of how genes modify 
and interact with environmental exposures.

                   THE ENVIRONMENT, GENES AND CANCER

    The term ``environment'' refers not only to air, water, and soil, 
but also to substances and conditions in the home and workplace. It 
includes dietary components; the use of tobacco, alcohol, or drugs; 
exposure to chemicals, and sunlight and other forms of radiation; and 
infectious agents. Lifestyle, economic, and behavioral factors are all 
aspects of our environment. To date, we know that tobacco is the 
environmental exposure most significant to the cancer burden. Factors 
that are absent from our environment, as well as those that are 
present, influence our cancer risk.
    Cancer susceptibility is another critical piece of the puzzle. For 
example, why does one person with a cancer-causing exposure develop 
cancer, while another does not?
    Genes may be the key. We know that disruption of fundamental 
cellular processes contributes to the development and progression of 
the more common, non-hereditary forms of cancer. Yet even among 
individuals who have inherited cancer-predisposing genes, the risk of 
developing cancer appears to be modified by other genetic and 
environmental factors. There is mounting evidence that a person's 
genetic make-up may influence susceptibility or even resistance to 
cancer-causing exposures.
    Some cancers are associated with defects in one or a few genes. An 
example is the Li-Fraumeni syndrome, which involves an inherited tumor 
suppressor gene and is associated with familial occurrences of breast 
cancer and certain other cancers. However, most cancers involve many 
genes. Individuals may inherit defects in these genes, or they may 
experience environmental exposures or other circumstances that cause 
gene mutations, which are changes in gene structure. Most mutations do 
not affect the normal processes of cells in which they occur; but if 
alterations occur in genes that control such functions as metabolism of 
carcinogens, DNA repair, metabolism of nutrients, hormones and other 
factors, cell cycle control factors, or immune function, among others, 
cellular processes may become abnormal. Cancer arises through the 
accumulation of multiple mutations in genes resulting from multiple 
exposures over a period of years or decades.
    Understanding the interaction of genes with other genes and 
environmental factors in the development of cancer is critical. Gene-
environment interactions are evident when the risk from an 
environmental exposure varies depending on individual genetic make-up. 
For example, the CYP family of genes controls metabolism of some 
carcinogens. Each of us has CYP genes, but the exact structure of the 
genes varies from person to person. People with specific variants face 
a higher risk, by two to ten fold, of developing tobacco-related 
cancers such as lung cancer, esophageal cancer, and cancer of the oral 
cavity, than those individuals who have other CYP gene variants. This 
risk increases as the level of exposure to tobacco smoke increases. 
Furthermore, certain combinations of CYP variants, and variants of 
another gene, GSMT1, interact, resulting in even greater risks of these 
cancers.

       NCI APPROACH TO THE STUDY OF GENE-ENVIRONMENT INTERACTIONS

    The NCI has greatly expanded its efforts to identify the genetic 
and environmental risk factors leading to cancer susceptibility in 
individuals, families, and populations; evaluate the interactions of 
these risk factors; assess the relevance of these risk factors to 
clinical practice and public health; and address the diverse and 
complex scientific, ethical, legal, and social issues associated with 
this research. The NCI has identified the study of genes and the 
environment as a high priority research area with great potential for 
discovery. As our knowledge base expands in this critical area, we will 
be able to quantify the cancer risks associated with specific 
environmental and genetic factors and their interactions, and design 
new approaches to health and cancer care based on an understanding of 
how genes modify and interact with environmental exposures.
    NCI's investment in the study of genetics has yielded enormous 
dividends. For example, NCI's Cancer Genome Anatomy Project has 
resulted in the discovery of approximately 40,000 new genes. New 
technologies have permitted scientists to determine which genes are 
active in normal or in cancerous tissues. There has been an exponential 
increase in the pace of identifying genes that maintain the integrity 
of our genetic material, regulate cell growth and development, and 
determine our response to hormones and other chemicals produced by the 
body or in the environment. Related discoveries have enabled us to 
characterize the function of hundreds of new genes and pathways. Vast 
public data bases contain millions of entries describing gene sequences 
and their location in the human genome.
    NCI has expanded the tools available to the cancer genetics 
research community through the World Wide Web. Through the Genetic 
Annotation Initiative of the Cancer Genome Anatomy Project, scientists 
have identified more than 20,000 genetic variations, and they expect to 
expand that number to nearly 500,000 by 2002. Researchers are using 
sophisticated computer programs to identify variations in specific 
genes in people with cancer to determine which variants are associated 
with certain types of cancer and whether some variants occur more often 
in some populations. New technology development through the Innovative 
Molecular Analysis Technologies Program is also improving our ability 
to effectively analyze the large volumes of samples and data in these 
population-based studies.
    Members of the Mouse Models of Human Cancers Consortium (MMHCC) are 
developing and validating mouse models--mice with cancers similar to 
the major human cancers that can be inherited. These models will be 
made available to scientists for research. Composed of 20 groups of 
investigators from institutions across the country, the MMHCC uses Web-
based discussion forums and other communication tools to integrate 
emerging knowledge about cancer susceptibility from animal models with 
studies on human populations. The MMHCC also supports a repository for 
models of key cancers caused by specific gene variants.
    We have gained tremendous insight into risks for cancer by 
examining the personal and medical histories of high-risk families and 
investigating how cancer-predisposing genes are modified by other genes 
and environmental factors in these families. For example, through the 
Cooperative Family Registries for breast/ovarian and colorectal 
cancers, we have collected clinical, epidemiological, and pathological 
data as well as biospecimens for over 8,000 high-risk families. 
Analysis of this information may lead to targeted approaches for the 
prevention, detection, and diagnosis of cancer.
    Establishing significant and valid evidence for gene-environment 
interactions requires studies of large populations over long periods of 
time. In cohort studies, information on exposures to factors that might 
affect cancer risk and biologic samples are collected from individuals 
in large population subgroups. By systematically following these people 
over time to determine who develops cancer and who remains cancer free, 
scientists can understand the risk of developing cancer for those with 
specified exposures and genetic profiles. In this way, early detection 
can be directed to those at greatest risk, and diagnosis and treatment 
can be tailored to individual needs. NCI is establishing a Cohort 
Consortium of investigators from around the world to facilitate the 
pooling of data on very large numbers of people, foster collaborative 
links among resources, and organize collaborative studies. Another type 
of large population study is case-control studies, which 
retrospectively examine exposure histories and genetic profiles of 
people who already have cancer (cases) and compare them with those of 
people who have not developed cancer (controls). NCI is assembling a 
Case-Control Consortium to support large-scale studies of gene-
environment interactions for less common cancers.

                LONG ISLAND BREAST CANCER STUDY PROJECT

    One illustration of NCI's approach to the investigation of the 
relationship between genes and the environment in the development of 
cancer is the Long Island Breast Cancer Study Project (LIBCSP): a 
multistudy research initiative examining the possible role of 
environmental factors in breast cancer in Suffolk, Nassau, and 
Schoharie counties in New York and Tolland County, Connecticut, where 
rates of breast cancer incidence are elevated. The LIBCSP used a full 
array of scientific approaches to study breast cancer on Long Island, 
and consisted of more than 10 studies that include human population 
(epidemiologic) studies, the establishment of a family registry for 
breast and ovarian cancer, and laboratory research on mechanisms of 
action and susceptibility in breast cancer development.
    Originally conceived as part of the LIBCSP, a new tool has been 
created by NCI to help overcome the frustrations associated with 
studying geographic variations of disease: a prototype computer system 
called the Geographic Information System for Health (GIS-H). The GIS-H 
allows examination and tracking, over time and space, of cancer rates 
with any geographically defined factor that might contribute to the 
cancer burden. It is the largest and most comprehensive system of its 
type developed for the study of breast cancer. The GIS-H is a new 
approach for researchers to use in investigating relationships between 
breast cancer and the environment, and to estimate exposures to 
environmental contamination. The GIS-H data layers will include 
geographic data for precise mapping and geographic location of features 
in all data layers. Demographic data on health care facilities, health 
care surveys, breast cancer, and the environment will also be included. 
The environmental data will include information on contaminated 
drinking water; sources of indoor and ambient air pollution, including 
emissions from aircraft; electromagnetic fields; pesticides and other 
toxic chemicals; hazardous and municipal waste; and radiation. The 
system will rely chiefly on existing data bases obtained from Federal, 
State, and local governments, and private sources--including historical 
information on environmental exposures from residents--with emphasis 
placed on high-quality data. More than 80 data bases are slated to be 
included in the system. The GIS-H provides the opportunity to apply a 
powerful emerging technology to the study of environmental causes of 
breast cancer and is anticipated to be ready for investigator-initiated 
pilot studies this year.

                       ATLAS OF CANCER MORTALITY

    Because geographic patterns of cancer may provide important clues 
to the causes of cancer, the NCI has, for over 30 years, studied 
geographic patterns of cancer mortality across the United States. Our 
most recent effort in this area is an updated atlas of cancer 
mortality. The new Atlas of Cancer Mortality in the United States, 
1950--1994, prepared and published by the NCI, is a book and website of 
maps, text, tables, and figures showing the geographic patterns of 
cancer death rates throughout the United States for more than 40 
cancers, and features 254 color-coded maps that show the geographic 
variations during 1970-94 compared to those during 1950-69. The color 
maps make it easy to pinpoint geographic areas with average, below 
average, or elevated rates. The Atlas, and related information, can be 
explored at http://www.nci.nih.gov/atlasplus/. The website allows the 
user to tailor the data interactively, to produce maps by race, gender, 
time period, age group, State, State economic area, or county level; 
and to develop bar charts and trend line graphs. The site also provides 
links to related sites. The Atlas has been designed so it is accessible 
not only to researchers, but to the public, consumer advocates, and 
everyone who is working to improve public health.
    The Atlas does not provide information about why death rates may be 
higher in certain localities than in others, but it can generate leads 
for in-depth epidemiologic studies that may shed light on factors 
contributing to cancer risks. Possible risk factors include tobacco 
use, occupational exposures, dietary habits, ethnic background, and 
environmental exposures from the air or water. In addition, geographic 
differences in mortality rates may reflect differences in access to 
medical care, such as screening, diagnosis, or treatment. We anticipate 
that many of the leads provided by the new Atlas will guide further 
epidemiologic and public health activities aimed at preventing cancer.
    The NCI is encouraging research proposals for new interdisciplinary 
studies that use the GIS-H and the Atlas of Cancer Mortality to explore 
geographic variations of cancer incidence and mortality and speed the 
process of scientific discovery and application. To date, about 30 
applications have been received in response to this new initiative.

                        NEW RESEARCH DIRECTIONS

    Now, more than ever before, opportunities exist to determine how 
variations in genes combine with environmental and other factors to 
induce cancer. NCI has identified key priority areas for research on 
genes, the environment, and cancer, and designed a strategy to 
capitalize on the opportunities before us. We intend to focus expanded 
effort on identifying and characterizing gene variations involved in 
molecular pathways important in cancer development, and new 
environmental risk factors--and determining their interactions in 
cancer causation. We are planning initiatives that will develop new 
ways to assess and measure environmental exposures for use in 
population studies; develop new experimental models that parallel human 
cancer-related genes, pathways, and processes; and identify cancer-
predisposing genes in high-risk families and investigate how expression 
of these genes is modified by other genes and environmental factors.
    New insights into genetic susceptibility, environmental 
carcinogens, and their potential interactions can be incorporated into 
cancer risk prediction models that can in turn be used to estimate 
individual risk. We now want to refine cancer risk prediction methods 
and models to integrate genetic and environmental determinants of 
cancer.
    Clinical trials involving genetically high-risk individuals can 
increase our understanding of the clinical, behavioral, and societal 
issues associated with cancer susceptibility. We plan to expand 
enrollment of genetically high-risk individuals into clinical protocols 
and conduct studies to address the clinical, behavioral, and societal 
issues associated with cancer susceptibilities.

                               CONCLUSION

    More than two hundred years ago, as our ancestors abandoned the 
theory that cancer was the result of an imbalance of bodily humors, 
scientists first observed that cancer could be linked directly to an 
environmental agent. As the 21st century dawns, scientific discovery is 
occurring at a pace that would have astounded our forebears. We have 
known for a long time that our environment, including our lifestyle 
choices and economic circumstances, influences our risk for developing 
cancer; but we have not understood exactly how, or why some people are 
more susceptible to these influences than others. Over the past decade, 
there has been an explosion of information on the fundamental nature of 
cancer, and with the rapid development of dazzling new technologies and 
tools, we grow closer every day to solving these mysteries that have 
long confounded us. Success is within our grasp. So, while the 
questions are complex and our progress has been hard-won, our hope is 
strong and our dedication is unwavering for a simple reason that each 
of us here today understands: our goal is to eradicate cancer and save 
the lives of those who would otherwise be lost to us.
    Thank you for this opportunity to tell you about NCI's work. I 
would be pleased to answer any questions you may have.

[GRAPHIC] [TIFF OMITTED] T0650.096

[GRAPHIC] [TIFF OMITTED] T0650.097

[GRAPHIC] [TIFF OMITTED] T0650.098

[GRAPHIC] [TIFF OMITTED] T0650.099

[GRAPHIC] [TIFF OMITTED] T0650.100

[GRAPHIC] [TIFF OMITTED] T0650.101

[GRAPHIC] [TIFF OMITTED] T0650.102

[GRAPHIC] [TIFF OMITTED] T0650.103

[GRAPHIC] [TIFF OMITTED] T0650.104

    Statement of Samuel H. Wilson, M.D., Deputy Director, National 
               Institute of Environmental Health Sciences

    I appreciate this opportunity to talk with you about environmental 
influences on our health. This subject is timely because here at the 
beginning of a new century we are assembling the tools that will enable 
us to detect environmental triggers of disease more precisely and more 
meaningfully. This ability will come about because of advances in an 
entirely different field, that of genomics which is the study of genes 
and of what genes do. The Human Genome Project, which has been the 
topic of much recent press coverage, was initiated in part to determine 
what genes are important in disease development. What we are finding, 
though, is that few genes serve as major determinants of disease risk. 
Instead, it is the interaction of our genes and our environmental 
exposures that sets the stage for the majority of disease development. 
Indeed, for many diseases, our genetic makeup by itself accounts for 
only a small part of our disease risk. It is our environment, acting in 
concert with our particular genetic susceptibilities, that confers a 
major part of our disease risk. Thus gene-environment interaction is 
where our attention must focus and where the major strides in 
environmental health research will be made in the future. In my 
testimony I will (1) describe some of the work that illustrates the 
significant role of environmental factors in major diseases, (2) 
describe how understanding gene-environment interactions will improve 
our ability to identify the precise environmental triggers of diseases, 
and (3) give examples of some of the research that NIEHS has initiated 
to address these topics. I will also touch on our expanded view of what 
constitutes ``environment'' and how diet and socioeconomic status must 
be included in this view.
    The past few years have seen a remarkable number of studies that 
have identified the importance of environment in major diseases. By 
comparing rates among fraternal and identical twins, scientists have 
been able to tease apart the relative contributions of genes and of 
environment for several major diseases. Based on twin studies in 
Scandinavia, we now know that environment accounts for more than 50 
percent of cancer risk, with genes accounting for the remainder of 
risk. Twin studies on Parkinson's Disease reveal that environment 
accounts for 85 percent of the risk in the late-onset cases of this 
disease. For autoimmune diseases such as multiple sclerosis and Lou 
Gehrig's Disease, environmental factors account for 60 percent to 75 
percent of disease risk. Clearly, then, our environment is a major 
determinant of our health and of our relative risk for disease. It also 
spans a broad number of diseases and disorders. To give you an example, 
at the National Institute of Environmental Health Sciences we are 
investigating environmental triggers for cancer, Parkinson's Disease, 
birth defects, infertility, autoimmune diseases, hypertension, asthma 
and other respiratory disorders, learning and behavioral disorders, and 
uterine fibroids.
    Although many people think of ``environment'' in terms of 
pollutants and industrial by-products, environmental factors encompass 
a much larger universe. They include diet and nutrients, 
pharmaceuticals, infectious organisms, natural compounds such as 
aflatoxin found in grains, herbal formulations, and our socio-economic 
environment. It is this totality of environmental factors that is 
proving to have a major role in human health and in disease 
development.
    Environment, though, is not the total answer in disease 
development. Two people with the same exposure can have very different 
outcomes. Obviously not everyone who smokes cigarettes gets lung 
cancer, nor does every asthmatic respond to dust mite and cockroach 
allergens. We all have different susceptibilities to environmental 
agents. Many of these differences in susceptibility appear to be due to 
variations in genes coding for proteins critical in the body's response 
to environmental agents.
    These proteins include metabolizing enzymes, DNA repair enzymes, 
cell cycle control proteins, cell signaling proteins, and receptor 
proteins. Someone inheriting a gene that produces a weak or ineffective 
form of one of these critical proteins will be more susceptible than 
someone inheriting a gene that produces a more effective form. That is 
because the first person might be less able to break down or excrete 
environmental compounds or to repair cellular damage caused by 
environmental agents. Thus understanding gene-environment interactions 
is critical in defining the environmental contribution to disease. 
Neither acts alone. It is the two acting in concert that lays the 
foundation for disease and dysfunction.
    For these reasons the National Institute of Environmental Health 
Sciences (NIEHS) established the Environmental Genome Project (EGP). 
The EGP is a survey of the important genetic variants that affect 
people's responses to environmental agents. The EGP is a natural 
outgrowth of the Human Genome Project. In fact, understanding gene-
environment interactions will be the only way to extract the full 
benefit from our investments in the Human Genome Project. That is 
because only a few, relatively rare, diseases are caused by defects in 
a single gene. A large number of diseases and disorders result from 
inadequacies in common environmental response genes and can only lead 
to disease in the presence of a particular exposure.
    The Environmental Genome Project ushers in a new era for 
environmental health science research. Previously individual variation 
in responsiveness to exposures generated a high ``background noise'' 
that could often mask the contribution of environmental agents to 
disease risk, particularly at the low levels to which most of us are 
exposed. Now, as we identify important genetic variants that alter 
response to environmental agents, scientists can better control for the 
confounding variable of individual susceptibility when they study 
environmentally caused diseases. In the future, we expect to be able to 
followup on results of twin studies by identifying the actual 
environmental components that comprise the major part of disease risk.
    It should be noted, though, that timing is everything for 
environmental exposures. Certain stages of life impart a much greater 
vulnerability. Early human development, infancy, and childhood are 
among these stages. The carefully orchestrated events by which a 
fertilized cell develops into a sentient being offer many opportunities 
for environmental interference and disruption. In fact, children can 
suffer adverse effects from environmental exposures at doses that cause 
no apparent problems in adults. We are greatly interested in the 
potential of birth registries and prospective cohorts to decipher the 
genetic and environmental contributions to many diseases, particularly 
in children. We have joined with the Norwegian government on a study of 
cleft palate, a common birth defect. Norway has one of the highest 
reported rates of cleft palate in the world, as well as a highly 
organized birth registry that records these defects. For this study, 
both genetic samples and data on environmental exposures of mothers and 
infants are being collected. When completed, this study will provide 
the largest and most comprehensive collection of data ever obtained on 
the genetic and environmental components of this birth defect.
    The NIEHS is also building on plans currently under way in Norway 
to recruit 100,000 pregnant women and their children. These families 
would be followed in a lifetime cohort study of health. NIEHS will 
collect and store blood and urine of these women for the purpose of 
assessing environmental and other exposures during pregnancy. This 
information on exposures of the fetus will be used to study the effects 
of environmental factors during this crucial period on birth defects, 
developmental problems, childhood diseases, and even diseases of 
adulthood that result from exposures early in life. In addition, NIEHS, 
CDC, and the National Institute of Child Health and Human Development 
have the lead for a similar longitudinal study on environmental 
influences on children's health in this country. This study was 
recommended by the President's Task Force on Environmental Health Risks 
and Safety Risks to Children in 1998 and mandated by the Children's 
Health Act of 2000.
    Another study under design at NIEHS is the Sisters Study of breast 
cancer. This study would examine environmentally associated risks of 
breast cancer by recruiting women who have a sister already diagnosed 
with breast cancer. Because these women are at increased risk of breast 
cancer, twice as many breast cancer cases are expected as would be 
identified in any other cohort of similar size. Biologic specimens will 
be collected and stored at recruitment, and extensive questionnaires 
will be submitted regularly. Breast cancer risk will be assessed in 
terms of exposure to natural hormones, environmental hormone 
disruptors, growth factors, dietary components, and environmental 
contaminants such as pesticides and solvents. This study will also 
assess the importance of gene-environment interactions.
    Studies continue to validate the importance of nutrition in 
maintaining health and preventing disease. Whole grain foods, for 
example, have been identified in NIEHS rodent studies as being 
protective against breast cancer and have been shown to protect against 
stroke in a NIH-supported longitudinal study of nurses. Nutrition is a 
major environmental risk component of many diseases. For this reason, 
the NIEHS has partnered with the NIH Office of Dietary Supplements 
(ODS) to fund a Center for Phytochemical and Phytonutrient Studies. 
This center is currently investigating the ability of dietary 
phytochemicals to prevent or treat prostate cancer, the role of 
phytoestrogens in altering immune response and possibly predisposing 
some women to autoimmune diseases, and the capacity of bioflavonoids to 
protect brain tissue from oxidative damage.
    One of the major environmental challenges we face is that of 
exposure assessment--that is, defining exactly what chemicals are in 
our environment and how much is absorbed in our bodies. This type of 
information is invaluable to the NIEHS in designing relevant 
epidemiologic and laboratory studies that can determine the types of 
effects that can arise from environmental exposures. The NIEHS 
collaborates with the United States Geological Survey and the Centers 
for Disease Control and Prevention to use their expertise and data 
bases to develop a better understanding of common environmental 
exposures in this country. We are also collaborating with our sister 
agency, the National Cancer Institute, on the Agricultural Health 
Study. In this study we are assessing exposures common to agricultural 
settings and evaluating their influence on risk of developing 
conditions such as cancer, Parkinson's, infertility, birth defects, 
respiratory dysfunction, and other problems.
    In conclusion, I would like to make the case that preventing 
disease is one of the most important services of our public health 
network. Protecting people from avoidable illness and death saves 
money, spares suffering, and improves the quality of life for society. 
The most effective way to prevent disease and disability is to 
understand the cause of an illness and change the conditions that 
permit it to occur. A key strategy to prevent many diseases or delay 
disease progression is to minimize or eliminate adverse effects of 
chemicals in the environment. This preventive strategy underlies the 
field of environmental health and is a core principle guiding NIEHS-
funded research.
    Because of its emphasis on prevention, environmental health science 
research is rarely played out in the high-tech, treatment-oriented 
arena of modern clinical centers. Rather, some of our most important 
work is done in agricultural fields, among migrant workers, in inner-
city neighborhoods, and in public schools. The practice of 
environmental health science often requires engaging the efforts of our 
most disadvantaged citizens. NIEHS has been experimenting with new 
models of research that provide for citizen participation. It is our 
feeling that citizen-based participatory research will generate more 
relevant findings, will suggest better real-world research questions, 
and will serve as a communication tool for the participants and their 
neighbors.
    I would be pleased to answer any questions.
                               __________
 Statement of Lynn R. Goldman, M.D., M.P.H., Professor, Environmental 
    Health Sciences, John Hopkins Bloomberg Schools of Public Health

    Chairman Reid, Senator Clinton, and members of the New York 
Congressional Delegation, thank you for the opportunity to come to New 
York to provide real perspective to our nation's ability to respond to 
crises in our communities.
    My name is Dr. Lynn Goldman and I am a pediatrician and an 
environmental epidemiologist. I have an extensive background in the 
area of pesticide health and environmental effects and environmental 
risks to children. Between 1985 and 1992 I served in various positions 
in the California Department of Health Services, most recently as Chief 
of the Division of Environmental and Occupational Disease Control. 
Among other things, I was responsible for the conduct of a number of 
epidemiological investigations of the impacts of environmental 
exposures to health, especially the health of children. I carried out 
several investigations of childhood cancer clusters. In 1993 I was 
appointed by President Clinton and confirmed by the Senate to serve as 
Assistant Administrator for Prevention, Pesticides and Toxic Substances 
at the U.S. Environmental Protection Agency (EPA).
    In that position, I was responsible for the nation's pesticide and 
toxic chemicals regulatory programs at the EPA. In January 1999 I left 
the EPA and joined the Johns Hopkins University where I presently am 
Professor at the Bloomberg School of Public Health. I served as the 
principal investigator for children's health for the Pew Environmental 
Health Commission--a blue ribbon independent panel charged with 
developing recommendations to improve the nation's health defenses 
against environmental threats. I currently am a member of the 
Environmental Defense Board of Trustees.
    Our public health service is falling short in its duty to watch 
over the safety and health of Americans, particularly when it comes to 
chronic diseases that may be associated with environmental factors.
    Chronic diseases are responsible for 7 out of 10 deaths in this 
country. More than a third of our population, over 100 million men, 
women and children suffer from chronic diseases. These diseases cost 
our citizens and government, $325 billion a year. By 2020 chronic 
diseases are estimated to afflict 134 million Americans and cost $1 
trillion a year. And the CDC estimates that 70 percent are preventable.
    But our Federal Government is not actively pursuing how to prevent 
this epidemic of chronic diseases.
    As a Nation, we have been increasing our research into how to treat 
disease. As a result, we have some good news here. More children with 
leukemia survive today than ever before. We have also seen some success 
with reducing exposure to tobacco and the marketing of tobacco to our 
children. But there is bad news. The rates of a number of non-smoking 
related cancers--childhood brain cancer, breast cancer, non-Hodgkin's 
lymphoma, liver cancer, myeloid leukemia, thyroid cancers and a several 
other tumor types--have been steadily rising for the past two decades. 
A review of the National Cancer Institute Atlas of Cancer Mortality 
shows clear geographic differences in rates of a number of cancers, 
differences that should serve as clues for followup studies and efforts 
to prevent cancer. As a Nation, we have not invested in preventing 
chronic diseases.
    You heard today from those who have experienced firsthand the 
tragic cluster of childhood leukemia in Fallon and the breast cancer 
epidemic on Long Island. These crises are tragedies on both the 
personal and community level. My heart goes out to these communities. 
But as a health scientist, I am aware that this is problem that is 
repeated in communities all across the country. In 1997, there were 
almost 1,100 requests by the public to investigate suspected cancer 
clusters. Many of these are preventable diseases; preventable tragedies 
and our public health resources are insufficient to effectively respond 
to these challenges. In too many cases, there was not the capacity to 
investigate these problems.
    Even though we know about the increasing importance of chronic 
diseases and the staggering human and financial toll they have on our 
country, we have no systems in place to track chronic diseases nor do 
we have the capability to respond to these health crises. Our Federal, 
State, and local agencies only systemically track and respond to 
infectious diseases such as polio, yellow fever and typhoid. These are 
diseases that a national tracking and response system helped to 
eradicate back in the late 1800's.
    Over a century later, we never modernized our public health system 
to respond to today's health threats. As a result, we are hamstringing 
our health specialists from finding solutions and effectively taking 
action--regardless if it's childhood cancer or a nationwide asthma 
epidemic.
    As a former chemical and pesticide regulator, I am appalled by the 
lack of information to make wise decisions about chemicals in the 
environment and our inability to be sure that we are doing what we 
should be doing to prevent chronic diseases. In 1997, Environmental 
Defense looked at what we know about chemicals in commerce at high 
volume (greater than a million pounds a year) in the United States. 
They found surprising and disturbing gaps in the information available 
to government and the public, a finding later confirmed both by EPA and 
by industry. Indeed, EPA's analysis indicated that that only 7 percent 
have screening level information about toxic effects and more than 40 
percent have no information at all. To compound our ignorance, we do 
not know which chemicals are winding up in our bodies and the bodies of 
our children. For example, which contaminants are in breast milk? This 
is basic information that is needed, both to understand the risks and 
more importantly to make the right decisions to protect the public from 
harmful exposures.
    Clearly, we cannot make wise decisions about the risks of chemicals 
given this state of ignorance. Incentives need to be created to 
generate information about hazards and exposures to industrial 
chemicals that are in our food and water, products used in the home and 
intended for children, and in the workplace.
    Further, we also need this tracking information so that we can 
carry out the studies that will identify what might be causing high 
rates of chronic disease in communities in the United States. Let me 
give you an example of our scattered State health tracking systems.
    <bullet> With the Pew Commission I wrote a report on birth defects 
that rated the State's efforts to monitor birth defects. Even though 
birth defects are the No. 1 cause of infant mortality, 17 States do not 
track birth defects. The Pew Commission gave Nevada and the 16 other 
States an F in its report, ``Healthy from the Start'' which was 
released in late 1999. New York received a ``B'', meaning that while 
there are good efforts underway the registry does not collect data that 
are compatible with the national standard set by the CDC. As a result, 
data from New York can't necessarily be compared to those from other 
States, hindering the ability of scientists to determine patterns of 
diseases and their causes.
    <bullet> Whereas the National Academy of Science estimates that 25 
percent of developmental diseases such as cerebral palsy, autism and 
mental retardation are caused by environmental factors, only a handful 
of States have any efforts at all to track these diseases.
    <bullet> Cancer registries in many States have been severely 
neglected for years. Even in California, when I was there, we saw 
support deteriorate to the point where the registry could collect the 
data, but not analyze it or use it to take action to respond to cancer 
threats.
    The Pew Environmental Health Commission based out of the Johns 
Hopkins School of Public Health studied our nation's capacity to 
identify and respond to chronic disease clusters for 2 years and 
proposed creating a nationwide Health Tracking Network to solve this 
problem.
    The Nationwide Health Tracking Network is based on four principles: 
(1) building a coordinated system of tracking chronic diseases and 
associated environmental factors; (2) providing the resources and 
training to local health departments to analyze the data; (3) 
immediately responding to health problems identified through the 
system; and (4) providing the national leadership to coordinate health 
and environmental activities throughout the Federal Government so that 
these programs do not operate in isolation of one another.
    The Nationwide Health Tracking Network consists of five components:
    1. Establishing essential data collection systems: The first 
component builds on existing health and environmental data collection 
systems and establishes data collection systems where they do not 
exist. The Network will coordinate with the local, State and Federal 
health agencies to collect this critical data. In all fifty States, the 
Network would track:
    <bullet> Asthma and other respiratory diseases;
    <bullet> Developmental diseases such as autism, cerebral palsy, and 
mental retardation;
    <bullet> Neurological diseases such Alzheimer's, multiple 
sclerosis, and Parkinson's;
    <bullet> Birth defects; and
    <bullet> Cancers, especially in children.
    The Network also would track exposures to:
    <bullet> Heavy metals such as mercury and lead;
    <bullet> Pesticides such as organophosphates and carbamates;
    <bullet> Air contaminants such as toluene and carbamates;
    <bullet> Organic compounds such as PCB's and dioxins; and
    <bullet> Drinking water contaminants, including pathogens.
    Building upon the existing systems for infectious diseases, the 
Federal Government will establish the standards for the health and 
exposure data collection necessary to create uniformity throughout the 
system. With Federal resources such as funding, training and lab 
access, State and local public health agencies will collect, report and 
analyze the data.
    2. Creating an Early Warning System: The second component is an 
Early Warning System that would immediately alert communities of health 
crises such as lead, pesticide and mercury poisonings. The existing 
system of local health officials, hospitals and poison centers that 
alert our communities to outbreaks like food illness and the West Nile 
virus would also alert our communities to these health crises.
    3. Improving response to chronic disease emergencies: The third 
component consists of improving our response to identified disease 
clusters and other health crises. The Network would coordinate Federal, 
State and local health officials into rapid response teams to quickly 
investigate these health problems, providing the teams with trained 
personnel and the necessary equipment.
    4. Addressing unique local health problems: The fourth component is 
a pilot program consisting of 20 regional and State programs that would 
investigate local health crises and clusters that are currently not 
part of the nationwide Health Tracking Network. These programs would 
alert the public and health officials to new developing disease 
clusters outside of the nationwide Health Tracking Network. These 
pilots programs also would serve as models for tracking systems for 
inclusion in the Network.
    5. Creating community and academic partnerships: The fifth 
component establishes relationships with five Academic centers and with 
our communities. Our community relationships would ensure that the 
tracking data is accessible and useful on a local level, and our 
research relationships would train the work force, analyze data, and 
develop links between the tracking results and preventive measures.
    (The background and basis for this Network and other Commission 
findings and recommendations are attached as part of the written 
testimony. These are also available on the Commission's website.)
    This Network would provide our communities, scientists, doctors, 
hospitals and public health officials with missing data on where 
chronic diseases are clustering and associated environmental factors 
that would enable us to develop prevention strategies. Over thirty key 
health organizations have endorsed this recommendation, ranging from 
Aetna U.S. Health Care to the American Cancer Society to the American 
Academy of Pediatrics to the Association of State and Territorial 
Health Officers (ASTHO).
    Developing prevention strategies are critical to reducing the $325 
billion a year Americans spend on chronic diseases. As noted above, the 
estimated cost of chronic disease is predicted to rise to $1 trillion 
in less than 15 years. The estimated cost of the Network is about $275 
million or less than 1 dollar per every man, woman and child.
    It is ironic that we have mapped the entire human genome and yet we 
don't have the most basic information about the diseases that are 
killing us. We are learning about the genetic susceptibilities in the 
population but we do not have a clue which chemicals might be 
triggering these genes to create disease. We have learned how to spend 
millions upon millions to treat chronic diseases like asthma and cancer 
but the Federal Government has not identified the reasons why asthma 
and rates of certain cancers are rising. We need to spend our tax 
dollars more effectively by identifying which chronic diseases are 
increasing and which exposures may be impacting our health.
    The most cost effective use of tax dollars today would be to invest 
in preventing the leading killers in this country. And the American 
public agrees. The American public is so concerned about this issue 
that 63 percent feel that public health spending is more important than 
cutting taxes. Seven out of ten registered voters (73 percent) feel 
that public health spending is more important than spending on a 
national missile defense system.
    A recent public opinion poll by Princeton Survey Research 
Associates revealed that nine out of ten (89 percent) registered voters 
support the creation of a national system.
    Most local health departments face declining funding, inadequate 
training for staff, limited or no laboratory access, and outdated 
information systems. CDC and ATSDR have not been able to adequately 
help. For instance, there is no Federal funding for an environmental 
health specialist or even chronic disease investigator almost all 
States. Nor does CDC or the Agency for Toxic Substances and Disease 
Registries (ATSDR) give States written guidance, standards or protocols 
on how to investigate the cancer clusters.
    On a Federal level, there are a few programs that relate to chronic 
diseases, but do not track and respond to the increases in rates of 
chronic disease. The irony is the Administration's proposed budget 
recommends severe cuts for the nation's chronic disease prevention 
programs. We need to be going in the exact opposite direction. Health 
defense should be the country's No. 1 commitment.
    Who is guarding our health? The answer is that the public health 
service has fallen short of its duty--lacking the tracking, troops and 
leadership. This is exactly where our Federal Government is needed--to 
develop the tracking and monitoring systems, supply the troops and 
offer the leadership to prevent chronic disease.
    To modernize our public health resources so that we can identify 
clusters before they grow, we must take rapid action to control their 
spread and find solutions to prevent diseases. CDC must be given the 
direct mandate to aggressively respond to communities' concerns like 
those on Long Island and in Fallon, with modern tools and health-
tracking systems. And Congress must prioritize $275 million per year, 
less than a dollar per person to make this happen. It is just a tenth 
of 1 percent of the overall spending of health care dollars in this 
country.
    Without this type of investment, we will only watch asthma, certain 
cancers and other chronic disease rates continue to rise. There will be 
many more lives lost to preventable diseases. And that will be the 
greatest tragedy of all.
    Thank you for the opportunity to testify today.
                               __________
Statement of Elinor Schoenfeld, M.D., Associate Professor, Stony Brook 
                     University School of Medicine

    My name is Dr. Elinor Schoenfeld and I am an associate professor in 
the Department of Preventive Medicine at the School of Medicine, 
University of New York at Stony Brook. On behalf of the University at 
Stony Brook, I would like to thank you for giving us the opportunity to 
be a part of these hearings. The research community at the University 
at Stony Brook is engaged in many aspects of environmental research and 
the impact the environment has on health. With the University's close 
collaborations with many other organizations on Long Island, the 
University would be an ideal resource for research collaborations to 
study the impact of the Long Island environment on community health. We 
are the only medical school located in Suffolk County. The Health 
Sciences Center houses the schools of Medicine, Nursing, Health 
Technology and Management, Social Welfare and Dentistry. Each school 
provides for the teaching of health professionals to serve the health 
care needs of the community. In addition, each school provides for the 
development of researchers in many fields of basic and clinical 
sciences.
    The Department of Preventive Medicine within the School of Medicine 
has an outstanding team of epidemiologists and occupational medicine 
specialists with a special interest in cancer and the environment. We 
have a long-standing relationship with the community to investigate 
concerns about possible disease clusters on Long Island. In addition, 
we have a strong interest and involvement with breast cancer research 
on Long Island. Currently, we are conducting the Electromagnetic Fields 
and Breast Cancer on Long Island Study, which is investigating the 
possibility that electromagnetic fields increase the risk of breast 
cancer. This EMF study is federally funded and is one of the studies of 
the Long Island Breast Cancer Study Project.
    The EMF and Breast Cancer on Long Island Study is a population-
based case-control study of women in Nassau and Suffolk Counties, New 
York. Women were eligible for this study if they participated in the 
Long Island Breast Cancer Study Project case-control study, were either 
diagnosed with breast cancer between August 1, 1996 and June 20, 1997 
or were population-based controls accrued through random-digit dialing 
(women ages 30-64) or HCFA files (over age 65), and lived in their 
current residence for 15 years or more.
    The measurement protocol for the study was based on the results of 
a comprehensive pilot study. The measurement protocol included spot 
measurements (at the front door, bedroom and most lived in room), 24-
hour measurements (bedroom and most lived-in room). Participants were 
queried on their use of electrical appliances, age of the home, number 
of years in the home, occupational history, electric train travel, and 
light-at-night. At a second visit, the wiring around the home was 
diagrammed by trained technicians. Results from this study will be 
available later this year.
    Another potential resource for evaluating the impact of the 
environment on health for the local community is the Long Island Cancer 
Center, which appointed it first director, Dr. John Kovach, this past 
year. The goal of the Long Island Cancer Center is to provide 
comprehensive cancer care to all Long Islander's while providing an 
environment to conduct both clinical and basic research into the causes 
and treatment of cancer.
    There are many features of University at Stony Brook and the School 
of Medicine which present a unique opportunity to develop a truly 
comprehensive cancer program which integrates the best of academic 
research at a basic and translational level with clinical trials, 
patient care, community hospitals, community physicians and the 
community at large. The special aspects of the program are:
    1. University at Stony Brook Department of Preventive Medicine and 
Epidemiology has a 20-year history of working with the State Department 
of Health, the State of New York, and the Federal Government in 
studying the cancer problem on Long Island. This includes mapping 
potential toxic sites throughout the Island, the study of ``hot spots'' 
of breast cancer on Long Island as part of the federally funded Long 
Island Breast Cancer Project, and cancer education in the schools, 
communities at large and community physicians. To facilitate these Long 
island epidemiology studies, the Department of Preventive Medicine has 
established mechanisms for data collection, storage, retrieval and 
analysis while assuring confidentiality of the data. This is a unique 
resource for a cancer center poised to apply advances in molecular 
biology and genomics to the problem of human cancer. The special 
opportunities available to Stony Brook and to the citizens of Long 
Island are to develop a population-based cancer data base focusing 
initially on breast and prostate cancer, two leading cancers in men and 
women respectfully in the United States.
    2. University at Stony Brook and the School of Medicine currently 
receive over $10 million annually in total support form the National 
Cancer Institute. This level of support is above the median support 
received by the 68 Comprehensive Cancer Centers in the United States.
    3. The University Stony Brook and the School of Medicine already 
possess four program grants from the National Institutes of Health. 
These attest to the quality and the integration of multiple 
investigators into cohesive programs, the hallmark of comprehensive 
centers. The awards include two program grants to explore environmental 
causes of genetic damage; a third grant in Tumor Virology and a fourth 
grant supporting General Clinical Research Center.
    4. The School of Medicine possesses outstanding expertise in all 
clinical aspects of cancer diagnosis and treatment. These include 
outstanding cancer surgery for brain, lung, gastrointestinal, breast 
and ovarian cancer; exceptional radiation oncology with state-of-the-
art equipment; and excellent medical oncologists for children's cancers 
and adult cancers. The physicians consistently receive accolades from 
the public regarding their compassion and thorough care.
    5. The University at Stony Brook and Brookhaven National Laboratory 
have exceptional resources in computer sciences, applied mathematics, 
statistical genetics and biostatistics. Such depth in these areas is 
rarely found in a single comprehensive cancer center. These disciplines 
are increasingly important to medical research which relies more and 
more the receipt, storage, retrieval and analysis of massive amounts of 
data.
    6. Strong working research relationships and a single graduate/
raining program between Cold Spring Harbor Laboratory and University at 
Stony Brook and the School of Medicine provide special opportunities to 
bring basic biological research relevant to the cancer problem to an 
international level of quality. Cold Spring Harbor Laboratory has a 
cancer center grant from the National Cancer Institute for its basic 
science programs. With the completion of the Human Genome Project, an 
ability to relate variations in human genetic sequence to specific 
disease promises to provide un-paralleled insights into the causes of 
disease and lead to new mechanisms of disease prevention and cure. Cold 
Spring Harbor will benefit by access to physician scientists being 
recruited to the cancer center at Stony Brook.
    7. The close relationship between Brookhaven National Laboratory 
and Stony Brook University provides unique resources for the cancer 
center such as access to the synchrotron light source for structural 
studies and to expertise relevant to development of advanced imaging 
capabilities. Dr. Nora Volkow, director of Clinical Research at 
Brookhaven National Laboratory and Dr. Linda Chang, the new medical 
director of Brookhaven National Laboratory are national experts in 
advanced imaging procedures.
    Imaging research is aided enormously by the capability of 
Brookhaven National Laboratory to generate a variety of short-lived 
isotopes useful for the labeling of proteins and for positron emission 
tomography (PET). Additional strength was added recently with the 
recruitment of Dr. Helene Benveniste from Duke University. She is an 
internationally recognized expert in micro-magnetic resonance imaging 
(MRI) in the mouse. The State of New York recently provided $900,000 to 
establish for Dr. Benvenistea state-of-the-art micro-MRI instrument.
    8. Over the past 6 months, the Cancer Center has invited 
investigators from other institutions with the kind of expertise needed 
to enhance the comprehensive nature of the Long Island Cancer Center at 
Stony Brook. Eleven speakers have presented seminars to one or another 
of the focus groups of the cancer center. The consensus of these 
investigators, who are already well funded from the National Cancer 
Institute, is that there is outstanding science at the center and that 
the setting at University at Stony Brook is ideal from an academic 
standpoint.
    Other University resources for the evaluation of the impact of the 
environment on health include the Long Island Groundwater Research 
Institute (LIGRI) which was established in 1994 to marshal the 
resources and expertise of the University for the study of groundwater 
hydrology and chemistry. One of the Institute's goals is to bring the 
results of scientific research to bear on the region's most pressing 
groundwater problems. Inquiries on all aspects of groundwater hydrology 
and chemistry are welcome.
    The resolution of hydrogeological and groundwater pollution 
problems requires basic and applied research from a broad array of 
disciplines. The Institute coordinates and expands the existing 
potential for research by faculty, staff and students in groundwater 
hydrology. The Institute maintains close communication with ground-
water professionals in the government and private sector in Long 
Island. Through the University's Center for Regional Policy Studies, a 
distinguished Advisory Council has been established with representation 
of agencies with management responsibilities. In 1997 the Institute was 
formally established by legislative act.
    The Institute has become a member of ECAC joining the Maxwell 
School and College of Engineering and Computer Science at Syracuse 
University, the New York Water Resources Institute at Cornell 
University and the Darrin Fresh Water Institute at the Rensselaer 
Polytechnic Institute. The purpose of this group is to assist local 
communities to access institutional expertise and resources to provide 
outreach, education and support to government agencies through this 
State-wide effort. As part of this effort, the Institute has been asked 
to provide technical information to community groups (ABCO, NEARS) 
concerned with contamination at Brookhaven National Laboratories. The 
Institute also provided testimony for a joint legislative assembly 
hearing on water quality and quality issues sponsored by the Commission 
on Water Resource Needs, the Environmental Conservation Committee and 
the Task Force on Food, Farm and Nutrition.
    Given the community's awareness and the importance of cancer on 
Long Island, we applaud today's hearing. As scientists studying the 
link between cancer and the environment, we recognize the need for a 
special effort and initiative in this area. We are prepared to lend our 
efforts to meet the challenge to improve the health of the population 
on Long Island.
                               __________
 Statement of Mark Serotoff, Townline Civic Association, Environmental 
                     Carcinogens on Long Island, NY

    The importance of addressing the epidemic of cancer on Long Island 
cannot be overemphasized. One-in-nine incidence of breast cancer, high 
levels of pancreatic, esophageal, brain cancers, leukemia, lymphoma, 
lung, testicular, colon, stomach, melanoma, multiple myelomas, liver, 
kidney, bladder cancers and more are common. Such diverse presentations 
result from varied causes: ingestion by mouth, skin, and respiration.
    Ingestion includes exposure to chemicals in food and water. An 
inspection of the year 2000 water quality statement from South 
Huntington Water District reveals permissible levels of: 1,1,1-
Trichloroethane, Tetrachloroethane, Trichloroethene, 
Bromodichloromethane, Chlorodibromomethane, 1,1-Dichloroethane, 1,2-
Dichloropropane, nitrates (fertilizers); all carcinogens. Most other 
water district reports have similar levels of ``acceptable'' 
carcinogens. Farming on Long Island is the largest dollarwise in the 
State and carcinogenic residues may be found on the produce, again, 
within ``acceptable'' government standards.
    There are five incinerators distributed around Long Island and over 
a dozen power plants, with potentially a dozen more due to 
deregulation. All use fossil-fuel and emit millions of pounds a year of 
carcinogens in the form of particulate matter and volatile organic 
compounds. Because these are on an ISLAND, there are very few suitable 
locations for minimum impact on the population and environment. In some 
neighborhoods, more than one of these major stationary sources are 
side-by-side. Some existing, or proposed, are close to homes, schools, 
hospitals and parks.
    The unique topography and meteorology of Long Island result in 
numerous stagnant days, especially in the ozone season (May to 
October). Exposure to the aforementioned carcinogens as well as other 
pollutants is significantly higher to the general population during 
such times. Furthermore, the dearth of mass transit has resulted in an 
extraordinary number of vehicle and truck (high-polluting diesel) trips 
that add carcinogens and other pollutants to the air. In fact, the DEC 
has classified Long Island for over 8 years as a ``non-attainment 
region'' for ozone. That also implies high levels of the other 
pollutants that cause heart/lung damage and cancer.
    The proliferation of cellular communications has resulted in 
countless cell towers and antennas that dot the Long Island landscape. 
These are suspected of have carcinogenic effects. Some towers with 
dozens of stations (antennae) are adjacent to dense residential 
clusters. In addition, the same applies to high tension fines. Both 
will become more prevalent with time.
    Blessed with hundreds of miles of shoreline, sunbathers have ample 
opportunity of sun exposure which is associated with melanoma.
    The nature of a carcinogen is such that there is no safe limit of 
exposure. The Delaney Amendment prohibited chemicals, compounds or 
additives in food or drugs that showed any laboratory cancer causation. 
It has since been repealed under industry pressure as too costly. The 
next question is, ``To what degree will these carcinogens be removed 
from the environment?'' or better, ``How much are we prepared to 
spend?'' The current situation is unacceptable; additional (and more 
costly) steps must be taken: If we want improved health and quality-of-
life, we must pay for it.
    Residue on food can be reduced or eliminated by organic methods of 
farming and more thorough cleaning. People will have to be educated to 
accept good produce with cosmetic defects. Enact stricter standards for 
residue.
    Activated charcoal filters of greater sensitivity and more 
stringent water purification and standards must be used until chemicals 
are non-detectable in the potable water. Greater enforcement and 
stricter regulations must be in place to prevent contamination of the 
sole-source aquifer water supply. Less strict standards can be in place 
for industrial processes, which may cut costs. Suffolk County Sanitary 
Code Article 7 is a good example of a law meant to protect the aquifer 
by prohibiting bulk storage of hazardous chemicals over deep-recharge 
zones. However, it needs to be updated and is being challenged by power 
producers, for example, that want to store hundreds of thousands of 
gallons of hazardous liquids over prohibited aquifer recharge zones.
    A relatively simple solution exists regarding the incinerators: 
shut them ALL down. New York City has done it, with a considerably 
larger population than Long Island. Turn the incinerators into refuse-
concentrating and recycling centers, and follow the NYC method of 
disposal.
    Regarding the absurdly high number of proposals for generators on 
Long Island, mostly by out-of-state companies, a regional energy plan 
must be formulated that will allow only the number of new power plants 
that will be needed to meet expected demand, AFTER much greater effort 
is made using renewables, efficiency and conservation. Any new 
generators must be placed at existing sites, or as far from vulnerable 
populations as possible. Tighten industrial emission standards.
    Highly polluting diesels in heavy trucks may have their effects 
reduced by night deliveries, with stricter and frequent inspections to 
assure peak engine operation. A light rail line on, under or above the 
LIE could lessen commercial traffic. Reinstate the ``luxury'' tax to 
discourage gas guzzlers, with tax credits for economical vehicles. 
Another possibility is to use the waterways and barge trucks or goods 
to distribution depots. Rethink uncontrolled growth, development and 
sprawl. The more there is, the more power plants and vehicle trips are 
required.
    Cell towers and antennae must be isolated from homes and schools if 
possible. Satellite communication is an alternative, as well as a 
highway antenna wire using lower power, as in the tunnels. Melanoma 
from sun exposure can be reduced by public education including 
sunscreens and body examinations.
    The highest standard of living in the world has been achieved in 
America with Long Island as a microcosm, but it has come with a price, 
an epidemic of cancer. The solutions are known. Proven methods and 
technology exist to greatly ameliorate the problem, but will we pay the 
bill?
                               __________
                 Feingold Association of the United States,
                                      Alexandria, VA, June 3, 2001.

Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    Dear Committee Member: On behalf of the Feingold Association, I 
would like to express our deepest gratitude for the work of this 
committee to focus attention on the possible links between 
environmental contamination and chronic diseases. We are most 
appreciative of the inclusion of food in defining environment, in light 
of the purposes of our organization which are to generate public 
awareness of the potential role of foods and synthetic additives in 
behavior, learning and health problems, and to support members in the 
implementation of the Feingold Program. The Feingold Program is based 
on a diet eliminating certain salicylate-containing foods, all 
synthetic colors, synthetic flavors, and the preservatives BHA, BHT, 
and TBHQ.
    Additionally, we appreciate the opportunity to provide information 
which we hope will be valuable in our shared search for answers. As an 
organization, we have been helping people for the past twenty-five 
years and feel we can offer insight into possible connections between 
foods, synthetic food additives and preservatives, other chemicals, the 
body's processes of sulfation and salicylate metabolism, the immune 
system, and chronic diseases such as ADHD, autism, and asthma.
    The attached document was submitted previously to the Institute of 
Medicine and the National Vaccine Advisory Committee in an effort to 
address the need for further research into previously mentioned areas 
as they may relate to concerns about vaccines and mercury more 
specifically. It is vital to note that a positive response to the 
Feingold Program may serve as a marker for those at risk for diseases 
or damage from vaccines and/or vaccine ingredients. We feel this 
information may also assist you in considering broader issues related 
to the environment and chronic diseases. The need to identify the role 
of diet is crucial and may provide the baseline for exploring and 
determining root causes.
    Your commitment to collaborative efforts in order to find answers 
is most commendable and appreciated. It is our hope that you will be 
taking a leadership role in identifying the way such work will be 
coordinated. This should include the work of other government agencies 
and officials, such as Senator Dan Burton, who similarly are obtaining 
valuable input regarding chronic diseases such as ADHD, autism, and 
asthma. We respectfully request the opportunity to participate in 
ongoing dialog about these issues, which are of personal and 
professional concern for those we serve. Thank you again for your 
sensitive and proactive work to improve and ensure our public health.
            Sincerely,
                              Sherri Luther Palmer,
                                                 President,
                         The Feingold Association of the Northeast.

                     Kathleen Bratby, M.S.N., R.N.,
                                                 President,
                     The Feingold Association of the United States.
                                 ______
                                 
                 Feingold Association of the United States,
                                      Alexandria, VA, June 3, 2001.

Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    Dear Committee Member: The Feingold Association of the United 
States, Inc., founded in 1976, is a non-profit organization whose 
purposes are to generate public awareness of the potential role of 
foods and synthetic additives in behavior, learning and health 
problems, and to support its members in the implementation of the 
Feingold Program.
    The program is based on a diet eliminating certain salicylate-
containing foods, all synthetic colors, synthetic flavors, and the 
preservatives BHA, Bill, and TBHQ.
    We in the Feingold Association realize that the program is one of 
many ``puzzle pieces'' in addressing behavior, learning, and health 
problems such as those associated with autism and ADHD. It is often a 
cornerstone of multimodal therapy for such children, and we feel that 
more research into what is happening in the body's sulfation system, in 
salicylate metabolism, or in other areas in which diet may play a role 
should be important for improved treatment and prevention of ADHD and 
autism.
    Research in England and elsewhere (Harris et al, 1998; Waring & 
Ngong, 1993; O'Reilly & Waring, 1993; Alberti, 1999) has shown that 
children with late-onset autism are very low in the enzyme PST (phenol 
sulfotransferase) and appear to have major problems in sulfation. This 
appears to be related to food sensitivities (Scadding et al., 1988; 
O'Reilly & Waring 1993; McFadden 1996) and common food additives 
(Bamforth et al, 1993) as well. We ask for research to determine if: 
(1) these may be the children at risk for autism or ADHD if vaccinated, 
or (2) the vaccines suppress the sulfation system in any way, which 
would put at risk all those who are below some threshold yet to be 
determined.
    Since many children with autism or ADHD respond to the Feingold 
diet (Arnold, 1999; see also www.feingold.org/research--adhd.html and 
www.feingold.org/research--autism.html), we would like to know why--
whether it could be an impact of some vaccination which creates the 
problem that the diet can help, and/or whether the child has such a 
problem naturally so that identifying this would screen for those who 
may be at risk of actual damage by vaccine chemicals. In other words, 
is the Feingold diet a treatment for some form of damage and/or would 
the response to the Feingold diet be a marker to determine which 
children are at risk?
    In related work, Dr. Mary Megson has shown that children with 
autism and/or ADHD have a defect in the G-Protein, and she is able to 
identify them by family profile. This should be studied as a preventive 
measure to identify those children at risk before vaccinating. Also, 
according to Dr. Megson, there are ways to prevent or even correct such 
damage in these children, and further research should be done based on 
her work and any possible relationship to Feingold diet responders. 
(See www.treatmentchoice.com/megson.html)
    Additionally, research has shown that synthetic food additives 
suppress levels of zinc (Brenner, 1979; Ward 1990, 1997), hormones and 
enzymes (Bamforth et al 1993) and the immune system (Koutsogeorgopoulou 
1998). We ask for research to be done on all the ingredients in 
vaccines to determine any impact on zinc levels, zinc metabolism, 
enzymes, hormones, and the immune system--and, conversely, whether 
these reactions to synthetic additives would be markers to identify 
children potentially at risk to develop ADHD or autism with (or 
without) further vaccination.
    The following statement was signed by attendees at the 25th Annual 
Conference of the Feingold Association on September 22, 2000: We the 
undersigned strongly suggest that vaccines containing mercury be stored 
until such time that the effects of mercury buildup in multiple 
vaccinations is better understood. If the effect is statistically 
minimal, the vaccines may be used at a later date. If the high doses of 
mercury are harmful, the vaccines can later be destroyed. Meanwhile, 
current stores of mercury-free vaccines can be used and data gathered 
about the effect of mercury-free vaccines.
    A copy of this signed statement will accompany the hard copy of 
this letter (by mail), and the original was submitted to the office of 
the Surgeon General. We further call for research to recognize those 
children who may be harmed by or have difficulty detoxifying such 
toxins as mercury, phenol, formaldehyde, or other ingredients in 
vaccines so they can be identified and protected.
    When research is done on the hypothesis of whether vaccines are 
related to autism and ADHD, the connection between vaccines and the 
metabolic pathways involved in response to the Feingold diet should not 
be ignored. We have identified areas for further research which we hope 
will contribute to finding the answers we all need for the sake of our 
future, our children. Thank you for the opportunity to provide these 
materials, and we ask to be involved in ongoing dialog and efforts to 
address public health issues such as these currently commanding 
national attention.
    Sincerely,
                                   Kathy Bratby, MSN, RN,
                                             President.

                                   Jane Hersey,
                                             National Director.

                                   Shula Edelkind,
                                             Research Librarian.

                                   Pat Palmer,
                                             Board Member Emeritus.

                                   Colleen Smethers, CRNP (retired)
                                             President, Feingold Assn. 
                                               of Southern California.
                                 ______
                                 
                               References

    Alberti, A., Pirrone, P., Elia, M., Waring, R.H., Romano, C., 
Sulphation deficit in ``low-functioning'' autistic children: a pilot 
study, Biological Psychiatry 1999 Aug 1; 46(3):420-4.
    Arnold, L.E., Treatment Alternatives for Attention-Deficit/
Hyperactivity Disorder (ADHD), Journal of Attention Disorders, Vol. 3, 
No. 1 (April 2000), 30-48.
    Bamforth, K.J., Jones, A.L., Roberts, R.C., Coughtrie, M.W., Common 
Food Additives are Potent Inhibitors of Human Liver 17 Aipha-
Ethinyloestradiol and Dopamine Sulphotransferases, Biochem Pharmacol, 
1993, Nov. 17; 46(10):1713-20.
    Brenner, A., Trace Mineral Levels in Hyperactive Children 
Responding to the Feingold Diet, Journal of Pediatrics 1979 June; 
94(6):944-5.
    Harris, R.M., Hawker, R.J., Langman, M.J., Singh, S., Waring, R.H., 
Inhibition of Phenolsulphotransferase by Salicylic Acid: a Possible 
Mechanism by Which Aspirin May Reduce Carcinogenesis, Gut 1998 Feb.; 
42(2):272-5.
    Koutsogeorgopoulou L., Maravelias D., Methenitou G., Koutselinis 
A., Immunological Aspects of the Common Food Colorants, Amaranth and 
Tartrazine, Vet Hum Toxicol, 1998, Feb. 40(1); 1-4
    McFadden, S.A., Phenotypic Variation in Xenobiotic Metabolism and 
Adverse Environmental Response: Focus on Sulfur-Dependent 
Detoxification Pathways, Toxicology, July 1996, Vol. 111(1-3), pp. 43-
65
    Megson, M., Testimony to the House Government Reform Committee on 
Autism and Vaccines, April 6, 2000. (She can be reached at 7229 Forest 
Ave., #211, Richmond, VA 23226)
    O'Reilly, B.A. & Waring, R.H., Enzyme and Sulphur Oxidation 
Deficiencies in Autistic Children with Known Food/Chemical 
Intolerances, Journal of Orthomolecular Medicine, Vol. 8, No. 4, 1993.
    Scadding, G.K., Ayesh R., Brostoff, J., Mitchell, S.C., Waring, 
R.H., Smith, R.L., Poor Suiphoxidation Ability in Patients with Food 
Sensitivity, British Medical Journal, 1988 July 9, 297 (6641): 105-7
    Ward, N.I., Assessment of Chemical Factors in Relation to Child 
Hyperactivity, Journal of Nutritional & Environmental Medicine 
(Abingdon); 7 (4). 1997. 333-342.
    Ward, N.I.; Soulsbury, K.A.; Zettel, V.H.; Colquhoun, I.D.; Bunday, 
S; Barnes, B., The influence of the Chemical Additive Tartrazine on the 
Zinc Status of Hyperactive Children: A Double-Blind Placebo-Controlled 
Study. J. Nutr. Med.; 1(1). 1990. 51-58.
    Waring, R.H. & Ngong, J.M., Sulphate Metabolism in Allergy-Induced 
Autism: Relevance to the Disease Aetiology, Dept. of Biochemistry, 
Birmingham U., Edgbaston, Birmingham, UK 1993.

[GRAPHIC] [TIFF OMITTED] T0650.107

[GRAPHIC] [TIFF OMITTED] T0650.108

                                        Elaine Marie Cobis,
                                                         Islip, NY.
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    Dear Senator Hillary Clinton: Thank you for invitation to have the 
opportunity to experience some of the efforts of your hard work. I 
attended the Senate hearing at Adelphi University in Garden City, NY on 
June 11, 2001. I felt humbled being in the presence of persons 
dedicated to helping humanity. I have my own testimony of human 
suffering which I believe can be attributed to the pollutants of the 
environment.
    As a Registered Nurse, I had the opportunity to care for patients 
on the Oncology Unit which help me attain the expertise for caring for 
patients afflicted with cancer. I applied my skills to caring for 
patients in the home who required infusion therapy such as 
chemotherapy, TPN and several forms of intravenous therapy.
    In 1991, while working for HMSS, an infusion therapy company, I 
cared for a 21-year-old student with a diagnose of leukemia. She lived 
in a dorm for 2 years which was located at Stoney Brook University on 
Long Island, NY. The dorm she lived in was closed down by a team of 
epidemiologist of New York State in July 1991. The reason cited in a 
Newsday column was that the cases of Leukemia, over the years, were too 
numerous not to suspect problems with the building.
    In 1992, I held a young girl in my arms till she breathed her last 
labored breath. She was 23. Her killer was breast cancer. She lived in 
Brentwood, Long Island. Her doctors, from Columbia Presbyterian 
Hospital in Manhattan, suspected that she had breast cancer since age 
16. A tumor on her right shoulder was discovered during a routine 
physical examination for college at age 20. Her age alone raises 
suspicion that the breast cancer was linked to the pollutants in the 
environment. Brentwood, Long Island is home to Pilgrim Psychiatric 
Center. This hospital has acres of land surrounding it, some of which 
are the pine barrens. It is also home to a toxic dumpsite located on 
the grounds of Pilgrim Psychiatric Center.
    In 1989, I took tare of a 21-year-old male with advanced testicular 
cancer. He lived in Brentwood, Long Island.
    In 1991, an 11-year-old girl, my daughter's first cousin, was 
diagnosed with thyroid cancer. She still is fighting this cancer with 
yearly exams and treatments at Sloan Kettering Hospital. Thyroid 
cancer, in a child, is extremely rare and is highly suspect to be 
directly linked to environmental hazards.
    I hope my testimony contributes to the many and will help attain 
the honorable goal of establishing a national cancer reporting agency. 
This will help gather information so that action can be taken to heal 
this wounded Nation. We were once a clean and healthy land. Efforts 
must be made to bring that health back to our noble land.
            Sincerely,
                                        Elaine Marie Cobis,
                                                  Registered Nurse.
                               __________
                                             Michael Conti,
                                      Oceanside, NY, June 16, 2001.
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    To Whom it may concern:  On Monday, June 11, 2001, at Adelphi 
University I attended a hearing on environmental health concerns 
chaired by Senator Clinton. Many prominent scientists were asked to 
speak about their research efforts that were aimed toward investigating 
the causes of cancer and other human illnesses. Unfortunately, none of 
the scientists who spoke are doing research in an area that I feel 
needs investigating.
    Since the title of the hearing was Environmental Health Concerns, 
it was very appropriate for the scientists to be asked to define 
environment and to give examples. Environment was described as the 
material things around us that we can see as well as the invisible 
things. Therefore, the scientists would study the water and air for 
pollutants as well as electromagnetic radiation. Their definition for 
environment meant that they would be looking outside the human body. 
Herein lies the problem.
    I want the Senate Committee on the Environment and Public Works to 
investigate the toxic microenvironment that exists in the mouths of 
many Americans who have metallic filling materials in their teeth. For 
hundreds of years teeth have been restored with a material commonly 
called a silver filling or silver amalgam. This material is the end 
result of mixing approximately equal parts of elemental liquid mercury 
and an alloy powder composed chiefly of silver, and tin, and sometimes 
smaller amounts of copper, zinc, palladium, or indium. However, the 
composition of this amalgam has recently changed with the addition of 
greater amounts of copper. According to scientific evidence high copper 
amalgams are very deadly. A typical adult will usually have one or more 
crowns containing some gold, silver, and palladium. Some other metals 
such as chrome and nickel might also be present in a person who is also 
wearing a removable partial denture. As you can see the mouth can be a 
microenvironment of toxic metals which will leach into the body and 
have the potential for causing disease. Besides poisoning the body, 
microelectric currents are set up between these dissimilar metals which 
is also harmful to the human body.
    Teeth lie on meridians according to Chinese medicine. Chinese 
medicine claims that problems associated with first molars are related 
to breast cancer. I've been told this is true. I want the Senate to put 
a team of people together to see if there is any truth to this 
statement.
    Finally, I would ask all members on this health committee to become 
informed with the literature that is already available linking dental 
work with human disease. I am enclosing a list of publications that you 
must read before making any decisions. I urge you to read these books 
rather than relying on the scientists from whom you heard on June 11.
    I just want to include a short paragraph from my first e-mail to 
Mrs. Clinton dated Thursday, May 3, 2001.
    ``I was pleased to hear on Monday and today in Paul Harvey's 
broadcast of the news that the State of Maine has a bill before the 
State legislature banning the use of mercury dental amalgam in pregnant 
women. I would like you to initiate a similar bill for New York 
State.''
    I thank you in advance for the effort I know the committee will put 
toward better health for Americans. Please keep me informed of your 
decisions.
            Sincerely,
                                                     Michael Conti.
                                 ______
                                 

Books Available Through Dams (See Guide to the Books for Descriptions of
                                Contents)
------------------------------------------------------------------------
                                                                 Price/
                                                                book [In
                                                                dollars]
------------------------------------------------------------------------
GENERAL OVERVIEW, DENTAL-HEALTH ISSUES
  DAMS Information Booklet (part of the information packet)..      $4.00
  DAMS Information Packet (includes DAMS booklet, list of           7.00
   practitioners, etc.)......................................
  Uninformed Consent: the Hidden Dangers in Dental Care, by        17.00
   Hal Huggins, DDS & Levy, T................................
  Whole Body Dentistry, the Missing Piece to Better Health by      21.00
   Mark Breiner, DDS.........................................
  Tooth Truth, by Frank Jerome, DDS..........................      22.00
  The Key to Ultimate Health, by Richard Hansen, DMD and           22.00
   Ellen Brown, JD...........................................
  Elements of Danger, the Hazards of Modern Dentistry by           16.00
   Morton Walker, DPM........................................
  Mercury Free, by James E. Hardy, DDS.......................      19.00
  Dentistry Without Mercury, by Sa am Ziff, Michael Ziff, DDS       8.00
  Solving the Puzzle of Mystery Syndromes (with patient             7.00
   stories!) by Mary Davis...................................

SAFE REMOVAL OF MERCURY AMALGAM FILLINGS and HEAVY METAL
 DETOXIFICATION

  A Guide for the Patient (Specific detox protocols,               15.00
   including IV-C) by Queen & Queen..........................
  Standards of Care for Amalgam Removal, by Paul J. Pavlik,        15.00
   DMD.......................................................
  Dental Mercury Detox--by Ziff, Ziff & Hanson...............       8.00
  Detoxification by Hal Huggins, DDS, MS.....................      15.00
  Protocol for Amalgam Removal and Dental Revisions by Hal         18.00
   Huggins, DDS, MS..........................................

ROOT CANALS
  Root Canals, the Good, the Bad and the Ugly, by Gary              2.00
   Strong, DDS...............................................
  CAVITATIONS Chronic Pain & Jaw Bone Cavitation, by Gary           2.00
   Strong, DDS...............................................
  Beyond Amalgam, the Hidden Hazard of Jawbone Cavitations by      15.00
   Susan Stockton............................................

SCIENTIFIC SUMMARIES:
  Infertility and Birth Defects (also, auto-immune effects)        17.00
   by Sam Ziff & M. Ziff, DDS................................
  The Missing Link: Heart Disease as it Relates to Mercury,        14.00
   by Ziff & Ziff............................................
  Toxic Metal Syndrome (links to mental illness) by H.R. by        17.00
   H.R. Casdorph & M Walker..................................

HEALTH RESOURCES Winning the War against Asthma & Allergies,       20.00
 EW Cutler, DC
  Fluoride, the Aging Factor by John Yiamouyiannis, Ph.D.....      17.00
  What Your Doctor May Not Tell You About Menopause, by John      16.00
   R. Lee, M.D...............................................
------------------------------------------------------------------------
DAMS Memberships-quarterly newsletter. $25/year, $15 for low income
  Contributions to DAMS are tax deductible. Above prices including
  shipping at book rate. Add $1 per book for 1st class shipping Subtotal
  and $2 per book for priority shipping (call for quantity shipping
  rates). For Canadian orders, please add 1.00 per book. Send check or
  money order or credit card information with this form to: TOTAL DAMS,
  Inc. P.O. Box 7249 Minneapolis, MN 55407-0249. Please make checks or
  money order payable to: DAMS, Inc. You may also call to check on
  availability of titles and to order by credit card by calling (800)
  311-6265. For general questions, please call (612) 721-1144.

                               __________
                                           STAR Foundation,
                                   East Hampton, NY, June 20, 2001.
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
Re: Environmental Carcinogens on Long Island, NY

    These comments are submitted on behalf of STAR, Standing for Truth 
About Radiation, a grassroots organization with 4,000 members concerned 
about the toxic effects of nuclear radiation. We promote public 
awareness, medical and scientific investigation, institutional 
accountability, independent oversight, and responsible public health 
and environmental policies. STAR actively promotes' alternative and 
renewable energy technologies, as the available solution to nuclear 
generated power.
    Rising cancer rates oh Long Island are a great public concern. 
Efforts to look for a cure to cancer are, laudable, but as a society, 
we must also be looking to identify and minimize the man-made causes. 
On Long Island, there are numerous issues of concern. Pesticide 
contamination and industrial solvents have polluted large areas of 
groundwater around the island. There are old, dirty power plants that 
are ``grandfathered'' from the Clean Air Act that desperately need to 
be replaced our up-graded. These issues deserve serious attention.
    However, when looking at the cancer risks to the public, the most 
widely ignored issue has been man-made radiation. Primarily, this has 
resulted because the atomic program was a creation of the Federal 
Government. The Federal Government promoted ``Atoms for Peace'' and 
widely subsidized and promoted the inception of nuclear power. 
Therefore, the issue has escaped objective, inclusive and transparent 
analysis and public discourse. It is well settled that radiation causes 
cancer, the debate is over at what level of exposure do cells start to 
mutate. Radiation protection standards have been changed seven times 
since their inception. However, as a society, we have been slow to come 
to terms with the true costs associated with the atomic age. It was not 
until last year, that a White House draft report linked 14 Department 
of Energy (DOE) sites with increased rates of a variety of cancers and 
other occupational illnesses. This is highly significant because it is 
the first time that our government has acknowledged that people got 
cancer from radiation exposure at Department of Energy facilities. 
Indeed, after fifty years of disputing the fact, the Federal Government 
is now recognizing ``credible evidence of increased risks due to 
ionizing radiation exposure and chemical and physical hazards'' at DOE 
facilities.
    As a Nation, we must objectively analyze the public health 
consequences of man-made radiation from nuclear reactors.

                     I. REACTOR EMISSIONS & HEALTH

    Nuclear power reactors have been producing electricity since the 
first unit began operations in 1957. Currently, 103 reactors are 
operating in the U.S., producing about 20 percent of the nation's 
electricity and about two-thirds of Americans live within 100 miles of 
at least one nuclear reactor with approximately 42 million people 
living downwind from commercial reactor.
    Startup of new reactors and increased use of existing ones have 
caused the net generation of electricity from reactors to nearly triple 
(248 million to 727 million gigawatt hours) from 1980 to 1999. 
Moreover, about half (51) of the reactors now licensed have been 
operating for at least 24 years; Big Rock Point, in northern Michigan, 
had the longest life span (34 years) before closing. Present trends 
suggest that use of nuclear power reactors may proliferate in the 
future. The U.S. Nuclear Regulatory Commission has received 
applications to extend the licenses of 43 reactors from 40 to 60 years. 
In addition, the Nuclear Energy Institute announced a goal of 50 new 
nuclear reactors at its annual meeting in May 2001.
    Rising use of aging nuclear reactors present health & safety issues 
that needs to be addressed:
    1. Do routine emissions of radioactivity into the air that are 
inhaled and ingested, result in increased disease risk?
    2. Does the buildup of nuclear waste from reactor operations pose a 
threat to the health of local residents?
    Because radioactivity can cause damage to the human immune, 
genetic, and hormonal systems, an accurate assessment of risk to the 
public is warranted. However, current regulatory policies do not 
include any such assessment. The U.S. Nuclear Regulatory Commission has 
approved the first five applications for reactor license extension, 
with no consideration of disease rates among the local population.

                 II. NUCLEAR POWER REACTORS AND HEALTH

    Only one national study has been done on disease rates near nuclear 
power plants. In 1990, at the insistence of Senator Edward M. Kennedy, 
the National Cancer Institute published data on cancer near nuclear 
plants. While the study concluded that there was no connection between 
radioactive emissions and cancer deaths, rates near many reactors rose 
after reactor startup. Since 1990, the Federal Government has 
undertaken no health studies of disease rates near nuclear power 
plants.
    However, the non-profit Radiation and Public Health Project (RPHP) 
has undertaken the first-ever study that measures radioactivity in the 
bodies of persons living near nuclear power reactors. In 1996, RPHP 
launched the Tooth Fairy Project, which uses the same methodology of 
calculating levels of Strontium-90 in baby teeth employed in the St. 
Louis study during the 1 950's and 1960's.
    Sr-90 is just one marker for the 100-200 radioactive chemicals that 
are released in nuclear reactor operations, and it is a critical one. 
Like calcium, Sr-90 attaches to the bone and teeth when it enters the 
body, where it remains for many years due to its slow rate of decay 
(half life of 28.7 years). It kills and impairs bone cells, and 
penetrates the bone marrow, which is where the red blood cells critical 
to immune function are formed. Of all man-made radioactive isotopes, 
Sr-90 was the one that caused the greatest health concern during the 
atmospheric bomb test years in the 1 950's and 1960's.
    To date, RPHP has collected over 3000 baby teeth, mostly from areas 
near reactors in California, Connecticut, Florida, New Jersey, New 
York, and Pennsylvania. Strontium-90 concentrations have been measured 
in nearly half (1463) of these teeth that have been tested by an 
independent laboratory.
    The average current concentration of Sr-90 is similar to that in 
St. Louis in 1956, in the midst of the period of atmospheric nuclear 
weapons testing. Results of the Tooth Fairy Project have been published 
in three peer-reviewed medical journals. (27-29)
    The largest number of teeth (563) have been measured for residents 
of Suffolk County New York. Results show that the average level of Sr-
90 has steadily increased 40 percent from the early 1 980's to the mid-
1990's. Because above-ground bomb testing ceased in the early 1960's, 
and old bomb fallout is decaying steadily, this trend indicates that a 
current source of radioactive emissions is contributing to the buildup 
of Sr-90 in teeth. This source can only be nuclear reactors.


----------------------------------------------------------------------------------------------------------------
                    Year of Birth                        No. of Teeth         Avg. Sr-90+       Percent Change
----------------------------------------------------------------------------------------------------------------
1981-84.............................................                 38                1.10   ..................
1985-88.............................................                157                1.38   ..................
1989-92.............................................                258                1.41   ..................
1993-96.............................................                 45                1.54               +40.0
----------------------------------------------------------------------------------------------------------------
+Average picocuries of Strontium-90 per gram of calcium in baby teeth at birth.

    In the same time period, cancer diagnosed in Suffolk County 
children less than 10 years old steadily rose a nearly identical 49 
percent. The data supports the theory that exposure to radioactive 
emissions from nuclear reactors increases the risk of cancer, 
especially in young persons.
    Children are not the only humans affected by the radiation-cancer 
connection. However, since the rapidly developing fetus and infant are 
most sensitive to toxic exposures to radiation and other chemicals, 
immediate adverse effects are most likely to occur. A latency period of 
up to several decades between exposure and manifestation of cancer may 
be necessary in adults.


----------------------------------------------------------------------------------------------------------------
                                    Age 0-9 Cancer                         Cases per 100,000
             Period                      Cases             Avg. Pop.             Pop.           Percent Change
----------------------------------------------------------------------------------------------------------------
1981-84.........................                 92             182,441               12.61   ..................
1985-89.........................                115             182,463               15.76   ..................
1989-92.........................                129             185,050               17.43   ..................
1993-96.........................                146             194,498               18.77               +48.9
----------------------------------------------------------------------------------------------------------------

       III. LONG ISLAND--CHILDHOOD CANCER IN HIGH-RADIATION AREA

    In the late 1990's, anecdotal news of an unusually high number of 
cases of Rhabdomyosarcoma in northwestern Suffolk County children began 
to surface. The usually rare soft tissue cancer was discovered in 23 
children living in a small area. Parental concerns of victims prompted 
the Suffolk legislature to authorize a RMS Task Force in the fall of 
2000 to investigate the extent and cause of the outbreak.
    While the cause(s) of rhabdomyosarcoma are generally unknown, 
radiation exposure has been identified as a risk factor. Over one-
quarter of laboratory mice who had Sr-90 rubbed on their skin were 
later diagnosed with rhabdomyosarcoma or a related cancer and pregnant 
women who receive a pelvic X-ray are twice as likely to bear a child 
who will be diagnosed with the disease. The RPHP Baby Teeth Study has 
collected 57 teeth from the area of Suffolk County in which most 
children with rhabdomyosarcoma live. The average concentration of Sr-90 
in teeth is the highest in Suffolk County, at 1.48 picocuries of Sr-90 
per gram of calcium. Teeth in other areas, such as the north and south 
forks of Long Island and the middle of Suffolk County have barely half 
that amount. RPHP is now conducting a case-control study, in which it 
tests teeth from children with rhabdomyosarcoma to further establish 
the link between the disease and environmental radiation. However, this 
relationship deserves further study.

         IV. CLOSING REACTORS--EIGHT U.S. NUCLEAR POWER PLANTS

    When nuclear power reactors cease operations, there is an immediate 
removal from the diet of all radioactive products that decay quickly, 
and a more gradual removal of those that decay slowly. The reduction 
should be greatest in nearby areas downwind of closed reactors; the 
majority of airborne emissions are propelled in the downwind direction, 
where radioactive gases and particles can be inhaled and are introduced 
into the diet via precipitation. Since 1987, eight nuclear power plants 
have closed, leaving at least a 70-mile-radius with no operating 
reactors. In downwind counties within 40 miles of all eight of these, 
the death rate among infants under 1 year of age plunged in the first 2 
years after closing. RPHP is collecting baby teeth near one of these 
areas (Rancho Seco, near Sacramento CA) to establish that the 
improvement in health is accompanied by a declining level of in-body 
radioactivity.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Infant Death               Live Births               Deaths/1000
                       Reactor, Closed                        ------------------------------------------------------------------------------   Percent
                                                                  Before       After        Before       After        Before       After        Change
--------------------------------------------------------------------------------------------------------------------------------------------------------
LaCrosse WI, 1987............................................           36           30         3507         3452        10.27         8.69        -15.4
Rancho Seco CA, 1989.........................................          418          390        44500        49414         9.39         7.89        -16.0
Ft. St. Vram CO, 1989........................................           83           72         9725         9977         8.53         7.22        -15.4
Trojan OR, 1992..............................................          253          204        30320        29799         8.34         6.85        -17.9
Big Rock Pt. MI, 1997........................................           25           6*         2922        1529*         8.56        3.92*        -54.2
Me. Yankee ME, 1997..........................................           19          10*         3841        2201*         4.95        4,54*         -8.3
Pilgrim MA, 1986.............................................           97           76        12956        13412         7.49         5.67        -24.3
Millstone CT, 1995...........................................          166          130        22261        21093         7.46         6.16        -17.4
TOTAL 8 AREAS................................................         1097          918       130032       130877         8.44         7.01        -16.9
U.S. AVG 2-YR CH, 1986-98....................................  ...........  ...........  ...........  ...........  ...........  ...........         -6.4
--------------------------------------------------------------------------------------------------------------------------------------------------------
*Only 1998 data are available for post-shutdown periods for Big Rock Point and Maine Yankee.

                         V. POLICY IMPLICATIONS

    Since the end of the cold war a decade ago, nuclear weapons are no 
longer manufactured or tested. However, the production of electricity 
from American nuclear reactors has reached an all-time high, and some 
utility companies are considering a large-scale expansion of the 
industry. These developments indicate that the protection of humans 
from the potentially harmful effects of exposure to radioactive 
emissions in the environment will be critical. To that end, we urge 
Congress to take the following actions:
    1. Conduct hearings examining the current knowledge on the impact 
of environmental radiation on public health, including cancer.
    2. Establish and support an independent medical and scientific 
commission to evaluate the impact of environmental radiation on public 
health, including cancer.
    3. Institute a systematic program measuring radioactivity levels in 
bodies of persons living near to and distant from U.S. nuclear power 
reactors.
    4. Conduct or support routine, periodic studies tracking disease 
patterns and trends among persons living near to and distant from 
nuclear power reactors. Studies should identify infants and children 
separately from adults, and should focus on cancer.
    5. Direct policymakers and regulators to include consideration of 
disease patterns and trends within the local population when making 
decisions to extend licenses of existing nuclear reactors.
    6. Direct policymakers and regulators to include consideration of 
potential health effects when making decisions to grant operating 
licenses for new nuclear reactors.
    7. Require that in-body radioactivity levels be evaluated in all 
federally funded programs that investigate possible causes of elevated 
cancer rates in the U.S.
    In sum, it is irresponsible for the Federal Government to continue 
to ignore the long-term health consequences of nuclear power. Available 
information indicates that nuclear power increases regional cancer 
rates and the long-term ramifications must be afforded much greater 
attention. Thank you for your attention to this important issue.
            Sincerely,
                                           Scott M. Cullen,
                                                           Counsel.
                               __________
               Brentwood/Bay Shore Breast Cancer Coalition,
                                      Brentwood, NY, June 24, 2001.
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
Ref: Statement for Hearing at Adelphi University, Garden City, Long 
Island, June 11, 2001

    Honored Committee Members: As a rule, prevention is the 1st 
principle of public health, but this is not so in the case of Cancer. 
Information of known and possible environmental causes is not brought 
to bear on real world practices. This information is not available to 
the public in a systematic way to enable people to make daily decisions 
protective of their health and that of their families. Yet, reducing 
exposure to toxins is an important Pt step to reducing cancer. This can 
be done. I offer the example of reducing lead levels in children's 
blood. It begins with testing all pre-schooler's blood for lead levels. 
When blood levels are high, we go back to the home and community to 
trace the source or sources of the lead. There is then remediation to 
remove the source of exposure. The child's blood is chelated (cleansed) 
of the lead at the same time. As a society we have removed lead from 
gasoline and track it to other sources for removal. We should follow 
the same approach for exposure to toxins that are known or suspected of 
causing cancer. Animal studies and weight of evidence are enough for me 
to exercise the precautionary principle. The key to the success of the 
lead program is its specificity. It identifies the danger for the child 
at risk, before serious health damage and points the way to medical and 
environmental correction.
    Routine testing to measure current levels of toxic body burdens 
must be funded. A testing program would help to recognize and pinpoint 
possible causes. Currently, one cause of toxin exposure is by nursing 
mothers who unknowingly pass their stored toxins to their infants via 
breast milk. This testing would allow a woman to take action, to have 
the opportunity to cleanse their bodies before beginning to nurse. 
Surely her infant is the last person she would want to expose to 
toxins. This is her dearest one, at a most vulnerable time of life. 
Testing can prevent this from ever happening.
    This brings us to the question of risk evaluation. The current 
``Acceptable Risk'' method that is based on a young healthy 70-kilogram 
male and 1 chemical, and 1 route of exposure at a time is not health 
protective. It does not deal with especially vulnerable people such as 
children or those with illness, or impaired immune systems (such as 
prior cancer treatment). It does not consider exposure to a variety of 
toxins. One size risk doesn't fit all. We need a ``reducing risk'' 
regulatory policy, which continually reduces the levels of exposure. As 
in the case of lead, we need to follow the toxins to their sources and 
use this information to justify cleanups and changes in industrial 
practices. There should be financial incentives for transitions to non-
toxic methods. Models, education and technical advise for non-toxic 
alternatives should be funded.
    Mounting a scientific study for cancer can take years. The 
asthmatic child and parents can tell you that right now there is 
something in that school room that can be measured, that triggers that 
child's shortness of breath, that may in time be the cause of cancer of 
many people. Now it seems like our children are as canaries in the 
mine, pointing the problem out but at a terrible cost! We must react 
and seek out the cause of their asthmatic symptom and remove it.
    We have to deal with poisons whose health effects are not as simple 
as dose and immediate death. These impact immune and hormonal systems, 
but the cancer result appears after long periods of time, making it 
very difficult to show direct cause and effect. Teaming up an open 
system of access to this information, along with grassroots 
participation, can help account for toxic effects on health and the 
environment. The individual then making an informed decision to protect 
health should expect the same of the government. We all have a stake in 
promoting public health. We need the process to do this together. Fund 
putting the work of science out in the field to identify contaminants 
and their concentrations. Make this the first line of defense for the 
prevention of disease.
            Sincerely,
                                                 Elsa Ford,
                                                   BBBCC President.
                               __________
               Statement of Carol S. Kopf, Levittown, NY

               WATER FLUORIDE CHEMICALS LINKED TO CANCER

    Arsenic levels high enough to pose a cancer risk are detected in 
drinking water treated with, tooth decay preventing, fluoride 
chemicals, which also contain trace amounts of other contaminants such 
as lead, barium and beryllium (1). Over 60 percent of U.S. communities 
purposely add impure fluoride into residents drinking water and 
virtually 100 percent of us consume foods and beverages made with this 
tainted water.
    No discussion about the environment and health can be complete 
without looking at the science behind water fluoridation and human 
health--even at the low levels of fluoride added to U.S. water 
supplies. While environmentalists fight to get legislators to clean up 
toxic chemicals accidentally, or without forethought, injected into the 
environment, water engineers across the country are purposely adding 
cancer-causing industrial waste products into our nation's water 
supply.
    According to the National Sanitation Foundation (NSF), the only 
three chemicals certified for fluoridation are: Hydrofluosilicic or 
Fluosilicic acid, Sodium Fluoride, and Sodium Silicofluoride . . . the 
most common contaminant detected in these products is Arsenic,'' 
reports NSF. ``The other significant contaminant found is Lead,'' they 
report\1\ ``All of the fluoride chemicals used in the U.S. for water 
fluoridation, sodium fluoride, sodium fluorosilicate, and fluorosilicic 
acid, are byproducts of the phosphate fertilizer industry'' wrote Tom 
Reeves, National Fluoridation Engineer, U.S. Centers for Disease 
Control CDC). ``Arsenic . . . had an average of 0.43 parts per billion 
(ppb) in the drinking water attributable to the fluoride chemical,'' he 
reports.\2\
---------------------------------------------------------------------------
    \1\ http://www. fluoridealert.org/NSF-letter.pdf
    \2\ http://www.fluoridealert.org/ifin-230.htm
---------------------------------------------------------------------------
    Also, CDC's ``Water Fluoridation A Manual for Engineers and 
Technicians,'' (Reprinted 1991) reads, ``sodium silicofluoride is 
widely used as a chemical for water fluoridation. As with most 
silicofluorides, it is generally obtained as a by product from the 
manufacture of phosphorus fertilizers.'' (page 15)
    But dentists don't seem to know or admit this. However, legislators 
trust them. The media cites them as fluoride experts. But dentists are 
not experts on toxicology. And, too often, they spend more time 
denigrating those opposed to fluoridation rather than reading up on the 
science behind fluoridation.
    In a newspaper interview, American Dental Association fluoridation 
spokesman, Michael Easley, DDS, who promotes fluoridation via his 
National Center for Fluoridation Policy and Research website at the 
University of Buffalo, NY, was quoted as saying,``. . . there are the 
contrived arguments that claim fluoride is a chemical pollutant, a 
toxic byproduct . . . There is no scientific basis for any of these 
claims.''\3\
---------------------------------------------------------------------------
    \3\ http://www.buffalo.edu/reporter/vol30/vol30n17/n5.html
---------------------------------------------------------------------------
    The American Water Works Association is worried about arsenic-
contaminated fluoride chemicals. If arsenic's maximum contaminant level 
is reduced to 5 ppb, ``90 percent of the arsenic that would be 
contributed by treatment chemicals is attributable to fluoride 
addition,'' according to their journal, ``Opflow.''
    Arsenic in drinking water causes bladder, lung and skin cancer, and 
may cause kidney and liver cancer. Lead poisoning can cause learning 
disabilities, behavioral problems, and at high levels, seizures, coma 
and even death.
    Some experts say safe levels for arsenic or lead don't exist.
    Arsenic levels as high as 1.66 ppb have been found in 
hydrofluosilicic treated drinking water (1), which, according to the 
National Academy of Sciences, is a cancer risk.\4\.
---------------------------------------------------------------------------
    \4\ http://www.nrdc.org/water/drinking/arsenic/chap1.asp
---------------------------------------------------------------------------
    Also studies show that children who live in silicofluoridated 
communities have higher blood lead levels than children who live in 
sodium-or non-fluoridated communities.\5\
---------------------------------------------------------------------------
    \5\ http://www.dartmouth.edu/~news/releases/marol/fluoride.html
---------------------------------------------------------------------------
    Fluoridation began with the discovery that residents who drank and 
ate foods irrigated with natural calcium fluoride had lower rates of 
tooth decay but teeth that were yellow, brown and chipping (dental 
fluorosis). Early researchers erroneously assumed that, since fluoride 
discolored teeth, fluoride must also be the reason the teeth were less 
decayed. They forgot to factor in the calcium. The U.S. is the most 
artificially fluoridated country in the world (water, food, air and 
dental products). Dental fluorosis is growing in our child population. 
Yet, tooth decay is rampant in our poor and minority populations, some 
of whom also display fluoride overdose symptoms (dental fluorosis) and 
who, most often, live in fluoridated communities.
    Fluoridation is especially a burden to the poor who can't afford to 
buy bottled water and who are harmed the most by fluoride chemicals, 
studies show. Calcium is the antidote to fluoride poisoning because it 
binds with the fluoride to carry it safely out of the body.
    Less fluoride is available to the body when one drinks calcium 
fluoride. The fluoride contained in the phosphate fertilizer industry's 
waste products usually dissolves partially, leaving free fluorine to 
bind with the calcium the body needs then carries it out of the body.
    The best solution is to stop fluoridating U.S. drinking water. 
Fluoride is neither a nutrient nor essential to health and is 
ubiquitous in the food supply. Unlike essential vitamins and minerals, 
ingesting slightly above recommended doses of fluoride causes serious 
adverse health effects including death. The best way to have great 
teeth is to eat properly--something our poor and immigrant populations 
have trouble doing. Nourish the child and their teeth will prosper and 
the only side effects will be healthier children.
                               __________
   Statement of Lorraine Pace, Founder of the Breast Cancer Mapping 
           Project and Co-President, Breast Cancer Help, Inc.

    My name is Lorraine Pace. I am a breast cancer survivor, activist 
and founder of the breast cancer mapping project. I have resided in the 
same zip code of West Islip for 45 years. I am an active member in the 
following organizations:
    <bullet> Division for Women's Advisory Council
    <bullet> Charter Member of the Suffolk County Breast Health 
Partnership
    <bullet> Cornell Ad Hoc Advisory Board
    <bullet> National Breast Cancer Coalition
    <bullet> Vice President of Promote Long Island
    <bullet> Environmental Committee of the Long Island Association
    <bullet> New York State Breast & Cervical Cancer Advisory Board
    <bullet> Department of Health Cancer Surveillance and Early 
Detection Board
    <bullet> NYS Breast Cancer Network
    I was also on the following peer review boards:
    <bullet> Department of Defense
    <bullet> Health Research Science Board
    <bullet> For the Breast and Prostate Cancer Detection, Treatment 
and Research Act funded by the cigarette tax in California
    The first 50 years of my life were filled with family, a career in 
real estate, and a return to college where I earned a bachelor and 
masters degree. I am a mother of three, but nothing in those years 
prepared me for my 50th year in 1992--the year I discovered that the 
lump I had been feeling in my left breast for many years was what I had 
feared all along--it was cancer and it spread to my lymph nodes. That 
is when, I, Lorraine Pace, until then a typical suburban woman, became 
an activist. I never smoked in my life and as far as drinking, I am an 
occasional social drinker. I was not on hormone replacement therapy and 
on birth control pills for only 2 months. I had all my children, John, 
Lisa and Greg before the age of 30. I was in excellent health with good 
eating habits and exercised regularly. Neither grandmother nor my 
mother had breast cancer. I did everything that I was supposed to do 
for early detection, including having regular mammography views since 
my early 30's. I knew there had to be another reason why I developed 
breast cancer.
    I went to New York City to a breast cancer specialist. I went to 
him every 6 months for many years, during which time I complained to 
him about this change I felt in an old scar located in my left breast.
    I was told repeatedly, ``Not to worry, it was only scar tissue''; 
and since nothing showed up in all my mammography's, I was told to come 
back in 6 months which I did. A month before my 50th birthday my 
radiologist called to tell me that I would have to come back for more 
views since they saw something suspicious in both breasts. I figured 
that the lump that had been bothering me for years had finally showed 
up in my mammography's. I went back to my radiologist and had more 
views taken. I was then told to go for surgery on both sides of my 
breasts. They discovered calcifications in the right breast and a 
suspicious lump in the left breast.
    After surgery the results of the tissue samples from both breasts 
came back benign and I was told again not to worry. With stitches still 
on both breasts, I went on to celebrate my 50th birthday. After all, I 
had a lot to celebrate. I returned to my doctor to have my bandages and 
stitches removed, but noticed the lump on my left side, which was in a 
6 o'clock position was still there. Since I was told that my breasts 
were fine, I did not worry about the lump.
    Eight months after my surgery when I was on an airplane I started 
to talk to the person next to me. He happened to be a mortician from 
Suffolk County. During our conversation he informed me of all the young 
women who lived on the east end of Long Island who were brought to his 
funeral home who had died of breast cancer.
    The very next day I went to see my breast cancer surgeon and asked 
him to remove this so-called scar tissue. He agreed to remove it and 
did a frozen section after many more mammography views. Within a few 
minutes he came back with the results; yes, it was what I feared--
cancer and I would need additional surgery and an axially dissection. 
He didn't seem concerned about the results of the dissection, but 
neither was he concerned about the lump that I felt for many years. He 
assured me that the lump, though malignant, probably had not spread 
cancer to my lymph nodes. I received a call a week later to find out 
that it had indeed spread to 3 of my lymph nodes. This is what spurred 
me to become an activist, since I did not want other women to 
experience what I did.
    Mammography screening is the best tool we have presently for the 
early detection and diagnosis of breast cancer. But it is not always 
effective for young women or women with dense breasts. We must 
therefore find a more precise and accurate method of screening women 
for breast disease. After all, we have the technology to put a man on 
the moon, surely we can find a better way to diagnose breast cancer. As 
it is now, by the time a tumor is found in the breast, it has been 
there for approximately 8-10 years. After all we have a blood test for 
prostate why can't we have one for breast cancer?
    Awhile after I was diagnosed with breast cancer, it struck me that 
20 other women I knew had also been diagnosed. After a great deal of 
thought, the one thing I could see that we had in common was that most 
of us lived on dead-end streets. I started to think about what this 
could mean.
    Our community was lovely fresh air water views. The only thing that 
was odd about this environment was that occasionally my tap water was 
rusty. I began to wonder, if possibly, the metals that made the water 
rusty could have anything to do with the breast cancer rate in my 
neighborhood and the rest of Long Island. I read that the Center for 
Disease Control was to come to Long Island. I testified before them and 
showed my rusty water and asked them if there was any connection 
between my breast cancer and my rusty water. Newsday took a picture of 
me that appeared on the front page in the spring of 1992 titled, 
``Asking for Answers.'' Joan Swirsky of the New York Times wrote 
several articles after this article appeared. During this time I was 
undergoing chemotherapy and shortly after radiation. NJ Burkett of 
Channel 7 Eyewitness News did a series on breast cancer mapping and was 
awarded the Folio Award for his coverage.
    Once I began to suspect the culprit might be the water, I looked 
around at other communities and at other environmental factors that 
could be involved. I found that New York City has a much lower rate of 
breast cancer than Long Island. Yet they are so close to us-just a few 
miles. Is that because they get their water from upstate reservoirs? Or 
they don't have lawns that they obsessively fertilize-dumping every 
kind of killer chemicals into the underground aquifer that is our sole 
source of water? Or is it because their wires are buried underground 
instead of overhead like they are in parts of the suburbs?
    And it's not only the chemicals that are put on our lawns that are 
poisoning our water, but the chemicals put on our golf courses as well. 
Older industries are also to blame that have dumped hazardous chemicals 
into the ground for years.
    When there appeared to be no answers to my questions, I asked my 
oncologist, Dr. Michael Feinstein to help me prove a theory I had about 
dead-end water mains. My concern was that if you lived on a dead-end 
street the water did not circulate as well as if you lived in the 
middle of the block and you were exposed to more contaminants. He 
offered his help to see if this theory could be proved. On his days off 
we met with former Suffolk County Health Commissioner, Dr. Mary Hibberd 
and the head of the Suffolk County Water Authority, Michael LoGrande to 
develop a survey. After these initial meetings, I and my friend Pat 
approached our Congressman Tom Downey. He in turn sent us to Angie 
Carpenter for a quote on printing the survey. She in turn sent me to 
Ted Shiebler who worked in public relations at Good Samaritan. He then 
called Lou Grasso, editor of Suffolk Life Newspaper. Lou Grasso and 
Dave Wilmott, publisher of Suffolk Life contacted me and they in turn 
printed the survey on their front page and this is how the breast 
cancer mapping originated. Liz Tonis of Suffolk Life kept the community 
apprised of the results of the surveys with ongoing articles in Suffolk 
Life. My radiation oncologist, Dr. Allen G. Meek encouraged me to 
pursue the mapping project. With the help of Maria Diorio and many 
other volunteers from the neighborhood we put the responses from the 
survey on to a map. This was done from my dining room table every day 
for 18 months. The map showed clusters of breast cancer with definite 
patterns of concentration in certain areas. This data was then analyzed 
by Dr. Roger Grimson, a biostatistician from SUNY, Stony Brook. Without 
the help of the volunteers this couldn't have been accomplished. After 
the mapping was completed we received a 69 percent response from the 
community and that was due partially to efforts by people in the 
community such as Father Thomas Arnao of Our Lady of Lourdes Church in 
West Islip. He was the first priest to get involved in the breast 
cancer movement. He and other priests from the community encouraged 
their parishioners to complete the surveys.
    In 1992 I started the West Islip Breast Cancer coaltion. My 
husband, John Pace formed the corporation and 501(c) 3 pro bono. He 
also did the same for Breast Cancer Help, Inc. and for the Carol M. 
Baldwin Breast Cancer Research Fund. Meanwhile, the idea of mapping has 
caught on across Long Island, New York State, nationwide and abroad. I 
received calls from women in Huntington, Great Neck, Babylon, 
Southampton, Brookhaven, etc. asking for assistance on how to do 
mapping in their towns. New York State Senators Owen Johnson and Caesar 
Trunzo gave a grant to the West Islip Breast Cancer Coaltion to study 
the map. The State legislature should be applauded for passing 
legislation requiring cancer mapping for all of New York State. In fact 
the NYS Department of Health was awarded the ``Gold'' Certification 
from North American Association of Central Cancer Registries due to 
Governor George Pataki's 4 million dollar increase in funding.
    After leaving the West Islip Breast Cancer Coalition I started 
Breast Cancer Help, Inc. with Father Thomas Arnao, who is now co-
president of Breast Cancer Help, Inc. We and our members are proud of 
our many accomplishments, some of which are listed below:
    <bullet> Our Vice President spearheaded the national campaign to 
create the first breast cancer awareness stamp. My daughter-in-law 
painted a pink twisted ribbon as a possible example of this stamp. Our 
group also supported the creation of the breast cancer research stamp.
    <bullet> Originating the breast cancer mapping project and helping 
other coalitions to do mapping locally, nationally and abroad.
    <bullet> Initiating the move to establish the toll-free Cancer 
Helpline at Stony Brook Hospital.
    <bullet> Leading the effort to organize and establish the annual 
``Walk for Beauty'' in Stony Brook.
    <bullet> Supported the petition that resulted in President 
Clinton's commitment to a National Action Plan to fight breast cancer 
and a $250 million increase in Federal funding for breast cancer 
research.
    <bullet> Initiating the change in Federal regulations that provides 
insurance coverage for stem-cell infusion therapy for Federal employees 
and their spouses who have breast cancer.
    <bullet> Support the passage of the NYS law that ends the practice 
of drive-through mastectomies.
    <bullet> Initiating the move to update and expand the NYS Breast 
Cancer Registry.
    <bullet> Leading the move to create the check-off for breast cancer 
research and education on the NYS income tax form and supported the 
subsequent legislation that authorizes the State to provide a dollar-
for-dollar match for each contribution made to breast cancer research 
and education.
    <bullet> Helping to launch the Long Island Breast Cancer Study 
Project.
    <bullet> Advocating the establishment of the NYS Pesticide 
Registry.
    <bullet> Testifying at local, State and Federal hearings on the 
environment and the possible link to breast cancer
    <bullet> Raising breast cancer awareness by generating local, 
regional and national media coverage as well as by contributing to 
public service programs, educational symposiums and fund-raisers
    <bullet> Supported the Neighborhood Notification Bill
    <bullet> Charter member of the Suffolk County Breast Health 
Partnership
    <bullet> Member of the National Breast Cancer Coalition o Initiated 
the Carol M. Baldwin Breast Cancer Research Fund at Stony Brook
    <bullet> Keynote speaker at the first breast cancer rally in 
Suffolk County on the steps of the H. Lee Dennison Building in 
Hauppauge. Suffolk County Executive Robert Gafthey supported this 
rally.
    <bullet> Supporting passage of the NYS Adoption Bill that allows 
breast cancer patients to adopt children.
    In conclusion one of the most important things that need to be done 
is to have a unified national cancer registry that includes residential 
history and occupational history. This will give the scientists a 
better way to track cancer for a possible link between the environment 
and breast cancer. Residential history is important because if a woman 
who is a lifelong resident of New York moves to Florida and is shortly 
thereafter diagnosed with breast cancer she is on the Florida cancer 
registry as having been diagnosed in Florida. This is misleading; in 
reality she developed the tumor in New York. Occupational history 
should also be included in the cancer registry. For instance if a 
person is exposed to chemicals in their workplace, and is then 
diagnosed with cancer, could the diagnosis be work related?
    We need to have all the hazardous waste sites cleaned up, and the 
people of Long Island should use pesticides that kill insects without 
harming the environment. A population-based study should be done that 
studies bio-markers such as the blood to determine what the possible 
environmental cause(s) of cancer on Long Island are. We also need the 
most advanced technology in our hospitals for the treatment and 
diagnosis of cancer patients on Long Island. We need to find out why so 
many young women are being diagnosed with breast cancer on the East End 
of Long Island where there is a high incidence of this disease. We owe 
it to the future generations to find the cause(s) and the cure of 
breast cancer.
Statement by Research Associates Jay M. Gould, Ph.D., Director; Ernest 
   J. Sternglass, Ph.D., Chief Scientist; Jerry Brown, Ph.D.; Joseph 
 Mangano, M.P.H., M.B.A.; William McDonnell, M.A.; Marsha Marks, A.C. 
S.W., L.C.S.W.; Janette Sherman, M.D. and William Reid, M.D., Radiation 
                and Public Health Project, New York, NY

                            I. INTRODUCTION

    The Radiation and Public Health Project (RPHP) is an independent, 
non-profit research and educational organization. The focus of RPHP's 
work is to assess the health effects of exposures to radioactive 
chemicals released into the environment by nuclear weapons tests and 
nuclear reactor operations. Founded in 1985, RPHP maintains a staff of 
professionals from the fields of radiation physics, toxicology, 
epidemiology, and statistics. Its members have published numerous 
medical journal articles and books on the radiation health issue (see 
Appendix).
    RPHP researchers understand that incidence of certain diseases and 
conditions with potential environmental causes have risen in the U.S. 
in the 1980's and 1990's. Infants and children may be hardest-hit, 
suffering from increased rates of cancer, asthma, underweight births, 
and ear infections. RPHP is attempting to document the contribution of 
environmental radiation to these growing problems.
    RPHP has documented substantial evidence linking environmental 
radioactivity with increased cancer risk. Perhaps the strongest 
evidence is the correlation of levels of radioactive Strontium-90 in 
baby teeth with risk of childhood cancer in Long Island. The following 
testimony outlines these findings and considers implications for public 
policy.

                II. NUCLEAR REACTOR EMISSIONS AND HEALTH

    Currently, 103 nuclear power reactors are operating in the U.S., 
producing about 20 percent of the nation's electricity.\1\ These 
reactors are located at 72 plants (sites) across the country. About 
two-thirds of Americans live within 100 miles of at least one nuclear 
reactor. Operating utilities have permanently closed a total of 22 
reactors. In addition, 128 reactors that were proposed by utilities to 
Federal regulators were later canceled before commencing operations.\2\
    Startup of new reactors and increased use of existing ones have 
caused the generation of electricity from reactors to nearly triple 
(248 million to 727 million gigawatthours) from 1980 to 1999. (1) 
Moreover, about half (51) of the reactors now licensed have been 
operating for at least 24 years; the now-closed Big Rock Point reactor 
in northern Michigan, had the longest life span of any U.S. reactor (34 
years).
    Present trends suggest that use of nuclear power reactors may 
proliferate in the future. The U.S. Nuclear Regulatory Commission has 
received applications to extend the licenses of 43 reactors from 40 to 
60 years. In addition, the Nuclear Energy Institute announced a goal of 
starting 50 new nuclear reactors at its annual meeting in May 2001.
    Increasing use of aging nuclear reactors present environmental 
health issues that need to be addressed, namely:
    1. Do operations of reactors, which routinely emit man made 
chemicals into the air that are inhaled and ingested in diet, result in 
increased disease risk, including cancer?
    2. Does the aging of reactors increase the chance of a serious 
accident?
    3. Does the buildup of nuclear waste from reactor operations pose a 
threat to the health of local residents?
    The focus of RPHP's work is primarily issue #1, health effects of 
routine emissions of radioactive chemicals into the environment.
    Because radioactivity can damage human health, an accurate 
assessment of risk to the public is warranted. However, current 
regulatory policies do not include any such assessment. The U.S. 
Nuclear Regulatory Commission has approved the first five applications 
for reactor license extension, with no consideration of disease rates, 
including cancer, in persons living closest to reactors.
    RPHP has investigated health effects of exposures to reactor 
emissions, and wishes to present a summary of findings to the Senate 
Committee on the Environment and Public Works, as it considers the 
issue of environmental health.

            III. ATOMIC BOMB TESTING--PRECURSOR TO REACTORS

    Nuclear reactors employ fission of uranium atoms to generate 
electricity. The fission process creates 100 to 200 radioactive 
chemicals not found in nature, which may damage the immune, genetic, 
and hormonal systems. These products include strontium, plutonium, 
iodine, and other carcinogenic isotopes. The only other source of these 
manmade chemicals is nuclear weapon explosions. Most fission products 
generated by reactors are contained as radioactive waste, but a 
fraction is emitted into the local air and water.
    The detonation of many atomic weapons above the ground (100 in the 
Nevada desert and 106 in the south Pacific) from 1946-62 represented 
the first time in history that Americans were exposed to fission 
products. The total output of these tests was equivalent to that of 
about 10,000 Hiroshima bombs, while Soviet tests in this period 
approximated another 30,000 Hiroshima bombs.\3\ Levels of radioactivity 
in the American diet rose sharply. Radioactive Strontium-90 reached an 
average concentration of 30.3 picocuries per liter in U.S. milk in May 
1964, compared to about 5 in 1957.\4\
    The 1963 Limited Test Ban Treaty prohibited atmospheric bomb tests 
by the United States, Soviet Union, and Great Britain. President John 
F. Kennedy made health effects of fallout, especially on children, a 
focus of a speech urging Senate ratification of the treaty:
    ``. . . the number of children and grandchildren with cancer in 
their bones, with leukemia in their blood, or with poison in their 
lungs might seem statistically small to some, in comparison with 
natural health hazards. But this is not a natural health hazard--and it 
is not a statistical issue. The loss of even one human life, or the 
malformation of even one baby--who may be born long after we are gone--
should be of concern to us all.''\5\
    The period of atmospheric weapons testing was marked by minimal or 
negative progress for several infant and child health measures. The 13 
percent drop in the death rate for children under 1 year from 1951-65 
was the slowest of the 20th century. Cancer diagnosed in children under 
age 20 rose 29 percent (and leukemia rose 41 percent) from the late 
1940's to the early 1960's in Connecticut, the only State that operated 
a cancer registry at that time.
    Recent public reports have acknowledged the harmful effects of 
making and testing atomic bombs:
    <bullet> The National Cancer Institute published a study estimating 
that radioactive iodine in the above-ground atomic bomb tests caused as 
many as 220,000 Americans to develop thyroid cancer.\6\
    <bullet> The Institute of Medicine documented elevated rates of 
death from prostate cancer, nasal cancer, and leukemia among 70,000 
soldiers exposed to bomb blast fallout in Nevada.\7\
    <bullet> The U.S. Department of Energy acknowledged that 600,000 
workers at 14 nuclear weapons plants suffered from excessively high 
rates of 22 types of cancer due to occupational exposures.\8\

                 IV. NUCLEAR POWER REACTORS AND HEALTH

    There has been a dearth of scientific, peer-reviewed studies 
evaluating disease rates near U.S. nuclear power plants. Only one 
national study has been done. In 1990, at the insistence of Senator 
Edward M. Kennedy, the National Cancer Institute published data on 
cancer near nuclear plants. While the study concluded that there was no 
connection between radioactive emissions and cancer deaths, rates near 
many reactors rose after reactor startup.\9\ Since 1990, no Federal 
agency, including the Environmental Protection Agency and Nuclear 
Regulatory Commission, has undertaken any studies of disease rates near 
nuclear power plants.
    The worst accident of any U.S. nuclear power reactor occurred at 
Three Mile Island PA in March 1979. Substantial amounts of radioactive 
gases and particles were released during the crisis, prompting the 
Pennsylvania Governor to advise that pregnant women, infants, and small 
children evacuate the 5-mile radius of the stricken reactor. Subsequent 
studies of persons residing within 7.5 miles of Three Mile Island 
showed that rates of leukemia, lymphoma, lung cancer, and colon cancer 
jumped between 25 and 60 percent in the 7 years after the accident.\10\
    Childhood cancer is generally believed to be one of the diseases 
most affected by radiation exposure. In the U.S., only two articles 
have documented elevated childhood cancer near nuclear power 
reactors.<SUP>11-12</SUP> By contrast, there are at least 11 articles 
on childhood cancer in areas near various power plants in the United 
Kingdom<SUP>13-23</SUP>, plus additional studies in other nations.
    The lack of health studies near American nuclear reactors is 
complemented by a lack of measurements of in-body levels of 
radioactivity for persons living near nuclear reactors. Government-
supported programs to measure Strontium-90 in St. Louis baby teeth\24\ 
and in New York City and San Francisco bones\25\ were terminated in 
1976 and 1982, respectively. Both primarily measured the effects of 
bomb test fallout rather than nuclear power reactors.

       V. EVIDENCE OF ADVERSE EFFECTS OF RADIATION FROM REACTORS

Long Island--Sr-90 and Childhood Cancer Increases Are Similar
    RPHP is attempting to address the shortage of information on 
radiation's health effects by documenting radioactivity levels in the 
human body and comparing them with cancer and other health trends.
    RPHP researchers have undertaken the first-ever study that measures 
radioactivity in the bodies of persons living near nuclear power 
reactors. In 1996, RPHP launched the Tooth Fairy Project, which uses 
the same methodology of calculating levels of Strontium-90 in baby 
teeth employed in St. Louis during the 1950's and 1960's. The chemical 
enters the baby teeth through the mother's diet during pregnancy and 
through the mother's bones.
    Sr-90 is just a marker for the 100-200 radioactive chemicals that 
are released in nuclear reactor operations, but it is a critical one. 
Like calcium, Sr-90 attaches to the bone and teeth when it enters the 
body, where it remains for many years due to its slow rate of decay 
(half life of 28.7 years). It kills and impairs bone cells, and 
penetrates the bone marrow, which is the red blood cells critical to 
immune function are formed, making it a risk factor for all cancers. Of 
all man-made radioactive chemicals, Sr-90 was the one that caused the 
greatest health concern during the atmospheric bomb test years in the 
1950's and 1960's. In 1956, Presidential candidate Adlai Stevenson 
remarked that Sr-90 was ``the most dreadful poison in the world.''\26\
    To date, RPHP has collected over 3000 baby teeth, mostly from areas 
near reactors in California, Connecticut, Florida, New Jersey, New 
York, and Pennsylvania. Strontium-90 concentrations have been measured 
in nearly half (1463) of these teeth by Radiation Environmental 
Management Systems (REMS) Inc., an independent laboratory in Waterloo 
Canada.
    The average current concentration of Sr-90 is similar to that in 
St. Louis in 1956, in the midst of the period of atmospheric nuclear 
weapons testing. Results of the Tooth Fairy Project have been published 
in three peer-reviewed medical journals.<SUP>27-29</SUP>
    The largest number of teeth (563) have been measured for residents 
of Suffolk County New York, site of the Brookhaven National Lab and 
surrounded by nearby reactors. Results show that the average level of 
Sr-90 has steadily increased 40.0 percent from the early 1980's to the 
mid-1990's. Because U.S. above-ground bomb testing ceased in the early 
1960's, and old bomb fallout is decaying steadily, this trend indicates 
that a current source of radioactive emissions is contributing to the 
buildup of Sr-90 in teeth. This source can only be nuclear reactors.


               Trends in Average Concentration of SR-90, Suffolk County, NY Baby Teeth, 1981-1996
----------------------------------------------------------------------------------------------------------------
                    Year of Birth                        No. of Teeth         Avg. Sr-90+       Percent Change
----------------------------------------------------------------------------------------------------------------
1981-84.............................................                 38                1.10   ..................
1985-88.............................................                157                1.38   ..................
1989-92.............................................                258                1.41   ..................
1993-96.............................................                 45                1.54               +40.0
----------------------------------------------------------------------------------------------------------------
+Average picocuries of Strontium-90 per gram of calcium in baby teeth at birth.

    In the same time period, cancer diagnosed in Suffolk County 
children less than 10 years old steadily rose a nearly identical 49 
percent.\30\ The data support the theory that exposure to radioactive 
increases the risk of cancer, especially in young persons.

                        Trends in Cancer Incidence Age 0-9, Suffolk County, NY, 1981-1996
----------------------------------------------------------------------------------------------------------------
                                                  Age 0-9
             Period              ----------------------------------------  Cases per 100,000    Percent Change
                                     Cancer Cases          Avg. Pop.             Pop.
----------------------------------------------------------------------------------------------------------------
1981-84.........................                 92             182,441               12.61   ..................
1985-89.........................                115             182,463               15.76   ..................
1989-92.........................                129             185,050               17.43   ..................
1993-96.........................                146             194,498               18.77               +48.9
----------------------------------------------------------------------------------------------------------------

    Children are not the only humans affected by the radiation-cancer 
connection. However, since the rapidly developing fetus and infant are 
most sensitive to toxic exposures to radiation and other chemicals, 
immediate adverse effects are most likely to occur. A latency period of 
up to several decades between exposure and manifestation of cancer may 
be necessary in adults.
B. Long Island--Childhood Cancer Outbreak in High-Radiation Area
    In the late I990's, news of an atypically large number of cases of 
rhabdomyosarcoma in northwestern Suffolk County children began to 
surface. This soft tissue cancer was diagnosed in 23 children living in 
a small area, when one or two cases would normally be expected. 
Publicly aired concerns of parents of victims prompted the Suffolk 
legislature to authorize a Task Force to investigate the extent and 
cause of the outbreak.
    While the cause(s) of rhabdomyosarcoma are generally unknown, 
radiation exposure has been identified as a risk factor. Over one-
quarter of laboratory mice who had Sr-90 rubbed on their skin were 
later diagnosed with rhabdomyosarcoma or a related cancer.\31\ Pregnant 
women who receive a pelvic X-ray are twice as likely to bear a child 
who will be diagnosed with the disease.\32\
    The RPHP Baby Teeth Study has collected 57 teeth from the area of 
Suffolk County in which most children with rhabdomyosarcoma live. Teeth 
from this region have the highest average concentration of Sr-90 in 
Suffolk County, at 1.48 picocuries of Sr-90 per gram of calcium. Teeth 
in other areas, such as the north and south forks of Long Island and 
the middle of Suffolk County have barely half that amount. RPHP is now 
conducting a case-control study, in which it tests teeth from children 
with rhabdomyosarcoma to further establish the link between the disease 
and environmental radiation.
C. San Luis Obispo, CA--Effects of Opening Reactors
    Demonstrating a radiation-cancer link requires collection of valid 
data on exposures. One relatively simple way of evaluating health 
effects of exposures is to study children living near a recently opened 
reactor, before and after the opening.
    RPHP has collected 34 teeth from children born in San Luis Obispo 
County in California, which is the site of the Diablo Canyon reactors 
(started 1984 and 1985). Average Sr-90 levels for the county's children 
born after the reactors began operations increased 49.6 percent. While 
more teeth are needed to make results more significant, the finding 
provides preliminary evidence of added environmental radioactivity 
actually entering human bodies.

  Trends in Average Concentration of Sr-90, San Luis Obispo County, CA
                          Baby Teeth, 1979-1994
------------------------------------------------------------------------
         Year of Birth            No. Teeth    Avg. Sr-90+   Percent Ch.
------------------------------------------------------------------------
1979-85 (before startup)......           15          1.35   ............
1986-94 (after startup).......           19          2.02         +49.6
------------------------------------------------------------------------
+Average picocuries of Strontiuxn-90 per gram of calcium in baby teeth
  at birth.

    Several years after the startup of Diablo Canyon, cancer death 
rates among children living in San Luis Obispo and adjoining Santa 
Barbara County began to rise. The rate for children 19 and under was 
74.5 percent higher in the 1990's than it was in the late 1980's.\33\ 
Again, these data support the theory that radiation exposure increases 
the cancer burden in children (allowing several years between initial 
exposure and death; many children who die of cancer live several years 
after diagnosis).

         Trends in Cancer Mortality Age 0-19, San Luis Obispo and Santa Barbara Counties, CA, 1985-1998
----------------------------------------------------------------------------------------------------------------
                                                                                         Deaths/
                      Year of Death                          Deaths      Total Pop.   100,000 Pop.   Percent Ch.
----------------------------------------------------------------------------------------------------------------
1985-89.................................................           16       742,569          2.16   ............
1990-98.................................................           57     1,515,911          3.76         +74.5
----------------------------------------------------------------------------------------------------------------

    Reactor startups have adverse effects on all local citizens, not 
just children, Thyroid cancer in two Connecticut counties increased 
dramatically after nuclear reactors opened in the late 1960's.\34\ 
Thyroid cancer is especially sensitive to exposure to radioactive 
iodine, which is present in the ``cocktail'' of chemicals in nuclear 
reactor emissions.
D. Closing Reactors--Eight U.S. Nuclear Power Plants
    When nuclear power reactors cease operations, there is an immediate 
removal of all locally generated radioactive chemicals that decay 
quickly, and a more gradual removal of those that decay slowly. The 
reduction is greatest in nearby areas downwind of closed reactors; the 
majority of airborne emissions are propelled in the downwind direction, 
where radioactive gases and particles can be inhaled and are introduced 
into the diet via precipitation.
    Since 1987, eight nuclear power plants have closed, leaving at 
least a 70 mile radius with no operating reactors. In downwind counties 
within 40 miles of all eight sites, the death rate among infants under 
1 year plunged in the first 2 years after closing.\35\ RPHP is 
collecting baby teeth near one of these areas (Rancho Seco, near 
Sacramento CA) to establish that the improvement in health is 
accompanied by a declining level of in-body radioactivity.

                 Trend in Infant Mortality, Downwind Counties Near Closed Nuclear Reactors, Two Years Before vs. Two Years After Closing
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Infant Death               Live Births               Deaths/1000
                       Reactor, Closed                        ------------------------------------------------------------------------------   Percent
                                                                  Before       After        Before       After        Before       After        Change
--------------------------------------------------------------------------------------------------------------------------------------------------------
LaCrosse WI, 1987............................................           36           30         3507         3452        10.27         8.69        -15.4
Rancho Seco CA, 1989.........................................          418          390        44500        49414         9.39         7.89        -16.0
Ft. St. Vrain CO, 1989.......................................           83           72         9725         9977         8.53         7.22        -15.4
Trojan OR, 1992..............................................          253          204        30320        29799         8.34         6.85        -17.9
Big Rock Pt. MI, 1997........................................           25           6*         2922        1529*         8.56        3.92*        -54.2
Me. Yankee ME, 1997..........................................           19          10*         3841        2201*         4.95        4.54*         -8.3
Pilgrim MA, 1986.............................................           97           76        12956        13412         7.49         5.67        -24.3
Millstone CT, 1995...........................................          166          130        22261        21093         7.46         6.16        -17.4
TOTAL 8 AREAS................................................         1097          918       130032       130877         8.44         7.01        -16.9
U.S. AVG 2-YR CH, 1986-98....................................  ...........  ...........  ...........  ...........  ...........  ...........         -6.4
--------------------------------------------------------------------------------------------------------------------------------------------------------
*Only 1998 data are available for post-shutdown periods for Big Rock Point and Maine Yankee.

     V. POLICY IMPLICATIONS--RADIATION HEALTH AND NUCLEAR REACTORS

    Since atomic bombs were first manufactured and used during World 
War II, exposure to man-made fission products has been a critical 
environmental health issue. The relative novelty of these chemicals in 
the environment underscores the need for thorough and objective 
studies.
    Since the conclusion of the cold war a decade ago, nuclear weapons 
are no longer manufactured or tested. However, the production from 
American nuclear power reactors has reached an all-time high, and 
utility companies (supported by the Bush Administration) are 
considering a large-scale expansion of the industry. These developments 
indicate that protection of humans from the potentially harmful effects 
of exposure to radioactive emissions in the environment will be 
critical. To that end, we urge Congress to take the following actions:
    1. Conduct hearings examining the current knowledge on the impact 
of environmental radiation on public health, including cancer.
    2. Establish and support an independent medical and scientific 
commission to evaluate the impact of environmental radiation on public 
health, including cancer.
    3. Institute a systematic program measuring radioactivity levels in 
bodies of persons living near to and distant from U.S. nuclear power 
reactors.
    4. Conduct or support routine, periodic studies tracking disease 
patterns and trends among persons living near to and distant from 
nuclear power reactors. Studies should identify infants and children 
separately from adults, and should focus on cancer.
    5. Direct policymakers and regulators to include consideration of 
disease patterns and trends within the local population when making 
decisions to extend licenses of existing nuclear reactors.
    6. Direct policymakers and regulators to include consideration of 
potential health effects when making decisions to grant operating 
licenses for new nuclear reactors.
    7. Require that in-body radioactivity levels be evaluated in all 
federally funded programs that investigate possible causes of elevated 
cancer rates in the U.S.

                              References:
    1. U.S. Nuclear Regulatory Commission, http://www.nrc.gov/NRC/
NUR.gov/NRC/NUREGS/SR1350. See Table 7, U.S. Commercial Nuclear Power 
Reactor Average Capacity Factor and Net Generation.
    2. U.S. Nuclear Regulatory Commission data, August 12, 1999.
    3. Norris, R.S. and Cochran, T.B. United States Nuclear Tests, July 
1945 to December 31, 1992. Washington, DC: Natural Resources Defense 
Council, 1994.
    4. U.S. Public Health Service. Radiological Health Data. 
Washington, DC: September 1964.
    5. John F. Kennedy, Radio and Television Address to the American 
People on the Nuclear Test Ban Treaty, July 26, 1963. In Public Papers 
of the Presidents. Washington, DC: U.S. Government Printing Office, 
1964.
    6. National Cancer Institute. Estimated Exposures and Thyroid Doses 
Received by the American People from Iodine-131 in Fallout Following 
Nevada Atmospheric Nuclear Bomb Tests. NIH Publication No. 97-4264. 
Washington, DC: U.S. Department of Health and Human Services, 1997.
    7. Institute of Medicine. The Five Series Study: Mortality of 
Military Participants in U.S. Nuclear Weapons Tests. Washington, DC: 
National Academy Press, 1999.
    8. Wald, M.L., U.S. Acknowledges Radiation Killed Weapons Workers. 
The New York Times, January 29, 2000, Al.
    9. Jablon, S., Hrubec, Z., Boice, J.D., Stone, B.J. Cancer in 
Populations Living Near Nuclear Facilities, NIH Publication No. 90-874. 
Washington, DC: U.S. Government Printing Office, 1990.
    10. Hatch, M.C., Wallenstein, S., Beyea, J., Nieves, J.W., Susser, 
M. Cancer rates after the Three Mile Island nuclear accident and 
proximity of residence to the plant. American Journal of Public Health 
1991; 81(6):719-24.
    11. Hatch, M.C., Beyea, J., Nieves, J.W., Susser, M.L. Cancer near 
the Three Mile Island nuclear plant: radiation emissions. American 
Journal of Epidemiology 1990; 132(3):397-412.
    12. Johnson, C.J. Cancer and infant mortality around a nuclear 
power plant. American Journal of Public Health 1983; 73(10):1218.
    13. Sharp, L., McKinney, P.A., Black, R.J. Incidence of childhood 
brain and other non-haematopoietic neoplasms near nuclear sites in 
Scotland, 1975-94, Occupational and Environmental Medicine 1999; 
56(5):308-14.
    14. Busby, C., Cato, M.S. Death rates from leukemia are higher than 
expected in areas around nuclear sites in Berkshire and Oxfordshire. 
British Medical Journal 1997; 315(7103):309.
    15. Black, R.J., Sharp, L., Harkness, E.F., McKinney, P.A. Leukemia 
and non-Hodgkin's Lymphoma: incidence in children and young adults 
resident in the Dounreay area of Carthness, Scotland in 1968-91, 
Journal of Epidemiology and Community Health 1994; 48(3):232-6.
    16. Draper, G.J., Stiller, C.A., Cartwright, R.A., Craft, A.W., 
Vincent, J.J. Cancer in Cumbria and in the vicinity of the Sellafield 
nuclear installation, 1963-90. British Medical Journal 1993; 
306(6870):89-94.
    17. Goldsmith, J.R. Nuclear installations and childhood cancer in 
the UK: mortality and incidence for 0-9-year-old children, 1971-1980. 
Science in the Total Environment 1992; 127(1-2):13-35.
    18. Kinlen, L.J., Hudson, C.M., Stiller, C.A. Contacts between 
adults as evidence for an infective origin of childhood leukemia: an 
explanation for the excess near nuclear establishments in west 
Berkshire? British Journal of Cancer 1991; 64(3):549-54.
    19. Ewings, P.D., Bowie, C., Phillips, M.J., Johnson, S.A. 
Incidence of leukemia in young people in the vicinity of Hinkley Point 
nuclear power station, 1959-86. British Medical Journal 1989; 299 
(6694):289-93.
    20. Cook-Mozaffari, P.J., Darby, S.C., Doll, R., Forman, D., 
Hermon, C., Pike, M.C., Vincent T. Geographical variation in mortality 
from leukemia and other cancers in England and Wales in relation to 
proximity to nuclear installations, 1969-78. British Journal of Cancer 
1989; 59(3):476-85.
    21. Roman B., Beral, V., Carpenter, L., Watson, A., Barton, C., 
Ryder, H., Aston, D.L. Childhood leukemia in the West Berkshire and 
Basingstoke and North Hampshire District Health Authorities in relation 
to nuclear establishments in the vicinity. British Medical Journal 
1987; 294(6572):597-602.
    22. Forman, D., Cook-Mozaffari, P., Darby, S., Davey, G., Stratton, 
I., Doll, R., Pike, M. Cancer near nuclear installations. Nature 1987; 
329(6139):499-505.
    23. Heasman, M.A., Kemp, I.W., Urquhart, J.D., Black, R. Childhood 
leukemia in northern Scotland. Lancet 1986; 1(8475):266.
    24. Rosenthal, H.L. Accumulation of environmental 90-Sr in teeth of 
children. Proceedings of the Ninth Annual Hanford Biology Symposium. In 
Radiation Biology of the Fetal and Juvenile Mammal, edited by MR Sikow 
and DD Mahlum. U.S. Atomic Energy Commission, December 1969.
    25. Klusek, C.S. Strontium-90 in Human Bone in the U.S., 1982. EML-
435. New York: U.S. Department of Energy, 1984.
    26. Salisbury, H.E. Stevenson calls for world pact to curb H-bomb. 
The New York Times, October 16, 1956, A1.
    27. Gould, J.M., Sternglass, E.J., Sherman, J.D., Brown, J., 
McDonnell W., Mangano, J.J. Strontium-90 in deciduous teeth as a factor 
in early childhood cancer. International Journal of Health Services 
2000; 30(3):515-39.
    28. Mangano, J.J., Sternglass, E.J., Gould, J.M., Sherman, J.D., 
Brown, J., McDonnell, W. Strontium-90 in newborns and childhood 
disease. Archives of Environmental Health 2000; 55(4):240-4.
    29. Gould, J.M., Sternglass, E.J., Mangano, J.J., McDonnell, W., 
Sherman, J.D., Brown, J. The Strontium-90 baby teeth study and 
childhood cancer. European Journal of Oncology 2000; 5:119-25.
    30. New York State Cancer Registry, Albany, NY. Data received April 
21, 1999.
    31. Gupta, A., Andrews, K.L., McDaniel, K.M., Nagle, R.B., Bowden, 
G.T. Experimental induction of rhabdomyosarcoma in mice with 
fractionated doses of B-irradiation. Journal of Cancer Research and 
Clinical Oncology 1999; 125:257-67.
    32. Grufferman, S., Mula, M.J., Olshan, A.F., Falletta, J.M., 
Pendergrass, T.W., Buckley, J., Maurer, H.M. In utero X-ray exposure 
and risk of childhood rhabdomyosarcoma. Paediatric Perinatal 
Epidemiology 1991; 5:A6-A7.
    33. National Center for Health Statistics. Mortality data available 
at http://www.cdc.gov, data and statistics, CDC Wonder. Uses ICD-9 
diagnosis codes 140.0-239.9.
    34. Mangano, J.J. A post-Chernobyl rise in thyroid cancer in 
Connecticut, USA. European Journal of Cancer Prevention 1996; 5:75-81.
    35. Mangano, J.J., Improvements in local infant health after 
nuclear power reactor closing. Environmental Epidemiology and 
Toxicology 2000; 2:32-36.

                                Appendix
  Recent Professional Publications Radiation and Public Health Project
                        recent book publications
    1. Gould, J.M. and members of RPHP. The Enemy Within: The High Cost 
of Living Near Nuclear Reactors. New York: Four Walls Eight Windows, 
1996.
    2. Brown, J. and Brutoco, R. Profiles in Power: The Antinuclear 
Movement and the Dawn of the Solar Age. New York: Twayne Publishers, 
1997.
    3. Mangano, J.J. Low-Level Radiation and Immune System Damage: An 
Atomic Era Legacy. Boca Raton, FL: Lewis Publishers, 1998.
    4. Sherman, J.D. Life's Delicate Balance: Causes and Prevention of 
Breast Cancer. New York: Taylor and Francis, 2000.
                    recent medical journal articles
    1. Gould, J.M. et al. Strontium-90 in deciduous teeth as a factor 
in early childhood cancer. International Journal of Health Services 
2000; 30(3):515-39.
    2. Mangano, J.J. et al. Strontium-90 in newborns and childhood 
disease. Archives of Environmental Health 2000; 55(4):240-4.
    3. Gould, J.M. et al. The Strontium-90 baby teeth study and 
childhood cancer. European Journal of Oncology 2000; 5(suppl. 2):119-
25.
    4. Mangano, J.J. Improvements in local infant health after nuclear 
power reactor closing. Environmental Epidemiology and Toxicology 2000; 
2:32-6.
                               __________
   New York States Coalition Opposed to Fluoridation, Inc.,
                                   Old Bethpage, NY, June 13, 2001.
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
Re: Testimony on Fluoride's Role In Environmental Pollution, Systemic 
Health and Dental Health Problems, and a Practical Solution

    Dear Chairman and Committee Members: Members of our organization 
attended the hearing on environmental health concerns at Adelphi 
University on Monday, June 11, 2001. Senator Hillary Clinton was an 
excellent Chair of the hearing, along with Senators Henry Reid and 
Lincoln Chafee. The participating legislators offered valuable input, 
as did the panel participants. The discussions on breast cancer, 
testicular cancer, leukemia clusters, birth defects, asthma, and other 
health problems were very important. However, we believe the value of 
the hearing would have been still more enhanced had an opportunity been 
provided for those in the audience who wished to make a brief statement 
or ask a pertinent question.
    There was a missing factor that is important to bring to your 
committee's attention. A number of the professional and civic 
participants expressed their concern about the lack of controls, 
allowing arsenic to enter our drinking water. Other panelists expressed 
the disturbing fact that numerous chemicals are not even tested. Still 
others talked about the concerns about lead exposure, etc. The 
Precautionary Principle was pointed out by another panelist. Yet a 
missing factor, a common denominator, could well be the role that 
fluoride chemicals in our public water supplies play in the 
environmental picture.
    Fluoride is a cumulative enzyme poison. Fluoride is a prescription 
drug when obtained at a pharmacy, yet is carelessly added to 
fluoridated water supplies in order to try to reduce tooth decay. 
Fluoride is classified as a contaminant by the Environmental Protection 
Agency (EPA). Fluoridation deliberately adds hundreds of thousands of 
tons of toxic nonbiodegradable fluoride chemicals to our already 
endangered water supplies. The synergistic effects of fluoride with 
other substances is not fully known. Fluoride accumulates in the body 
like lead, and, in fact, is more toxic than lead and almost as toxic as 
arsenic.
    The public is being subjected involuntarily to fluoride ingestion 
and exposure because of total fluoride intake that is now out of 
control. Once fluoride is added to public drinking water, it is 
impossible to control dosage. The fluoride enters our cooking water, 
and, in fact, fluoride concentrates upon boiling. It enters the foods 
and beverages grown in or processed in fluoridated areas. It is in our 
toothpastes, rinses, medications, among other sources. It is even 
breathed in from humidifiers. Dental fluorosis has become rampant in 
our country. The problem is fluoride excess, not fluoride deficiency.
    Our government agencies are working at cross purposes. There is an 
increasing emphasis on reducing the pollution of our water supplies and 
we are spending millions of dollars trying to clean up our environment. 
Then we permit an increase in water pollution by the deliberate 
addition to our drinking water of toxic fluoride (mostly 
hydrofluosilicic acid, a waste by-product of the phosphate fertilizer 
industry) with no regard to the amount of water consumed, the amount of 
fluoride stored in the body, or the amount tolerated. Children and 
adults with kidney and urinary tract disorders, and other dietary and 
medical problems, require the ingestion of large quantities of water, 
and fluoridated water compounds their problems.
    Opposition to fluoridation is shared by no less than the 
Environmental Protection Agency's (EPA) Headquarters Union, 
representing over 1500 EPA professionals. They include toxicologists, 
biologists, chemists, engineers, lawyers and other professionals). This 
EPA professional union is in sharp disagreement with their own EPA 
agency that promotes fluoridation. Dr. J. William Hirzy, chemist, 
represents the EPA union. He has pointed out that their members are 
``charged with assessing the safety of drinking water'' and that their 
judgments are based, in part, on animal studies and human epidemiology 
studies indicating ``a causal link between fluoride/fluoridation and 
cancer, genetic damage, neurological impairment and bone pathology. Of 
particular concern are the recent studies linking fluoride exposure to 
lower IQ in children.''
    Studies, including Government studies, report on populations that 
are unusually susceptible to the toxic effects of fluoride: the 
elderly, those with kidney, bone and cardiovascular problems, high 
water consumers, the newborn, the nutritionally deficient, and others. 
(U.S. Public Health Service, ``The Toxicological Profile for 
Fluorides'' 1993, etc.) Published studies report an increase in hip 
fractures in the elderly and osteosarcoma in young males in fluoridated 
areas.
    In Western Europe, where there is only perhaps 2 percent of the 
population fluoridated, as opposed to over 60 percent in our heavily 
fluoridated country (mostly without informed consent and at times even 
without the knowledge of the public), dental health is essentially as 
good as or better than in the United States. In Europe, industrial 
fluosilicates are recognized for the problematical by-products of 
industry.
    Documents show that fluoride added to water also contains lead, 
arsenic, antimony, cadmium, and other undesirable substances. In fact, 
health agencies now concede there has been no safety testing of the 
silicofluoride acid chemicals most commonly used to fluoridate public 
drinking water, largely from phosphate fertilizer. Incredibly, these 
fluoride products have not been tested as safe for human consumption. 
That is why several U.S. Congressmen have contemplated hearings or 
already initiated hearings.
    Proponents of fluoridation are trying to downplay the important 
research of Professor Roger Masters, which shows increased blood lead 
levels in children in the artificially fluoridated water supplies where 
fluosilicic acid is used. This should be given the most careful and 
serious attention by our public health authorities.
    Former Chairman of the Senate Environment & Public Works Committee, 
Senator Bob Smith, has asked the EPA to review its standard for 
fluoride in drinking water. Senator Crapo included a presentation by 
Dr. William Hirzy of the EPA's Union of professionals at Headquarters 
in Washington at his June 29, 2000 hearing, where Dr. Hirzy reported on 
fluoridation's detrimental effects. U.S. Representative Sensenbrenner, 
former Chairman of Committee on Science, also commenced an 
investigation, as did U.S. Representative Calvert, former Subcommittee 
Chairman of because of their safety concern.
    Many letters and petitions went to the aforementioned committees 
from citizens and community groups throughout the country, and from 
other countries as well. The work had only begun. We respectfully ask 
that you continue the investigation for the good and the protection of 
the public.
    Finally, the panelists at the June 11th meeting were concerned 
because of the difficulty in ridding our environment of known toxic 
chemicals. In contrast, with fluoridation, the answer is a simple 
matter of turning off the fluoride valve. This was done in Riverhead, 
Levittown, Carle Place, and Rouses Point, New York, areas within the 
Water Authority of Western Nassau County, and many places throughout 
the State, the country and abroad. Fluoridation was discontinued for a 
variety of reasons, including health, pollution and freedom of choice 
concerns, as well as accidental misfeeds, malfunction of the 
fluoridation system, and human error, resulting in illness, 
hospitalization, and even fatalities.
    While we realize there could be multiple environmental factors 
involved in the increase of chronic diseases, it is our strong position 
that your efforts, genuine and vigorous as they are, would not be 
complete without the inclusion of the fluoride factor. In this regard, 
there are professionals of world-class caliber ready and willing to 
discuss this matter with you, to meet with you, to appear before your 
committee, to participate in your efforts with other members of the 
scientific and medical fields, in your laudable search for answers.
    We would appreciate the opportunity of discussing such 
participation with you. We look forward to a constructive response.
            Sincerely,
                                       Paul Stephen Beeber,
                                     President and General Counsel.
                                 ______
                                 
                     U.S. House of Representatives,
                                      Committee on Science,
                                 Washington, DC, September 7, 2000.
Paul Beeber,
Old Bethpage, NY.
    Dear Mr. Beeber: Thank you for communicating with me regarding the 
Environmental Protection Agency's (EPA) position on fluoride in 
drinking water. It is my goal to ensure that all decisions made at the 
EPA are based on sound science and are done in the proper risk-based 
context.
    The EPA spends millions of dollars on health and safety research 
into substances that naturally occur or contaminate our drinking water, 
including arsenic and radon, as well as substances that are added to 
drinking water, including compounds that result from the breakdown of 
chlorine, a chemical used for disinfection. Fluoride falls into each of 
those categories--it is both naturally occurring and a drinking water 
additive. Most of the research data that I have seen concerns the 
safety of using sodium fluoride (NaF) as a fluoridation agent. However, 
many of our nation's fluoridated water supplies use different 
fluoridation agents, such as hydrofluosilicic acid or sodium 
silicofluoride. Much less is known about these compounds. A research 
program by EPA into the safety of all of the fluoride compounds we add 
to our drinking water is overdue. That is not only sound science, it is 
common sense.
    Thank you again for sharing your views, on this important issue 
with me. I would invite you to follow this and other issues of 
importance to you on the Science Committee web site at www.house.gov/
science.
            Sincerely,
                               F. James Sensenbrenner, Jr.,
                                                          Chairman.
                                 ______
                                 
       [From the National Treasury Employees Union, Chapter 280]
                          Fluoridation Hazards

    WHY EPA'S HEADQUARTERS UNION OF SCIENTISTS OPPOSES FLUORIDATION

    The following documents why our union, formerly National Federation 
of Federal Employees Local 2050 and since April 1998 Chapter 280 of the 
National Treasury Employees Union, took the stand it did opposing 
fluoridation of drinking water supplies. Our union is comprised of and 
represents the approximately 1500 scientists, lawyers, engineers and 
other professional employees at EPA Headquarters here in Washington, 
DC.
    The union first became interested in this issue rather by accident. 
Like most Americans, including many physicians and dentists, most of 
our members had thought that fluoride's only effects were beneficial--
reductions in tooth decay, etc. We too believed assurances of safety 
and effectiveness of water fluoridation.\1\
---------------------------------------------------------------------------
    \1\ For a history of how drinking water fluoridation began, see 
``Fluoride, Teeth and the Atomic Bomb,'' by investigative reporters 
Joel Griffiths and Chris Bryson, available on-line at http://
www.ia4u.net/~sherrell/bomb.htm
---------------------------------------------------------------------------
    Then, as EPA was engaged in revising its drinking water standard 
for fluoride in 1985, an employee came to the union with a complaint: 
he said he was being forced to write into the regulation a statement to 
the effect that EPA thought it was alright for children to have 
``funky'' teeth. It was OK, EPA said, because it considered that 
condition to be only a cosmetic effect, not an adverse health effect. 
The reason for this EPA position was that it was under political 
pressure to set its health-based standard for fluoride at 4 mg/liter. 
At that level, EPA knew that a significant number of children develop 
moderate to severe dental fluorosis, but since it had deemed the effect 
as only cosmetic, EPA didn't have to set its health-based standard at a 
lower level to prevent it.
    We tried to settle this ethics issue quietly, within the family, 
but EPA was unable or unwilling to resist external political pressure, 
and we took the fight public with a union amicus curiae brief\2\ in a 
lawsuit filed against EPA by a public interest group. The union has 
published on this initial involvement period in detail.\1\
---------------------------------------------------------------------------
    \2\ On-line at http://www.rvi. net/~ftluoride/amicus.htm
---------------------------------------------------------------------------
    Since then our opposition to drinking water fluoridation has grown, 
based on the scientific literature documenting the increasingly out-of-
control exposures to fluoride, the lack of benefit to dental health 
from ingestion of fluoride and the hazards to human health from such 
ingestion. These hazards include acute toxic hazard, such as to people 
with impaired kidney function, as well as chronic toxic hazards of gene 
mutations, cancer, reproductive effects, neurotoxicity, bone pathology 
and dental fluorosis. First, a review of recent neurotoxicity research 
results.
    In 1995, Mullenix and co-workers\2\ showed that rats given fluoride 
in drinking water at levels that give rise to plasma fluoride 
concentrations in the range seen in humans suffer neurotoxic effects 
that vary according to when the rats were given the fluoride--as adult 
animals, as young animals, or through the placenta before birth. Those 
exposed before birth were born hyperactive and remained so throughout 
their lives. Those exposed as young or adult animals displayed 
depressed activity. Then in 1998, Guan and co-workers\3\ gave doses 
similar to those used by the Mullenix research group to try to 
understand the mechanism(s) underlying the effects seen by the Mullenix 
group. Guan's group found that several key chemicals in the brain--
those that form the membrane of brain cells--were substantially 
depleted in rats given fluoride, as compared to those who did not get 
fluoride.
    Another 1998 publication by Varner, Jensen and others\4\ reported 
on the brain-and kidney-damaging effects in rats that were given 
fluoride in drinking water at the same level deemed ``optimal'' by pro-
fluoridation groups, namely 1 part per million (1 ppm). Even more 
pronounced damage was seen in animals that got the fluoride in 
conjunction with aluminum. These results are especially disturbing 
because of the low dose level of fluoride that shows the toxic effect 
in rats--rats are more resistant to fluoride than humans. This latter 
statement is based on Muilenix's finding that it takes substantially 
more fluoride in the drinking water of rats than of humans to reach the 
same fluoride level in plasma. It is the level in plasma that 
determines how much fluoride is ``seen'' by particular tissues in the 
body. So when rats get 1 ppm in drinking water, their brains and 
kidneys are exposed to much less fluoride than humans getting 1 ppm, 
yet they are experiencing toxic effects. Thus we are compelled to 
consider the likelihood that humans are experiencing damage to their 
brains and kidneys at the ``optimal'' level of 1 ppm.
    In support of this concern are results from two epidemiology 
studies from China<SUP>5,6</SUP> that show decreases in I.Q. in 
children who get more fluoride than the control groups of children in 
each study. These decreases are about 5 to 10 I.Q. points in children 
aged 8 to 13 years.
    Another troubling brain effect has recently surfaced: fluoride's 
interference with the function of the brain's pineal gland. The pineal 
gland produces melatonin which, among other roles, mediates the body's 
internal clock, doing such things as governing the onset of puberty. 
Jennifer Luke\7\ has shown that fluoride accumulates in the pineal 
gland and inhibits its production of melatonin. She showed in test 
animals that this inhibition causes an earlier onset of sexual 
maturity, an effect reported in humans as well in 1956, as part of the 
Kingston/Newburgh study, which is discussed below. In fluoridated 
Newburgh, young girls experienced earlier onset of menstruation (on 
average, by 6 months) than girls in non-fluoridated Kingston.\8\
    From a risk assessment perspective, all these brain effect data are 
particularly compelling and disturbing because they are convergent.
    We looked at the cancer data with alarm as well. There are 
epidemiology studies that are convergent with whole-animal and single-
cell studies (dealing with the cancer hazard), just as the 
neurotoxicity research just mentioned all points in the same direction. 
EPA fired the Office of Drinking Water's chief toxicologist, Dr. 
William Marcus, who also was our local union's treasurer at the time, 
for refusing to remain silent on the cancer risk issue.\9\ The judge 
who heard the lawsuit he brought against EPA over the firing made that 
finding--that EPA fired him over his fluoride work and not for the 
phony reason put forward by EPA management at his dismissal. Dr. Marcus 
won his lawsuit and is again at work at EPA. Documentation is available 
on request.
    The type of cancer of particular concern with fluoride, although 
not the only type, is osteosarcoma, especially in males. The National 
Toxicology Program conducted a 2-year study\10\ in which rats and mice 
were given sodium fluoride in drinking water. The positive result of 
that study (in which malignancies in tissues other than bone were also 
observed), particularly in male rats, is convergent with a host of data 
from tests showing fluoride's ability to cause mutations (a principal 
``trigger'' mechanism for inducing a cell to become 
cancerous)<SUP>e.g., 11a, b, c, d</SUP> and data showing increases in 
osteosarcomas in young men in New Jersey,\12\ Washington and Iowa\13\ 
based on their drinking fluoridated water. It was his analysis, 
repeated statements about all these and other incriminating cancer 
data, and his requests for an independent, unbiased evaluation of them 
that got Dr. Marcus fired.
    Bone pathology other than cancer is a concern as well. An excellent 
review of this issue was published by Diesendorf et al. in 1997.\14\ 
Five epidemiology studies have shown a higher rate of hip fractures in 
flucridated vs. non-fluoridated communities.<SUP>15a, b, c, d, e</SUP>. 
Crippling skeletal fluorosis was the endpoint used by EPA to set its 
primary drinking water standard in 1986, and the ethical deficiencies 
in that standard setting process prompted our union to join the Natural 
Resources Defense Council in opposing the standard in court, as 
mentioned above.
    Regarding the effectiveness of fluoride in reducing dental 
cavities, there has not been any double-blind study of fluoride's 
effectiveness as a caries preventative. There have been many, many 
small scale, selective publications on this issue that proponents cite 
to justIfy fluoridation, but the largest and most comprehensivestudy, 
one done by dentists trained by the National Institute of Dental 
Research, on over 39,000 school children aged 5-17 years, shows no 
significant differences (in terms of decayed, missing and filled teeth) 
among caries incidences in fluoridated, non-fluoridated and partially 
fluoridated communities.\16\ The latest publication\17\ on the 50-year 
fluoridation experiment in two New York cities, Newburgh and Kingston, 
shows the same thing. The only significant difference in dental health 
between the two communities as a whole is that fluoridated Newburgh, NY 
shows about twice the incidence of dental fluorosis (the first, visible 
sign of fluoride chronic toxicity) as seen in non-fluoridated Kingston.
    John Colquhoun's publication on this point of efficacy is 
especially important.\18\ Dr. Coiquhoun was Principal Dental Officer 
for Auckland, the largest city in New Zealand, and a staunch supporter 
of fluoridation--until he was given the task of looking at the 
worldwide, data on fluoridation's effectiveness in preventing cavities. 
The paper is titled, ``Why I changed My Mind About Water 
Fluoridation.'' In it Colquhoun provides details on how data were 
manipulated to support fluoridation in English speaking countries, 
especially the United States and New Zealand. This paper explains why 
an ethical public health professional was compelled to do a 180 degree 
turn on fluoridation.
    Further on the point of the tide turning against drinking water 
fluoridation, statements are now coming from other dentists in the pro-
fluoride camp who are starting to warn that topical fluoride (e.g. 
fluoride in tooth paste) is the only significantly beneficial way in 
which that substance affects dental health.<SUP>19, 20, 21</SUP> 
However, if the concentrations of fluoride in the oral cavity are 
sufficient to inhibit bacterial enzymes and cause other bacteriostatic 
effects, then those concentrations are also capable of producing 
adverse effects in mammalian tissue, which likewise relies on enzyme 
systems. This statement is based not only on common sense, but also on 
results of mutation studies which show that fluoride can cause gene 
mutations in mammalian and lower order tissues at fluoride 
concentrations estimated to be present in the mouth from fluoridated 
tooth paste.\22\ Further, there were tumors of the oral cavity seen in 
the NTP cancer study mentioned above, further strengthening concern 
over the toxicity of topically applied fluoride.
    In any event, a person can choose whether to use fluoridated tooth 
paste or not (although finding non-fluoridated kinds is getting harder 
and harder), but one cannot avoid fluoride when it is put into the 
public water supplies.
    So, in addition to our concern over the toxicity of fluoride, we 
note the uncontrolled--and apparently uncontrollable--exposures to 
fluoride that are occurring nationwide via drinking water, processed 
foods, fluoride pesticide residues and dental care products. A recent 
report in the lay media,\23\ that, according to the Centers for Disease 
Control, at least 22 percent of America's children now have dental 
fluorosis, is just one indication of this uncontrolled, excess 
exposure. The finding of nearly 12 percent incidence of dental 
fluorosis among children in un-fluoridated Kingston New York\17\ is 
another. For governmental and other organizations to continue to push 
for more exposure in the face of current levels of over-exposure 
coupled with an increasing crescendo of adverse toxicity findings is 
irrational and irresponsible at best.
    Thus, we took the stand that a policy which makes the public water 
supply a vehicle for disseminating this toxic and prophylactically 
useless (via ingestion, at any rate) substance is wrong.
    We have also taken a direct step to protect the employees we 
represent from the risks of drinking fluoridated water. We applied 
EPA's risk control methodology, the Reference Dose, to the recent 
neurotoxicity data. The Reference Dose is the daily dose, expressed in 
milligrams of chemical per kilogram of body weight, that a person can 
receive over the long term with reasonable assurance of safety from 
adverse effects. Application of this methodology to the Varner et 
al.\4\ data leads to a Reference Dose for fluoride of 0.000007 mg/kg-
day. Persons who drink about one quart of fluoridated Water from the 
public drinking water supply of the District of Columbia while at work 
receive about 0.01mg/kg-day from that source alone. This amount of 
fluoride is more than 100 times the Reference Dose. On the basis of 
these results the union filed a grievance, asking that EPA provide un-
fluoridated drinking water to its employees.
    The implication for the general public of these calculations is 
clear. Recent, peer-reviewed toxicity data, when applied to EPA's 
standard method for controlling risks from toxic chemicals, require an 
immediate halt to the use of the nation's drinking water reservoirs as 
disposal sites for the toxic waste of the phosphate fertilizer 
industry.\24\

                     End-Note Literature Citations

    1. Applying the NAEP code of ethics to the Environmental Protection 
Agency and the fluoride in drinking water standard. Carton, R.J. and 
Hirzy, J.W. Proceeding of the 23d Ann. Conf. of the National 
Association of Environmental Professional. 20-24 June, 1998. (GEN 51-
61. On-line at URL. http//:www.rvi.net/~fluoride/naep.htm
    2. Neurotoxicity of sodium fluoride in rats. Mullenix, P.J. 
Denbesten, P.K., Schunior, A. and Kernan. W.J. Neurotoxicol. Teratol. 
17 169-177 (1995)
    3. Influence of chronic fluorosis on membrane lipids in rat brain. 
Z.Z. Guan, Y.N. Wang. K.Q. Xiao, D.Y. Dai, Y.H. Chen, J.L. Liu, P. 
Sindelar and G. Dallner. Neurotoxicology and Teratology 20 537-542 
(1998).
    4. Chronic administration of aluminum-fluoride or sodium-fluoride 
to rats in drinking water: alterations in neuronal and cerebrovascular 
integrity. Varner, J.A., Jensen, K.F., Horvath, W. And Isaacson, R.L. 
Brain Research 784 284-298 (1998).
    5. Effects of high fluoride water supply on children's 
intelligence. Zhao, L.B., Liang, G.H., Zhang, D.N., and Wu, X.R. 
Fluoride 29 190-192 (1996)
    6. Effect of fluoride exposure on intelligence in children. Li. 
X.S., Zhi, J.L., and Gao, R.O. Fluoride 28 (1995).
    7. Effect of fluoride on the physiology of the pineal gland. Luke, 
J.A. Caries Research 28 204 (1994).
    8. Newburgh-Kingston caries-fluorine study XIII. Pediatric findings 
after 10 years. Schlesinger, E.R., Overton, D.E., Chase, H.C., and 
Cantwell, K.T. JADA 52 296-306 (1956).
    9. Memorandum dated May 1, 1990. Subject: Fluoride Conference to 
Review the NTP Draft Fluoride Report; From: Wm. L. Marcus, Senior 
Science Advisor ODW; To: Alan B. Hais, Acting Director Criteria & 
Standards Division ODW.
    10. Toxicology and carcinogenesis studies of sodium fluoride in 
F344/N rats and B6C3F1 mice. NPT Report No. 393 (1991).
    11a. Chromosome aberrations, sister chromatid exchanges, 
unscheduled DNA synthesis and morphological neoplastic transformation 
in Syrian hamster embryo cells. Tsutsui et al. Cancer Research 44 938-
941 (1984).
    11b. Cytotoxicity. chromosome aberrations and unscheduled DNA 
synthesis in cultured human diploid fibroblasts. Tsutsui et al. 
Mutation Research 139 193-198 (1984).
    11c. Positive mouse lymphoma assay with and without S-9 activation; 
positive sister chromatid exchange in Chinese hamster ovary cells with 
and without S-9 activation; positive chromosome aberration without S-9 
activation. Toxicology and carcinogenesis studies of sodium fluoride in 
F344/N rats and B6C3F1 mice. NTP Report No. 393 (1991).
    11d. An increase in the number of Down's syndrome babies born to 
younger mothers in cities following fluoridation. Science and Public 
Policy 12 36-46 (1985).
    12. A brief report on the association of drinking water 
fluoridation and the incidence of osteosarcoma among young males. Cohn, 
P.D. New Jersey Department of Health (1992).
    13. Surveillance, epidemiology and end results (SEER) program. 
National Cancer Institute in Review of fluoride benefits and risks. 
Department of Health and Human Services. F1-F7 (1991).
    14. New evidence on fluoridation. Diesendorf, M., Colquhoun, J., 
Spittle, B.J., Everingham, D.N., and Clutterbuck, F.W. Australian and 
New Zealand J. Public Health. 21 187-190 (1997).
    15a. Regional variation in the incidence of hip fracture: U.S. 
white women aged 65 years and older. Jacobsen, S.J., Goldberg, J., 
Miles, T.P. et al. JAMA 264 500-502 (1990)
    15b. Hip fracture and fluoridation in Utah's elderly population. 
Danielson, C., Lyon, J.L., Egger, M., and Goodenough, G.K. JAMA 268 
746-748 (1992).
    15c. The association between water fluoridation and hip fracture 
among white women and men aged 65 years and older, a national 
ecological study. Jacobsen, S.J., Goldberg, J., Cooper, C. and 
Lockwood, S.A. Ann. Epidemiol. 2 617-626 (1992).
    15d. Fluorine concentration is drinking water and fractures in the 
elderly [letter]. Jacqmin-Gadda, H., Commenges, D. and Dartigues, J.F. 
JAMA 273 775-776 (1995).
    15e. Water fluoridation and hip fracture (letter). Cooper, C., 
Wickham, C.A.C., Barker, D.J.R. and Jacobson, S.J. JAMA 266 513-514 
(1991).
    16. Water fluoridation and tooth decay: Results from the 1986-1987 
national survey of U.S. school children. Yiamouyannis, J. Fluoride 23 
55-67 (1990).
    17. Recommendations for fluoride use in children. Kumar, J.V. and 
Green, E.L. New York Store Dent. J. (1998) 40-47.
    18. Why I changed my mind about water fluoridation. Colquhoun, J. 
Perspectives in Biol. And Medicine 41 1-16 (1997).
    19. A re-examination of the pro-eruptive and post-eruptive 
mechanism of the anti-caries effects of fluoride: is there any anti-
caries benefit from swallowing fluoride? Limeback, H. Community Dent. 
Oral Epidemiol. 27 62-71 (1999).
    20. Fluoride supplements for young children: an analysis of the 
literature focussing on benefits and risks. Riordan, P.J. Community 
Dent. Oral Epidemiol. 27 72-83 (1999).
    21. Prevention and reversal of dental caries: role of low-level 
fluoride. Featherstone, J.D. Community Dent. Oral Epidemiol. 27 31-40 
(1999).
    22. Appendix H. Review of fluoride benefits and risks. Department 
of Health and Human Services. H1-H6 (1991).
    23. Some young children get too much fluoride. Parker-Pope, T. Wall 
Street Journal Dec. 21, 1998.
    24. Letter from Rebecca Hammer, Deputy Assistant Administrator for 
Water, to Leslie Russell re: EPA view on use of by-product fluosilicic 
(sic) acid as low cost source of fluoride to water authorities. March 
30, 1983.

OTHER CITATIONS (THIS SHORT LIST DOES NOT INCLUDE THE ENTIRE LITERATURE 
                          ON FLUORIDE EFFECTS)

    a. Exposure to high fluoride concentrations in drinking water is 
associated with decreased birth rates. Freni, S.C.J. Toxicol. Environ. 
Health 42 109-121 (1994)
    b. Ameliorative effects of reduced food-borne fluoride on 
reproduction in silver foxes. Eckerlin, R.H., Maylin, G.A., Krook, L., 
and Carmichael, D.T. Cornell Vet. 78 75-91 (1988).
    c. Milk production of cows fed fluoride contaminated commercial 
feed. Eckerlin, R.H., Maylin,. G.A., and Krook, L. Cornell Vet. 76 403-
404 (1986).
    d. Maternal-fetal transfer of fluoride in pregnant women. Calders, 
R., Chavine, J. Fermanian, J., Tortrat, D., and Laurent, A.M. Biol. 
Neonate 54 263-26 (1988).
    e. Effects of fluoride on screech owl reproduction: teratological 
evaluation, growth, and blood chemistry in hatchlings. Hoffman, D.J., 
Pattee, O.H., and Wiemeyer, S.N. Toxicol. Lett. 26 19-24 (1985).
    f. Fluoride intoxication in dairy calves. Maylin, G.A., Eckerlin, 
R.H., and Krook, L. Cornell Vet. 77 84-98 (1987).
    g. Fluoride inhibition of protein synthesis. Holland, R.I. Cell 
Biol. Int. Rep. 3 701-705 (1979).
    h. An unexpectedly strong hydrogen bond: ab initio calculations and 
spectroscopic studies of amide-fluoride systems. Emsley, J., Jones, 
D.J., Miller, J.M., Overill, R.E. and Waddilove, R.A. J. Am. Chem. Soc. 
103 24-28 (1981).
    i. The effect of sodium fluoride on the growth and differentiation 
of human fetal osteoblasts. Song. X.D., Zhang, W.Z., Li, L.Y., Pang, 
Z.L., and Tan, Y.B. Fluoride 21 149-158 (1988).
    j. Modulation of phosphoinositide hydrolysis by NaF and aluminum in 
rat cortical slices, Jope, R.S.J. Neurochem. 51 1731-1736 (1988).
    k. The crystal structure of fluoride-inhibited cytochrome c 
peroxidase. Edwards, S.L., Poulos, T.L., Kraut, J. J. Biol. Chem. 259 
12984-12988 (1984).
    l. Intracellular fluoride alters the kinetic properties of calcium 
currents facilitating the investigation of synaptic events in 
hippocampal neurons. Kay, A.R., Miles, R., and Wong, R.K.S. J. 
Neurosci. 6 2915-2920 (1986).
    m. Fluoride intoxication: a clinical-hygienic study with a review 
of the literature and some experimental investigations. Roholm, K. H.K. 
Lewis Ltd (London) (1937).
    n. Toxin-induced blood vessel inclusions caused by the chronic 
administration of aluminum and sodium fluoride and their implications 
for dementia. Isaacson, R.L., Varner, J.A., and Jensen, K.F. Ann. N.Y. 
Acad. Sci, 825 152-166 (1997).
    o. Allergy and hypersensitivity to fluoride. Spittle, B. Fluoride 
26 267-273 (1993)
                                 ______
                                 
                [From Dartmouth College, March 15, 2001]

    DARTMOUTH RESEARCHERS WARNS OF CHEMICALS ADDED TO DRINKING WATER

    Hanover, NH--In a recent article in the journal, NeuroToxicology, a 
research team led by Roger D. Masters, Dartmouth College Research 
Professor and Nelson A. Rockefeller Professor of Government Emeritus, 
reports evidence that public drinking water treated with sodium 
silicofluoride or fluosilicic acid, known as silicofluorides (SiFs), is 
linked to higher uptake of lead in children.
    Sodium fluoride, first added to public drinking water in 3945, is 
now used in less than 10 percent of fluoridation systems nationwide, 
according to the Center for Disease Control's (CDC) 1992 Fluoridation 
Census. Instead, SiF's are now used to treat drinking water delivered 
to 140 million people. While sodium fluoride was tested on animals and 
approved for human consumption, the same cannot be said for SiFs.
    Masters and his collaborator Myron J. Coplan, a consulting chemical 
engineer, formerly Vice President of Albany International Corporation, 
led the team that has now studied the blood lead levels in over 400,000 
children in three different samples. In each case, they found a 
significant link between SiF-treated water and elevated blood lead 
levels.
    ``We should stop using silicofluorides in our public water supply 
until we know what they do,'' said Masters. Officials at the 
Environmental Protection Agency have told Masters and Coplan that the 
EPA has no information on health effects of chronic ingestion of SiF-
treated water.
    In their latest study published in a special December 2000 issue of 
NeuroToxicology, Masters, Coplan and their team analyzed data on blood 
levels from more than 150,000 children ages 0 to 6. These tests were 
part of a sample collected by the New York State Department of 
Children's Health, mostly from 1994 to 1998 in comparable non-
fluoridated and SiF-treated public drinking water in communities with 
populations of similar size. Socio-economic and demographic risk 
factors for high blood lead were also considered using information from 
the 1990 U.S. Census, The researchers found that the greatest 
likelihood of children having elevated blood lead levels occurs when 
they are exposed both to known risk factors, such as old house paint 
and lead in soil or water, and to SIF-treated drinking water.
    ``Our research needs further laboratory testing,'' added Masters. 
``This should have the highest priority because our preliminary 
findings show correlations between SiF use and more behavior problems 
due to known effects of lead on brain chemistry.'' Also requiring 
further examination is German research that shows SiFs inhibit 
cholinesterase, an enzyme that plays an important rote in regulating 
neurotransmitters.
    ``If SiFs are cholinesterase inhibitors, this means that SiFs have 
effects like the chemical agents linked to Gulf War Syndrome, chronic 
fatigue syndrome and other puzzling conditions that plague millions of 
Americans,'' said Masters. ``We need a better understanding of how SiFs 
behave chemically and physiologically.''
    Currently, a bill before the New Hampshire House of Representatives 
would impose more stringent testing on fluoridating chemicals added to 
public drinking water. On March 7, 2001, Masters and Coplan testified 
in favor of the bill, HB 754, The Fluoride Product Quality Control Act, 
at a public bearing. Masters contends that bill's requirement for 
testing the silicofluorides is vital but needs to be complemented by 
further research on neurotoxicity and behavior.
    Masters and Coplan note that their recent studies contain the most 
extensive empirical evidence of the health and behavioral costs of 
these chemicals. ``If further research confirms our finding;'' Masters 
added, ``this may well be the worst environmental poison since leaded 
gasoline.''
                                 ______
                                 
               Is Fluoridation Scientifically Defensible
                         (By John R. Lee, M.D.)

 I. DOSAGE PROBLEMS: FOOD CHAIN FLUORIDE NOW EXCEEDS ``OPTIMAL'' INTAKE

    Leverett, D.H. Fluorides and the Changing Prevalence of Dental 
Caries. Science 217: 26-30, July 1982. Environmental fluoride may be 
approaching a critical mass.
    Lee, J.R. Optimal fluoridation--the concept and its application to 
municipal water fluoridation. Western J Med 122: 431-6, May 1975.
    Rose, D. & Marier, J.R. Environmental Fluoride 1977. National 
Research Council of Canada, No. 16081, Ottawa, July 1978.
    Shern et al Enamel biopsy results of children receiving fluoride 
tablets. J Am Dent Assoc; 95:310-14, Aug. 1977. Dental enamel fluoride 
concentrations of unfluoridated children; those receiving fluoride 
supplements show no difference.
    Smith, G. A surfeit of fluoride? Sci Pro Oxf; 69:429-42, 1985.
    Waitrowski et al. Dietary fluoride intake of infants. Pediatrics; 
55:517, 1975. Placental transfer fluoridates newborn, reduces available 
fluoride binding sites.
    Krook, L. The Cornell Veterinarian; Vol. 60 (Supplement 8), 1979.
    Louw & vanWyk. J Dental Research, June 1981.
    Maduska et al. Placental transfer of intravenous fluoride in the 
pregnant ewe. Am J Obstet Gynecol; 136:84, 1980.

                       II. LACK OF DENTAL BENEFIT

    Colquhoun, J. Fluoridation in New Zealand: New evidence. Am Lab; 
17:(5) 66-72, (6)98-102, 1985.
    Colquhoun, J. Child dental health differences in New Zealand. 
Community Health Studies; 11:85-90, 1987.
    Colquhoun, J., Mann R. Address before the 56th Congress of the 
Australian and New Zealand Assoc. for the Advancement of Science, Jan. 
26, 1987. A reexamination of New Zealand's fluoridation trial (Hastings 
and Napier) finds gross irregularities in diagnostic procedures in 
Hastings and obfuscation of comparable caries decline in control city, 
Napier.
    Colquhoun, J. Fluorides and the decline in tooth decay in New 
Zealand. Fluoride; 26:125-134, 1993. Decline in tooth decay commenced 
before and independently of fluoridation or other uses of fluoride.
    DePaola, P.F. et al. Changes in caries prevalence of Massachusetts 
children over 30 years. J Dental Res; 60:360, 1981. Reports a decline 
in caries prevalence of 40-50 percent, both in fluoridated and in 
unfluoridated communities.
    Diesendorf, M. The mystery of declining tooth decay. Nature; 
322:125-9, 1986.
    Diesendorf, M. A Re-examination of Australian fluoridation trials. 
Search; 17:256-61, 1986.
    Douglas, et al. Impact of water fluoridation on dental practice and 
dental manpower. J Am Dent Assoc; 84:355-67, 1972. When naturally 
fluoridated and unfluoridated communities are compared, the cost and 
nature of dental care are not significantly different; in fact, 
dentists' income in fluoridated communities is higher.
    Forst, J.A. Report by Bureau of Health Services, October 26, 1954. 
Dental comparison of school children of Kingston and Newburgh, NY, 
after 10 years fluoridation in Newburgh, finds better dental health in 
unfluoridated Kingston.
    Gish & Muhler. Effectiveness of a stannous fluoride dentifrice on 
dental caries. J. Dentistry for Children; May-June 1971. The 5-year 
increase in cavities in school children using fluoridated dentifrice 
was the same as those using a non-fluoridated dentifrice.
    Glass. Secular changes in caries prevalence in two Massachusetts 
towns. Caries Research; 15:445-50, 1980. Decline in caries prevalence 
in nonfluoridated community equals that of fluoridated community (1958-
1978).
    Gray, A.S. Fluoridation: time for a new baseline? J. Canadian Dent 
Assoc; 53:763-5, 1987. Expected benefit of fluoridation not found.
    Kumar, V.K., Green, E.L., Wallace, W., Carnahan, T. Trends in 
dental fluorosis and dental caries prevalences in Newburgh and 
Kingston, NY. Am J Pub Health; May 1989; 79: 565-69. Caries decline 
since 1955 in both communities: no advantage in fluoridated Newburgh. 
More fluorosis (thru age 12) in Newburgh.
    Schrotenboer. Editorial review, J Am Dent Assoc; 102, April 1981. 
No proof that current decline in cavities is due to fluoridation.
    Scott F. Editorial, Fluoridation: more evidence it is not safe or 
effective. Am Lab; June 1986.
    Tijmstra T et al. Community Dentistry and Oral Epidemiology: 6:227-
30, 1978. When children are matched by fathers' occupation, candy 
consumption and toothbrushing habits, the supposed reduction in caries 
among fluoride users vanishes.
    Yiamouyiannis, J. Water fluoridation and tooth decay: results from 
the 1986-1987 National Survey of U.S. schoolchildren. Fluoride; 23:55-
67, 1990. No difference.
    Ziegelbecker, R. Fluoridated Water and Teeth. Fluoride; 14:123-8. 
1981. European scientists, in evaluating USPHS claims of fluoride 
dental benefits, find these supposed benefits are random, i.e. not 
dose-related, and are unconvincing whereas the toxicity (dental 
fluorosis) is dose-related.
    National Dental Caries Prevalence Survey of 1979-80. NIH Pub. No. 
82-2245, March 1982. Fails to demonstrate any advantage of artificial 
fluoridation.
    Robert Wood Johnson Foundation Special Report No. 2, National 
Preventive Dentistry Demonstration Program 1983. Found no benefit from 
topical treatments tried in a 4-year test in 10 differing communities.

    III. TOXICITY: FLUORIDE IS TOXIC; NO LOWER LIMIT OF SAFETY FOUND

    Bucher, J.R. et al. Results and conclusions of the National 
Toxicology Program's rodent carcinogenicity studies with Na-F Int J 
Cancer; 48 733-737. 1991
    Clark, J., Taylor J. I.R. evidence for a strong hydrogen bond in 
the fluoride-uracil system. J Chem Soc Comm: pp 466-68, 1981.
    Clark, R. Neutrophil iodination reaction induced by fluoride: 
implications for degranulation and metabolic activation. Blood: 57: No. 
5 (May) 1981.
    Colquhoun, J. Disfiguring dental fluorosis in Auckland. New 
Zealand. Fluoride; 17:66-72. 1984.
    DeChatelet et al. Effects of fluoride on the oxidative metabolism 
of human neutrophils. Biochem Med: 25: 106-13, 1981.
    Desai, V.K. et al. Epidemiological study of goitre in endemic 
fluorosis district of Gujarat. Fluoride: 26:187-90,1993. Shows 
correlation of fluorosis with goiter.
    Edwards, S. et at. The crystal structure of fluoride-inhibited 
cytochrome c peroxidase. J. Biolog Chem: 259:12984-8. 10 Oct 1984.
    Emsley et al. Ab initio calculations of uracil-fluoride systems. J 
Chem Soc Comm: pp 476-8. May 1982.
    Emsley et al. An unexpectedly strong hydrogen bond: ab initio 
calculations and spectroscopic studies of amidefluoride systems. Am 
Chem Soc: Jan 1981.
    Erickson. Mortality in selected cities with fluoridated and non-
fluoridated water supplies. N Eng J Med: 298:1112-6, 1978. Mortality 
rates, after adjusting for age, sex, race and all recognized socio-
economic variables, are higher in fluoridated communities.
    Fleisch, J. Haisch, R. Increase in antigen-induced release of slow 
reacting substance of anaphylaxis from guinea pig lung by sodium 
fluoride. Biochem Pharmacology: 29:1843-7. 1980.
    Gibson, SLM. Effects of fluoride on immune system function. Comp 
Med Res: 6:111113. 1992. Fluoride inhibits migrational ability of 
leucocytes.
    Goodman & Gilman, textbook. The Pharmacological Basis of 
Therapeutics. 3d edition. pp 815-7.
    Jagiello & Lin. Sodium fluoride as a potential mutagen in mammalian 
eggs. AMA Archives of Environmental Health; Vol 29, Oct. 1974.
    Klein, W. et al. DNA repair and environmental pollutants. The 
Institute for Biology, Research Center, Seibersdorf.
    Kumari, D.S. & Rao, P.R. Red cell membrane alterations in human 
chronic fluoride toxicity. Biochem International; 23 (4): 639-48, 1991. 
Increased lipid peroxidation.
    Lee, J.R. Gilbert's syndrome and fluoridation. Fluoride: July 1983. 
Switch from fluoridated to non-fluoridated water lowered bilirubin 
levels.
    Leverett, D.H. Prevalence of dental fluorosis in fluoridated and 
nonfluoridated communities--a preliminary investigation. J Pub Health 
Dent; 46:184-7.1986.
    Manocha et al. Cytochemical responses of kidney, liver and nervous 
system to fluoride ions in drinking water. Histochemical J.; 7:343-55, 
1975.
    Mohamed & Chandler. Cytological effects of sodium fluoride on 
mitotic and meiotic chromosomes of mice. Chem & Eng News, Sept 10, 
1976.
    National Toxicology Program Technical Report on the Toxicology and 
Carcinogenesis studies of sodium fluoride in F344/N rats and B6C3F1 
Mice. NTP TR 393, NIH Pub. No. 90-2848. 1990. Osteosarcoma in male 
rats, osteofluorosis in female rodents.
    U.S. Public Health Service. Review of Fluoride benefits and risks, 
report of the ad hoc subcommittee on fluoride, Feb 1991. Report of NTP 
study plus SEER data on osteosarcoma in young men.
    Spak, C.J. et al. Tissue response of gastric mucosa after ingestion 
of fluoride. Brit Med J. 298: 1686-7, 1989.
    Susheela, A.K. Fluorosis--early warning signs and diagnostic test. 
Bull Nutr Foundation of India; 2 April 1989; 10:2. Multi-system early 
warning signs and description of sialic acid/glycosaminoglycans test.
    Susheela, A.K. et al. Prevalence of endemic fluorosis with 
gastrointestinal manifestations in people living in some north-Indian 
villages. Fluoride: 26:97-104. 1993. Positive correlation noted.
    Susheela, A.K. et al. Fluoride ingestion and its correlation with 
gastrointestinal discomfort. Fluoride; 25:5-22. 1992. Ingested fluoride 
damages gastroduodenal mucosa and induces non-ulcer dyspepsia.
    Tsutsui, T. et al. Sodium fluoride-induced morphological and 
neoplastic transformation, chromosome aberrations, sister chromatid 
exchanges and unscheduled DNA synthesis in Syrian hamster embryo cells. 
Cancer Res; 44:938-41, March 1984.
    Waldbott G.L., Lee, J.R. Toxicity from repeated low-grade exposure 
to hydrogen fluoride--case report. Clin Toxicol: 13:391-402, 1978.
    Yiamouyiannis, J. Fluoridation and cancer: the biology and 
epidemiology of bone and oral cancer related to fluoridation. Fluoride: 
26:83-96. 1993.

                         IV. FLUORIDE AND BONE

    Alhava, E.M. et al. The effect of drinking water fluoridation on 
the fluoride content, strength and mineral density of human bone. Acta 
Orthop Scand: 51:413-20. 1980.
    Arnala, I. Bone fluoride, histomorphometry and incidence of hip 
fracture. Pub of the U. of Kuopio. Med Series Orig Rep. Kuopio. 1983.
    Arnala, I et al. Effects of fluoride on bone in Finland: 
histomophometry of cadavar bone from low and high fluoride areas. Acta 
Ortho Scand; 56: 161-6, 1985.
    Arnala, I et al. Hip fracture incidence not affected by 
fluoridation. Acta Ortho Scand: 57:344-8. 1986. No benefit found from 
fluoridation.
    Avioli, L.V. Fluoride treatment of osteoporosis. Postgrad Med: A 
Special Report, pp 26-27. 14 Sept 1987. Fluoride treatment has no place 
in the treatment of osteoporosis.
    Baylink, D.J. Bernstein, D.S. The effects of fluoride therapy on 
metabolic bone disease. Clin Ortho & Rel Res: 55:51-85. 1967.
    Bernstein, D.S., Cohen, P. Use of sodium fluoride in the treatment 
of osteoporosis. J Clin Endocr; 27: 197-210, 1967.
    Chlebna-Sokol, D. & Czerwinski, E. Bone structure assessment on 
radiographs of distal radial metaphysis in children with dental 
fluorosis. Fluoride; 26:3744, 1993. Dental fluorosis correlated with 
increased trabecular X-ray density.
    Cohn, P.D. An epidemiological report on drinking water and 
fluoridation. New Jersey Dept. of Health report. Nov 1992. Osteosarcoma 
in young men correlated with fluoridation.
    Cooper, C., Wickham, CAC,. Barker, DJR, & Jacobsen, S.J. Water 
fluoridation and hip fracture. J Am Med Assoc; 266:513. 1991. 
Fluoridation correlated with increased hip fracture risk.
    Czerwinski, E. et al. Bone and joint pathology in fluoride-exposed 
workers. Archives of Environmental Health; 43:340-3, Sept./Oct. 1988.
    Fisher, R.L. et al. Endemic fluorosis with spinal cord compression: 
A case report and review. Arch Intern Med 149 697-700 1989 Spinal cord 
compression due to fluoride-induced osteosclerosis
    Hedlund, L.R., Gallagher, J.C. Increased incidence of hip fracture 
in osteoporotic women treated with sodium fluoride J Bone & Min Res: 
4:223-5 1989
    Goggin, J.E. et al. Incidence of femoral fractures in 
postmenopausal women. Pub Health Rep: 80:1005-12. 1965. No benefit 
found in fluoridated areas.
    Ho SC et al. Hip fracture rates in Hong Kong and the United States, 
1988 through 1989. Am J Pub Health: 83:694-7, 1993. U.S. hip fracture 
rates higher than in Hong Kong.
    Jacobsen, S.J. et al. Regional variation in the incidence of hip 
fracture. J Am Med Assoc: 264:500-502. 1990. Review of 541.985 hip 
fractures in U.S. white women aged 65 years and older found strong 
correlation with fluoridation status.
    Jacobsen, S.J. et al. Hip fracture incidence before and after the 
fluoridation of the public water supply, Rochester, Minnesota. Am J Pub 
Health: 83:743-5.1993.
    Kleerekoper, M. Presentation at the October meeting of the FDA 
Advisory Committee, as reported in Medical World News. Oct. 23. 1989. 
p. 42.
    Madans et al. The relationship between hip fracture and water 
fluoridation an analysis of national data Am I Public Health: 73:296-8. 
1983.
    Mahoney, M.C. et al. Bone cancer incidence rates in New York State: 
time trends and fluoridated water. Am I Pub Health: 81:475-9. April 
1991.
    Munzenberg, K.J., Moller, F., Koch, W. Adverse effects of 
osteoporosis treatment with fluoride. Munchener Medizinische 
Wochenschrift: 133(5):56-8, 1991. Fluoride induced pain in extremeties 
as a result of stress fractures and calciumphosphate deposition in 
periarticular tissue.
    National Toxicology Program fluoride/mammal study found increased 
incidence of osteosarcoma in fluoridated male rats. Reported by Medical 
Tribune, Nov. 13, 1989.
    Riggs, B.L. et al. Effect of fluoride treatment on the fracture 
rate in postmenopausal women with osteoporosis. N Eng J Med: 322:802-9, 
1990. No benefit to spine, increased fracture incidence in non-
vertebral bones by fluoride.
    Schnitzler, C.M., et al. Bone fragility of the peripheral skeleton 
during fluoride therapy for osteoporosis. Clin Orthopaedics and Related 
Res. 261:268-71. 1990. Fluoride therapy induced spontaneous fractures 
three times that of untreated controls.
    Simonen, O. & Laitnen, O. Does fluoridation of drinking-water 
prevent bone fragility and osteoporosis? Lancet; 24(2):432-4, 1985.
    Sowers, F.R. et al. The relationship of bone mass and fracture 
history to fluoride and calcium intake: a study of three communities. 
Am J Clin Nutr; 44:889-98. 1986.
    Sowers, F.R. et al. A prospective study of bone mineral content and 
fracture in communities with differential fluoride exposure. Am J Epid; 
133:649-60,1991.
    Suarez-Almazor, M.E. et al. The fluoridation of drinking water and 
hip fracture hospitalization rates in two Canadian communities. Am J 
Pub Health: 83:689-93, 1993.
    Weingrad, T.R. et al. Periostitis due to low-dose fluoride 
intoxication demonstrated by bone scanning. Clin Nuclear Med; 16:59-61, 
1991.
    Zong-Chen, L., En-Huei, W. Osteoporosis--an early radiographic sign 
of endemic fluorosis. Skeletal Radiol: 15:350-3, 1986.

                V. NO KNOWN ESSENTIAL USES FOR FLUORIDE

    National Academy of Sciences. Fluorides. Chapter 5, Is fluoride as 
essential element? Washington, DC 1971. The answer is NO.
    Federal Register, p. 16006, 16 March 1979. All paragraphs 
previously classifying fluoride as ``essential or probably essential'' 
were deleted by FDA. Fluoride is so ubiquitous that no diet can be 
constructed for man that is deficient or lacking in fluoride. All 
authorities agree.
    Therefore, fluoridation of community water supplies is a failed 
concept and should be abandoned.
    Papers published by John R. Lee, MD:
    Lee, J.R. Optimal fluoridation--the concept and its application to 
municipal water fluoridation. Western J. Med 1975; 122:431-6. Waldbott, 
G.L.
    Lee, J.R. Toxicity from repeated low-grade exposure to hydrogen 
fluoride. Clin Tox 1978; 13:391-402.
    Lee, J.R. Gilbert's syndrome and fluoridation. Fluoride; July 1983.
    Lee, J.R. Fluoridation and cancer. Cancer Forum 1989; 9:4-6.
    Lee, J.R. Fluoride and osteoporosis. Editorial. Fluonde; 23:5 1-4. 
1990.
    Lee, J.R. Osteoporosis reversal--the role of progesterone. 
International Clinical Nutrition Rev 1990: 10:384-91.
    Lee, J.R. Hormonal and nutritional aspects of fluoridation. Health 
& Nutrition Update; 6(4):4-8, 1991.
    Lee, J.R. Significance of molecular configuration specificity: the 
case of progesterone and osteoporosis. Townsend Letter for Doctors; 
558-62, June 1993.
                                 ______
                                 
                          Recommended Reading

    Fluoridation. The Great Dilemma by George L. Waldbott, M.D. with 
Albert Burgstahler, Ph.D. and H. Lewis McKinney, Ph.D. Forward by Alton 
Ochsner, M.D. Coronado Press, Inc. Box 3232, Lawrence, Kansas, 1978.
    Fluoride the Aging Factor, 3d Ed., by John Yiamouyiannis, Ph.D. 
Health Action Press, 6439 Taggart Rd., Delware, Ohio 43015, 1993.
    The Fluoride Question--Panacea or Poison? by Anne-Lise Gotsche. 
Stein & Day, Scarborough House, Briarctiff Manor, NY 10510.
    Fluoride: The Freedom Fight by Hans Moolenburgh, MD. Mainstream 
Press, Edinburgh, 1987.
    Fluoride in Australia: A Case to Answer by Wendy Varney Hale & 
Iremonger GPO Box 2552, Sydney, NSW, Australia, 1986.
    ``Fluoridation of Water,'' special report by Bette Hileman, 
Chemical & Engineering News; 66(31):26-42, 1988.
    The Costs, Effects, and Benefits of Preventive Dental Care: A 
Literature Review by Craig B. Foch, Rand Note N-1732-RWJF, December 
1981.
    Environmental Fluoride 1977 by D. Rose and J. R. Marier, National 
Research Council of Canada, 100 Sussex Drive, Ottawa, Ontario, Canada 
K1A 0R6.
    Fluoridation in New Zealand by Bruce Collins, New Zealand Pure 
Water Assoc Box 2186, Tauranga, New Zealand.
    Fluoridation, 1979 by Philip R.N. Sutton D.D.Sc., FRACDS 163 A New 
Street Brighton Victoria, Australia 3186.
    Social Studies of Science, ``Analyzing the Fluoridation 
Controversy'' by Brian Martin, Vol. 18 (1988) pp. 331-63 (SAGE 
Publications, 2111 W. Hillcrest, Newberry Park, CA 91320).
    Scientific Knowledge in Controversy: The Social Dynamics of the 
Fluoridation Debate by Brian Martin, State University of New York 
Press, Albany NY, 1991.
    Fluoride, Quarterly by the International Society for Fluoride 
Research, 216 Atkinson Rd., Titerangi, Aukland 7, New Zealand.
    The Fluoride Report, Quarterly by Truth About Fluoride, Inc. P.O. 
Box 219, Buckeystown, MD 21717.
                                 ______
                                 
           [From the Mesa Tribune, Arizona, December 5, 1999]

           Former Fan of Fluoridation Now Warns of its Perils
                  (By Barry Forbes, Tribune Columnist)
    ``Why'd you do it, Doc? Why'd you toss the fluoride folks 
overboard?''
    I had just tracked down Dr. Hardy Limeback, B.Sc., Ph.D. in 
Biochemistry, D.D.S., head of the Department of Preventive Dentistry 
for the University of Toronto, and president of the Canadian 
Association for Dental Research. (Whew.)
    Dr. Limeback is Canada's leading fluoride authority and until 
recently, the country's primary promoter of the controversial additive.
    In a surprising newsmaker interview this past April, Dr. Limeback 
announced a dramatic change of heart. ``Children under three should 
never use fluoridated toothpaste,'' he counseled. ``Or drink 
fluoridated water. And baby formula must never be made up using Toronto 
tap water. Never.''
    Why, I wondered? What could have caused such a powerful paradigm 
shift?
    ``It's been building up for a couple of years,'' Limeback told me 
during a recent telephone interview. ``But certainly the crowning blow 
was the realization that we have been dumping contaminated fluoride 
into water reservoirs for half a century. The vast majority of all 
fluoride additives come front Tampa Bay, Florida smokestack scrubbers. 
The additives are a toxic by-product of the super-phosphate fertilizer 
industry.''
    ``Tragically,'' he continued, ``that means were not just dumping 
toxic fluoride into our drinking water. We're also exposing innocent, 
unsuspecting people to deadly elements of lead, arsenic and radium, all 
of them carcinogenic. Because of the cumulative properties of toxins, 
the detrimental effects on human health are catastrophic.''
    A recent study at the University of Toronto confirmed Dr. 
Limeback's worst fears. ``Residents of cities that fluoridate have 
double the fluoride in their hip bones vis-a-vis the balance of the 
population. Worse, we discovered that fluoride is actually altering the 
basic architecture of human bones.''
    Skeletal fluorosis is a debilitating condition that occurs when 
fluoride accumulates in bones, making them extremely weak and brittle. 
The earliest symptoms?
    ``Mottled and brittle teeth,'' Dr. Limeback told me. ``In Canada we 
are now spending more money treating dental fluorosis than we do 
treating cavities. That includes my own practice.'' One of the most 
obvious living experiments today, Dr. Limeback believes, is a proof-
positive comparison benveen any two Canadian cities. ``Here in Toronto 
we've been fluoridating for 36 years. Yet Vancouver--which has never 
fluoridated--has a cavity rate lower than Toronto's.''
    And, he pointed out, cavity rates are low all across the 
industrialized world--including Europe. which is 98 percent fluoride 
free. Low because of improved standards of living, less refined sugar, 
regular dental checkups, flossing and frequent brushing. Now less than 
2 cavities per child Canada-wide, he said.
    ``I don't get it, Doc. Last month, the Centers for Disease Control 
(CDC) ran a puff piece all across America saying the stuff was better 
than sliced bread. What's the story?''
    ``Unfortunately,'' he replied, ``the CDC is basing its position on 
data that is 50 years old, and questionable at best. Absolutely no one 
has done research on fluorosilicates, which is the junk they're dumping 
into the drinking water.''
    ``On the other hand.'' he added, ``the evidence against systemic 
fluoride in-take continues to pour in.''
    ``But Doc, the dentists.''
    ``I have absolutely no training in toxicity;'' he stated firmly. 
``Your well-intentioned dentist is simply following 50 years of 
misinformation from public health and the dental association. Me, too. 
Unfortunately, we were wrong.''
    Last week, Dr. Hardy Limeback addressed his faculty and students at 
the University of Toronto, Department of Dentistry. In a poignant, 
memorable meeting, he apologized to those gathered before him.
    ``Speaking as the head of preventive dentistry. I told them that I 
had unintentionally mislead my colleagues and my students. For the past 
15 years, I had refused to study the toxicology information that is 
readily available to anyone. Poisoning our children was the furthest 
thing from my mind.''
    ``The truth,'' he confessed to me, ``was a bitter pill to swallow. 
But swallow it I did.'' South of the border, the paradigm shift has yet 
to dawn. After half a century of delusion, the CDC, American Dental 
Association and Public Health stubbornly and skillfully continue to 
manipulate public opinion in favor of fluoridation.
    Meantime, study after study is delivering the death knell of the 
deadly toxin. Sure. fluoridation will be around for a long time yet, 
but ultimately its supporters need to ready the life rafts. The 
poisonous waters of doubt and confusion are bound to get choppier.
    Are lawsuits inevitable?'' I asked the good doctor ``Remember 
tobacco.'' was his short, succinct reply.
    Welcome. Dr. Hardy Limeback, to the far side of the fluoride 
equation.
    It's lonely over here, but in our society loneliness and truth 
frequently travel hand in band.
    Thank you for the undeniable courage of your convictions.

                      AN INTRODUCTION TO FLUORIDE

    <bullet> The chemicals used in 90 percent of U.S. water 
fluoridation programs are industrial-grade hazardous wastes captured in 
the pollution-control scrubber systems of the Fluorine recovery in the 
fertilizer industry-a review. Phosphorus & Potassium No. 103, Sept./
Oct. 1979.
    <bullet> ``Our water department calculates that we would be buying 
33 tons of chemicals/year . . . The kickerto this scheme is that the 
amount intended for the targeted children is only 16 pounds of that 33 
tons.'' Councilman Keith Beier, city of Escondido Council Meeting, 
March 24, 1999.
    <bullet> All three fluoridation chemicals are more toxic than lead 
and just slightly less toxic than arsenic. 100 times more fluoride is 
added to drinking water than is le LD50 data. RE. Gosselin et al, 
Clinical Toxicology of Commercial Products. 5th ed., 1984.: U.S. EPA 
Maximum Contaminant Levels (MCL) EPA/NSF Standard 60.
    <bullet> Regarding the silicofluorides used in 90 percent of U.S. 
fluoridation programs, EPA states, ``In collecting the data for the 
fact sheet, EPA was not able to identify chronic studies for these 
chemicals.'' Letter of June 23, 1999, from EPA Asst. Adm. J. Charles 
Fox to U.S. Representative Ken Calvert, Chairman, Subcommittee on 
Energy and the Environment, Washington, DC.
    <bullet> Water fluoridation mass medicates at a level higher than 
the prescription schedule for your children. For example, the 
schedule's dose for infants under 6 months is ``None.'' J. Am. Dental 
Assoc. Dec. 1995.
    <bullet> 66.4 percent of U.S. schoolchildren in so-called 
``optimally'' fluoridated communities have at least one tooth that 
displays the permanent visible signs of fluoride-overdose . . . dental 
fluorosis: white spots, stains, opaque, chalky and brittle enamel. K.E. 
Heller, et al, J of Public Health Denistry. Vol. 57: No. 3 Summer 1997.
    <bullet> African-American children experience twice the prevalence 
of dental fluorosis as white children and it tends to be more severe. 
National Research Council, Health Effects of Ingested Fluoride. 1993, 
p. 44.
    <bullet> ``This was the only contaminant up to this time that we 
knew had a human health effect. Other drinking-water contaminants 
(approx. 80) were recognized by the results of (high-dose) animal 
studies only.'' EPA drinking-water analyst, David Schnare. The 
Progressive. Dec. 1990.
    <bullet> ``Our members' review of the body of evidence over the 
last 11 years, including animal and human epidemiology studies, 
indicate a causal link between fluoride/fluoridation and cancer, 
genetic damage, neurological impairment, and bone pathology. Of 
particular concern are recent epidemiology studies linking fluoride 
exposure to lowered IQ in children.'' Letter of July 2, 1997, from J. 
William Hirzy, Ph.D. to Jeff Green. The union (now NTEU, Chapter 280) 
consists of and represents all of the toxicologists, chemists, 
biologists and other professionals at EPA headquarters, Washington, DC.
    <bullet> Melatonin, the main pineal gland hormone now thought to 
act as a `body clock', is inhibited by fluoride causing early onset of 
sexual maturation in study animals. The mean age of menstruation for 
girls in fluoridated test city Newburgh, New York, in 1956, was 5 
months earlier than non-fluoridated control city, Kingston. Low 
melatonin levels have been linked to both breast and prostate cancer. 
Caries Research, Vol. 28, p. 204 1994. J Am Dent Asso, March 1956. 
Breast Health Charles Simone, Princeton oncologist.
    <bullet> In a survey of over 280,000 Massachusetts children, 
Dartmouth researchers found that where silicofluorides were used to 
fluoridate water, children w above the danger level of 10 <greek-m>g/
dL. Dartmouth News. Office of Public Affairs, Hanover, NH. Aug. 31, 
1999.
    <bullet> Filters and water purifiers do not remove fluoride. 
Reverse-osmsis or distillation will, but are impractical for showers 
and bathing. G. Whitford, Intake and Metabolism of Fluoride, Adv Dent 
Res 8(1):5-14, June, 1994.
                                 ______
                                 
             Fluoride Information on the Web (Partial List)
    www.fluoridation.com
    www.fluoridealert.org
    www.citizens.org
    www.orgsites.com/ny/nyscof
    www.garynull.com/issues/fluoride/fluorideactionfile/htm
    emporium.turnpike.net/p/pdha/health.htm
    www.bruha.com/fluoride
    www.fluoride-journal.com
    www.zerowasteamerica.org/fluoride.htm
    www.penweb.org/issues/fluoride/index.html
    www.npwa-freeserve.co.uk (United Kingdom)
    www.voice.buz.org/fluoridation/index.html (Ireland)
                               __________
              Statement of Barbara J. Balaban, Somers, NY

    Problem 1. Studying the environment is difficult.
    Suggestion. We need interdisciplinary studies to bring together the 
various specialists to put their expertise to work on the multi-faceted 
problem. The Breast Cancer and Environmental Research Act (S. 830) will 
provide such a framework.

    Problem 2. We need advocates, scientists and industry to work on 
these problems.
    Suggestion. Re-authorize the National Action Plan on Breast Cancer, 
which is no longer functioning.

    Suggestion. Research funded by the Federal Government should 
require the participation of consumers in the design and oversight of 
requests for proposals and protocols, except in the case of those 
unsuitable, highly scientific, laboratory studies.

    Problem 3. Why focus on breast cancer rather than all diseases/
other diseases?
    Suggestion. Because we have laid the groundwork for breast cancer/
environment studies we should view breast cancer as a model for 
studying other diseases. What we learn will be applicable to other 
illnesses.

    Problem 4. Definition of clusters. Epidemiologists deny the 
presence of cancer clusters.
    Suggestion. We need a new definition of clusters. The one we use is 
derived from studies of infectious diseases and not relevant to cancers 
and other chronic diseases.

    Problem 5. Cancer is not caused by any single exposure.
    Suggestion. We need special emphasis on studying exposures 
prenatally through young adulthood, when the body's cells are 
undergoing the most rapid changes and are thought to be most vulnerable 
to insult.

    Suggestion. We need to study chemicals that are not labeled 
carcinogenic, and to study chemicals in combination, not just 
individually. It is possible that a non-carcinogenic chemical can 
become carcinogenic when combined with another chemical.

    Problem 6. We do not yet understand what environmental components 
are linked to various diseases.
    Suggestion. We need a national Geographic Information System to 
record environmental conditions and be kept up to date. These can then 
be accessed by researchers to better study various geographic areas.

    Problem 7. Retrospective studies are not reliable. They rely on 
(possibly faulty) memory. Also, many exposures are not able to be 
detected in the body after a period of time.
    Suggestion. Prospective studies should be financed.

    Problem 8. Lacking specific evidence, what can we do to minimize 
people's exposures to potentially dangerous environmental factors?
    Suggestion. Insofar as is practical, invoke the Precautionary 
Principle. When we have reason to suspect that a substance might be 
dangerous, curb its use while further studies are carried out. 
Chemicals should be proven safe before being allowed to be used, rather 
than using them until they are proven dangerous.

    Problem 9. Exposure to electro-magnetic fields are thought to be 
dangerous.
    Suggestion. Schools should incorporate a unit on electro-magnetic 
fields. Students could be trained to use a gause meter to measure the 
emfs in their schools and try to reconfigure classroom use to minimize 
exposure. This would bring immediate benefit to the students as well as 
providing an educational experience they can apply to other areas of 
their lives.

    Problem 10. Radiation is a proven cause of cancer.
    Suggestion. Exposure to the medical uses of radiation can be 
minimized. Authorize a comparative study in several hospitals to devise 
ways of reducing patient exposure to medical radiation.
  

</pre></body></html>
